<html>
<title> - COORDINATING FUTURE INVESTMENTS IN BROADBAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







              COORDINATING FUTURE INVESTMENTS IN BROADBAND

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                LIVESTOCK, RURAL DEVELOPMENT, AND CREDIT

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

                           Serial No. 113-19



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-993 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              DAVID SCOTT, Georgia
MIKE ROGERS, Alabama                 JIM COSTA, California
K. MICHAEL CONAWAY, Texas            TIMOTHY J. WALZ, Minnesota
GLENN THOMPSON, Pennsylvania         KURT SCHRADER, Oregon
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
AUSTIN SCOTT, Georgia                JAMES P. McGOVERN, Massachusetts
SCOTT R. TIPTON, Colorado            SUZAN K. DelBENE, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  GLORIA NEGRETE McLEOD, California
SCOTT DesJARLAIS, Tennessee          FILEMON VELA, Texas
CHRISTOPHER P. GIBSON, New York      MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
DAN BENISHEK, Michigan               WILLIAM L. ENYART, Illinois
JEFF DENHAM, California              JUAN VARGAS, California
STEPHEN LEE FINCHER, Tennessee       CHERI BUSTOS, Illinois
DOUG LaMALFA, California             SEAN PATRICK MALONEY, New York
RICHARD HUDSON, North Carolina       JOE COURTNEY, Connecticut
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
CHRIS COLLINS, New York
TED S. YOHO, Florida
VANCE M. McALLISTER, Louisiana

                                 ______

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

        Subcommittee on Livestock, Rural Development, and Credit

             ERIC A. ``RICK'' CRAWFORD, Arkansas, Chairman

BOB GOODLATTE, Virginia              JIM COSTA, California,  Ranking 
STEVE KING, Iowa                     Minority Member
RANDY NEUGEBAUER, Texas              MIKE McINTYRE, North Carolina
MIKE ROGERS, Alabama                 DAVID SCOTT, Georgia
K. MICHAEL CONAWAY, Texas            FILEMON VELA, Texas
GLENN THOMPSON, Pennsylvania         MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          PETE P. GALLEGO, Texas
CHRISTOPHER P. GIBSON, New York      WILLIAM L. ENYART, Illinois
REID J. RIBBLE, Wisconsin            CHERI BUSTOS, Illinois
JEFF DENHAM, California              KURT SCHRADER, Oregon
RICHARD HUDSON, North Carolina       RICHARD M. NOLAN, Minnesota
TED S. YOHO, Florida                 JOE COURTNEY, Connecticut

                                  (ii)



























                             C O N T E N T S

                              ----------                              
                                                                   Page
Costa, Hon. Jim, a Representative in Congress from California, 
  opening statement..............................................     3
Crawford, Hon. Eric A. ``Rick'', a Representative in Congress 
  from Arkansas, opening statement...............................     1
    Prepared statement...........................................     2

                               Witnesses

Padalino, John C., Administrator, Rural Utilities Service, U.S. 
  Department of Agriculture, Washington, D.C.....................     5
    Prepared statement...........................................     7
    Supplementary material.......................................    53
Zimmerman, Lang, Vice President, Yelcot Communications, Mountain 
  Home, AR; on behalf of NTCA--The Rural Broadband Association...    17
    Prepared statement...........................................    19
Cohen, David, Vice President, Policy, United States Telecom 
  Association (USTelecom), Washington, D.C.......................    24
    Prepared statement...........................................    26
Hance, Robert L., President and Chief Executive Officer, Midwest 
  Energy Cooperative, Cassopolis, MI; on behalf of National Rural 
  Electric Cooperative Association...............................    29
    Prepared statement...........................................    30
Guttman-McCabe, Christopher, Executive Vice President, CTIA--The 
  Wireless Association, Washington, D.C..........................    39
    Prepared statement...........................................    40

 
              COORDINATING FUTURE INVESTMENTS IN BROADBAND

                              ----------                              


                         TUESDAY, JULY 29, 2014

                  House of Representatives,
  Subcommittee on Livestock, Rural Development, and Credit,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Eric A. 
``Rick'' Crawford [Chairman of the Subcommittee] presiding.
    Members present: Representatives Crawford, Rogers, Conaway, 
Thompson, Gibson, Costa, McIntyre, Scott, Vela, Lujan Grisham, 
Enyart, Nolan, and Courtney.
    Staff present: DaNita Murray, Mike Dunlap, Nicole Scott, 
Skylar Sowder, John Konya, Andy Baker, Liz Friedlander, and 
Riley Pagett.

    OPENING STATEMENT OF HON. ERIC A. ``RICK'' CRAWFORD, A 
            REPRESENTATIVE IN CONGRESS FROM ARKANSAS

    The Chairman. Good morning. This hearing of the 
Subcommittee of Livestock, Rural Development, and Credit to 
coordinate future investments in broadband, will come to order.
    Good morning, and welcome to this hearing to review 
broadband deployment in rural America. In this modern age, it 
is surprising to know that there are some parts of the country 
where the live video feed from this hearing is not viewable by 
our rural constituents due to a lack of broadband access. In a 
time when commerce, leisure, and a transparent government rely 
on robust networks, we still find communities which are not 
connected through high-speed broadband. There are many 
communities still struggling to recover from a poor economy to 
attract new businesses and to connect new, critical services 
not otherwise offered in remote areas. The key to unlocking 
these opportunities lies in greater access to services which 
are readily available in larger rural communities and in urban 
areas.
    It is important to note that broadband can add tremendous 
educational opportunities to small communities. The ability to 
access online courses, study materials, research, and online 
lectures afford students some of the most efficient and cost-
effective avenues for not only continuing their education but 
turning their curiosity into careers. And these opportunities 
are supported through several programs which provide resources 
to local facilities such as schools and libraries.
    However, none of these opportunities can exist if the 
community itself is not connected with a robust high-speed 
network. Getting the most rural areas connected, much like the 
Rural Electrification Act accomplished for telephone service, 
remains a priority of this Committee. When the farm bill was 
reauthorized this year, several provisions were included to 
continue making these critical investments in small towns and 
cities. I know in my district I too often visit towns and 
communities who have been waiting patiently for years for full 
access to the information superhighway. I know a lot has been 
done to bring access to rural communities, but it is my goal 
and the goal of this Committee to be able to do more than just 
tell people to wait a little longer.
    With us today we have representatives from USDA and 
industry who are on the front lines of expanding broadband 
service. The loan and grant programs provided through USDA and 
reauthorized in the 2014 Farm Bill are specifically designed to 
target the most rural and unserved areas in the country.
    While the focus of this hearing is on the deployment of 
broadband through RUS programs, these programs are not operated 
in a vacuum. In the discussion today I believe it will be 
helpful to review those changes in the recent farm bill in 
light of the FCC's changes to how rural telecom companies 
receive assistance. The efforts by the FCC to reform the USF 
have a direct impact on smaller rate of return carriers who 
both rely on USF support to provide service and RUS loans to 
expand their coverage areas.
    As the FCC transitions into providing telecommunications 
access beyond traditional voice service, a careful coordination 
among the responsible agencies is critical to ensure funds are 
not wasted and the taxpayers receive the greatest return on 
these investments. Coordination across government programs is a 
major challenge in our nation made up of the various states, 
counties and towns, each with their unique needs and 
approaches. The same approach to deploying service does not 
work well in all geographic areas. The Committee maintains the 
technology-neutral approach to broadband, and today we look 
forward to learning more about the various approaches being 
taken to address the unique challenges in each area of rural 
America.
    Among the questions I believe our witnesses can help us 
answer include, how are the current programs facilitating the 
expansion of broadband network? How are providers taking 
advantage of emerging technology? What are the roles of the 
various types of providers in pushing farther into unserved 
areas? And how are the elements of USF reform and USDA loan 
programs coming together to ensure efficient use of resources?
    I look forward to the testimony from our witnesses today to 
help the Committee understand the barriers to broadband 
deployment and how USDA is coordinating across related agencies 
to ensure the most effective deployment of broadband possible.
    [The prepared statement of Mr. Crawford follows:]

Prepared Statement of Hon. Eric A. ``Rick'' Crawford, a Representative 
                       in Congress from Arkansas
    Good morning, and welcome to this hearing to review broadband 
deployment in rural America. In this modern age it is surprising to 
know that there are some parts of the country where the live video feed 
from this hearing is not viewable by our rural constituents due to a 
lack of broadband access. In a time when commerce, leisure, and a 
transparent government rely on robust networks, we still find 
communities which are not connected through high-speed broadband.
    There are many communities still struggling to recover from a poor 
economy, to attract new businesses, and to connect to new, critical 
services not otherwise offered in remote areas. The key to unlocking 
these opportunities lies in greater access to services which are 
readily available in larger rural communities and urban areas.
    It is important to note that broadband can add tremendous 
educational opportunities to small communities. The ability to access 
online courses, study materials, research, and online lectures affords 
students some of the most efficient and cost-effective avenues for not 
only continuing their education but turning their curiosity into 
careers. And these opportunities are supported through several programs 
which provide resources to local facilities such as schools and 
libraries.
    However none of those opportunities can exist if the community 
itself is not connected with a robust, high-speed network. Getting the 
most rural areas connected, much like the Rural Electrification Act 
accomplished for telephone service, remains a priority of this 
Committee. When the farm bill was reauthorized this year, several 
provisions were included to continue making these critical investments 
in small towns and cities.
    I know in my district I too often visit towns and communities who 
have been waiting patiently for years for full access to the 
information superhighway. I know a lot has been done to help bring 
access to rural communities, but it is my goal and the goal of this 
Committee to be able to do more than just tell people to wait a little 
longer.
    With us today we have representatives from USDA and industry who 
are on the front lines of expanding broadband service. The loan and 
grant programs provided through USDA and reauthorized in the 2014 Farm 
Bill are specifically designed to target the most rural and unserved 
areas in the country.
    While the focus of this hearing is on the deployment of broadband 
through RUS programs, these programs are not operated in a vacuum. In 
the discussion today, I believe it will be helpful to review those 
changes in the recent farm bill in light of the FCC's (Federal 
Communications Commission) changes to how rural telecommunication 
companies receive assistance. The efforts by the FCC to reform the USF 
(Universal Service Fund) have a direct impact on smaller rate-of-return 
carriers who both rely on USF support to provide service, and RUS loans 
to expand their coverage areas.
    As the FCC transitions into providing telecommunications beyond 
traditional voice service, a careful coordination among the responsible 
agencies is critical to ensure funds are not wasted and the taxpayers 
receive the greatest return on these investments. Coordination across 
government programs is a major challenge in our nation made up of the 
various states, counties, cities, and towns, each with their unique 
needs and approaches.
    The same approach to deploying service does not work in all 
geographic areas. The Committee maintains a technology neutral approach 
to broadband and today we look forward to learning more about the 
various approaches being taken to address the unique challenges in each 
area of rural America. Among the questions I believe our witnesses can 
help us answer include: how are the current programs facilitating the 
expansion of broadband networks; how are providers taking advantage of 
emerging technology, what are the roles of the various types of 
providers in pushing farther into unserved areas; and how are the 
elements of USF reform and USDA loan programs coming together to ensure 
efficient use of resources?
    I look forward to the testimony from our witnesses today, to help 
the Committee understand the barriers to broadband deployment, and how 
USDA is coordinating across related agencies to ensure the most 
effective deployment of broadband possible.

    The Chairman. Now I would like to recognize the gentleman 
from California, the Ranking Member, Mr. Costa for 5 minutes 
for an opening statement.

   OPENING STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. Costa. Thank you very much, Mr. Chairman, and I want to 
thank the Members of the Subcommittee that are here. The title 
of this morning's hearing, Coordinating Future Investments in 
Broadband covers how we provide access to broadband throughout 
America, the breadth and width, especially to our rural areas 
that many of us represent as we try to take advantage of the 
new technologies for all regions of America, and the panel, we 
look forward to your testimony this morning as well as to those 
here in the audience.
    Rural America comprises \3/4\ of the nation's land area and 
is home to more than 50 million people. We don't think about it 
that way too often. We have almost 320 million people in the 
country, and obviously the urban areas of America get the focus 
most of the time. But rural America, think about it: \3/4\ of 
the land area and 50 million people. Since the Great 
Depression, the landscape of rural America has changed 
dramatically, and our nation's policies related to that part of 
the country have changed with it. Even as manufacturing in 
service sectors have replaced agricultural production as the 
dominant economic force in much of rural America, common needs 
for our rural communities remain and therefore, again, the 
importance of this Subcommittee hearing today.
    The fact is: where you live, those 50 million people, 
should not determine what kind of services are available to 
you. The U.S. Department of Agriculture operates a number of 
programs that are designed to expand access, in this case, to 
broadband in rural areas, and funding was contained in the farm 
bill that this Committee made some changes to that we passed 
earlier this year. It was also part of a continuing effort in 
the farm bill that we did 5 years ago, and it was also part of 
an effort that we provided funding in the stimulus package back 
in 2009 to provide connections in two different ways to 
telecommunications companies throughout the country.
    Whether it is in my home State of California or whether it 
is across the country, Federal programs and private sector 
service providers have made great progress in connecting rural 
America. I want to highlight a few of the California figures 
that illustrate why this issue of rural broadband is so 
important, and like many Members, we all say, ``All politics 
are local.'' So let me give you the perspective in terms of my 
own district.
    In 2008, a report by the California Broadband Task Force 
showed that California led the nation in broadband penetration 
with 96 percent of Californians having access to the 
technology. According to the California Public Utilities 
Commissioner's most recent statistics revised in June of this 
year, 2014, the fixed broadband availability number now has 
risen to 97+ percent. But this figure is also misleading. The 
same statistics show that over 250,000 rural Californians still 
lack access to broadband, even though the system has been 
significantly expanded. However, just because broadband is 
available, it doesn't mean that our constituents can use it, in 
this case, my constituents. For example, in Merced County, in 
my district, has a little more than 75,000 households, 
broadband is available to 99 percent of those households, but 
the California Public Utilities Commission says in Merced 
County there is only 51 percent adoption rate, even though they 
have a 99 percent penetration. What that tells me is that 
despite the relative success of putting wires in the ground, 
the Federal Government, broadband providers, and public 
institutions still have a lot of work to do in bridging the 
divide between the haves and the have-nots when it comes to 
broadband, particularly in rural America.
    Why does this divide remain and what are we doing to fix 
the problem? I look forward to the testimony of our witness. 
Despite the great work done in the 2014 Farm Bill on a 
bipartisan level, and I want to commend my colleagues again for 
that effort. What is disappointing is that I don't think that 
here with this Committee or with the Department of 
Agriculture--and this is just a gripe I have had for several 
years now--that we address one of the biggest issues and that 
is our Rural Development programs and the definition of what is 
rural. And I will be on my soap box for 30 seconds here.
    The fact is: my Congressional district, like many 
Congressional districts, are very productive in terms of their 
agricultural nature. But many of our communities are not only 
rural but they are in many instances poor and disadvantaged. 
All too often, communities in my district and across the 
country are prevented from taking advantage of these programs 
because we have a one-size-fits-all as it relates to the rural 
definitions.
    Despite the clear need, I think that we need to focus on 
the eligibility for Rural Development programs, whether it is 
in rural housing, health or essential community facilities, 
largely because the criteria we use to define rural 
communities--the cross cut across the country is not evenly 
divided.
    I appreciate the opportunity, Mr. Chairman, to hear from 
the witnesses on both panels about what we can do to ensure 
that everyone in our country, no matter where they live, where 
they work, where they go to school, has access, which is so 
important in the 21st century, to broadband and takes 
advantages of these services so that we can economically 
compete on a level playing field. So thank you very much for 
giving me the time for the opening statement. I look forward to 
the testimony and questions that we will have an opportunity to 
ask.
    The Chairman. I thank the gentleman for his opening 
comments. I would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony and to ensure that there is ample time for 
questions. Without objection, so ordered.
    Our first panel is seated, and we are pleased to welcome 
the Administrator of Rural Utilities Service in the United 
States Department of Agriculture here in Washington, Mr. John 
Padalino. And I want to thank you, Mr. Padalino, for taking the 
time to be here. I know that you are on the cusp of a new 
career. We will certainly miss your leadership. You have done a 
fantastic job in your 5 years of service, and we wish you all 
the best in your new challenge.
    Having said that, we welcome your comments, and you are 
recognized for 5 minutes, Mr. Padalino.

 STATEMENT OF JOHN C. PADALINO, ADMINISTRATOR, RURAL UTILITIES 
   SERVICE, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Padalino. Well, thank you, Mr. Chairman, Ranking Member 
Costa, and Members of this Subcommittee. Thank you for the 
opportunity to testify this morning regarding future 
investments in broadband.
    As Administrator of the Rural Utilities Service, I am proud 
to lead an amazing group of people who are honoring their 
predecessors in the Rural Electrification Administration by 
continuing to encourage growth and development in rural areas 
through investments in infrastructure.
    The history of rural electrification and rural broadband 
has many parallels. In the 1930s it took a series of Acts and 
appropriations to establish a public system for financing, 
designing, and planning rural electrification. Likewise, in the 
21st century, it will take a sustained focus from Congress and 
the Executive Branch to ensure that rural residents have the 
same access to broadband as their urban and suburban 
counterparts. This is why the Rural Utilities Service is as 
relevant in the 21st century as the Rural Electrification 
Administration was in the last.
    Access to affordable broadband is important for economic 
development, education, healthcare, energy and the environment, 
government performance, civic engagement, and public safety. 
Schools can engage in distance learning. Medical providers can 
use remote medical diagnostics and monitoring. Farmers can 
efficiently manage their crops by using advances in 
agricultural technology. Yet, rural America faces challenges in 
accessing this critical service. Rural areas remain behind non-
rural areas in broadband access. A 2012 study showed that 14.5 
million rural Americans living in 6.5 million rural households, 
nearly \1/4\ of the rural population, lack such access.
    Rural areas also remain behind non-rural areas in adopting 
available broadband. For example, Mississippi has a 26 percent 
gap between urban and rural broadband adoption. In addition, 
rural broadband deployment is costly, especially in remote, 
frontier areas. It is estimated that the cost of reaching 
250,000 housing units in those extremely rural areas will cost 
$13.4 billion or an average of $53,600 per unit.
    We cannot address this with loan dollars alone which is why 
the Rural Gigabit pilot established by this Congress in the 
2014 Farm Bill is so exciting. The Recovery Act also allowed 
the Rural Utilities Service to explore and advance broadband in 
hard-to-reach areas. It has expanded the capacity of our rural 
communities beyond what they could do alone.
    Investment in rural broadband must focus on three things: 
connectivity, more work needs to be done to connect both the 
un- and under-served; capacity, investments must focus also on 
increasing the broadband speeds for those who do have access to 
entry-level service; and creativity, we must look at levering 
existing successes in rural areas by supporting rural 
telecommunication providers and partnering with our rural 
electric cooperatives in the areas where the large price-cap 
carriers are not investing in broadband.
    Since 2009 the Rural Utilities Service has invested over 
$5.5 billion in broadband that will connect over 1.4 million 
rural subscribers to new or improved service. The Rural 
Utilities Service is focused on increasing capacity by insuring 
that the Recovery Act funded projects through the Broadband 
Initiative Program are completed on time and on budget. Today 
almost 200,000 rural subscribers are receiving this service 
with over 59,000 miles of fiber and over 1,200 wireless access 
points currently deployed.
    USDA and the Rural Utilities Service have been strong 
advocates for rural consumers with the Federal Communications 
Commission. In the last 2 years, Secretary Vilsack and I have 
met with former Chairman Julius Genachowski and current 
Chairman Tom Wheeler, each time stressing the importance of the 
Rural Utilities Service and the Federal Communications 
Commission working together, and we provided recommendations on 
how to improve the Federal Communications Commission's 
implementation of much-needed reforms through the Connect 
America Fund.
    The Rural Utilities Service telecommunication programs with 
a combined loan portfolio of over $4.5 billion helped deliver 
affordable and reliable advanced telecommunications services to 
rural communities, services that are comparable to those in 
urban and suburban America. We have a strong record of 
supporting infrastructure upgrades, and together we can offer 
even greater returns for our nation, including healthier, more 
educated communities, and expanded markets for businesses.
    Mr. Chairman, I appreciate your continued interest and that 
of the Committee in broadband programs. At this time I am happy 
to answer any questions you might have. Thank you.
    [The prepared statement of Mr. Padalino follows:]

Prepared Statement of John C. Padalino, Administrator, Rural Utilities 
       Service, U.S. Department of Agriculture, Washington, D.C.
    Chairman Crawford, Ranking Member Costa, and Members of this 
Subcommittee, thank you for the opportunity to testify this morning 
regarding Future Investments in Broadband.
    The mission of the Rural Utilities Service (RUS) is to fund basic 
infrastructure services, including electric, telecommunications, and 
water and waste facilities in order to benefit rural America. RUS 
infrastructure investments deliver reliable, affordable electricity to 
power our homes and industries, broadband to expand access to 
education, healthcare, business and social services in rural areas, and 
clean, safe water to support healthy rural communities and meet the 
growing needs of rural America.
    As Administrator of RUS, I am proud to lead an amazing group of 
people who are honoring their predecessors in the Rural Electrification 
Administration by continuing to encourage growth and development in 
rural areas through investments in infrastructure.
    The history of rural electrification and rural broadband has many 
parallels. In the 1930's it took a series of Acts and appropriations to 
establish a public system for financing, designing, and planning rural 
electrification. Likewise, in the 21st Century, it will take a 
sustained focus from Congress and the Executive Branch to ensure that 
rural residents have the same access to broadband as their urban and 
suburban counterparts. The 1930 Census showed that ninety percent of 
urban dwellers had access to electricity while only ten percent of 
rural residents had similar access. Claiming lack of profitability, 
private utilities declined to extend lines that would provide 
electricity to rural areas.
    The predecessor to RUS, the Rural Electrification Administration 
(REA), was established by Executive Order signed by President Roosevelt 
on May 11, 1935. The agency was created under authority from the 
Emergency Relief Appropriation Act of 1935 a work relief bill that 
authorized $100 million for rural electrification. A year later, 
Congress passed the Rural Electrification Act fully establishing a long 
term program to make loans available for the generation, transmission, 
and distribution of electric energy in rural areas.
    As the nation headed into World War II, it was estimated that 
thirty-eight percent of rural Americans had no telephone service. 
Commercial credit was not available because loans to rural systems were 
not financially feasible. Referring to providing modern communications 
in rural America, the REA Administrator stated in 1939 that 
``Government assistance will be required if the job is ever to be 
completed.'' REA's programs were successful in extending utility 
service--electric and telephone--to persons in rural areas. By 1953 
more than 90 percent of all farms in the United States had electricity. 
In 1976, 90 percent of all farms had telephone service. At that time, 
our investments in electric infrastructure and reliable telephone 
service for those who live and work in rural areas improved the quality 
of life for those Americans and strengthened the local economies.
    The building of the rural electric infrastructure has facilitated 
the use of diverse energy sources, including renewable energy sources 
such as wind and solar power, and more. The modern business model for 
energy services is likely to be a consumer-driven platform where 
existing and rapidly advancing communications and electric technologies 
are shifting the electric utility delivery marketplace from a 
commodity-centric model to a consumer-centric model. Similarly, the 
telecommunications industry made a paradigm shift from the central 
switch of the telephone company to today's demand for ubiquitous 
broadband delivered through the network and ordered up on smart 
devices. Not surprisingly, the challenges faced during the 
electrification of rural America resurfaced as private broadband 
entities citing lack of end-users and profitability have not fully-
expanded broadband infrastructure into rural areas.
    As a result, RUS is as relevant in the 21st Century as REA was in 
the last century. RUS is actively positioning rural America--through 
broadband investments--to compete in the global economy, benefit from 
Internet-based educational opportunities, and take advantage of 
telemedicine resources.
    For example, in Arkansas RUS funded a telemedicine network through 
the Distance Learning and Telemedicine program that has permitted 
numerous patients, who previously would have been transported to Little 
Rock, to receive local treatment at the direction of a remote 
specialist.
    Recently a patient who underwent surgery returned to the local 
hospital 2 weeks later with a life-threatening blood clot in their 
lungs. Utilizing the telemedicine network, a specialist in Little Rock 
was connected to the patient and family, virtually at the patient's 
bedside. The patient was able to be continuously monitored and receive 
the best possible care without having to be transported to Little Rock. 
The patient remained at the local hospital and made a full recovery.
Rural Utilities Service and Broadband
    The broadband loan and grant programs at RUS are intended to 
accelerate the deployment of broadband services in rural America. 
``Broadband'' refers to high-speed Internet access and advanced 
telecommunications services for private homes, commercial 
establishments, schools, and public institutions. Currently in the 
United States, residential broadband is primarily provided via mobile 
wireless (e.g., ``smartphones''), cable modem (from the local provider 
of cable television service), or over the telephone line (digital 
subscriber line or ``DSL''). Other broadband technologies include fiber 
optic cable, fixed wireless, satellite, and broadband over power lines 
(BPL).
    Broadband access enables a number of beneficial applications to 
individual users and to communities. These include e-commerce, 
telecommuting, voice service (Voice-over-Internet Protocol or 
``VoIP''), distance learning, telemedicine, public safety, and others. 
It is becoming generally accepted that broadband access in a community 
can play an important role in economic development.
Telecommunications Programs
    Since 1995, RUS has been in the forefront of meeting rural 
consumers' demand by requiring broadband capable technology in all 
telephone loans in order to play a major role in closing the urban 
rural digital divide. Today, RUS is focused on funding and providing 
broadband to rural America through the traditional telecommunications 
program, the broadband program and the Broadband Initiatives Program 
(BIP) funded through the American Recovery and Reinvestment Act of 2009 
(Recovery Act). Through Recovery Act investments alone, RUS awarded 
over $3.4 billion in funding for broadband projects and has helped 
extend broadband access in rural areas. As a result of the Recovery Act 
BIP program, over 59,566 miles of fiber and 1,281 wireless access 
points have been deployed to serve over 168,703 households, 12,539 
businesses, and 1,786 critical community facilities across rural 
America.
Broadband and Rural America
    Access to affordable broadband is viewed as particularly important 
for the economic development of rural areas because it enables 
individuals and businesses to participate fully in the online economy 
regardless of geographical location. For example, aside from enabling 
existing businesses to remain in their rural locations, broadband 
access could attract new business enterprises drawn by lower costs and 
a more desirable lifestyle. Essentially, broadband potentially allows 
businesses and individuals in rural America to live locally while 
competing globally in an online environment.
    Bobcat Company in Gwinner, North Dakota is a perfect example of the 
need for rural broadband infrastructure to compete in the global 
economy. RUS provided several infrastructure loans to Dakota Central 
Telephone Company (Daktel), and most recently a BIP loan and grant to 
assist with addressing the challenge of rapidly expanding the access 
and quality of broadband services. Bobcat is a large manufacturing 
employer in rural North Dakota. The company has one of the most 
extensive compact equipment distribution networks in the world and uses 
Daktel's fiber network to link to other company locations around the 
world.
    Given the large potential impact broadband may have on the economic 
development of rural America, concerns have been raised over a 
``digital divide'' between rural and urban or suburban areas, with 
respect to broadband deployment. While there are many examples of rural 
communities with state-of-the-art telecommunications facilities, recent 
surveys and studies have indicated that, in general, rural areas tend 
to lag behind urban and suburban areas in broadband deployment. For 
example, according to the Federal Communications Commission's Eighth 
Broadband Progress Report, released in August 2012, of the 19 million 
Americans who live where fixed broadband is unavailable, 14.5 million 
live in rural areas.
    The 2013 Department of Commerce report, Exploring the Digital 
Nation: America's Emerging Online Experience, found that while the 
digital divide between urban and rural areas has lessened since 2007, 
it still persists with 72% of urban households adopting broadband 
service in 2011, compared to 58% of rural households.
    The comparatively lower population density of rural areas is likely 
the major reason why broadband is less deployed than in more highly 
populated suburban and urban areas. Particularly for wireline broadband 
technologies--such as cable modem, fiber, and DSL--the greater the 
geographical distances among customers, the larger the cost to serve 
those customers. Thus, there is less incentive for companies to invest 
in broadband in rural areas than, for example, in an urban area where 
there is more demand (more customers with perhaps higher incomes) and 
less cost to wire the market area.
    The terrain of rural areas can also be a hindrance, in that it is 
more expensive to deploy broadband technologies in mountainous or 
heavily forested areas. An additional cost factor for remote areas can 
be the expense of ``backhaul'' (e.g., the ``middle mile''), which 
refers to the installation of a dedicated line that transmits a signal 
to and from an Internet backbone, which is typically located in or near 
an urban area.
    As a result, the economic impact on rural America of not having 
broadband is significant. For example, an economic study from Oregon 
State University in 2014 provided data showing the impact on rural 
Oregon communities with increased broadband adoption between 2008 and 
2011. There was positive impact on changes in median household income 
and total employment (analysis limited to non-metro counties) over a 
short period of time.
Conclusion
    Broadband deployment is increasingly seen as providing a path 
towards greater regional economic development. From our long history of 
working with companies in rural America and providing capital for 
broadband infrastructure, we know that many rural areas, due to factors 
such as low population density and high costs associated with difficult 
terrain, have difficulty attracting the investment required for a 
sustainable broadband operation.
    To meet the goal of increasing economic opportunity in rural 
America, RUS programs finance rural telecommunications infrastructure. 
RUS telecommunications programs, with a combined loan portfolio of $4.6 
billion, help deliver affordable and reliable advanced 
telecommunications services to rural communities--services comparable 
to those in urban and suburban areas of the America. Infrastructure 
investments offer returns for rural America--building, deploying, and 
using broadband increases access to health care and education, expands 
markets for businesses, and increases the quality of life for rural 
Americans. None of this can happen without expanding broadband 
connectivity and capacity in rural America.
    I thank the Committee and its Members for their continued interest 
in broadband programs.

    The Chairman. I thank the gentleman for your testimony. I 
would also like to make a correction. Obviously, I 
mispronounced your name. My apologies, Mr. Padalino. I said Mr. 
Padalino. So that is probably not the first time that has ever 
happened.
    Mr. Padalino. It is not the first time. My grandfather did 
say never let them get your name wrong, but out of due respect, 
I did not correct you.
    The Chairman. I appreciate that. My apologies. Thank you 
for your opening comments. I recognize myself for 5 minutes.
    In a report dated May 2014, the GAO cited a high number of 
failed projects. In the details of that report they seem to 
refer interchangeably to rescissions and defaults. Do you agree 
that the two outcomes should be in the same category? And can 
you explain how those should be viewed?
    Mr. Padalino. Thank you for that question. I don't agree 
that they should be considered in the same category. A 
rescission is markedly different than a default. A rescission 
is a project where we have obligated funds to the project, and 
for some reason, the project applicant couldn't meet the 
conditions to have the loan closed. And over a certain amount 
of time the agency will make a decision or maybe even at the 
request of the applicant to rescind the funds. The funds come 
back to the government, either go back to Treasury or are 
turned around for future loans. So that is a rescission. A 
default is where a project is underway, advances have been made 
by the agency, and for some reason the loan applicant cannot 
make a repayment. And they are talking about monetary defaults 
in this situation, and those are markedly different.
    When I read the GAO report--thinking about rescissions, I 
thought, that is good government. That is us doing our job at 
the Rural Utilities Service to make sure that an applicant 
comes up with the needed working capital, that comes up with 
the needed conditions to make sure that that loan can close, 
and if that can't happen, we will rescind the money and turn 
that money back around.
    On defaults: this is a new program. It has only been in 
place a little over 10 years thanks to Congress in the 2002 
Farm Bill amended in the 2008 and again in the 2014. And as I 
noted in my opening remarks, the history of rural 
electrification, the history of rural broadband has a lot of 
starts and stops. We have learned lessons from the farm bill 
program, from the Recovery Act program, and have implemented 
those in our regulations. In some ways, we have been ahead of 
the GAO in looking at our program.
    The Chairman. In that same report, concerns were raised 
that USDA may not have a process in place to ensure that 
approved loans were not rescinded because of a lack of working 
capital on hand which often resulted in wasted effort by RUS 
and tied-up funds which could have otherwise been used on 
projects elsewhere.
    Can you explain why this would be the case and what USDA is 
doing to address that concern now?
    Mr. Padalino. Yes, thank you. The 2008 Farm Bill had a ten 
percent equity requirement, and that is the requirement that 
really ensures that there is working capital available. It 
provided the Secretary discretion to have additional 
requirements if, in the agency's discretion, we felt that more 
cash was needed to ensure that during the time of construction, 
enough working capital was available when there are negative 
cash flows to make sure that construction can go to completion 
and can get through the first few years of service. Out of the 
2008 Farm Bill, when we published the interim rule in 2011 and 
then the final rule in 2013, as an agency, we added an 
additional cash requirement from those lessons learned from the 
early days of broadband. That additional requirement, cash 
requirement, focuses on start-up operations, on operations that 
have had negative cash flows for the 2 years prior to 
submission of a loan application. We feel that that is a strong 
signal that we are looking at cash flow, at the working capital 
issue. That is the number one issue when it comes to either a 
project being rescinded or even a default.
    The Chairman. Okay. The FCC has pursued several major 
changes to the Universal Service Fund, and I have mentioned 
this in my opening statement. How has that impacted investments 
through RUS programs, and can you share your insights on how 
those changes might influence the approach taken by RUS 
borrowers when considering plans for expansion of services?
    Mr. Padalino. Whenever I am asked about--I would just like 
to note that on one hand it is good policy to shift from a 
telephone-based support mechanism to a broadband base support 
mechanism. When the FCC issued their Order, their 
Transformation Order, in 2011, what we saw is demand for RUS 
investment almost come to a halt. It really has chilled 
investment in rural areas because the Order, while well-
meaning, had a lot of undetermined business, undecided business 
in there where an investor, a small company in rural areas, 
cooperative-owned company in rural areas, they just didn't want 
to make future investments not knowing what the regulatory 
policy was going to be. So far the FCC has implemented some of 
the reforms that they said were to be determined in that 2011 
Order, but more remains and even some of the reforms that have 
been issued have caused some detrimental effects to rural 
areas.
    The Chairman. Thank you. I have run out of time. I would 
like to recognize the Ranking Member, the gentleman from 
California, Mr. Costa, for 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman. Mr. Padalino, 
what tools would you describe--and I know in your testimony you 
listed some of them--that you think are available that we 
should be focused on with regards to the Rural Utilities 
Service to get the rural areas connected across the country to 
some of those areas that I represent, for example?
    Mr. Padalino. Well, thank you for that question. The 
available tools that we have in the loan programs we have the 
Traditional Infrastructure Loan Program available to 
communications providers who are focusing on communities 5,000 
or less, the Broadband Loan Program focused on----
    Mr. Costa. So that would include as I discussed with you 
earlier--I don't know if there is such a definition, mom-and-
pop telephone companies anymore. But we do have these smaller 
companies that really are a reflection of some that have been 
owned in a family for 50 or 100 years or longer that have 
20,000 connections or whatever the number may be. This would 
provide support for them because I have seen that example 
successfully utilized.
    Mr. Padalino. Yes, two of the providers in your district 
are owned by a parent company, but those two providers are 
those rural local exchange carriers who have taken advantage of 
the Infrastructure Loan Program for the last 60 years since 
Congress established it in 1949. It has been a great tool. It 
has been a great resource for our rural telecommunications 
providers out there. The Broadband Loan Program tried to expand 
the reach so we could go beyond the rural local exchange 
carriers into that price-cap territory where the big providers 
just weren't providing broadband service.
    We also have the Community Connect Grant Program that 
really focuses on communities that are wholly unserved, 
provides grant funds so we can establish a broadband system and 
network in that community, also together with the community 
center so people can learn to use the broadband once it is 
available. We have the Distance Learning Telemedicine Program 
in Arkansas. I visited Baptist Health in Little Rock where 
there is a floor on the hospital that doctors are available 24/7 that is providing medical services to rural clinics across 
the state. Those are the tools that we have available.
    We also have to provide technical assistance. Just in the 
past few months, we have done a number of broadband workshops 
across the country where we focus on areas that are unserved or 
under-served receiving broadband--
    Mr. Costa. To that point, and I used that in my statement, 
what is the technical assistance that you provide for lower 
income communities so that we can improve the adoption rates as 
the example I used in Merced County? But I know those adoption 
rates are a problem throughout the country.
    Mr. Padalino. Well, part of my perspective at the Rural 
Utilities Service has been to look what we did back in the REA 
early days where we not only provided the access to funding to 
build the electric systems but we had road shows essentially 
that went out and taught people how to use the electricity once 
they had it. We had people who walked you through all the 
different appliances that would be available, and the broadband 
workshops are focused on an economic development perspective 
from the theme of: ``You have broadband, now what,'' to make 
sure that if a community that doesn't have broadband receives 
loan funds or a grant to build a broadband system, that they 
have a plan to use that broadband so more and more people will 
adopt it.
    Mr. Costa. It is our understanding that no broadband loans 
will be awarded until the new regulations implementing the 
latest farm bill are developed. When do you expect these new 
regulations to be released so that the broadband loans can be 
expanded?
    Mr. Padalino. The 2014 Farm Bill was passed in February, 
signed into law in February. We have been hard at work with the 
regulations, and we expect that they will be published in 
calendar year 2015.
    Mr. Costa. And then the loan program can proceed following 
that?
    Mr. Padalino. Yes, Congressman, as soon as the--
    Mr. Costa. So we are to tell our constituents that until 
2015, you are not going to be able to proceed with any of the 
loan programs?
    Mr. Padalino. We won't be able to process the loans, but 
there is a lot of front-end work that folks can take a look at 
the statute already and see what the requirements are, see what 
the service area requirements are in the statute that is out 
there and that we are happy to talk to them in general about 
broadband but we won't be able----
    Mr. Costa. Let me get to one other technical question here 
because it deals with the Recovery Act funding. Under the 
Broadband Initiative Program projects must be completed by June 
2015. All the funding will expire by 2015. Given that 85 
percent of the projects are not yet completed, do you expect 
that any projects still not completed by June 2015, how many 
would you estimate and what steps can the Rural Utilities 
Service provide to ensure that these projects will be completed 
after that date?
    Mr. Padalino. Sure. Thank you for that question. We are 
focused on all the projects that are within construction. We 
have 255 active projects right now.
    Mr. Costa. Two-hundred and fifty-five?
    Mr. Padalino. Seventy-five percent of the funds have been 
disbursed already. We work with each awardee almost on a weekly 
basis via telephone or site visits. We are constantly engaged 
with each awardee. We expect all the projects will be completed 
as proposed. Throughout the 4 or 5 years of the Recovery Act, 
we have seen projects that fall in and out of being at risk of 
not be in completion, and one issue or another may arise. We 
work with the awardee to try to resolve that issue, and we so 
far have been successful with that and we plan to continue 
those steps going through the next year. June--
    Mr. Costa. Go ahead.
    Mr. Padalino. June of 2015 is our contractual requirement 
that they be substantially complete, and by the end of 
September by statute the funds will be no longer available.
    Mr. Costa. Thank you. My time has expired.
    The Chairman. I thank the Ranking Member and recognize the 
gentleman from New York, Mr. Gibson, for 5 minutes.
    Mr. Gibson. I thank the Chairman and the Ranking Member for 
putting this together. And Mr. Padalino, I just want to say how 
much we appreciate your service. Our district has really 
benefitted from your leadership. We have had conference calls 
together. We have worked on a number of issues, and I just 
greatly appreciate you and your team. We want to wish you the 
best, going forward, and I know that the continued outstanding 
service will be with your successor.
    So just a couple things. First of all, just a testimonial 
how important the telemedicine aspect is to rural areas. I will 
tell you that one of the pilot hospitals, Margaretville, has 
two doctors. They happen to be a married couple. And what a 
huge difference the telemedicine pilot project made. And they 
were actually able to deliver their first baby since the 1970s 
with this. It is a very small hospital in rural America. And 
then also, after Hurricanes Irene and Lee, they saved two 
lives. A tree came down on the chest, and they were able to 
consult with the broadband capacity with experts from fairly 
nearby, about an hour's drive, hospitals and made a huge 
difference, saved lives.
    And finally on this score, this couple was able to take 
their first vacation in 4 years because they were still 
accessible, and they actually consulted on a medical procedure 
from Bali. We are able to keep a couple in this hospital which 
allows us to keep this going. So I just want to underscore how 
important these programs that you are leading, how important 
they are to rural America.
    In your comments you talked about--which I really want to 
affiliate and associate myself with. You certainly didn't show 
any prejudice to any particular approach, whether it be big 
company or small company. But you did note that a lot of the 
small companies are very aggressive on this score, and I would 
concur. I mean, these family-owned businesses, they live in our 
communities. They see firsthand every day the impact on 
education, on healthcare delivery, on job creation, on quality 
of life that access to high-speed broadband can make a 
difference, and conversely, when you don't have it, what the 
impacts are. As I look at this issue, again, I am happy to see 
anyone advance rural broadband from any perspective, and we 
work together on the Committee here. We played a role in the 
recent farm bill and some of the reforms to bring transparency 
and effectiveness.
    Looking at the FCC's program and your program, I am 
interested in ways we can continue to build out capacity and 
empower our smaller companies. My read of the initial rules, or 
I should say the rules coming out on the FCC, is that my 
smaller companies and the rural co-ops are going to get a 
better access to some of the Connect America funds. That is my 
read of it, and I am encouraged. I would be curious to know if 
that is your read. And then, going forward, I am interested in 
also, might there be ways so we can improve some of the 
programs under the RUS so we can get these smaller companies in 
the rural co-ops to find this profitable?
    One of the ideas that I had--well, actually, it was I think 
Senator Gillibrand and I concur is that we could tweak the 
program a little bit, provide for--if you bring ten percent 
non-Federal money, then you would get a ten percent grant, and 
the balance, the 80 percent, would be in the low-interest loan. 
I am curious to know your feedback on that. Sorry I went on so 
long.
    Mr. Padalino. Well, thank you for your compliments, 
Congressman, and to get right to your questions, FCC recently 
announced the rural broadband experiments is Phase II of the 
Connect America funding, and they are trying to make, for 
price-cap areas, they have established a budget of $100 million 
to make that money available for a 10 year recurring basis to a 
wide variety of providers, including electric cooperatives, to 
compete for that money, to say we can put the best project out 
there in those areas. And I agree with you that the electric 
co-ops were started by community members, the telephone co-ops 
were, even the for-profit telecommunication companies are 
locally owned, and I really believe that local people in rural 
areas are the best resource for advancing that.
    And some of the tweaks we can think about is how we can 
leverage our rural electric providers out there, the rural 
electric cooperatives. You know, they have a much larger 
footprint than some of our smaller rural telecommunications 
companies, and how can we build a partnership between those 
rural telecommunications and rural electric cooperatives, 
together with the FCC, combine the support mechanisms from the 
FCC with the low-cost loans? I am interested in that proposal 
that you talked about, about bringing in private investment. 
The Administration recently announced the Rural Opportunity 
Investment Fund. There is going to be a source of private money 
there, and with a solution like that we can leverage more and 
more resources to advance the cause of broadband.
    Mr. Gibson. Thank you. Thank you very much, and good luck 
to you, going forward, too. Thanks, Mr. Chairman.
    The Chairman. You bet. The gentleman's time has expired. I 
now recognize the gentleman from Minnesota for 5 minutes, Mr. 
Nolan.
    Mr. Nolan. Thank you, Mr. Chairman. I just want to join my 
colleagues in commending the Administrator for the terrific job 
that you are doing, and I want to commend my Chairman and 
Ranking Member for conducting this hearing. As one who lives in 
the remote areas of northern Minnesota on a farm where the 
Little Pine and the Big Pine River come together, I was an 
early beneficiary of the advantages of broadband which greatly 
enabled me to expand and conduct my international business as 
an exporter of American goods and services.
    And I am of the view that expansion of broadband to rural 
areas may be singularly the most important thing that we can do 
to expand business opportunities in rural areas for small 
business. And it is no secret that most new jobs and economic 
development in this country occur from the small business 
sector, and in essence, what broadband does for rural areas, it 
puts them in the same position that a big, multi-national 
corporation would be sitting in Manhattan or Minneapolis or Los 
Angeles when it comes to their communications with the rest of 
the nation, the rest of the world in making readily available 
to them all the knowledge, information, and services that are 
out there.
    So I just want to commend you for what you are doing and 
the Chairman for conducting this important hearing and lend my 
support and my encouragement to all that you are doing. Keep up 
the good work, and keep pushing and you have a lot of people 
here who believe in what you are doing and want to help in any 
way and every way we can to help facilitate that. Thank you.
    Mr. Padalino. Well, thank you, Congressman. The Rural 
Utilities Service is really a gem in the Federal Government. It 
is the only Federal agency that directly finances 
infrastructure. We hear a lot of talk about building 
infrastructure banks, green banks, all kinds of banks, but we 
have one that Congress established 80 years ago. It is the 
Rural Utilities Service, and we have been hard at work 
providing infrastructure investments from our water and waste 
systems to our electric systems. We are trying to build a new, 
energy-efficient rural America, and of course, advance the 
cause of broadband. So thank you for your remarks.
    The Chairman. The gentleman yields back. With that I just--
before we conclude this panel, Mr. Padalino, I wanted to expand 
on a point that the Ranking Member brought up, the current 
projects under way, funding expires June 2015. Just to clarify, 
if a project that is currently under way is not completed by 
2015, what would then be the disposition of those projects?
    Mr. Padalino. If a project ends up at the end of September, 
September 30, 2015, without being complete, they will no longer 
have funds available from RUS. So whatever funds remain undrawn 
won't be available anymore. They could still complete their 
project with some other financing, but those Recovery Act 
provided dollars will revert back to the Treasury.
    The Chairman. Okay. Thank you. And again, we do want to 
thank you for taking time out to come. Ranking Member?
    Mr. Costa. Just to follow up, if the gentleman would yield. 
Now, it seems rather abrupt. I guess I am trying to understand. 
Let us say one of these rural telephone companies has a loan or 
a grant. They can be either. And let us pick a number for 
discussion purposes. It is a $1 million grant for improvement 
for access. And they have let the contracts to the improvements 
and they have spent half of it or 60 percent of it but they are 
not complete. And June 2015 runs around, and all of a sudden, 
they are left--even though they have let the contracts for the 
other $400,000 because it is not completed?
    Mr. Padalino. Our focus has been to ensure that doesn't 
happen. We have been--over the last few years, we asked in 
early September--or January 2012, all the awardees, where are 
you at with your construction? Do you need to amend your 
timelines so we can understand where you are at? We have 
numerous webinars. We are about to send out another letter 
reminding awardees that you are about a year out from 
completion. We need to know where you are at. We stay at the 
local level through our general field representatives that are 
very engaged with the borrowers through site visits, phone 
calls. We require numerous reports----
    Mr. Costa. So let me make a suggestion. I think that is all 
good, but the Members of this Subcommittee, and maybe it is 
something staff could work with the Members of the full 
Committee, but it would be nice if we had a listing of--I don't 
know if the number is 255 or whatever you stated earlier--these 
projects that are currently ongoing so that we could know those 
that are in our respective Congressional districts, and we 
could help complement your efforts to say, ``Look. You are on a 
timeline here, and you need to do everything you can to 
expedite it so that you are able to complete the project,'' 
because that would--certainly we would like to know. I don't 
think any of us would like to find a situation where next March 
we have our local telephone company calling us and saying, ``We 
are \2/3\ done with our project, but we are not going to 
complete it until August, and they are telling us now we are 
going to run out of their money. What can you do to help us?''
    The Chairman. If the gentleman would yield, clarification 
between grants and loans? If we could have that as well on 
those 255 projects that you mentioned because that 
clarification would be helpful as well. And if you could make a 
distinction? I understand a grant is obviously different than a 
loan, but are we going to see that funding unavailable for 
loans that have already been made as well, or can they reapply 
at some point if in fact they didn't meet that timeline?
    Mr. Padalino. I thank you for your offer, and we really 
appreciate the assistance and will be happy to work with the 
staff on providing that information.
    [The information referred to is located on p. 53.]
    Mr. Padalino. Just a couple quick clarifications. On those 
255 active projects, 44 of those have been fully complete. We 
have over about 140 of them that are partially complete which 
means they are providing broadband in all or part of their 
service territories, but there is just some remaining punch 
list items to be completed. Again, 75 percent of the funds have 
been disbursed. Over 90 percent of the proposed miles of fiber 
and proposed wireless access points have been deployed. Where 
many of these projects are is at the last phases of the project 
where they are doing the cut-overs, connecting subscribers to 
those services. But we really appreciate the offer of support, 
and I am happy to work with your staff.
    The Chairman. All right. Thank you. The gentleman yields. 
With that, Mr. Padalino, again, we want to dismiss you with our 
thanks for your service and with our best wishes for your 
future, and we appreciate you. Thank you so much.
    Mr. Padalino. Thank you.
    The Chairman. We will now move into our second panel, and 
as our panel takes position, I will go ahead and introduce 
those individuals. Comprising panel two, Mr. Lang Zimmerman is 
the Vice President of Yelcot Communications in Mountain Home, 
Arkansas. He is testifying on behalf of the National 
Telecommunications Cooperative Association. Mr. David Cohen, 
the Vice President for Policy, at USTelecom based here in 
Washington, D.C. Mr. Robert L. Hance, President and CEO, 
Midwest Energy Cooperative, Cassopolis, Michigan, testifying on 
behalf of the National Rural Electric Cooperative Association, 
and Mr. Christopher Guttman-McCabe, Executive Vice President, 
CTIA--The Wireless Association here in Washington, D.C.
    Welcome. Gentlemen, we appreciate you being here, and with 
that, I will introduce our first panelist, Mr. Lang Zimmerman 
who, as I said, is Vice President of Yelcot Communications in 
Mountain Home, Arkansas, which is, I am proud to say, in my 
Congressional district. Mr. Zimmerman and to all our panelists, 
I will just remind you. You see the lights in front of you? 
Green means you are good to go, and it is just like when you 
are driving. If you see a yellow light, go like heck because it 
is fixing to stop. And when you see the red light, that means 
stop. And we will take your expanded comments and your written 
comments, but for the sake of time, we would just ask that you 
limit your oral presentation to 5 minutes. And with that, I am 
pleased to recognize Mr. Lang Zimmerman for 5 minutes.

      STATEMENT OF LANG ZIMMERMAN, VICE PRESIDENT, YELCOT 
COMMUNICATIONS, MOUNTAIN HOME, AR; ON BEHALF OF NTCA--THE RURAL 
                     BROADBAND ASSOCIATION

    Mr. Zimmerman. Chairman Crawford, Ranking Member Costa, and 
Members of the Subcommittee, thank you for the invitation to 
participate in today's discussion. My name is Lang Zimmerman, 
and for the past 29 years I have served as Vice President of 
Yelcot Telephone Company, headquartered in Mountain Home, 
Arkansas, and my remarks today are on behalf of Yelcot as well 
as NTCA--The Rural Broadband Association and their several 
hundred small community-based members that provide a variety of 
communications services throughout the rural far reaches of the 
nation.
    We believe our industry is uniquely qualified to 
participate in today's discussion because we are small 
businesses on the front lines deploying high-speed, sustainable 
broadband to rural America. Yelcot is a carrier of last resort 
and has always operated under the premise that if someone wants 
service in our service area, then we do whatever it takes to 
serve them. Because of this commitment, and with the aid of key 
Rural Development programs and Universal Service support, rural 
Arkansans throughout the Yelcot service area, and indeed 
throughout the markets of all the NTCA members, have access to 
reasonably comparable services at reasonably comparable rates 
as mandated by current and longstanding law.
    Small, rural telecom members of NTCA provide access to 
voice, video, wireless and broadband Internet services as well 
as enhanced emergency preparedness. Most importantly, they 
connect rural Americans to the entire world. In rural America, 
that translates into economic development that produces jobs.
    Broadband has become essential to delivering healthcare, 
educational opportunities, and securing the public safety. And 
much of the business world is already demanding higher 
broadband speeds to help it interact with and sell to customers 
near and far. Broadband and other services provided by the 
rural telecom industry serve as an incubator for small business 
ideas in rural America to be implemented and to flourish.
    Yelcot's top priority has always been to provide every one 
of our consumers with the very best communications and customer 
service possible at affordable rates that stimulate adoption. 
The entrepreneurial spirit of Yelcot is representative of our 
approximately 1,000 small, rural counterparts in the industry 
who together serve about five percent of the U.S. population 
across approximately 40 percent of the nation's geographic land 
mass.
    USDA's Rural Utilities Service, RUS, plays a crucial role 
in rural broadband deployment through its telecom loan 
portfolio that finances networks upgrades and deployment in 
rural areas. RUS lending and USF support are inextricably 
linked as 99.2 percent of RUS telecom infrastructure borrowers 
like Yelcot receive high-cost USF support. The presence of 
high-cost recovery is crucial to the ability of RUS borrowers 
to repay our RUS telecom and broadband loans. RUS programs have 
helped rural providers deploy modern networks in many rural 
areas where the market would otherwise not support the 
investment. Reliable access to capital helps rural carriers 
meet the broadband needs of consumers at affordable rates.
    Yelcot has first-hand experience working with RUS, and I 
can testify to the benefit of having an experienced lender 
available to finance projects at a fair rate. Yelcot and our 
rural consumers continue to benefit from the RUS 
Telecommunications Infrastructure Loan Program, which has 
financed upgrades of our network to the fiber era. In the past 
few years, with the help of RUS, Yelcot companies have added 
over 130 miles of buried fiber cable, replaced ten central 
offices with four soft switches and added or replaced over 50 
remotes.
    Unfortunately, applications for RUS telecom loans are down 
dramatically at a time when customers everywhere are clamoring 
for faster broadband. Why would an experienced lender such as 
RUS want for loan applications when demand for networks is 
high? Look no further than the state of rural telecom 
regulation which includes an opaque and unpredictable USF 
capping mechanism originally tossed out after years of lost 
investment, a requirement for customers to purchase landline 
voice service in order for their line to receive U.S. support 
and plans to increase rural telephone rates to $20.46 in 
Arkansas while the monthly rate in Washington, D.C. will remain 
at $14.10.
     We appreciate the support of those Members of Congress who 
have contacted the FCC regarding the state of rural telecom 
regulation. In particular, I would like to thank you, Chairman 
Crawford, for signing a letter to the FCC regarding the 
outdated requirement for customers to purchase landline voice 
service in order for their line to receive USF support.
    The benefits that some rural communities are already 
experiencing will only be possible for all if robust broadband 
is available and affordable. Rural telecom providers and 
lenders such as RUS must have regulatory certainty before they 
can make greater investments in the networks of the future. The 
key to regulatory certainty is a USF remade for the broadband 
era, including a broadband-oriented support mechanism for small 
carriers that gives rural consumers options in selecting 
services that best fit their needs.
    Thank you again for the opportunity to testify, and I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Zimmerman follows:]

      Prepared Statement of Lang Zimmerman, Vice President, Yelcot
    Communications, Mountain Home, AR; on Behalf of NTCA--The Rural 
                         Broadband Association
Introduction
The Rural Telecommunications Industry
    Thank you for the invitation to participate in today's discussion 
on coordinating future investment in broadband. For the past 29 years I 
have served as Vice President of Yelcot Telephone Company, which is 
headquartered in Mountain Home, AR. My remarks today are on behalf of 
Yelcot Telephone Company, as well as NTCA--The Rural Broadband 
Association and their several hundred small community-based members 
that provide a variety of communications services throughout the rural 
far reaches of the nation.
    We believe our industry is uniquely qualified to participate in 
today's discussion because we are small businesses leading the way in 
deploying high-speed, sustainable broadband to rural America. Yelcot, 
similar to about \1/2\ of the nation's small, community-based rural 
providers, is a commercial company. Family or commercially-owned rural 
providers are consumer-centric because they are locally owned and 
operated. Likewise, in the cooperative structure that makes up the 
other \1/2\ of small rural providers, the consumers are also the 
owners, so every choice is viewed from both an owner and a consumer 
perspective--the two are truly one and the same.
    Yelcot is a carrier-of-last-resort and has always operated under 
the premise that if someone wants service in our service area, then we 
do whatever it takes to provide the would-be customer with that 
service. Ever since Yelcot began operating in 1957, we've been proud to 
serve as the only provider to some of the most rural areas of Arkansas, 
while other carriers avoided investments in such areas and chose to 
serve only the most profitable and densely populated towns. Because of 
this commitment, and with the aid of key rural development programs and 
Universal Service support, rural Americans throughout Yelcot's service 
area, and indeed throughout the markets of NTCA members, are enjoying 
universal voice service, access to mobile, video, and broadband 
Internet services, and enhanced emergency preparedness.
    Small, rural telecom providers connect rural Americans to the 
world. Moreover, these rural network operators have been at the 
forefront of the broadband and Internet Protocol (``IP'') evolution for 
years, making every innovative effort to deploy advanced networks that 
respond to consumer and business demands for cutting-edge services. In 
rural America, that translates into economic development that produces 
jobs, not only in agriculture, energy and other industries with a 
strong rural presence, but in the healthcare sector, and just about any 
other retail industry that requires broadband to operate in this day 
and age. Broadband has become essential to delivering healthcare and 
securing the public safety. And much of the business world is already 
demanding higher broadband speeds to help it interact with and sell to 
customers near and far. Broadband and other services provided by the 
rural telecom industry serve as an incubator for small business ideas 
in rural America to be implemented and to flourish.
    Fixed and mobile broadband, fixed and mobile voice, video, and 
Internet Service Provision are among the numerous telecom services that 
rural Americans can access thanks to the rural industry commitment to 
serving sparsely populated areas. Broadband-capable networks facilitate 
greater interconnection of the community's resources and can enable 
citizens' participation in the global economy, blue-ribbon education, 
first-rate healthcare, cutting-edge government services, robust 
security and more efficient energy distribution and use.
    The rural telecom industry has always been at the forefront of 
technological innovation, being the first segment of the industry to 
completely convert to digital switched systems, provide wireless 
options to their hardest to reach customers, offer distance learning 
and telehealth applications, provide cable-based video, then satellite 
video, and now IP video to their markets, and it was a member of the 
RLEC community that first deployed an all-fiber system. The rural 
industry continues to lead in the deployment of broadband capable 
infrastructure.
Yelcot Telephone Profile
    Yelcot's top priority has always been to provide every one of our 
consumers with the very best communications and customer service 
possible at affordable rates that stimulate adoption. Yelcot has 
several lines of business, including ILEC, CLEC, ISP and Cable TV. 
While our headquarters are in Mountain Home, we in fact serve over 
7,946 customer lines across our 826 square mile rural service area that 
is spread across northern Arkansas. This constitutes about 9.6 
customers per square mile. We employ a total of 52 people and in 2013 
our annual operating revenue was about $13.8 million. Our service area 
is rural and sparsely populated, requiring great effort to get advanced 
services to our customers.
    The entrepreneurial spirit of Yelcot is representative of our 
approximately 1,000 small rural counterparts in the industry, who 
together serve 5% of the U.S. population across approximately 40% of 
the nation's geographic land mass. Like the vast majority of our rural 
colleagues, Yelcot has been an early adopter of new technologies and 
services. In 2006, Yelcot upgraded its network to ADSL2+ (Fiber-to-the-
node). Yelcot currently has 10 Megabit broadband service available to 
60% of our ILEC service area and 1.5 Megabit broadband available to 98% 
of our service area. We can provide gigabit service where our fiber-to-
the-premises facilities are located. This fiber connection allows for 
nearly limitless amounts of bandwidth. We know our customers will 
require more and more bandwidth and have built a network that will 
supply it.
RasorNET
    Yelcot's reach extends beyond our service area to an exciting 
partnership with Ritter Communications, South Arkansas Telephone, and 
New Wave Communications to build RasorNET, a fiber backbone that 
delivers 10 gigabit Ethernet transport, enhanced wireless backhaul, and 
connections to other fiber backbones around the country. RasorNET 
greatly enhances the online experience for all of Arkansas by providing 
robust connectivity between major metropolitan areas and rural 
communities in Arkansas. Only fiber connections will meet the 
astronomic wired and wireless broadband demands of the near future, and 
we're thrilled to help meet those consumer needs through RasorNET and 
the fiber connections Yelcot delivers to the end user.
Rural Broadband Benefits the Entire U.S. Economy
    A series of recent studies confirms that significant benefits flow 
from rural broadband investment to broader urban and statewide 
populations. The rural telecommunications industry supported $14.4 
billion of economic impact in 2009, with $9.5 billion occurring in 
urban areas, and more than 70,000 jobs, 45% of which were placed in 
urban areas.\1\ In Colorado, rural telecom helped create 428 jobs, 
adding over $21 million per year to state payrolls.\2\ North Dakota saw 
an additional $18 million in Federal tax revenue and $31 million in 
state tax revenue arising out 1,100 direct jobs and 800 secondary jobs 
generated by rural telecommunications activity.\3\ The converse holds 
true, however, from adverse changes--``reforms'' that cut investment in 
rural broadband hurt state economies. In Kansas, for example, potential 
cuts in Federal rural telecom programs led to projections of $1.4 
million in personal income tax and $1.3 million in retail sales tax 
losses.\4\ A personal income loss of $14.1 million was projected for 
2012 alone in New Mexico from the same proposed cuts.\5\ Studies 
examining the impact of rural communications activity--including 
purchasing, employment figures, and projected tax revenues--confirm 
rural communications to be a powerful generator of urban economic 
growth and Federal and state tax revenue. In short, rural broadband is 
an investment with real benefit and returns for the nation as a whole.
---------------------------------------------------------------------------
    \1\ Kuttner, Hanns, The Economic Impact of Rural 
Telecommunications: The Greater Gains, Hudson Institute, at 6, 8 
(2011).
    \2\ Shields, Martin, Cutler, Harvey, and Marturana, Michael, The 
Impacts of Colorado Telecommunications Association Members on the 
Colorado Economy, Regional Economics Institute, Colorado State 
University, at 9 (Oct. 26, 2011).
    \3\ McKee, Gregory, The Effect of Changes in Universal Service 
Funding on the Economic Contribution of Rural Local Exchange Carriers 
to the North Dakota State Economy, Department of Agribusiness and 
Applied Economics, Agricultural Experiment Station, North Dakota State 
University, at 16-19 (Dec. 2011) (``Like other RLECs, North Dakota 
RLECs buy many specialized products and services not available in state 
economies. National and international markets typically provide these 
products and services.'').
    \4\ Kansas Rural Local Exchange Carriers: Assessing the Impact of 
the National Broadband Plan, W. Frank Barton School of Business, Center 
for Economic Development and Business Research, Wichita State 
University, at 11, 12 (2011).
    \5\ Peach, James, Popp, Anthony V., and Delgado, Leo, The Potential 
Economic Impact of the National Broadband Plan on the New Mexico 
Exchange Carriers Group, Office of Policy Analysis, Arrowhead Center, 
New Mexico State University, at 18 (2011)).
---------------------------------------------------------------------------
    To not have access to high-speed Internet in this day and age is 
unimaginable to most people, yet millions of Americans live in areas--
mostly in rural territory served by carriers other than small, rate-of-
return providers--where there is no robust broadband that enables 
meaningful access to the countless economic and educational 
opportunities available through the Internet. These people have small 
business ideas that need broadband to succeed and they need jobs that 
small businesses can provide. Yet, as important as it is to deliver 
broadband to the unserved, it's just as vital that those already 
receiving broadband remain served--the benefits that flow from 
broadband are ongoing. If a network is built but then becomes 
unsustainable or the services over it unaffordable or of poor quality, 
such developments deny the benefits of broadband for small businesses 
and all consumers.
Rural Utilities Service Financing
RUS Role in Rural Telecom Deployment
    USDA's Rural Utilities Service (RUS) plays a crucial role in rural 
broadband deployment through its telecom loan portfolio that finances 
networks upgrades and deployments in rural areas. RUS has been lending 
for broadband capable plant since the early 1990s. RUS lending and 
Universal Service Fund (USF) support are inextricably linked as 99.2% 
of RUS Telecommunications Infrastructure borrowers receive high cost 
USF support. The presence of high cost recovery is crucial to the RUS 
telecom and broadband loan calculus. RUS programs have helped rural 
providers deploy modern networks in many rural areas where the market 
would otherwise not support investment. Reliable access to capital 
helps rural carriers meet the broadband needs of rural consumers at 
affordable rates.
    Unfortunately, the success, momentum, and economic development 
achieved from the RUS's telecommunication programs were put at risk as 
a result of the regulatory uncertainty arising out of USF reforms that 
are discussed in greater detail below. It will be all the more 
important to continue providing RUS with the resources it needs to lend 
to the rural telecom industry as demand for financing will inevitably 
increase when reforms are improved and small carriers are given 
certainty, hopefully through a program like the Connect America Fund 
that is designed to promote broadband investment. As Congress continues 
to grapple with where to best direct scarce resources, it's important 
to note that the RUS Broadband Loan Program and the traditional 
Telecommunication Infrastructure Loan programs are funded with loans 
that must be paid back with interest--creating a win/win situation for 
rural broadband consumers and taxpayers. Rural providers look forward 
to building on an already successful partnership with RUS.
    Yelcot has first-hand experience working with RUS and I can testify 
to the benefit of knowing that an experienced lender is available to 
finance projects at a fair rate. Yelcot and our rural consumers 
continue to benefit from the RUS Telecommunications Infrastructure Loan 
program, which has financed upgrades of our network to the fiber era. 
In the past few years, with the help of RUS, Yelcot companies have 
added over 130 miles of buried fiber cable, replaced ten Central 
Offices with four soft switches and added or replaced over 50 remotes.
    Originally, a large Tier 1 provider was the only upstream transport 
provider in one of our service areas, charging $220.00 per Mb. The Tier 
1 provider would not upgrade their equipment, effectively capping the 
upstream transport in that service area at 145 Mb. In another Yelcot 
service area, there were few upstream transport options, and those were 
costly at $150.00 per Mb. In 2009 Yelcot began an extensive fiber 
project that took 4 years to complete. This project allowed us the 
opportunity to connect with other upstream providers, as well as 
providing a redundant upstream route. Yelcot now pays $8.12 per Mb, and 
has over 30 times the original capacity.
    Thanks to these lower costs and increased capacity, Yelcot has 
recently doubled almost all of our subscribers' bandwidth with no price 
increase whatsoever.
The Farm Bill Reauthorization
    During the most recent farm bill reauthorization process, we 
appreciated this Committee's efforts to make sensible changes to the 
RUS Broadband Loan Program to ensure transparency, while avoiding 
program performance delays and additional burdensome requirements on 
borrowers. It is essential that small, rural providers are able to 
access the RUS program without delay. Efforts to dramatically rewrite 
the program, such as those proposed by the bill that the Senate 
initially passed, would have resulted only in keeping broadband 
investment on the sidelines and denying rural areas much-needed access 
to broadband.
    The multi-year rule implementation delay that resulted from the 
2008 Farm Bill and the regulatory uncertainty arising out of the FCC's 
efforts to reform Universal Service initiatives have left the Broadband 
Loan Program and subsequent investment at a standstill. We hope the 
most recent farm bill changes to the program do not result in another 
multi-year implementation delay. Thankfully, it appears that the final 
farm bill left RUS with discretion in administering the program that 
grants sufficient leeway to make it function more smoothly than the 
initial Senate farm bill would've allowed. Further, it is important 
that Congress not tie RUS's hands by putting limited funds toward 
projects that would offer a few people more bandwidth than they need 
while others still lack reasonable broadband speeds. It is time to get 
the Broadband Loan Program back to work for rural consumers.
The IP Evolution and Universal Service
The FCC's Universal Service Fund Reforms
    Applications for RUS telecom loans are down dramatically at a time 
when everyone is clamoring for faster broadband. According to a May 
2014 GAO report, RUS received 29 applications for loans in Fiscal Years 
2011-2013, compared to 130 in the first 3 full years of the program.\6\ 
Why would an experienced lender such as RUS want for customers when 
demand for networks is high? Look no further than the state of rural 
telecom regulation.
---------------------------------------------------------------------------
    \6\ U.S. Government Accountability Office. (2014). 
Telecommunications: USDA Should Evaluate the Performance of the Rural 
Broadband Loan Program. (GAO Publication No. GAO-14-471). Retrieved 
from http://www.gao.gov/assets/670/663578.pdf.
---------------------------------------------------------------------------
    For some rural areas, FCC rules still require customers to purchase 
landline voice service in order for their line to receive USF support. 
The customer is effectively denied the option of cutting the landline-
voice cord and purchasing only broadband. All the while, the FCC 
continues to design new caps for the legacy USF that was intended to 
support voice telephony. The last attempt to cap USF was thrown out 
after pressure from Congress highlighted the regulatory uncertainty and 
lost investment produced by the FCC's opaque, unpredictable mechanism. 
Scarce resources are being put toward developing new caps, while small, 
rate-of-return providers await a broadband-oriented mechanism such as 
the Connect America Fund (CAF) that larger price-cap carriers already 
have access to. The price-cap providers' CAF is in year 4 of 
development--a good indication that greater emphasis should be placed 
on finishing a similar fund for small carriers as soon as possible.
    The situation grew more desperate on March 20, 2014, when the FCC 
announced that the ``local rate floor,'' to which small, rural carriers 
must increase their local voice telephone rates by July 1, 2014 to 
avoid losing certain Universal Service support, would increase from $14 
to $20.46. The agency later agreed to push the compliance date back to 
2015 and phase in the increase, but the underlying methodology that 
produces the rate floor remains flawed. The rate floor is meant to 
guarantee compliance with a statutory directive to ensure ``reasonable 
comparability'' in rural and urban rates. ``Reasonable comparability'' 
does not mean the rates should be exactly the same, but does allow the 
FCC to work with state stakeholders on a methodology that reflects 
inherent differences in the deployment and operation of rural and urban 
networks, as well as the simple fact that the rural customer can call 
much fewer people through local service than the urban customer. If not 
addressed promptly, the rate hike will likely lead some consumers to 
``cut the cord'' on voice service, which would drastically increase 
their broadband rates due to the aforementioned lack of a CAF for small 
providers that supports broadband-capable networks.
    Such outdated rules that undermine consumer freedom and inhibit 
technological evolution present an obstacle to the technology 
transition that consumers and industry are making and the FCC is 
working to expedite and facilitate in other contexts. Universal Service 
support should not be tied to a limited service, but available instead 
to advanced networks that provide consumers with access to a variety of 
essential, high-quality services from which each consumer may choose. 
The FCC should move forward immediately to adopt and implement a 
carefully tailored update of USF that will provide sufficient and 
predictable support for broadband-capable networks in areas served by 
smaller rural carriers. Over 130 Members of Congress--including 
Chairman Crawford and other Agriculture Committee leaders--along with 
dozens of organizations that serve rural America encouraged the FCC to 
act through a series of letters earlier this year.\7\
---------------------------------------------------------------------------
    \7\ See U.S. House letter led by Representative Gardner and U.S. 
Senate letter led by Senators Thune and Klobuchar, both sent to FCC 
Chairman Wheeler on May 6, 2014. See also rural organizations letter 
sent to Chairman Wheeler on March 5, 2014.
---------------------------------------------------------------------------
    The broadband revolution presents major opportunities for small 
businesses to innovate and grow, but the business (or entrepreneur with 
an idea) must have broadband access to take full advantage. Markets 
will ensure many consumers realize the full benefits of innovation at 
the lowest possible prices, but in rural areas there are often no such 
markets to speak of. Though small, rural providers have been leaders in 
broadband investment even under the current statutory and regulatory 
regime, further law and policy changes will be necessary to ensure high 
cost rural areas remain served while providers edge out into unserved 
areas.
The Role of the Communications Act and Potential Reforms
    The delivery of voice and nearly every other telecom service is 
undergoing transformative change through the IP Evolution--that is, 
telecom and information services are increasingly converging as IP 
applications that run over broadband. This phenomenon has rendered the 
current legal regime outdated, as it regulates the same service 
differently based on the technology platform the service rides on.
    IP, wireless, and other technological advances are changing the 
marketplace in ways unimagined even a few years ago, but technology 
alone will not miraculously solve the high costs of rural broadband 
deployment. Indeed, the IP Evolution that is already occurring under 
existing regulatory frameworks will be promoted and sustained only 
through careful, focused statutory and policy updates that are guided 
by the Communications Act's core principles of consumer protection, 
competition, Universal Service, and public safety. Similarly, NTCA's IP 
evolution petition filed with the FCC in late 2012 called for a careful 
regulatory approach to the transition that considers what rules make 
sense in this broadband age if we're to remain true to those same core 
principles. Given the challenges to serving rural areas, the answer 
won't be the legal and regulatory status quo, nor will it be complete 
deregulation.
    The Communications Act's timeless goal of making advanced 
nationwide and worldwide wired and wireless networks available and 
affordable for all Americans \8\ is as important as ever in an 
increasingly interconnected and competitive broadband-based economy. 
This Universal Service mandate, which builds upon decades of national 
policy, has been--and remains--essential in enabling small rural 
providers to deploy and upgrade cutting-edge networks over time where 
no other carrier or entity could find a business case to do so.
---------------------------------------------------------------------------
    \8\ 47 U.S. Code  254(b).
---------------------------------------------------------------------------
    A faithful and disciplined approach to the core Communications Act 
principle of Universal Service must ensure that, even in the event of 
any statutory or regulatory update, those areas served through support 
from Federal and state USF mechanisms not only ``become'' served in the 
first instance, but that they ``remain'' served, and that consumers and 
businesses everywhere can make full use of advanced communications 
services at affordable rates. Further, Congress should ensure that 
specific, predictable and sufficient support will continue to be 
provided to help ensure reasonably comparable services at reasonably 
comparable rates in rural, high-cost areas, as mandated by current law.
    Congress should also consider an express directive to the FCC to 
ensure that all who use our nation's networks--by whatever service or 
technology--are responsible to contribute to the universal well-being 
and availability of those networks on an equitable basis. USF is still 
funded by assessing interstate and international long distance 
telephone service. The pool of assessable telecommunications service 
revenues is shrinking even as overall communications-related revenues 
grow. As a result, the USF program effectively has an artificial 
funding ceiling that lowers a bit each day due to the failure to 
broaden the contribution base and to stem the incentives (and 
abilities) that are in place today which encourage or allow entities to 
avoid contributing. This de facto cap on the USF program will handicap 
severely our nation's ability to fulfill the statutory core principles 
of Universal Service, competition, and public safety, unless changes 
are made. Indeed, broadening the contribution base to include the 
information services that USF already supports has previously received 
bipartisan backing in the U.S. House.\9\
---------------------------------------------------------------------------
    \9\ See H.R. 5828  102(a), 111th Cong., 2d Sess. (2010).
---------------------------------------------------------------------------
Rural Broadband Experiments
    The FCC recently adopted a report, Order and further notice of 
proposed rulemaking for rural broadband experiments. The Order 
implements a $100 million budget funded by unused Connect America Fund 
support. Hundreds of NTCA member companies--including Yelcot 
Telephone--and other entities have already expressed initial interest 
in participating in these rural broadband experiments, consistent with 
their decades-long commitment to solving the communications needs of 
rural communities. This small, rate-of-return carrier commitment to 
service was highlighted by the FCC's decision to only accept 
applications to deploy networks in locations served by price-cap 
carriers. We are interested in seeing the precise rules that will 
govern these experiments, and we are hopeful that they will help 
further the mission of Universal Service consistent with applicable 
law.
Conclusion
    Entrepreneurial small rural carriers have leveraged private 
capital, Universal Service support, intercarrier compensation, and 
public-private partnerships to lead the ongoing IP Evolution. These 
small businesses play an essential role in deploying broadband to rural 
areas, and the services enabled by broadband are essential to the 
startup, operation, and growth of other rural small businesses. Rural 
America has a bright future powered by smart technologies that promote 
affordability, sustainability, and efficiency in the operation of rural 
industry and the delivery of essential services such as healthcare, 
education, and public safety--all key to rural population growth. The 
benefits that some rural communities are already experiencing will only 
be possible for all if robust broadband is available and affordable. 
Rural telecom providers and lenders such as RUS must have regulatory 
certainty before they can make greater investments in the networks of 
the future. The key to regulatory certainty is a broadband-oriented 
support mechanism for small, rate-of-return carriers that gives rural 
consumers options in selecting the services that best fit their needs.

    The Chairman. Outstanding. Right before the red light. That 
was perfect. Thank you, Mr. Zimmerman.
    I am pleased to recognize now Mr. David Cohen, Vice 
President of Policy, USTelecom, Washington, D.C. Mr. Cohen, you 
are recognized for 5 minutes.

STATEMENT OF DAVID COHEN, VICE PRESIDENT, POLICY, UNITED STATES 
       TELECOM ASSOCIATION (USTELECOM), WASHINGTON, D.C.

    Mr. Cohen. Chairman Crawford, Ranking Member Costa, 
Subcommittee Members, thank you for the opportunity to present 
the progress being made in bringing broadband to rural 
American.
    It is timely and appropriate to review how the Rural 
Utilities Service and the Federal Communications Commission can 
coordinate to extend and improve broadband availability.
    I am David Cohen, and I serve as Vice President of Policy 
at USTelecom. Our association represents innovative broadband 
companies including some of the largest companies in the U.S. 
economy as well as small cooperatives and family-owned 
providers. We share the determination to bring broadband 
services to all Americans.
    Our members have spent enormous sums and made great 
progress in bringing broadband to rural areas. Seventy-eight 
percent of Americans living in rural areas have access to wired 
broadband. However, more can and should be done.
    The FCC's Universal Service Fund, USF, and the Telecom Loan 
Programs of RUS are complementary elements in building out 
rural broadband.
    As the FCC continues modernizing USF, coordination with RUS 
is necessary. The FCC should remain cognizant that RUS has a 
large portfolio of loans to borrowers that derive a significant 
portion of their revenues from USF. USF must also ensure a 
predictable level of future support so that carriers can 
confidently plan, borrow, and invest in facilities.
    In 2011 the FCC adopted the landmark USF Order which 
changed USF from supporting voice service to supporting 
broadband. The FCC created a two-phase Connect America Fund, 
CAF, for price-cap companies serving rural America including 
AT&T, CenturyLink, Frontier, Windstream and others but did not 
replace the legacy USF mechanism for smaller, rate-of-return 
companies. The FCC noted the amounts of traditional USF for 
price-cap carriers had not provided sufficient funding to 
deliver broadband. As a result, 85 percent of the 18 million 
Americans lacking adequate broadband live in price-cap areas. 
CAF Phases I and II were designed for those areas that had 
historically been under-funded by USF.
    To spur immediate build-out, the FCC provided interim 
support of over $500 million to price-cap carriers willing to 
take on broadband service obligations to which companies added 
hundreds of millions of dollars of their own. Consequently, 
almost a million more rural Americans will be connected to 
broadband.
    CAF Phase II, the permanent mechanism for price-cap areas 
is expected to begin in 2015. It will offer price-cap companies 
a fixed amount of money to meet vigorous broadband service 
obligations. The FCC provided price-cap carriers an initial 
opportunity to access CAF II funds. The FCC wisely rejected 
calls by some to jump in front of the line and overturn that 
FCC decision to make the most efficient and cost-effective use 
of the limited funds to build out rural broadband.
    The FCC anticipates in asking price-cap carriers whether to 
accept the obligations and funding by the end of this year. 
Where price-cap companies don't elect funding, the FCC will 
conduct an auction open to all those willing and able to 
undertake the broadband obligations.
    It is important to distinguish between CAF Phase II and the 
FCC's Rural Broadband Experiments Program. The FCC allocated 
$100 million for experiments to explore how to structure the 
auction and to engage interest in deploying new networks. The 
program drew 1,000 expressions of interest. Of the 690 that 
USTelecom sampled, 78 percent asked for more than the support 
available. So while many would-be providers may make facile 
representations about being able to provide broadband service 
in rural areas, even under the very informal expressions of 
interest process almost four out of five proposed to do so 
above the FCC's reserve prices.
    The FCC has made less progress in establishing a USF 
program for rate-of-return carriers. The program doesn't 
support rural lines where the customer gets broadband from the 
rural carrier but voice from someone else. To plan, borrow and 
invest in broadband, small companies need a USF that supports 
broadband-only lines and has some certainty as to future 
revenues.
    The FCC hasn't adopted a plan that allows small companies 
in RUS to determine which future loans and investments are 
feasible. The rural telecom industry has proposed such a plan 
which the FCC should seriously consider.
    In conclusion, the targeted assistance offered by RUS 
coordinated with the FCC's USF program remain essential to a 
healthy rural economy. Thank you for your commitment which we 
share to accelerate rural development by making broadband 
available to rural America.
    [The prepared statement of Mr. Cohen follows:]

   Prepared Statement of David Cohen, Vice President, Policy, United 
        States Telecom Association (USTelecom), Washington, D.C.
    Chairman Crawford, Ranking Member Costa, Members of the Committee, 
thank you for giving me the opportunity to appear before you today to 
present the progress being made by our member companies in bringing 
ubiquitous high-speed broadband service to rural Americans. Immense 
benefits accrue to rural areas where broadband service is present, 
including enabling rural development, distance learning and remote 
health care. It is timely and appropriate that the Subcommittee take 
time to review how the Rural Utilities Service (RUS) and the Federal 
Communications Commission (FCC) are coordinating to extend and improve 
broadband availability in difficult to serve low-density rural areas.
    My name is David Cohen and I serve as Vice President of Policy at 
USTelecom. Our association represents innovative broadband companies 
ranging from some of the largest companies in the U.S. economy to some 
of the smallest cooperatives and family-owned telecom providers in 
rural America. Our members offer a wide range of communications 
services on both a fixed and mobile basis, and the overwhelming 
majority of them offer advanced broadband services including voice, 
video and data. Rural America relies on our members' wireline networks 
for service to consumers and to make the connections to cell towers to 
enable wireless communications. The customers who rely on our networks 
include residential consumers, businesses large and small, and 
government entities at the local, state and Federal levels. What unites 
our diverse membership is our shared determination to deliver broadband 
services to all Americans--regardless of their location.
    Investment in broadband network infrastructure has created jobs, 
spurred innovation, and revolutionized the way Americans learn, work, 
communicate, and shop. That investment is particularly important in 
rural America because broadband can overcome barriers such as distance 
and remoteness that can impede development. Our members have spent 
enormous sums and made great progress in bringing broadband to rural 
America. Today, according to a report by the Commerce Department's 
National Telecommunications and Information Administration reflecting 
mid-2013 data, 78 percent of Americans living in rural areas have 
access to wired broadband. But we are not here to rest on our laurels; 
more can and should be done to increase the availability and 
performance of broadband in rural areas.
The FCC and RUS Should Continue to Coordinate Efforts to Bring 
        Broadband to Unserved Areas
    The High-Cost Universal Service Fund (USF) administered by the 
Federal Communications Commission (FCC) and the Broadband and 
Infrastructure Loan Programs of the Rural Utilities Service (RUS) are 
key complementary elements in deploying cutting edge communications 
services to rural America. As the FCC modernizes the USF program to 
conform to developments in technology and in the marketplace, 
coordination between it and RUS is necessary to continue the progress 
that has been made to build out broadband facilities in rural areas. 
The FCC should remain cognizant that RUS has a sizeable portfolio of 
loans to borrowers that derive a significant portion of their revenues 
from USF. Future USF mechanisms must ensure reasonable predictability 
as to the level of future support so that carriers can confidently 
plan, borrow and make long-term investments in building out fixed cost 
facilities designed to last for decades.
USF for Areas Served by Price Cap Companies
    In 2011 the FCC adopted its landmark USF/ICC Transformation Order, 
designed to evolve its high-cost Universal Service regime from 
supporting voice service to supporting broadband. In that Order, the 
FCC created a two-phase Connect America Fund (CAF) for the larger, 
price-cap companies such as AT&T, CenturyLink, Windstream and Frontier, 
and reformed but did not replace the legacy USF mechanism for smaller, 
rate-of-return companies such as Smithville in Chairman Crawford's 
district and Kerman in the district of Ranking Member Costa. The FCC 
noted that at the time it adopted its Order, more than 83 percent of 
the approximately 18 million Americans lacking access at or above the 
FCC's broadband speed benchmark lived in areas served by price-cap 
carriers. The FCC's National Broadband Plan explained that while the 
old system of funding for such carriers supported phone service to 
lines served by price-cap carriers, the amounts did not provide an 
incentive for the costly upgrades necessary to deliver broadband to 
these customers.
    CAF Phase I and CAF Phase II are essential vehicles for providing 
necessary support to price-cap service areas that historically have 
been under-funded because of inadequate USF support. By targeting 
funding to the locations served by price-cap carriers, CAF Phase I 
incremental support and CAF Phase II are instrumental to achieving the 
Commission's broadband deployment goals.
    To spur immediate build out in price-cap company areas, the FCC 
offered additional funding under its CAF Phase I program to price-cap 
carriers that elected to take on the obligations associated with the 
funding. Not only did price-cap companies accept over $500 million in 
CAF Phase I funds, they kicked in hundreds of millions of dollars of 
their own capital to bring broadband to rural areas. Construction is 
well underway pursuant to that funding and, according to the FCC, 
almost a million more rural Americans are already or soon will be 
receiving broadband service.
    The FCC has not yet implemented CAF Phase II, the permanent CAF 
mechanism for areas served by price-cap companies. Implementation is 
expected early in 2015. The FCC has consistently and wisely rejected 
calls by some to jump in front of the line and overturn the FCC's 
considered decision to make the most efficient and cost-effective use 
of the limited funds available in order to accelerate the availability 
of broadband to rural Americans. The FCC has done this by providing 
price-cap carriers with an initial opportunity to expand and upgrade 
service by accepting CAF Phase I and CAF Phase II funds.
    CAF Phase II will offer price-cap companies a fixed amount of 
money, determined for each state by a cost model, to meet vigorous 
broadband service obligations. Under the current CAF Phase II 
structure, a company electing to participate in a particular state 
would receive 5 years of CAF support (for an investment amortized for 
up to 25 years) and be obligated to provide broadband speeds at 4 Mbps 
downstream and 1 Mbps upstream. The FCC is considering increasing the 
speed requirement to 10 Mbps downstream which, because of the 
additional costs involved in providing faster service, should be 
accompanied by a longer funding term and greater program flexibility. 
USTelecom supports the adoption of the higher speed requirement if 
accompanied by modifications to the terms of support including the 
provision of funding for 10 years. The FCC has committed to making this 
determination soon and price-cap carriers will be electing whether to 
accept the state-level obligation and funding by the end of this year. 
In states in which price-cap companies do not elect funding, the FCC 
will conduct a competitive bidding process open to all those willing 
and able to undertake the broadband obligations. Winners in the 
competitive bidding process will receive support for 10 years.
The FCC's Rural Broadband Experiments
    It is important to distinguish between the CAF Phase II mechanism 
and the Rural Broadband Experiments program recently adopted by the 
FCC. That program is budgeted at a one-time amount of $100 million and 
will be used by the FCC to explore how to structure the CAF Phase II 
competitive bidding process in price-cap areas and to gather valuable 
information about interest in deploying next generation networks in 
high-cost areas. USTelecom shares the Commission's goal of ensuring 
cost-effective and universal broadband connectivity in rural America. 
The FCC's Rural Broadband Experiments program drew more than a thousand 
``expressions of interest'' from potential participants. Those 
participants will now be able to submit formal applications for 
funding. USTelecom reviewed a random sample of 690 of the more than 
1,000 expressions of interest filed for the Rural Broadband 
Experiments. The results of USTelecom's review suggest that most of the 
substantive expressions of interest sought levels of funding 
substantially greater than the CAF Phase II model-based support for the 
proposed service area. The results show that 78 percent of the sampled 
expressions of interest asked for more than the CAF II support 
available and that on average the requested amount for this group was 
almost ten times more than the available support. Overall, the 227 
expressions of interest reviewed under USTelecom's streamlined approach 
sought almost four times the CAF Phase II support available, asking for 
$2.4 billion in support for Census tracts identified as having $620 
million in available support. So while many would-be providers may make 
facile representations about being able to provide broadband service in 
rural areas, even under the very informal ``expressions of interest'' 
process, almost four out of five proposed to do so at funding levels 
above the reserve prices set by the FCC.
USF for Rate-of-Return Companies
    In contrast to the CAF program to provide support in areas served 
by price-cap carriers, the FCC has made less progress in establishing a 
high-cost Universal Service program to provide support to smaller rate-
of-return carriers serving rural areas. The current program does not 
provide support to rural lines where the customer subscribes to 
broadband service from the rural local exchange carrier but obtains 
voice service from another carrier, usually a mobile provider. Also, 
the amount of funding provided to rate-of-return companies is based on 
legacy mechanisms developed to support voice services. In order to 
plan, borrow and invest in long-term broadband facilities, rate-of-
return companies need a high-cost USF mechanism that is designed for 
the new broadband world, supports broadband-only lines and incorporates 
a reasonable amount of certainty as to future revenues. While the FCC's 
recent repeal of its Quantile Regression Analysis (QRA) limitation on 
support that could be provided to individual carriers was a major step 
in the right direction, the FCC is still developing a plan that small 
rural carriers, and RUS, can quantify and evaluate to determine which 
future loans and investments are feasible and whether past loans and 
investments can be repaid. The rural telecom industry has proposed a 
plan that would carefully transition from the current mechanisms to new 
broadband mechanisms and operate within the established budgetary 
limitations. The FCC should give this plan serious consideration.
    USTelecom members appreciate the strong support the Agriculture 
Committee has provided for RUS telecommunications programs since their 
inception in 1949. RUS endures because it is a public-private 
partnership in which the borrowers are the conduits for the Federal 
benefits that flow to rural telecom customers--the true program 
beneficiaries. The targeted assistance offered by the RUS broadband and 
telecommunications loan programs--thoughtfully coordinated with the 
FCC's high-cost programs--remain essential to a healthy and growing 
rural economy and contribute to the provision of universal 
communications services comparable to those found in urban areas.
    In closing, let me again thank the Subcommittee for holding this 
timely hearing. We share the Subcommittee's commitment to accelerating 
rural development by making broadband services available to rural 
American homes, businesses, schools, libraries and healthcare 
institutions and we look forward to our continued work together to 
address this constantly evolving challenge.

    The Chairman. Thank you, Mr. Cohen. Next I am pleased to 
recognize Mr. Robert L. Hance, President and CEO of Midwest 
Energy Cooperative, Cassopolis, Michigan, testifying on behalf 
of the National Rural Electric Cooperative Association. Mr. 
Hance, you are recognized for 5 minutes.

  STATEMENT OF ROBERT L. HANCE, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, MIDWEST ENERGY COOPERATIVE, CASSOPOLIS, MI; ON BEHALF 
                       OF NATIONAL RURAL
                ELECTRIC COOPERATIVE ASSOCIATION

    Mr. Hance. Chairman Crawford, Ranking Member Costa, Members 
of the Subcommittee, good morning. My name is Bob Hance. Thank 
you for the opportunity to testify before this distinguished 
Subcommittee to coordinate future investments in rural 
broadband.
    I am the President and CEO of Midwest Energy Cooperative, 
an electric cooperative serving more than 35,000 members in 
southern Michigan, northern Indiana, and Ohio.
    I am also testifying on behalf of the National Rural 
Electric Cooperative Association. NRECA is the national service 
organization for more than 900 not-for-profit rural electric 
utilities that provide energy to over 42 million people in 47 
states. Electric cooperatives own and maintain 2.5 million 
miles of the nation's electric distribution lines, covering 75 
percent of the U.S. landmass.
    In the 1930s, rural electric cooperatives like Midwest 
Energy answered the call of rural America to bring electricity 
to the countryside. Electricity was a vital and transformative 
product that larger investor-owned utilities were unwilling and 
unable to provide to rural America. Today, Midwest Energy and 
other rural electric cooperatives are again answering the call 
to develop the next transformative utility, robust broadband. I 
am proud to discuss with you Midwest Energy's rural broadband 
initiative offered through our telecommunications subsidiary, 
Midwest Connections.
    According to a recent NTIA study, only 23 percent of rural 
residents have wireline broadband at a speed of 50 Mbps 
compared to 98 percent of urban residents. The National 
Broadband Map and anecdotal evidence from our members suggests 
that in the Midwest service area, 50 Megabits is even less 
available. Significant gaps in the availability of broadband in 
rural America strand our members on the wrong side of the 
digital divide.
    In response to member demand, Midwest began investigating 
the opportunity to provide this valuable service. It became 
clear that although billions have been spent in rural 
telecommunications, little infrastructure exists in rural areas 
to provide broadband. Midwest explored satellite and broadband 
over power line solutions, but they all failed to provide 
reliable and scalable service. Ultimately, Midwest designed a 
243 mile fiber ring through utility substations and facilities 
for the immediate purpose of fostering a smarter grid for our 
members. Leveraging this key asset provides us a unique 
opportunity to deploy high-speed, next-generation broadband 
solutions where one currently does not exist.
    Midwest and other rural electric cooperatives need your 
support to compete for the billions of dollars available to 
provide broadband in high-cost areas. Midwest and more than 100 
other electric cooperatives filed expressions of interest in 
response to a request by the Federal Communications Commission. 
The overwhelming response prompted the FCC to move forward with 
conducting rural broadband experiments. Any company interested 
in providing robust broadband may bid for financial support. 
The Commission is actively considering whether or not to 
similarly extend the opportunity to compete to areas covered by 
unsuccessful experiment applications.
    Rural electric cooperatives like Midwest are championing an 
inclusive competitive process. The FCC will consider the 
comments of industry, consumers, and legislators in conjunction 
with its experience in the rural broadband experiments to allow 
competition in rural areas for building broadband networks.
    The FCC is poised to award almost $20 billion of Connect 
America funding to support high-cost areas. This is a once-in-
a-generation opportunity to deploy broadband in rural 
communities who deserve to be full participants in our modern 
economy. Midwest and NRECA appreciate the efforts of the FCC to 
create an inclusive environment where all eligible providers 
have an opportunity to compete for support in offering creative 
solutions and to close the gap between broadband available in 
urban and rural areas.
    In conclusion, cooperatives like Midwest Energy are well-
suited to build and maintain broadband networks. We aren't 
asking for preferential treatment, just an opportunity to 
compete. We do not seek to exclude anyone from the 
conversation, but we do believe that a narrow view of the 
solution may condemn our communities to the wrong side of the 
digital divide.
    I want to repeat this last point. Midwest advocates for an 
inclusive opening of opportunity to provide broadband to 
service rural counties. The status quo approach is exclusive 
and limits opportunity to those who have always received high 
cost support. Given the current lack of broadband in rural 
areas, Midwest strongly believes that if the Commission and 
Congress do not open the playing field to competition, rural 
America may never have the chance to experience the educational 
opportunities, employment prospects, and advanced healthcare 
that broadband delivers to those lucky enough to live in low-
cost, high-population centers.
    Thank you for the opportunity to testify before this 
distinguished Subcommittee. I welcome any questions.
    [The prepared statement of Mr. Hance follows:]

  Prepared Statement of Robert L. Hance, President and Chief Executive
   Officer, Midwest Energy Cooperative, Cassopolis, MI; on Behalf of
            National Rural Electric Cooperative Association
    Chairman Crawford, Ranking Member Costa, and Members of the 
Subcommittee:

    Good morning. My name is Bob Hance. Thank you for the opportunity 
to testify before this distinguished Subcommittee to discuss 
coordinating future investments in rural broadband.
    I am the President and CEO of Midwest Energy Cooperative, an 
electric cooperative serving more than 35,000 members in Southern 
Michigan, Northern Indiana and Ohio. I've worked in the electric 
cooperative business since 1974.
    I am also testifying on behalf of the National Rural Electric 
Cooperative Association (NRECA). NRECA is the national service 
organization for more than 900 not-for-profit rural electric utilities 
that provide electric energy to over 42 million people in 47 states or 
12 percent of electric customers. Electric cooperatives own and 
maintain 2.5 million miles or 42 percent of the nation's electric 
distribution lines, covering 75 percent of the U.S. landmass and serve 
an average of 7.4 consumer owners per mile.
    In the 1930s, rural electric cooperatives, like Midwest Energy, 
answered the call of rural America to bring electricity to the 
countryside. Electricity was a vital and transformative product that 
larger investor-owned utilities were unwilling and unable to provide to 
rural America. Today, Midwest Energy and other rural electric 
cooperatives are again answering the call to develop the next 
transformative utility, robust broadband, in rural America. I am proud 
to discuss with you Midwest Energy's rural broadband initiative, 
offered through our telecommunications subsidiary, Midwest Connections.
    According to a recent NTIA study, only 23 percent of rural 
residents have wireline broadband at a speed of 50 Mbps compared to 98 
percent of urban residents.\1\ The National Broadband Map and anecdotal 
evidence from our members suggests that in the Midwest service area, 50 
Mbps is even less available.\2\ Significant gaps in the availability of 
broadband in rural America strand our members on the wrong side of the 
digital divide. Without robust access to broadband, these Americans 
cannot take advantage of the educational opportunities or employment 
prospects that most Americans now take for granted. Our members are 
clamoring for access to the same level of broadband access as urban 
Americans. For example, professors from both the University of Notre 
Dame and Western Michigan University live within the Midwest service 
territory. They enjoy robust broadband at work, but when they come home 
they lose the ability to work because they lack sufficient broadband 
service.\3\ We've heard similar complaints from members who work at the 
Kellogg World Headquarters in Battle Creek, the Whirlpool World 
Headquarters in Benton Harbor and at Pfizer's large manufacturing 
facility in Portage.\4\ The modern world demands reliable, affordable 
access to broadband.
---------------------------------------------------------------------------
    \1\ Broadband Availability: Beyond the Rural/Urban Divide. (2013). 
Available at http://www.ntia.doc.gov/files/ntia/publications/
broadband_availability_rural_urban_june_2011_
final.pdf.
    \2\ See the National Broadband Map. http://www.broadbandmap.gov/speed.
    \3\ Midwest sent a Call to Action to its members to gauge the 
interest in deploying broadband. Within days, Midwest received more 
than 600 responses. One member noted: ``We need to finish the job of 
providing broadband to rural areas even when it doesn't fit a profit 
model. The expense to not providing national coverage to all 
populations is far more costly. Let rural electric cooperatives that 
are poised to deliver a high-speed broadband solution do what they do 
so well; provide service to rural America.''
    \4\ There are many other significant educational institutions and 
world class employers in and near Midwest's service territory. The 
economic viability of rural areas depends on the extension of 
broadband.
---------------------------------------------------------------------------
    In response to member demand, Midwest began investigating the 
opportunity to provide this valuable service. It became clear that 
although billions have been spent in rural telecommunications, little 
infrastructure exists in rural areas to provide broadband. Midwest 
explored satellite and broadband over power line solutions, but they 
all failed to provide reliable, scalable service. Ultimately, Midwest 
designed a 243 mile fiber ring through utility substations and 
facilities for the immediate purpose of fostering a smarter grid for 
our members.\5\ Leveraging this key asset provides us a unique 
opportunity to deploy a high-speed, next-generation broadband solution 
where one currently does not exist. Construction has begun and will 
continue to roll out slowly.
---------------------------------------------------------------------------
    \5\ The Executive Summary for Midwest's fiber project is attached 
as Exhibit A.
---------------------------------------------------------------------------
    Rural electric cooperatives, like Midwest, provide service to more 
than 42 million Americans. We serve the lowest population density by 
mile.\6\ Electric cooperatives grew out of a need to serve communities 
where no other utilities saw adequate financial incentive. We are 
closely connected to our members and we leverage that relationship to 
be as responsive as possible to their needs. Today, our members tell us 
that need is broadband.
---------------------------------------------------------------------------
    \6\ Cooperatives serve an average of 7.4 members per mile compared 
to Municipal electric companies who serve 48 customers per mile and 
Investor-Owned Utilities that serve an average of 34 customers per 
mile.
---------------------------------------------------------------------------
    Across Co-op Nation, many electric cooperatives are pursuing and 
implementing plans utilizing different models to deploy broadband to 
rural America. Through the Recovery Act broadband programs delivered by 
the Rural Utilities Service and the National Telecommunications and 
Information Administration, 13 cooperatives in nine states received 
funding for system designs that included fiber to the home, middle 
mile, microwave and wireless technology.
    Co-Mo Connect, a subsidiary of Co-Mo Electric Cooperative in 
Tipton, Missouri is currently in phase two of a four phase fiber to the 
home broadband project to provide service to the consumer members in 
its service territory. When complete, Co-Mo's system will include 4,000 
miles of fiber across its 2,300 square mile territory which will pass 
31,500 homes and businesses, averaging 7.8 customers per mile. Co-Mo 
Connect offers tiered subscription packages with symmetrical speeds 
ranging from 5 Mbps to 1 Gbps of symmetrical service at competitive 
prices ranging from $39.95-$99.95.\7\ When determining how to best 
implement a triple play service offering, Co-Mo partnered with another 
Missouri provider, Big River Telephone to provide voice service. On the 
video side, Co-Mo is working with another cooperative in Missouri to 
share equipment and transport expenses. Eventually, Co-Mo intends to 
collaborate with other cooperatives in Missouri and surrounding states 
to purchase the necessary video equipment and content necessary to 
provide an even more competitive video service offering. This 
collaborative effort would allow this group of cooperatives to share 
the costs of specialized equipment and therefore keep the cost of 
service more reasonable for its members. Co-Mo Connect has been 
successful in obtaining affordable access to capital for the first two 
phases of their project, but because each phase decreases in density it 
seeks access to the FCC Connect America Fund to support the more rural 
and costly portions of its territories.
---------------------------------------------------------------------------
    \7\ A full description of Co-Mo's project and service packages can 
be found at: http://co-mo.net/Co-Mo_Connect/Internet.html.
---------------------------------------------------------------------------
    Another example of a cooperative bringing broadband to its members 
is Northeast Rural Services, a subsidiary of Northeast Oklahoma 
Electric Cooperative. Northeast Rural Services is building a fiber to 
the home system throughout its service territory. It is utilizing a 
Rural Utilities Service Broadband Loan to finance the system which will 
provide triple play services and broadband speeds up to 1 Gbps.
    Midwest, and other rural electric cooperatives need your support to 
compete for the billions of dollars available to provide broadband in 
high cost areas. Midwest and more than 100 other electric cooperatives 
filed Expressions of Interest in response to a request by the Federal 
Communications Commission to identify if there is interest and ability 
for non-traditional providers to deploy broadband in rural, high cost 
areas.\8\ The overwhelming response prompted the FCC to move forward 
and conduct Rural Broadband Experiments. Any company interested in 
providing robust broadband may bid for support at or below what is the 
support available to the price-cap carrier serving eligible Census 
blocks.\9\ The Commission is actively considering whether or not to 
similarly extend the opportunity to compete to areas covered by an 
unsuccessful Experiment Application. Rural electric cooperatives like 
Midwest are championing an inclusive process. The FCC will consider the 
comments of industry, consumers and legislators in conjunction with its 
experience in the Rural Broadband Experiments to determine whether or 
not to exempt areas where there is a demonstrated competitor from the 
Right of First Refusal program described in the 2011 Transformation 
Order.\10\ Given the small budget for the Experiments, there could be 
many communities potentially eligible to compete for Federal support if 
those communities are exempted from the Right of First Refusal and set 
for a competitive auction.
---------------------------------------------------------------------------
    \8\ Attached as Exhibit B is Midwest's Expression of Interest, 
filed on March 14, 2014. Other Expressions of Interest can be found at 
www.fcc.gov. A map developed by NRECA documenting the areas where a 
rural electric cooperative submitted an Expression of Interest is 
attached as Exhibit C.
    \9\ Connect America Fund, ETC Annual Reports and Certifications, WC 
Docket Nos. 10-90, 14-58, Report and Order and Further Notice of 
Proposed Rulemaking, FCC 14-98 (July 14, 2014). Price-cap carriers are 
generally the largest carriers providing local telephone service, like 
AT&T, CenturyLink and Version.
    \10\ See Connect America Fund, A National Broadband Plan for Our 
Future, Establishing Just and Reasonable Rates for Local Exchange 
Carriers, High-Cost Universal Service Support, Developing an Unified 
Intercarrier Compensation Regime, Federal-State Joint Board on 
Universal Service, Lifeline and Link-Up, Universal Service Reform--
Mobility Fund, WC Docket Nos. 10-90, 07-135, 05-337, 03-109, CC Docket 
Nos. 01-92, 96-45, GN Docket No. 09-51, WT Docket No. 10-208, Report 
and Order and Further Notice of Proposed Rulemaking, FCC 11-161 (Nov. 
18, 2011).
---------------------------------------------------------------------------
    The FCC is poised to award almost $20 billion Connect America 
funding to support the high cost areas served by the price-cap 
companies. This is a once in a generation opportunity to deploy 
broadband in rural communities who deserve to be full participants in 
our modern economy. Midwest appreciates the efforts of the FCC to 
create an inclusive environment where all eligible providers have an 
opportunity to compete for support in offering creative solutions and 
to close the gap between broadband available in urban and rural areas.
    The areas that Midwest and other electric cooperatives serve are 
struggling. For the first time in our history, rural America lost 
population. Since 2011, net job growth in non-metro areas has been near 
zero.\11\ At least one of the contributing factors is the lack of 
essential services--like broadband. This notion concerns Agriculture 
Secretary Tom Vilsack who stated:
---------------------------------------------------------------------------
    \11\ See USDA ERS Publication Rural America at a Glance, 2013 
edition.

          Unless we respond and react, the capacity of rural America 
        and its power and its reach will continue to decline. Rural 
        America, with a shrinking population, is becoming less and less 
        relevant to the politics of this country, and we better 
        recognize that, and we had better begin to reverse it.\12\
---------------------------------------------------------------------------
    \12\ See http://bigstory.ap.org/article/usda-chief-rural-america-
becoming-less-relevant.

    In conclusion, cooperatives like Midwest Energy are well suited to 
build and maintain broadband networks. We have a wealth of experience 
in building regulated utility networks. We aren't asking for a 
preferential treatment, just an opportunity to compete. We do not seek 
to exclude anyone from the conversation, but we do believe that a 
narrow view of the solution may condemn our communities to the wrong 
side of the digital divide. I want to repeat this last point: Midwest 
advocates for an inclusive opening of opportunity to provide broadband 
service to rural counties. The status quo approach is exclusive and 
limits opportunity to those who have always received high cost support. 
Given the current lack of broadband in rural areas, Midwest strongly 
believes that if the Commission and Congress do not open the playing 
field to competition, rural America may never have the chance to 
experience the educational opportunities, employment prospects and 
advanced healthcare that broadband delivers to those lucky enough to 
live in low cost, high population centers.
    Thank you for the opportunity to testify before this distinguished 
Subcommittee. I welcome any questions you may have.
                               Exhibit A
Midwest Energy Cooperative
Executive Status Update Summary of Project Connect-Rural-Michigan
    Midwest Energy Cooperative's (``Midwest'') board of directors has 
charged senior management with developing a coalition of allies and 
appropriate state and Federal officials to bring high-speed broadband 
service to unserved and under-served portions of rural Michigan, in 
part, by accessing Federal funding from the Connect America Fund 
(``CAF'') and similar funding which, to date, have only been available 
to more traditional incumbent entities who have declined to accept much 
of the available funds as inconsistent with their business plan. The 
result is that high-speed broadband service is today only available in 
more populated areas--and large portions of rural America remain 
unserved or under-served.
    While Midwest's focus is on its service territory in rural 
Michigan, its goal is to act as a catalyst to bring high-speed 
broadband to unserved and under-served rural America. To date, Midwest 
views its allies as including the Utilities Telecom Council (``UTC''), 
United States Department of Agriculture--Rural Utilities Service 
(``RUS''), the Michigan Electric Cooperative Association (``MECA''), 
Michigan Public Service Commission (``MPSC''), the American Farm Bureau 
Federation (``AFBF'') and other similarly situated rural electric 
cooperatives throughout the country.
    Midwest is proceeding with the deployment of a 243 mile fiber 
communications ring through utility substations and facilities to 
foster a smarter grid. Not only will this fiber ultimately help member 
consumers manage their energy use, it will provide the critical 
infrastructure required to support broadband deployment.
    To date, Midwest has taken the following actions to bring high-
speed broadband to rural Michigan and rural America:

  <bullet> Power System Engineering (www.powersystem.org) was retained 
        in 2012 to assist in the necessary technical analyses 
        associated with our fiber communications ring; and Pulse 
        Broadband, Inc. (www.pulsebroadbandinc.com) was retained in 
        2013, along with a host of other contractors, to assist with 
        financial modeling, provisioning of services and deployment of 
        fiber-to-the-premises (``FTTx'');

  <bullet> Orjiakor lsiogu, former MPSC Chairman and former Chair of 
        the National Association of Regulatory Utility Commissioners 
        (``NARUC'') Taskforce on Federalism & Telecommunications, has 
        been retained to assist in necessary policy analyses and 
        licensing guidance;

  <bullet> The national law firm, Dykema (Albert Ernst and Shannon 
        Heim) has been retained to assist with legal input and 
        regulatory compliance;

  <bullet> Midwest's fiber communications ring represents a $9.5 
        million investment by the cooperative. Another $53 million is 
        required to deploy FTTx off that ring to rural un- and under-
        served southwest Michigan. Midwest has now been advised by the 
        U.S. Department of Agriculture, Rural Utilities Services, that 
        electric loans can now be used to invest in fiber deployment to 
        the home, thus providing a low-cost matching source for CAF 
        application--assuming smart grid application. Still, access to 
        CAF will help expedite a solution for residents of Midwest's 
        rural service footprint;

  <bullet> With respect to advancing the notion that CAF be availed to 
        others, the Midwest team has met with senior representatives of 
        the RUS, NRECA, MECA, the MPSC, FCC, NARUC, Pokagon Band of 
        Potawatomi, AFBF and member organizations, and the Michigan 
        Governor's office in both Lansing, MI and Washington, D.C. We 
        have done this solely and in tandem with UTC and its Rural 
        Broadband Council (``RBC''), a group consisting of more than 
        100 of the nation's rural electric cooperatives;

  <bullet> Over the past year, Midwest and its allies have met several 
        times with FCC Commissioners and staff, their Office of 
        Strategic Planning, Wireline Bureau and IP Transitions Team;

  <bullet> Midwest and its partners have also met with key Members of 
        Congress as well as the United States Government Accountability 
        Office (GAO). The GAO has released a series of reports on rural 
        broadband deployment efforts based, in part, on discussions 
        with Midwest and others (http://www.gao.gov/products/GAO-14-
        409);

  <bullet> On December 10, 2013, in coordinated filings, Midwest and 
        UTC requested that the FCC initiate proceedings which will 
        transition access to CAF funds to the country's rural electric 
        cooperatives and other entities serving rural America. On 
        January 30th, the FCC issued an Order that includes rural 
        experiments, inviting interested parties to file expressions of 
        interest (``EOI'') by March 7, 2014. On March 7, 2014, Midwest 
        filed an EOI to FCC along with over 100 rural electric 
        cooperatives. All total, 1,000+ EOIs were filed with the FCC. 
        The FCC will now evaluate the EOIs, set a budget for rural 
        experiments, provide application guidance, evaluate 
        applications and begin funding projects late third quarter;

  <bullet> On February 12h, 2014, Midwest and its partners secured a 
        resolution from NARUC supporting broader access to CAF by 
        utilities and other critical infrastructure industries;

  <bullet> Midwest received its permanent competitive local exchange 
        carrier (``CLEC'') license in March 2014 and a code of conduct 
        waiver from the MPSC in June 2014. Its application for an 
        eligible telecommunications carrier (``ETC'') license is in 
        process;

  <bullet> A soft launch of Midwest's full project is underway, 
        deploying roughly 21 miles of its communications ring through 
        two Midwest substations. In addition to assessment of smart 
        grid potential, Midwest is building 86 miles of fiber to 951 
        homes and businesses in the area. Even absent a strong 
        marketing push, our overall take rate is 26% thus far. Service 
        plans range from 25-100 Mbps down and 10-50 Mbps up for 
        residential and 25-100 Mbps of symmetrical service for 
        business. Midwest's service is scalable to a gigabit. Voice-
        over-Internet Protocol (``VoIP'') will be provided by Big River 
        Telephone and video is being evaluated;

  <bullet> In June 2014, the FCC issued a Report and Order, Declaratory 
        Ruling, Order, Memorandum Opinion and Order, Seventh Order on 
        Reconsideration, and Further Notice of Proposed Rulemaking (WC 
        Docket No. 10-90), which should make it easier for utilities to 
        gain access to Federal funding for rural broadband under CAF; 
        and

  <bullet> On July 11, 2014, the FCC issued an Order detailing the 
        process by which entities may apply for a rural experiment. 
        Applications are due on October 14, 2014. We will be 
        participating in rural experiment workshops and plan to be 
        active in commenting on the FNPRM. Additionally, Midwest 
        intends to apply for rural experiment funding while continuing 
        to push for equal access to CAF going forward.

    This Executive Status Update Summary will be updated periodically 
to keep interested parties advised as to progress. Questions should be 
directed to either Midwest President and Chief Executive Officer Bob 
Hance at 269-445-1091 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f4d404d01474e414c4a6f5b4a4e4242464b584a5c5b014c4042">[email&#160;protected]</a>) or Midwest Vice 
President, Regulatory Compliance and Community Development Dave Allen 
at 269-445-1081 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ffbfee9fab1fef3f3faf1dfebfafef2f2f6fbe8faecebb1fcf0f2">[email&#160;protected]</a>).
                               Exhibit B
    Date: Monday, February 24, 2014
    From: Robert L. Hance--President & CEO, Midwest Energy Cooperative
    To: The Honorable Marlene Dortch--Secretary, Federal Communications 
    Commission
    Subject: Expression of Interest--Midwest Energy Rural Broadband 
    Experiment, WC Docket No. 10-90
Background
    Midwest Energy Cooperative is a member-owned electric utility 
serving more than 35,000 residential, agricultural, commercial and 
industrial customers in southwestern and southeastern Michigan, 
northern Indiana and Ohio. We also provide propane services under the 
name Midwest Propane and telecommunications services as Midwest 
Connections. In the past, Midwest Connections has provided dial-up and 
satellite Internet as well as broadband over power lines (BPL). We are 
now fully committed to a next generation fiber solution as we have 
found other platforms to be less-reliable and of insufficient capacity 
and speed.
    Midwest Energy is one of roughly 840 distribution cooperatives 
across 47 states providing service to 42 million Americans and 18.5 
million businesses, homes, schools, churches, farms, irrigation systems 
and other establishments. As an industry, we own and maintain 42% of 
the nation's distribution lines. That said, only 12% of Americans are 
customers of ours. Whereas publicly owned utilities (municipals) 
average 48 consumers per mile and investor-owned utilities average 34 
customers per mile, electric cooperatives serve an average of 7.4 
members per mile. These are the folks in need of a broadband solution.
Our Project
    Plans to advance from automated meter reading (AMR) to the 
deployment of automated metering infrastructure (AMI) provided us the 
opportunity to explore a smarter grid for our members. In 2012, we 
contracted with Power System Engineering, Inc. (www.powersystem.org) to 
help us design and engineer a high-speed communications ring through 
substations and facilities. The total cost of this 243 mile Midwest-
owned network is $9.5 million. Plans are in place to at least finance 
the roughly $6 million portion of the ring that serves our southwest 
district through an already-approved United States Department of 
Agriculture--Rural Utilities Service (USDA-RUS) work plan loan.
    Recognizing the significant potential of this asset, Midwest Energy 
contracted with Pulse Broadband (www.pulsebroadbandinc.com) to help us 
design a fiber-to-the-premises (FTTx) product. Utilizing the 
communications ring as a middle mile backbone, Pulse Broadband designed 
a portion of the 1,800 mile bi-directional FTTx open network using 
gigabit passive optical network (GPON) electronics. At the appropriate 
time, they will assist us in engineering the remainder of our network. 
Midwest Energy's system is scalable, possessing the potential for a 
gigabit of service to every home or business in our proposed footprint. 
Initially, the following plans will be offered:
                 Residential High-Speed Internet PackagesBasic:                             Up to 20 Mbps downstream and 10 Mbps
                                    upstream $49.95/month
Advanced:                          Up to 50 Mbps downstream and 20 Mbps
                                    upstream $59.95/month
Ultra:                             Up to 100 Mbps downstream and 25 Mbps
                                    upstream $99.95/month                  Business High-Speed Internet PackagesBasic:                             Up to 20 Mbps downstream and 20 Mbps
                                    upstream $79.95/month
Advanced:                          Up to 50 Mbps downstream and 50 Mbps
                                    upstream $129.95/month
Ultra:                             Up to 100 Mbps downstream and 50 Mbps
                                    upstream $199.95/month
    Unlimited Local and Long Distance Telephone within the U.S., 
Canada, Dominican Republic, Bahamas, U.S. Virgin Islands, Puerto Rico 
and Guam. International calling plans and other features are also 
available.
 Residential:                       Includes three-way calling, caller ID
                                    (number), call ID blocking, call
                                    return, call forwarding, call
                                    waiting and voice mail. $39.95/month
Business:                          Includes three-way calling, caller ID
                                    (name and number), call forwarding,
                                    hunting and voice mail. $49.95/month
    Voice services will be provided through Big River Telephone 
(www.bigrivertelephone.com) and video service is under consideration. 
Midwest Energy will offer members a $10 double-play discount for 
bundling their Internet and telephone services with us.
    Midwest Energy serves neither cities nor villages in its proposed 
service footprint. In these areas, incumbent Frontier (DSL) and Comcast 
(cable) provide voice, data and video. Rural townships in southwest 
Michigan are mostly devoid of anything other than satellite and Mobile 
WiFi (MiFi). Bloomingdale Communications, a first and second round 
stimulus recipient, has deployed fiber in the northern-most, and most-
dense, portion of our service area. Our discussions with them have 
uncovered no plans to expand beyond their existing boundaries.
Timetable
    Midwest Energy is ``shovel-ready'' with its project. We have 
secured a temporary CLEC license from the Michigan Public Service 
Commission and will pursue an ETC license and other certifications when 
our permanent CLEC is granted in March. We have ``socialized'' our 
intent with numerous state and Federal agencies and regulatory bodies 
in an effort to be transparent and to learn what is necessary to 
operate in this complex arena.
    Already, Midwest Energy has deployed roughly 21 miles of our 
communications ring through two substations serving areas adjacent to 
both Schoolcraft and Edwardsburg, Michigan. In addition to assessment 
of smart grid potential, Midwest is evaluating the FTTx potential of 
laying 72 miles of fiber to 953 homes and businesses in the area. The 
capital requirements for our soft launch are $4,367,452-$1,482,500 in 
transmission costs and the balance in FTTx costs. Our first two 
``beta'' customers are receiving service from Midwest Energy. One is 
testing a 100 Mbps plan and the other is evaluating 20 Mbps.
    Midwest Energy's soft launch project allows us to better gauge 
member interest and service requirements before full deployment. Full 
deployment may take up to 3 years, or more, depending upon the level of 
support we receive from potential granting agencies. That said, when 
our permanent CLEC license is secured, we plan to add new customers at 
a planned, but much more aggressive, pace.
Project Area
    Our full deployment area includes eligible portions of Cass, St. 
Joseph, Kalamazoo, Van Buren and Berrien Counties in Michigan. In this 
area, we estimate there are roughly 24,000 homes and 2,500 businesses. 
Midwest Energy serves no cities or villages and instead focuses on 
rural townships. As such, member density in this area is below nine per 
mile. We believe there to be 80 critical community facilities and 
public safety entities, made up of ten schools, seven libraries, 23 
medical/healthcare providers, ten public safety entities, one community 
college, five community support organizations and 24 governmental 
facilities. Additionally, we have one Native American Tribe--The 
Pokagon Band of Potawatomi. We are confident many of these entities 
will provide project endorsement letters during the application phase 
of FCC's rural experiments. One such letter from Mno-Bmadsen, the 
Pokagon Band of Potawatomi's economic development arm, is attached as 
an example of partnerships we are developing.
    Southwest Michigan is defined by agriculture--particularly seed 
corn production--and serves as a rural residential haven for those that 
work and study at Notre Dame, Western Michigan University and area 
community colleges. Additionally, those that work at Fortune 500 
companies like Kellogg, Whirlpool and Pfizer tend to live in our 
proposed service footprint. Though we were severely impacted by a 
recent downturn in the recreational vehicle industry, efforts to foster 
an entrepreneurial environment are bearing fruit and area unemployment 
figures have moderated somewhat.
    Midwest Energy's Midwest Connections intends to provide service to 
an area encompassing portions of five counties in southwest Michigan 
totaling 1,668.09 square miles. We will work closely with Pulse 
Broadband to determine the eligibility of the 42 Census tracts, 169 
Census block groups and 8,484 Census blocks within our proposed service 
footprint.

Cass County, Michigan--490.06 square miles to be served

    11 Census Tracts
    46 Census Block Groups
    2,319 Census Blocks

Berrien County, Michigan--138.98 square miles to be served

    5 Census Tracts
    20 Census Block Groups
    789 Census Blocks

Kalamazoo County, Michigan--146.99 square miles to be served

    8 Census Tracts
    21 Census Block Groups
    928 Census Blocks

St. Joseph County, Michigan--374.42 square miles to be served

    7 Census Tracts
    30 Census Block Groups
    1,974 Census Blocks

Van Buren County, Michigan--517.64 square miles to be served

    11 Census Tracts
    52 Census Block Groups
    2,474 Census Blocks
Project Need
    Our service area--often referred to as ``Michiana'' is losing 
population. While the volatile nature of the recreational vehicle 
industry in nearby Indiana has created a home-based entrepreneurial 
boom; many have chosen to leave southwest Michigan. Seniors are 
flocking to where health care is abundantly available and the home-
bound have diminishing options in rural America. Workers are moving 
closer to their employers. Young people are seeking entertainment 
options and basic services like broadband. Parents, concerned for their 
children's educational opportunities, are abandoning schools that are 
limited in services they provide. Rather than placing further stress on 
urban infrastructure, one solution might be to provide broadband where 
it either doesn't exist or exists in limited scope. If workers can be 
productive at home, that is good for America. If young people can 
innovate, we all benefit. America's future truly depends on closing a 
digital divide that exists on both a micro (urban versus rural) level 
and a macro (U.S. versus the world) level as well.
    Within Midwest Energy's proposed footprint, residents, schools, 
libraries, farmers, first-responders, healthcare providers and the 
Pokagon Band of Potawatomi are seeking an affordable, reliable and 
high-speed option. This has provided us tremendous opportunity to 
leverage our investment. For instance, USDA-RUS has stepped up to the 
plate in helping us finance the cost of our communications ring. Merit 
Networks, Inc., a nonprofit, member-owned organization formed in 1966 
to design and implement a computer network between public universities 
in Michigan, continues to seek a partnership with Midwest Energy. They 
view us as being a catalyst in helping them reach schools and libraries 
in the region. The Pokagon Band of Potawatomi's economic development 
arm--Mno-Bmadsen--is evaluating partnership opportunities that can help 
us extend service to their members and we're actively engaged with both 
Michigan Farm Bureau and the American Farm Bureau to help bring 
broadband to America's farmland. There is little scarcity in leveraging 
opportunities for this project and we are exploring them all.
The Ask
    Midwest Energy continues to refine its project requirements. As 
mentioned, we are financing our communications ring for smart grid 
applications through a USDA-RUS work plan loan. Should we fully deploy 
our ring, the cost will be $9.5 million. It is $6.075 million if 
construct communications in only our southwest district. Our FTTx 
capital expenditure requirements are, roughly, $54.2 million. Given the 
24,000 homes and 2,500 businesses passed, we will need approximately 
$2,045 per passing to fully fund this project. That said, our financial 
model continues to be refined and we'll have solid, defensible numbers 
to present in our application. These numbers will be in the form of a 
one-time capital expenditure. We are not seeking an ongoing subsidy 
from the FCC. Midwest Energy will, of course, review FCC financial 
models to ensure our numbers are both reasonable and appropriate.
    In recent financial modeling, Midwest Energy assumed a 40% take 
rate for residential and 30% take rate for commercial. This translates 
into 10,350 customers. Applying standard price points for triple-play, 
projected net income goes positive in year 4 at a fifty percent equity 
injection. Midwest believes fifty percent equity funding is needed to 
protect company asset-to-equity ratios. That said, we'll apply only for 
what is eligible and what is required to be successful in providing up 
to a gigabit of service for rural southwest Michigan.
 Total Estimated Project Cost:        $63.7 million
Midwest Energy Investment:           $9.5 million
Ideal FCC Investment:                $27.1 million (one-time capital
                                      expenditure)
Additional Amount to be Financed:    $27.1 million
Leveraging Opportunities:            FCC Rural Experiment s (one-time
                                      capital investment only)
                                     Connect America Fund (unclaimed
                                      CAF)
                                     Merit Networks, Inc. (assistance
                                      and dark fiber swap)
                                     Lynx Network Group (dark fiber
                                      swap)
                                     Pokagon Band of Potawatomi
                                      (financial)
                                     Regional Economic Development
                                      Groups (financial)
                                     Michigan Farm Bureau & American
                                      Farm Bureau (philosophical)
                                     E-Rate Program (grant opportunity)
                                     USDA Community Connect Program
                                      (grant opportunity)
Total Customers Served:              26,500 (estimated--minimum)
Square Miles:                        1,668.09 square miles
    For More Information:

Mr. David H. Allen,
Vice President, Regulatory Compliance,
Midwest Energy.
(269) 445-1081 (direct).
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b5f5a4d5e155a57575e557b4f5e5a5656525f4c5e484f1558545615">[email&#160;protected]</a>
                               Exhibit C
Co-ops Expressing Interest in FCC Rural Broadband Experiments


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    The Chairman. Thank you, Mr. Hance, and we move now to our 
last panelist, Mr. Christopher Guttman-McCabe, Executive Vice 
President, CTIA--The Wireless Association here in Washington. 
Mr. Guttman-McCabe, you are recognized for 5 minutes.

            STATEMENT OF CHRISTOPHER GUTTMAN-McCABE,
          EXECUTIVE VICE PRESIDENT, CTIA--THE WIRELESS
                 ASSOCIATION, WASHINGTON, D.C.

    Mr. Guttman-McCabe. Thank you, and good morning, Chairman 
Crawford, Ranking Member Costa, and Congressman Thompson. I 
appreciate the opportunity to participate in today's hearing.
    My name is Christopher Guttman-McCabe, and I serve as 
Executive Vice President at CTIA--The Wireless Association.
    Today, American wireless users sit at the epicenter of the 
wireless broadband revolution. Driven by vibrant competition, 
massive investment, and successful light-touch regulation, the 
U.S. wireless industry has deployed fourth-generation wireless 
technology at a rapid pace and now offers this world-class 
service to 95 percent of the American people. In fact, despite 
being home to just five percent of the world's wireless 
subscribers, the United States claims 45 percent of the world's 
4G users.
    As a result of the near ubiquitous deployment of 4G 
technologies, a growing number of Americans have chosen to 
abandon traditional telephone service and go wireless-only. In 
fact, during the second 6 months of 2013, two in every five 
U.S. households did not have a landline telephone but did have 
at least one wireless telephone. And nowhere, Mr. Chairman, is 
this more true than in Arkansas, where almost \1/2\ of the 
adult population lives in wireless-only households.
    Similarly, an estimated 45 million Americans use their 
wireless device as their primary on-ramp to the Internet. As 
wireless networks have become more ubiquitous, reliable, and 
robust, they have become building blocks upon which other 
segments of the economy rely to innovate and drive more 
efficient outcomes in their respective fields. This is 
certainly true in agriculture.
    Whether through the use of GPS-assisted technology or 
terrestrial wireless sensor technology, wireless is helping to 
provide farmers with real-time feedback on a number of 
different crop and site variables. This data helps to drive 
increased efficiency and improve yields. Onboard telematics 
powered by wireless guide farm equipment to reduce time in the 
field and cut fuel costs while simultaneously reducing 
maintenance costs and time lost to repairs.
    Just as many of us rely on mobile apps to check a sports 
score or bank balance, agricultural professionals are using 
apps to perform a variety of tasks, including to access farm 
and field information, check market prices, track cattle, and 
even help consumers locate locally grown farm products.
    Commercial wireless networks stand behind each of these 
activities. Wireless is an increasingly important part of rural 
communities and not only for those involved in agriculture. 
Rural consumers and businesses of all sizes benefit from access 
to competitive services and world-class devices as CTIA's 
members invest to bring cutting-edge wireless service to rural 
America.
    While we are excited about helping U.S. agriculture and 
rural America thrive, we are just scratching the surface of 
what is possible. But building on these advances requires the 
right policies here in Washington. America's farmers may not 
know that they care about the intricacies of spectrum 
allocation, the challenges of tower siting, or the impact of 
FCC regulation, but they do. This is true because the ability 
to deliver the sorts of services on which the farming and 
agriculture community is relying depends on the wireless 
industry having access to spectrum and the ability to build the 
networks needed to put it to use, without the burdens of 
unnecessary regulation.
    Spectrum is the key input into the wireless business. For 
us, it is the oxygen that fuels everything else. For this 
reason, ensuring that a sufficient, predictable supply of 
spectrum for commercial use is at the top of CTIA's agenda. 
Thanks to Congress' work in the 2012 Middle Class Tax Relief 
and Job Creation Act, there are two upcoming auctions that will 
bring additional spectrum to market for CTIA's members.
    Congress must encourage the FCC to do everything necessary 
to ensure that these critical auctions are successful and on 
schedule.
    Once spectrum has been auctioned, it must be put to work. 
That means that networks must be deployed. To facilitate this, 
the FCC must complete work on its wireless infrastructure 
proceeding which is flowing from the 2012 law that authorized 
the auctions.
    Finally, policymakers must continue to support a light-
touch regulatory regime for wireless. Wireless is different 
than the other communications and broadband technologies. 
Wireless has benefited from a comparative lack of regulation 
over the last 20 years, and the results validate the efficacy 
of this approach. Our world-leading environment is no accident. 
Regulators thus should not try to prejudge how the wireless 
industry will evolve or impose upon it rules designed for 
wireline networks in a monopoly environment. Similarly, 
policymakers should not bias the FCC's Universal Service 
Programs or the Rural Utilities Service Loan Programs in favor 
of any particular technology. Consumer preference, not 
government fiat, should guide network deployment decisions.
    Thank you again for the opportunity to participate in 
today's hearing. I look forward to working with the 
Subcommittee to advance the deployment of wireless service 
across all of America. Thank you.
    [The prepared statement of Mr. Guttman-McCabe follows:]

   Prepared Statement of Christopher Guttman-McCabe, Executive Vice 
      President, CTIA--The Wireless Association, Washington, D.C.
    Chairman Crawford, Ranking Member Costa, and Members of the 
Subcommittee, thank you for the opportunity to participate in today's 
hearing. My name is Christopher Guttman-McCabe and I serve as Executive 
Vice President at CTIA--The Wireless Association<SUP>'</SUP>. CTIA 
represents the wireless carriers, equipment vendors, and software and 
content developers that drive America's global leadership in wireless 
broadband.
    Today, American wireless users sit at the epicenter of the wireless 
broadband revolution. Driven by vibrant competition, massive 
investment,\1\ and successful light-touch regulation, the U.S. wireless 
industry has deployed 4G LTE technology at a rapid pace and now offers 
this world-class wireless broadband service to 95 percent of the 
American people. In fact, despite being home to just five percent of 
the world's wireless subscribers, the U.S. claims 45 percent of the 
world's 4G users.\2\
---------------------------------------------------------------------------
    \1\ In 2013, U.S. wireless carriers invested approximately $34 
billion in their networks. See CTIA, U.S. Invests Four Times More in 
Networks (March 13, 2014), available at http://www.ctia.org/resource-
library/facts-and- infographics/archive/us-investment-networks (``CTIA 
March 2013 Wireless Facts'') (citing Didier Scemama, et al., 2014 
Wireless Capex: BRICs & Europe to Pick Up the Slack, Bank of America 
Merrill Lynch, Global Telecom Equipment, at Table 2 (Jan. 13, 2014); 
Glen Campbell, 2014: The Year Ahead, Bank of America Merrill Lynch, 
Global Wireless Matrix 4Q13, at Tables 1 and 2 (Jan. 8, 2014) (``Global 
Wireless Matrix'').
    \2\ According to the Informa Telecoms & Media Group's WCIS 
database, the U.S. and its territories accounted for 45% of global LTE 
subscribers as of the first quarter of 2014. The United States is home 
to 112 million LTE subscribers, while the next nine countries combined 
are home to 111 million.
---------------------------------------------------------------------------
    As a result of the near ubiquitous deployment of 3G and now 4G 
technologies and the convenience of wireless networks, a growing number 
of Americans have chosen to abandon traditional telephone service and 
go ``wireless-only.'' In fact, the Centers for Disease Control's 
National Health Interview Survey recently released data finding that 
for the second 6 months of 2013, two in every five households (41.0%) 
did not have a landline telephone but did have at least one wireless 
telephone.\3\ And nowhere, Mr. Chairman, is this phenomenon more true 
than in Arkansas, where almost 50 percent of the adult population lives 
in a ``wireless-only'' household.\4\ Similarly, an estimated 45 million 
Americans use their wireless device as their primary on-ramp to the 
Internet.\5\
---------------------------------------------------------------------------
    \3\ http://www.cdc.gov/nchs/data/nhis/earlyrelease/

wireless201407.pdf, at Table 1.
    \4\ http://www.cdc.gov/nchs/data/nhsr/nhsr070.pdf, at 5, column 2, 
showing data for Jan.-Dec. 2012, with Arkansas at 49.0 percent.
    \5\ Maeve Duggan and Aaron Smith, ``Cell Internet Use 2013,'' Sept. 
2013, Pew Research Center, at http://www.pewinternet.org/files/old-
media/ /Files/Reports/2013/PIP_CellInternetUse
2013.pdf, and U.S. Census, American FactFinder, at http://

factfinder2.census.gov/faces/ tableservices/jsf/pages/

productview.xhtml?src=bkmk.
---------------------------------------------------------------------------
    As wireless networks have become more ubiquitous, reliable, and 
robust, they have become platforms not only for telephone service and 
Internet access, but also building blocks upon which other segments of 
the economy rely to innovate and drive more efficient outcomes in their 
respective fields. This is certainly true in agriculture.
    Whether through the use of GPS-assisted technology or terrestrial 
wireless sensor technology, wireless is helping to provider farmers 
with real time feed-back on a number of different crop and site 
variables.\6\ This data helps to drive increased efficiency and improve 
yields.\7\ Onboard telematics powered by commercial wireless broadband 
networks guide farm equipment to reduce time in the field and cut fuel 
costs, while simultaneously reducing maintenance costs and time lost to 
repairs.\8\ And just as many of us rely on mobile apps to check a 
sports score or bank balance, agricultural professionals are using apps 
to perform a variety of tasks, including to access farm and field 
information, check market prices, track cattle, and even help consumers 
locate locally grown farm products and farmers markets.\9\ Commercial 
wireless broadband networks stand behind each of these activities.
---------------------------------------------------------------------------
    \6\ https://www.youtube.com/watch?v=pldvLV0xjmg, and http://
sourcetech411.com/2013/06/the-use-of-wireless-sensor-networks-in-
precision-agriculture/.
    \7\ http://www.businessinsider.com/sc/wireless-farming-is-helping-
feed-the-world-2014-7.
    \8\ https://www.youtube.com/watch?v=YbYjUH2uKXQ.
    \9\ http://www.farmmanagement.pro/mobile-agriculture-apps-offered-
in-2013/, http://www.ag
web.com/article/nutrient_deficiency_app_available/, http://
eprretailnews.com/2014/07/09/morrisons-became-the-first-supermarket-to-
launch-free-app-for-cattle-farmers-aimed-at-simplifying-livestock-
management-09987654321232345456/ and http://www.picktnproducts.org/.
---------------------------------------------------------------------------
    Wireless is an increasingly important part of rural communities, 
and not only for those involved in agriculture. Rural consumers and 
businesses of all sizes benefit from access to competitive services and 
world-class devices. CTIA's carrier members, large and small, are 
investing to bring cutting-edge wireless service to rural communities. 
In addition to the widespread deployment of LTE described above, these 
initiatives include AT&T's planned deployment of fixed wireless service 
that uses advanced technology, dedicated spectrum, and professional 
home installations to provide a consistent and reliable high-speed 
broadband experience,\10\ and efforts by smaller carriers like 
Bluegrass Cellular in Kentucky to deploy its wireless Internet 
GetSetGo<SUP>TM</SUP> branded broadband product and services \11\ to 
markets like Clarksville, Tennessee and Hopkinsville, Owensboro, 
Danville and Richmond, Kentucky, and CellCom of Green Bay, Wisconsin 
working to make wireless telehealth solutions for diabetics available 
across Wisconsin.\12\
---------------------------------------------------------------------------
    \10\ Statement of John T. Stankey, Group President and Chief 
Strategy Officer, AT&T, before the Senate Commerce Committee, July 16, 
2014. Available at http://www.commerce.senate.gov/public/
?a=Files.Serve&File_id=d2db74ae-73d4-4116-8d2f-25def1182f14, at 4. The 
referenced deployment is predicated on regulatory approval of AT&T's 
proposed acquisition of DIRECTV, a transaction on which CTIA takes no 
position.
    \11\ The GetSetGo<SUP>TM</SUP> wireless Internet service initial 
product offering uses an LTE WiFi router that integrates WiFi 802.11 b/
g/n and Ethernet ports in an easy and simple-to-use package. The 
company projects that GetSetGo customers will experience download 
speeds of 5 to 12 Mbps and 2 to 5 Mbps for uploading data.
    \12\ http://www.nsightnews.com/Press-Releases/cellcom-partners-
with-telcare-to-offer-diabetes-management-solution.html.
---------------------------------------------------------------------------
    While we're excited about the contributions the wireless industry 
can make to helping U.S. agriculture and rural America thrive, we're 
just scratching the surface of what's possible. But building on these 
advances requires the right policies here in Washington. America's 
farmers may not know that they care about the intricacies of spectrum 
allocation, the challenges of tower siting, or the impact of FCC 
regulation, but they do. This is true because the ability to deliver 
the sort of services on which the farming community is relying and will 
continue to rely is dependent on the wireless industry having access to 
spectrum, and the ability to build the networks needed to put it to 
use, without the burden of unnecessary constraint or cost imposed 
through the regulatory process.
    Spectrum is the key input into the wireless business. For us, it is 
the oxygen that fuels everything else. For this reason, ensuring that 
there is a sufficient, predictable supply of spectrum for commercial 
use is at the top of CTIA's agenda. Thanks to Congress' work in the 
2012 Middle Class Tax Relief and Job Creation Act, there are two 
upcoming auctions that will bring additional spectrum to market for 
CTIA's members.\13\ These auctions are critical to meeting the 
burgeoning demand for wireless broadband, which Ericsson \14\ and Cisco 
\15\ suggest will continue, and to maintaining the United States' 
position as the world's leader in advanced wireless services. Congress 
therefore must encourage the Federal Communications Commission to do 
everything necessary to ensure that these auctions are successful and 
on schedule.
---------------------------------------------------------------------------
    \13\ These include the AWS-3 auction scheduled for late 2014 and 
the broadcast incentive auction scheduled for mid-2015.
    \14\ Ericsson, Ericsson Mobility Report on the Pulse of the 
Networked Society, Interim Report (Feb. 2014), available at http://
www.ericsson.com/res/docs/2014/ericsson-mobility-report-february-2014-
interim.pdf and [Editor's note: this footnote was incomplete as 
submitted].
    \15\ Cisco, Cisco Visual Networking Index: Global Mobile Data 
Traffic Forecast Update, 2013-2018, at 10 (Feb. 5, 2014) (``Cisco 
Report''), available at http://www.cisco.com/c/en/us/solutions/
collateral/service-provider/visual-networking-index-vni/
white_paper_c11-520862.pdf.
---------------------------------------------------------------------------
    Once spectrum has been auctioned, it must be put to work. That 
means that networks must be deployed. To facilitate the deployment of 
wireless network infrastructure, industry needs a predictable, 
expedited process for seeking siting approvals. This is true for the 
construction of towers, as well as for the process of deploying 
antennae on existing towers or structures and for the use of small cell 
technologies. New cell sites can expand the available coverage area for 
consumers, and increase a network's ability to provide the kinds of 
services consumers want and expect. To support these efforts, the 
Federal Communications Commission must complete work on its Wireless 
Infrastructure proceeding,\16\ which flowed from the 2012 law 
authorizing the auctions. Additionally, because towers have to connect 
to the larger network, Congress and the Federal Communications 
Commission must continue to work to remove barriers to the deployment 
of fiber infrastructure.
---------------------------------------------------------------------------
    \16\ Acceleration of Broadband Deployment by Improving Wireless 
Facilities Siting Policies, WT Docket No. 13-238.
---------------------------------------------------------------------------
    Finally, with the right spectrum and siting policies in place, 
policymakers must continue to support a light-touch regulatory regime 
for wireless. Wireless has benefited from a comparative lack of 
regulation over the last twenty years, and the resulting deployment and 
consistent technological advancement validate the efficacy of this 
approach. Regulators thus should not try to prejudge how the wireless 
industry will evolve or impose upon it rules designed for wireline 
networks in a monopoly environment.\17\ Similarly, policymakers should 
not bias the FCC's Universal Service programs or the Rural Utilities 
Service loan programs in favor of any particular technology. Consumer 
preference, not government fiat, should guide network deployment 
decisions. Vibrant competition and regulatory humility will produce the 
best outcomes for consumers.
---------------------------------------------------------------------------
    \17\ http://www.ctia.org/docs/default-source/fcc-filings/140718-
ctia-open-internet-comments.pdf?sfvrsn=0.
---------------------------------------------------------------------------
    Thank you again for the opportunity to participate in today's 
hearing. CTIA looks forward to working with the Subcommittee to advance 
the deployment of wireless service across all of America.

    The Chairman. Thank you, Mr. Guttman-McCabe, and we will 
start our round of questioning. I first recognize myself for 5 
minutes. Let me start with Mr. Zimmerman.
    In your view, are the various agencies such as USDA and the 
FCC coordinating sufficiently in their efforts and in such a 
way that might result in a comprehensive and effective plan for 
the deployment of broadband in rural America?
    Mr. Zimmerman. I missed the first part of your question. 
What was that again?
    The Chairman. Do you believe that the agencies such as USDA 
and FCC are coordinating sufficiently in their efforts----
    Mr. Zimmerman. Okay. I can't say how the agencies work back 
and forth. The one thing I do know is that the RUS is making 
things that will help us as far as loan programs to make the 
availability of more broadband, but the regulation that we have 
on the FCC side makes it very hard for us to plan and take on 
these loans because we are afraid of not being able to pay 
them.
    The rate floor in particular, jumping to $20.46 while my 
local rates are $14, that would be almost a 50 percent rate 
increase that they wanted us to do within a 3 month--they gave 
us 3 months to get it done. That is just unreasonable for 
people to have to get done. It makes it harder for us to keep 
people on the network if they keep jacking up the rates that 
the people have to pay to be on the network, and it is for a 
voice service that a lot of them don't want and makes the 
broadband fees higher and higher and unaffordable in rural 
areas where they are trying to expand it more.
    So that is sort of the side we have been having trouble 
with.
    The Chairman. Okay. And I have heard this before, so 
basically there is a template for--that doesn't allow the 
consumer to make the choice between broadband and voice, that 
they just kind of are packaged up together, is that correct?
    Mr. Zimmerman. That is right. They make the Universal 
Service support to the company based on the voice side only, 
not the broadband. And people have gone, the voice has gone to 
wireless if it is available. And it is not available in all 
areas as we know, but if it is, that is where the voice traffic 
has migrated to, to tie the support to these rural areas to get 
broadband to voice is just an antiquated part of the system, 
and it is a detriment because people will not pay the added 
expense of having a telephone line. They don't want it, and in 
most places they don't need it.
    The Chairman. Okay. Thank you. Mr. Cohen, your testimony 
highlighted the differences in large and small telecom 
providers and mentioned several of the FCC reforms which impact 
them separately. Do you feel that the FCC is sufficiently 
taking into account the impact on smaller providers?
    Mr. Cohen. The FCC is taking into account the impact on 
small providers, but unfortunately, their timing is behind that 
of the impact on large providers so that there is a Universal 
Service mechanism designed and implemented for the large 
providers. As I mentioned in my testimony, at the beginning of 
2015, they will be able to elect whether to receive CAF II 
funding. After that the remaining CAF II funding in the areas 
not elected will be open to all comers.
    On the small-company side, the small companies, as Mr. 
Zimmerman mentioned, are still dealing with the Universal 
Service mechanism that was made and designed for the voice era, 
and now we are in the broadband era. And so the FCC needs to 
both address the issue of broadband-only lines, as Mr. 
Zimmerman pointed out, and ensure that they receive support but 
also modernize the Universal Service program for small 
companies so that he can have a predictable source of revenue 
from Universal Service which will enable them to plan, borrow 
from RUS and other lenders, and invest in broadband to extend 
and improve the availability of that service in rural America.
    The Chairman. Thank you, Mr. Cohen. Mr. Hance, your 
cooperative and others like it pretty much are the tip of the 
spear in broadband, and that is kind of how you want to lead 
the charge. How do you choose which areas make the most sense 
for you to serve?
    Mr. Hance. The best way to answer that question is to say 
each of the co-ops are taking their own projects under their 
own advisement, and the way most of us are approaching it and 
not speaking for everyone is trying to concentrate on those 
areas where we have the highest concentration of meters. It is 
hard to say in the landscape that we serve. We, at our system, 
serve about nine members per mile line. In our most dense areas 
it might be up towards 15. So we concentrate on those areas 
where we have the best opportunity to get the most dense first, 
with the idea that we will reach out to all of our members 
eventually.
    The Chairman. Thank you. Mr. Guttman-McCabe, you mentioned 
the shift away from landline subscriptions to wireless 
solutions. Can you talk a little bit more about how the 
wireless and backhaul networks are connected and what it takes 
to expand both wireline and wireless coverage?
    Mr. Guttman-McCabe. Certainly, Mr. Chairman, and at the 
core of my testimony is the notion that the country is evolving 
pretty significantly as we speak. More and more people are 
moving to wireless only. More and more people are using 
wireless as their access point to the Internet. We are hearing 
more stories about mHealth, mobile health and mobile education, 
and part of our concern is that we are not entirely sure that 
the government programs are aware or at least take into 
consideration this evolution. At the same time that the FCC is 
reforming its USF fund, its Universal Service Fund, it is 
significantly reducing the amount of money that goes to mobile 
broadband. And for us, yes, there certainly is an integration 
between the use of mobile broadband and backhaul, but we 
believe that whether it is the RUS programs or the Connect 
America Fund Phase II that there needs to be some technology 
neutrality that allows consumers in essence to make the choice. 
If there is enough need or desire in an unserved market for 
wireless service, then the providers in those areas should be 
able to get access to these funds, particularly as we see this 
evolution. I am fearful that we are going to continue to miss 
what is becoming just such a tremendous tidal wave of change in 
the United States towards mobile use. Mobile broadband doubled 
in size for the fourth year in a row, mobile broadband usage, 
the amount of megabits of usage and it is sort of outpacing all 
the predictions of 5 years ago of where it was going to be. And 
I am fearful that some of the programs that we are talking 
about today, whether it is the RUS Loan Program or the Connect 
America Fund Phase II or even the Mobility Fund where the 
Commission is contemplating taking a mobility fund that went 
from north of a billion down to $500 million. They are 
contemplating reducing that even further. And I am sure you 
have areas, particularly road miles in your districts, that 
aren't served that could use some--the carriers in those areas 
could use some support. Our carriers are working hard to get 
their large and small markets, but having a technology-neutral 
program, set-up programs, would really help to facilitate both 
again the intersection of broadband backhaul from the wired 
constituents as well as wireless broadband service from my 
constituents.
    The Chairman. Thank you. I now recognize the Ranking Member 
for 5 minutes.
    Mr. Costa. Yes. Thank you, Mr. Chairman. Mr. Guttman-
McCabe, I listened carefully to your final comments, sir. Are 
you saying that you think that the Connect America Fund creates 
an unlevel playing field as it relates to----
    Mr. Guttman-McCabe. Certainly at least as it is being 
considered. There are some concerns we have with some of either 
the latency requirements or the requirements on the size or the 
amount of capacity that a company that receives the funds has 
to deliver that doesn't recognize the technology differences 
with a mobile network.
    Mr. Costa. And you can substantiate that?
    Mr. Guttman-McCabe. Well, I mean, certainly we have put on 
the record some of those concerns, and again, we are putting 
them on again on the record very soon.
    Mr. Costa. Mr. Cohen, can you clarify what you think you 
believe that the Connect America Fund should play in providing 
subsidies for broadband as we try to expand deployment 
throughout rural America?
    Mr. Cohen. Yes, the Connect America Fund is designed to 
provide support for areas that make no economic sense without 
some support. Congress has indicated to the FCC that they 
wanted the budget for that fund unlimited. The FCC limited that 
budget to $4.5 billion per year. The FCC is very carefully 
allocating those funds. They are ensuring that they go to 
provide the type of services that----
    Mr. Costa. And so your assessment, how do you think that is 
all working?
    Mr. Cohen. Well, right now we are still in the 
implementation stage of the portion of the fund for price-cap 
areas, and that is moving along, and we will see over the next 
12 months how CAF II is implemented which will provide that 
election for the price-cap carriers and then the subsequent 
auction. The areas served by----
    Mr. Costa. So a lot of time----
    Mr. Cohen.--the small companies, the rate-of-return 
carriers, unfortunately the Connect America Fund has not really 
been designed for them for broadband.
    Mr. Costa. And so then you think that is a gap?
    Mr. Cohen. Absolutely. The FCC needs to promptly move along 
and support broadband-only lines and develop a predictable 
broadband-oriented program for small companies.
    Mr. Costa. And you talked a lot about in your testimony the 
price-cap carriers----
    Mr. Cohen. Yes.
    Mr. Costa.--and how it is across the country impacting on a 
state-by-state basis. So if a state's service area goes to an 
auction process, this can pretty much go to any geographical 
area?
    Mr. Cohen. Yes. The price-cap carrier in a particular state 
presumably by the end of the year, which the FCC has indicated 
that is their schedule----
    Mr. Costa. Are you concerned that there may be cherry-
picking as a result of that?
    Mr. Cohen. Well, no. The price-cap companies will be 
offered an election to elect the state as a whole their entire 
service area in a state to receive support. If they decide not 
to elect that funding, that area is opened up to an auction, 
and various providers of any sort can bid to provide service in 
particular areas in the state.
    Mr. Costa. Do you think the FCC should reconsider how Phase 
II should work and whether or not those who are participating 
in the right of first refusal or whether or not that should be 
skipped altogether?
    Mr. Cohen. The FCC made the considered decision to 
accelerate broadband to rural consumers who have waited in many 
instances a very long time for it by providing for the right of 
first refusal which allows the price-cap carriers that have 
facilities in these rural areas to add onto those facilities 
and improve those facilities to be able to provide broadband. 
But they also provided a competitive opportunity for others in 
areas where the price-cap companies do not elect to accept the 
CAF II money and the obligations to anybody else to apply in 
the auction, to bid in the auction.
    Mr. Costa. Do you think the FCC has dragged its feet in 
this area? I hear it has taken over 3 years.
    Mr. Cohen. Certainly the process has taken longer than 
anybody, including the FCC, has anticipated. But it appears 
that we are now reaching the conclusion of the process, and 
money should be flowing next year.
    Mr. Costa. So are you hopeful?
    Mr. Cohen. I am very hopeful that the Commission will 
continue their prompt implementation of the CAF II Program, and 
rural consumers will soon be receiving the benefits of 
broadband service.
    Mr. Costa. The ultimate goal, universal broadband?
    Mr. Cohen. Absolutely.
    Mr. Costa. Thank you.
    The Chairman. I thank the gentleman. Now I recognize the 
gentleman from Pennsylvania for 5 minutes. Mr. Thompson, you 
are recognized.
    Mr. Thompson. Mr. Chairman, thank you so much. Thanks for 
putting this Subcommittee hearing together, incredibly 
important issue. Recently I had the opportunity to be with a 
group, a coalition of folks who, every 2 years, publish the Why 
Rural Matters study, it is just a great study. And it was 
interesting to see the fact that we are actually growing the 
number of youth in rural American with this last biannual 
report. They have been doing it for some time now, about 13 
years or more. But this past report that covers the past 2 
years shows rural youth increasing proportionately higher than 
in urban America. And between that and the economic impact, I 
mean, the importance of this hearing is so significant, 
obviously, providing access to broadband. To all four of the 
witnesses, thank you, gentlemen, for your respective areas of 
leadership and expertise.
    I want to start with Mr. Zimmerman. In your testimony, you 
at one point discussed how rural telecom has been at the 
forefront of innovation, specifically in terms of converting to 
digital systems and now to wireless networks. With technology 
costs evolving so quickly, what kinds of impacts, either 
challenges or benefits, has this continued technological 
innovation had on rural access, development, and infrastructure 
and also any thoughts on what we may see for future 
innovations?
    Mr. Zimmerman. Yes, sir. One of the big changes is to be 
able to get the increasing levels of broadband out to the rural 
areas. We have been able to get DSL speeds which is basically 
1.5 Meg to 98 percent of our territory. That is increasingly 
being seen as not enough or insufficient, and one of the things 
that we struggle with is to be able to upgrade these networks. 
And one of the bottlenecks have been we are geographically 
isolated, and the way to get to the backbone of the Internet 
has basically been through larger carriers such as AT&T or 
Century to get traffic out of those rural areas to the 
backbone, and a lot of times we had trouble getting the 
capacity we needed. So we have gone out on our own with the 
help of RUS to build some fiber networks of our own so we could 
connect to the backbone ourselves. So that has been one of the 
best things that we have been able to get done and one of the 
things we continue to work on to expand the capacity because 
the needs keep going up.
    Mr. Thompson. I know it is a crystal ball, but innovation 
continues, obviously in particular this area. I open up this 
question to the panel. Any thoughts of what innovations we may 
see next coming out that will help to increase cost-effective 
access?
    Mr. Guttman-McCabe. Well, I guess I will dive first, 
Congressman. You know, we are seeing deployment of LTE which is 
our fourth-generation technology happening at a rate that far 
surpasses the other evolution or introductions of our 
technologies. And what that is doing is opening up the doors to 
a range of services that I don't think any of us could 
contemplate. I wrote a law review article on telemedicine 18 
years ago. I wouldn't have guessed that most of the evolution 
in telemedicine would be in mobile health and that some of the 
technologies to deal with long-term health problems would be 
happening in rural areas.
    One of our rural providers, one of our regional providers 
serves through Wisconsin and some of the really rural areas in 
there, and they are one of the leaders on putting together 
mobile health solutions for diabetics.
    So we are seeing these sort of capabilities that are 
flowing from next-generation technologies, next-generation 
networks that we couldn't have thought, whether it is--I did a 
search on apps for agriculture, and I just saw the top 14 apps 
of 2014 and it is pretty staggering what those apps can do.
    And so whether it is across agriculture or education or 
mobile health or banking, I mean, this sort of can go on and 
on. The things that are happening in the mobile broadband space 
are really life-altering and pretty staggering considering 
where we were 5 years ago.
    Mr. Thompson. And just to follow-up to one of your 
testimony, you had stated in your testimony--because consumer 
preference, not government fiat should guide the network 
deployment decisions. You know, what actions do you think 
just--we are just about out of time--what actions do you think 
should be taken to ensure that we allow the markets to work 
their will?
    Mr. Guttman-McCabe. If we look at USF as an example, 
setting a framework or parameters that don't out of the gate 
foreclose mobile access would be key. So if you choose latency 
or sort of the total capability in terms of the amount of 
megabits that can be delivered in a month and those are not 
capable on wireless networks, you foreclosed wireless 
providers, large, small, urban, rural, from getting access to 
those funds. That is a simple one, recognizing that wireless is 
different, that there are significant benefits to the ability 
to have mobility, benefits to having greater capacity and 
greater throughput of a landline service as well, but there are 
real benefits to mobility and consumers are making that choice 
all the time.
    Mr. Thompson. Thank you. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. I thank the 
gentleman, and I recognize the gentlelady from New Mexico, Ms. 
Lujan Grisham for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. Good morning, 
everyone. Mr. Zimmerman, as a representative from a very rural 
state, I certainly understand the challenges in providing 
services to rural areas, and I experienced these firsthand. My 
notes say Secretary of Health, but I served in state government 
for 17 years and was responsible for aging and disability 
services and then also all of the public health services. And 
part of the problem in getting out our direct services and 
providing access was certainly making sure that we had 
broadband Internet access, and it is something that rural and 
frontier states still really struggle with today. And I am just 
going to sort of give you some facts. We know that 77 percent 
of rural counties face a serious shortage of health 
professionals and an even greater shortage of medical 
specialists. This means that 51 million Americans that live in 
rural America must travel greater distances, face longer waits, 
and usually spend more money than people in urban areas for the 
same care.
    So in New Mexico, to combat this trend, a gentleman by the 
name of Dr. Sanjeev Aurora, a professor at the University of 
New Mexico, created a project, a program called ECHO, and it 
stands for the Extension for Community Health Outcomes. And 
what it does is it provides specialty care to rural residents 
by connecting their primary care docs with specialists. In this 
way folks with very specific and significant disease issues can 
get access using telehealth or telemedicine.
    Now it was created in 2003. Since then it has expanded to 
more than 30 universities across the country, and it currently 
provides assistance to thousands of clinics all over the world. 
But it is continuing to provide directly--its impact is focused 
in New Mexico, this model. The problem is, it is still, after 
2003, there are several areas that we cannot reach. We don't 
have the broadband needed to attach a project or a program like 
ECHO to, say, Indian Country or the most remote rural 
communities.
    Higher broadband speeds are needed for telemedicine, as you 
know, because, two things. Only 51 percent of the population 
has access to broadband download speeds of at least 25 Megabits 
as compared to 94 percent of the urban population. But frankly, 
more importantly, in telemedicine, if you don't have broadband, 
you cannot view most of the diagnostics that are really 
enhanced and needed in order to have that relationship between 
your medical practitioners between a rural and frontier area 
and your urban area where you are connecting the health 
professionals for the benefit of the rural patient.
    How can policymakers better support small, rural providers 
in not only deploying broadband in rural communities but also 
making sure that that service can support projects like the one 
I described to you, New Mexico ECHO, and telemedicine in a 
broader fashion?
    Mr. Zimmerman. Well, one of the oddities of this whole 
process was that many of the rate-of-return carriers like 
myself were able to get a high level of coverage at a basic 
speed like I mentioned earlier before of 1.5, and then when the 
2011 Order came out, the talk was that the urban areas should 
have 100 meg up and 100 down and that the rural areas should 
only be able to do 4 meg down and 1 meg up. And that was just a 
terrible thing to tell people in the rural areas, that you 
should be happy with what you have now but the urban areas are 
going to get the big, fast speeds. And that has been a big 
issue for us all along, that small companies have done a good 
job of getting some basic coverage out there to which we 
continue to beef up, and it seems like the regulation going on 
now is more towards the price-cap carriers to let them get some 
areas that are not covered caught up with. But we don't think 
areas like rural New Mexico where my aunt lives in Ruidoso or 
Arkansas, where I live, should be left out----
    Ms. Lujan Grisham. Ruidoso is a big city, sir, big, huge 
city.
    Mr. Zimmerman. Big city?
    Ms. Lujan Grisham. Yes, sir.
    Mr. Zimmerman. Well, my other aunt lives in Artesia. That 
is a little bit smaller.
    Ms. Lujan Grisham. I don't know. Until you have been to 
Huerfano or Pie Town, I am not sure. You are still talking 
about big cities.
    Mr. Zimmerman. Okay. Okay. Well, I thought I had a shot 
there.
    Ms. Lujan Grisham. And I appreciate that, but where I am 
struggling, Mr. Chairman, and with the panel--I appreciate 
everyone's presence today--is that what we are currently using 
isn't enough to incentivize and develop broadband high-speed 
access in the places that we really need it. And without it, 
not only are we not investing appropriately in the ag community 
but broader in things like--and we are spending those and 
paying for those in USDA, appropriations and grants--but 
telemedicine can't be connected where we want it to because it 
can only do the counseling services, Mr. Chairman. It can't do 
the diagnostic aspects unless we find a way to have broad-based 
coverage.
    I really challenge us to find those appropriate incentives 
and balances to make this really accessible across the country.
    The Chairman. I thank the gentlelady.
    Ms. Lujan Grisham. I yield back.
    The Chairman. And the gentlelady yields. I am pleased to 
recognize the gentleman from Alabama, Mr. Rogers, for 5 
minutes.
    Mr. Rogers. Thank you, Mr. Chairman. Mr. Zimmerman, you 
indicated in your earlier testimony that you are currently 
using 10 Gigabyte network. In the recent farm bill, a provision 
was included to create a pilot program to accomplish that same 
goal. Do you still think we need that pilot program to go 
forward?
    Mr. Zimmerman. Absolutely.
    Mr. Rogers. Also under the Recovery--tell me why.
    Mr. Zimmerman. Well, I think that is where the backbone 
needs to be. We have big areas of Arkansas that need to be 
connected that have been connected through a B Top Grant to 
connect the 4 year and 2 year colleges and the health centers, 
and that is where the 10 gigabyte network is to connect the big 
data centers.
    As far as getting out into rural mom-and-pop homes, we 
don't need 10 gigabytes out there whatsoever. But to be able to 
get these isolated parts of Arkansas or perhaps Alabama, to get 
them the network capacity to feed the entire neighborhood or 
the entire district, you need to have a big pipe going out of 
there that needs to be able to have that capacity.
    Mr. Rogers. I like that perhaps Alabama part.
    Mr. Zimmerman. Perhaps. Not necessarily.
    Mr. Rogers. I think it should be Alabama, perhaps Arkansas. 
That would be good.
    Mr. Zimmerman. Okay.
    Mr. Rogers. In the Recovery Act, USDA obligated $3.4 
billion at a rate of over $17,000 per line. Can you share your 
experiences expanding networks and how that basic average 
compares to the cost you have faced connecting these networks?
    Mr. Zimmerman. What was the top number you had?
    Mr. Rogers. It was $3.4 billion.
    Mr. Zimmerman. No, I meant per line.
    Mr. Rogers. It was $17,000 per line.
    Mr. Zimmerman. Okay. That must be in rural Alaska somewhere 
because that is really, really high. Obviously the cost to 
maintain what is called the local loop from our office to 
somewhere way out in the county is going to be high. In 
Arkansas, probably in the $80 to $150 per loop cost, and again, 
we have rates of about $14. People would never pay that kind of 
rate to pay $80 to $130. So it has always been--there has been 
support to make the rural customers have comparable services at 
comparable rates, and that has been in the law since the 
Communications Act of 1934. So it is very important.
    Mr. Rogers. Well, talking about making these connections, 
geographic challenges such as hard soil and rough terrain can 
inhibit the build-out of these networks. How do you overcome 
those in your experience?
    Mr. Zimmerman. Rock hammers.
    Mr. Rogers. What was that?
    Mr. Zimmerman. Rock hammers. If when we put in fiber, we 
don't want to put it up in the air because we have tornados, we 
have ice storms, and utilities up in the air are very, very 
vulnerable to weather. So we have gone in and buried these 
fibers. In north Arkansas, the rock is about 6" to 18" above 
the surface, and you have to rock tile that thing in and it is 
a very expensive project to do.
    Mr. Rogers. How hard is it to maintain given that 
difficulty?
    Mr. Zimmerman. Luckily being buried and put in conduit, it 
is pretty protected there. And we have networks that we can 
trace where the problem is if something gets cut. We had a 
funny thing happen in Mountain View, Arkansas. A farmer had a 
dog die. Took his backhoe out to bury the dog, cut our fiber, 
and we couldn't find where it was. And you have those kind of 
strange things happen to buried fiber, but it is not as 
vulnerable as something up in the air.
    Mr. Rogers. He really wanted to bury that dog if he had to 
use a rock hammer.
    Mr. Zimmerman. That is right.
    Mr. Rogers. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman. I appreciate the panel 
for being here today. We are going to close and wrap up. Before 
we do, I want to thank Ms. Lujan Grisham. She is filling in for 
the Ranking Member who has departed to participate in another 
committee hearing.
    And just in closing before we dismiss, I just want to again 
thank you. And it seemed like the recurring theme in your oral 
testimony was the USF issue and bringing that sort of 
modernizing that, bringing it into the modern age. That is safe 
to say? I think all four of you referred to that in some detail 
in each of your opening comments. And so we will work hard on 
that among the other issues that you have detailed. We 
appreciate you being here.
    I would also like to say that under the rules of the 
Committee, the record of today's hearing will remain open for 
10 calendar days to receive additional material and 
supplementary written responses from the witnesses to any 
questions posed by a Member of the Subcommittee on Livestock, 
Rural Development, and Credit. The hearing is now adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Supplementary Information Submitted by John C. Padalino, Administrator, 
        Rural Utilities Service, U.S. Department of Agriculture
          Mr. Costa. So let me make a suggestion. I think that is all 
        good, but the Members of this Subcommittee, and maybe it is 
        something staff could work with the Members of the full 
        Committee, but it would be nice if we had a listing of--I don't 
        know if the number is 255 or whatever you stated earlier--these 
        projects that are currently ongoing so that we could know those 
        that are in our respective Congressional districts, and we 
        could help complement your efforts to say, ``Look. You are on a 
        timeline here, and you need to do everything you can to 
        expedite it so that you are able to complete the project,'' 
        because that would--certainly we would like to know. I don't 
        think any of us would like to find a situation where next March 
        we have our local telephone company calling us and saying, ``We 
        are \2/3\ done with our project, but we are not going to 
        complete it until August, and they are telling us now we are 
        going to run out of their money. What can you do to help us?''
          The Chairman. If the gentleman would yield, clarification 
        between grants and loans? If we could have that as well on 
        those 255 projects that you mentioned because that 
        clarification would be helpful as well. And if you could make a 
        distinction? I understand a grant is obviously different than a 
        loan, but are we going to see that funding unavailable for 
        loans that have already been made as well, or can they reapply 
        at some point if in fact they didn't meet that timeline?
          Mr. Padalino. I thank you for your offer, and we really 
        appreciate the assistance and will be happy to work with the 
        staff on providing that information.

    Per Mr. Costa and Mr. Crawford's requests at the hearing, I am 
attaching two items that should be useful and informative. The first is 
a 2011 BIP award report (Advancing Broadband--A Foundation for Strong 
Rural Communities, January 2011). Though it is from 2011, it contains 
all the relevant info on the awards, which is what Mr. Crawford was 
looking for, and it contains a good description of each. In addition, I 
am also attaching an excel sheet that lists out the projects, total 
award, total project budget, and status.
                              Attachment 1
United States Department of Agriculture
Broadband Initiatives Program <bond> Awards Report
Advancing Broadband_A Foundation for Strong Rural Communities
January 2011
    Contents

          1  Message from the Administrator
          2  Investing in Rural America
          3  Infrastructure Awards
          6  Satellite Awards
          7  Technical Assistance Awards
          9  Industry Standard Terms
          10  Infrastructure Project Summaries
Message from the Administrator
    The U.S. Department of Agriculture's (USDA) Rural Utilities Service 
(RUS) is the Federal leader in delivering key utilities systems--
telecommunications, electricity, water and wastewater, and now 21st 
century high-speed broadband services--to remote underserved and 
unserved communities in rural America. Now, in expanding 21st century 
high-speed broadband services to farms, schools, public safety 
facilities, and other institutions in rural communities, the impact of 
RUS initiatives will be experienced more broadly across the country.
    Beginning in 1935, RUS's predecessor, the Rural Electrification 
Administration, helped bring electricity to rural America and was the 
driving force behind telephone service being introduced in the same 
remote areas, starting in 1949.
    Since 1994, RUS required federally funded telecommunications 
projects to be broadband capable. In 2002, Congress created a broadband 
loan program to pave the way for an Internet infrastructure of the 
future. With the American Recovery and Reinvestment Act of 2009, RUS 
assumed a leading role in stimulating the economy, creating jobs, and 
bringing opportunity to rural Americans by investing more than $3.5 
billion to expand broadband networks that will close the digital divide 
between rural and urban communities. The Recovery Act also invested 
$3.27 billion in rural water and waste disposal systems to further 
bolster rural infrastructure.
    RUS is applying its extensive technical skills, program experience, 
and financial expertise gained over 75 years to the new challenge of 
deploying the most advanced broadband capability in rural communities. 
USDA Secretary Tom Vilsack has recognized broadband as a pillar of his 
strategy to revitalize rural America. Since passage of the Recovery 
Act, in collaboration with the U.S. Department of Commerce and other 
Federal agencies, RUS has ensured valuable resources are distributed 
effectively and efficiently, as Congress intended.
    In September 2010, RUS completed the awards phase of the Broadband 
Initiatives Program (BIP). This report summarizes the BIP awards made 
to advance congressional directives and confirms the Obama 
Administration's commitment to improving rural connectivity and 
enhancing the quality of life for rural families and businesses. These 
investments in broadband will connect nearly 7 million rural Americans, 
along with more than 360,000 businesses and more than 30,000 critical 
community institutions like schools, healthcare facilities, and public 
safety agencies, to new or improved service.
    These investments not only will benefit rural areas, but also will 
contribute to our economic growth as a Nation. Through this program, 
RUS is generating urgently needed jobs to construct these new networks. 
Once built, they will provide the platform for economic development and 
job creation for years to come.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Jonathan Adelstein,
Administrator,
Rural Utilities Service.
Investing in Rural America
    Rural areas with dispersed populations or demanding terrain 
generally have difficulty attracting broadband service providers 
because the fixed cost of delivering broadband service can be too high. 
Yet broadband is a key to economic growth. For rural businesses, 
broadband gives access to national and international markets and 
enables new, small, and home-based businesses to thrive. Broadband 
access provides rural residents with the connectivity they need to 
obtain healthcare, education, and many essential goods and services.
    The Recovery Act authorized RUS to issue loans and grants to 
projects that extend broadband service to unserved and underserved 
rural areas. The funding provided by the Recovery Act is increasing the 
availability of broadband and stimulating both short- and long-term 
economic progress. RUS completed two BIP funding rounds, making a 
significant investment in projects that will enhance broadband 
infrastructure in scores of rural communities.
    This represents a critical investment, designed to rebuild and 
revitalize rural communities. Without this funding, many communities 
could not cover the costs of providing broadband service to homes, 
schools, libraries, healthcare providers, colleges, and other anchor 
institutions.

----------------------------------------------------------------------------------------------------------------
                                          Number of
            Project Type                   Projects            Grants             Loans           Total Awards
----------------------------------------------------------------------------------------------------------------
Infrastructure                                      297     $2,233,862,109     $1,191,844,578     $3,425,706,687
Satellite                                             4       $100,000,000                 $0       $100,000,000
Technical Assistance                                 19         $3,384,202                 $0         $3,384,202
                                     ---------------------------------------------------------------------------
Total Awards                                        320     $2,337,246,311     $1,191,844,578     $3,529,090,889
----------------------------------------------------------------------------------------------------------------

Infrastructure Awards
    RUS awarded $3.4 billion to 297 recipients in 45 States and 1 U.S. 
territory for infrastructure projects. Eighty-nine percent of the 
awards and 92 percent of the total dollars awarded are for 285 last-
mile projects ($3.25 billion), which will provide broadband service to 
households and other end users. Four percent of the awards and 5 
percent of the total dollars awarded are for 12 middle-mile projects 
($173 million) that will provide necessary backbone services such as 
interoffice transport, backhaul, Internet connectivity, or special 
access to rural areas.
    The projects funded will bring broadband service to 2.8 million 
households, reaching nearly 7 million people, 364,000 businesses, and 
32,000 anchor institutions across more than 300,000 square miles. These 
projects also overlap with 31 tribal lands and 124 persistent poverty 
counties.
    The projects will create more than 25,000 immediate and direct 
jobs. Although the long-term impact these projects will have on 
fostering job creation in these communities is difficult to estimate, 
the projects are expected to contribute to the long-term economic 
development opportunities in each rural community where a broadband 
project is launched. Data provided by the U.S. Department of Education 
show that more than 1 million K-12 students attend school within areas 
served by BIP awards. More than 100 colleges and technical schools are 
located in areas served by BIP awards. Data provided by the U.S. 
Department of Health and Human Services show that nearly 600 rural 
healthcare facilities are located in areas served by BIP awards. 
Sixtyfive (11 percent) of these facilities will receive broadband for 
the first time as a result of BIP.
BIP Awards and Awardee Contribution
in millions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



          Numerical value represents number of awards.
BIP Awards and Awardee Contribution by Entity Type
in millions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



          Numerical value represents number of awards.
 BIP Technology Type                  BIP Awards Serve Nearly 600 Rural
number of projects                    Healthcare Facilities
                                     number of facilities


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     
         Numerical value represents          Numerical value represents
     number of awards.                   number of awards.
                                            Source: U.S. Department of
                                         Health and Human Services.
More Than 1 Million K-12 Students Attend School Within Areas Served by 
        BIP Awards
percent of school children


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



BIP Awards by Project Type


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



BIP Awards by Technology Type


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Satellite Awards
    RUS funded additional BIP awards through the Satellite Grant 
Program.
    The Satellite Grant Program made $100 million available through 
four broadband satellite providers to connect rural premises left 
unserved by other technologies. These broadband satellite providers are 
expected to reach nearly 424,000 premises and 10,000 commercial 
subscribers across the country. Through this funding, these subscribers 
will receive broadband satellite premises equipment, installation, and 
activation at no cost to them, as well as discounted service for at 
least 1 year.

                           Satellite Awardees
------------------------------------------------------------------------
            Awardee Name                           Regions
------------------------------------------------------------------------
EchoStar XI                          Regions 4-6
Hughes Network Systems               Regions 1-8
Spacenet, Inc.                       Regions 7-8
WildBlue Communications              Regions 1-3
------------------------------------------------------------------------

BIP Satellite Regions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Technical Assistance Awards
    RUS funded additional BIP awards through the Technical Assistance 
Grant Program.
    The Technical Assistance Grant Program provides $3.4 million to 19 
technical assistance projects to create regional broadband development 
plans in 13 States. Some of the projects will cross Native American 
tribal areas. The Technical Assistance Grant Program will provide 
funding of up to $200,000 to infrastructure award recipients and Indian 
tribes. These technical assistance grants will support planning efforts 
that will lay the groundwork for the future development of broadband 
infrastructure and increased broadband access in rural areas.

                      Technical Assistance Awardees
------------------------------------------------------------------------
             Awardee Name                            State
------------------------------------------------------------------------
Central Council of the Tlingit &       Alaska
 Haida Indian Tribes of Alaska
Ute Mountain Ute Tribe                 Colorado
Shoshone-Bannock Tribes                Idaho
Mille Lacs Band of Ojibwe              Minnesota
Northeast Service Cooperative          Minnesota
Arizona Nevada Tower Corporation       Nevada
Confederated Tribes of the Goshute     Nevada, Utah
 Reservation
Consolidated Electric Cooperative      Ohio
Benton Ridge Telephone Company         Ohio
Pioneer Long Distance, Inc.            Oklahoma
Cherokee Nation                        Oklahoma
Kaw Nation-Kaw Enterprise Development  Oklahoma
 Authority
Warm Springs Telecommunications        Oregon
 Company
County of Orangeburg                   South Carolina
Lower Brule Sioux Tribe                South Dakota
Sisseton Wahpeton Oyate                South Dakota
Scott County Telephone Cooperative     Virginia
Quinault Indian Nation                 Washington
Jamestown S'Klallam Tribe              Washington
------------------------------------------------------------------------



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


FORMAT>
                                       
          $ = Amount (in millions) of all BTOP and BIP awards impacting 
        that State or Territory (note: amount may include the estimated 
        per State share of any BTOP awards that impact multiple 
        States).
          # = Total number of BTOP and BIP awards impacting that State 
        or Territory.
          The combined investments of USDA's BIP and the U.S. 
        Department of Commerce's National Telecommunications and 
        Information Administration Broadband Technology Opportunities 
        Program (BTOP). The funds awarded in each State are the result 
        of the two agency programs authorized by the Recovery Act of 
        2009.
          For additional information on the BTOP awards, visit http://
        www2.ntia.doc.gov.

                         Industry Standard Terms
------------------------------------------------------------------------------------------------------------------------------------------------
ADSL/ADSL2+                          Asymmetric Digital Subscriber Line
ASN-GW                               Access Service Network Gateway
BLC                                  Broadband Loop Carrier
BPL                                  Broadband Over Powerlines
CLEC                                 Competitive Local Exchange Carrier
CSN                                  Connectivity Service Network
DLC                                  Digital Loop Carrier
DOCSIS                               Data Over Cable Service Interface
                                      Specification
DSL                                  Digital Subscriber Line
DSLAM                                Digital Subscriber Line Access
                                      Multiplexer
DWDM                                 Dense Wavelength Division
                                      Multiplexing
FTTH                                 Fiber-to-the-Home
FTTN                                 Fiber-to-the-Node
FTTP                                 Fiber-to-the-Premise
FTTT                                 Fiber-to-the-Tower
FTTx                                 Fiber-to-the-x
Gbps                                 Gigabits Per Second
GHz                                  Gigahertz
GigE                                 Gigabit Ethernet
GPON                                 Gigabit Passive Optical Network
HFC                                  Hybrid Fiber/Coaxial
Hz                                   Hertz
ILEC                                 Incumbent Local Exchange Carrier
IP                                   Internet Protocol
IPTV                                 Internet Protocol Television
ITU                                  International Telecommunication
                                      Union
Kbps                                 Kilobits Per Second
LEC                                  Local Exchange Carrier
LTE                                  Long Term Evolution
Mbps                                 Megabits Per Second
MIMO                                 Multiple Input Multiple Output
OLT                                  Optical Line Terminals
OSN                                  Optical Splitting Network
P2MP                                 Point-to-Multipoint
PFSA                                 Proposed Funded Service Area
PON                                  Passive Optical Network
POP                                  Point of Presence
POTS                                 Plain Old Telephone Service
PUD                                  Public Utility District
RF                                   Radio Frequency
RFoG                                 Radio Frequency over Glass
SIP                                  Service Interface Point
VDSL2                                Very-High-Speed Digital Subscriber
                                      Line 2
VoIP                                 Voice over Internet Protocol
WiMAX                                Worldwide Interoperability for
                                      Microwave Access
------------------------------------------------------------------------

Infrastructure Project Summaries
    Estimates of jobs created or saved are based on information 
provided by applicants.
Alabama
    Butler Telephone Company, Inc.

    Butler Telephone Company, Inc., Project to Serve Rural, Remote, and 
Unserved Establishments

    Last Mile Remote

    $3,892,920 Grant

    Butler Telephone Company, Inc., a subsidiary of TDS 
Telecommunications Corp. (TDS Telecom), will provide high-speed DSL 
broadband service to remote, unserved households within its rural 
service territory in Alabama. The network will make services available 
to 462 households, 23 businesses, and 1 anchor institution. The project 
will create or save an estimated 77 jobs.

    National Telephone of Alabama, Inc.

    Cherokee Broadband Initiatives Project

    Last Mile

    $421,578 Loan

    $1,264,739 Grant

    National Telephone of Alabama, Inc., will deploy ADSL2+ technology 
to provide the infrastructure necessary for rural subscribers in the 
Colbert County communities of Barton, Cherokee, and Margerum to access 
advanced high-speed broadband service. The network will make services 
available to 1,294 households, 231 businesses, and 8 anchor 
institutions. The project will create four jobs.

    North Alabama Electric Cooperative

    North Alabama Remote Rural Broadband Economic Development 
Initiative

    Last Mile

    $19,100,909 Grant

    North Alabama Electric Cooperative will provide a last-mile FTTH 
network for high-speed broadband in an underserved rural area in 
northeast Alabama. North Alabama Electric Cooperative and New Hope 
Telephone Cooperative, a service provider, are partnering to provide 
high-speed broadband access to more than 8,048 households, 1,442 
businesses, and 53 anchor institutions. North Alabama Electric 
Cooperative will provide voice, video, and data services to customers 
over an active GPON using fiber-optic cable and passive and active 
components. Internet connections will be at 100 Mbps or higher. The 
project will create or save 51 jobs.

    Peoples Telephone Company, Inc.

    Peoples Telephone Company, Inc., Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $4,163,589 Grant

    Peoples Telephone Company, Inc. (Peoples Tel), a subsidiary of TDS 
Telecom, will build a project to bring high-speed broadband service to 
unserved premises within Peoples Tel's rural franchise service 
territory. Peoples Tel is the State-certified ILEC in Alabama. The 
project will serve 11 PFSAs located within its franchised service 
territory, which are 100 percent rural and include 11 communities. 
Within these PFSAs, there are 1,219 premises (1,199 households, 19 
businesses, and 1 anchor institution) that have no access to broadband 
service. Peoples Tel has built a broadband network that is capable of 
serving the majority of these premises in several of the core 
communities, but the surrounding area, much of which is sparsely 
populated, lacks broadband access due to the high cost of building such 
a network. In addition, facilities-based terrestrial broadband service 
is unavailable to the premises in the PFSAs. This project will provide 
access to high-speed broadband service (20 Mbps upstream and downstream 
combined). The network is also engineered so that it can be easily 
upgraded at a reasonable cost to meet future needs. The project will 
create or save 109 jobs.

    Utopian Wireless Corporation

    Utopian Ashford WiMAX Project

    Last Mile

    $396,525 Loan

    $1,189,575 Grant

    Utopian Wireless Corporation will make available advanced 4G 
wireless broadband service to underserved communities in and around the 
Ashford area. The PFSA includes the rural areas of Slocomb, Ashford, 
Hartford, Cottonwood, Webb, and Chancellor. The PFSA covers 
approximately 9,391 households, 3,848 businesses, and 219 anchor 
institutions. Using licensed 2.5 GHz spectrum, Utopian Wireless 
Corporation will deploy a broadband wireless system that features 
Motorola Mobile WiMAX technology, which offers several advantages over 
other wireless technologies, including a highly efficient air interface 
optimized for IP, built-in support for advanced antenna technologies 
like MIMO, and quality-of-service controls that enable differentiated 
services and open access. The project will create 10 full-time jobs.

    Utopian Wireless Corporation

    Utopian Shoals WiMAX Project

    Last Mile

    $569,679 Loan

    $1,709,039 Grant

    Utopian Wireless Corporation will make available advanced 4G 
wireless broadband service to underserved communities in and around the 
Shoals area. The rural PFSA includes the ZIP code areas of 35645 
(Killen), 35652 (Rogersville), 35672 (Town Creek), 35646 (Leighton), 
and 35618 and covers approximately 11,885 households, 1,731 businesses, 
and 220 anchor institutions. Using licensed 2.5 GHz spectrum, Utopian 
Wireless Corporation will deploy a broadband wireless system that 
features Motorola Mobile WiMAX technology. The system solution includes 
WiMAX access points, wireless and wired backhaul, ASN-GW, CSN, and an 
IP core that supports authentication and routing of traffic to 
application servers and the Internet. The project will create 14 full-
time jobs.
Alaska
    Copper Valley Telephone Cooperative, Inc.

    McCarthy Microwave Shot

    Middle Mile

    $2,613,975 Loan

    $2,613,975 Grant

    Copper Valley Telephone Cooperative, Inc. (CVTC) will extend 
terrestrial wireless broadband connectivity to McCarthy, a remote rural 
community where CVTC is the serving LEC. The project will allow CVTC to 
transition from a low-bandwidth-capacity satellite link to the proposed 
high-capacity terrestrial microwave middle-mile service in an area that 
has no terrestrial connections to outside networks. Currently, all 
communications in and out of McCarthy utilize earthorbiting satellites. 
The project will make services available to 26 households, 15 
businesses, and 3 anchor institutions that are unserved, creating the 
potential for increased business growth, public services, public 
safety, and quality of life for the residents of McCarthy. The project 
will create 56 jobs.

    Copper Valley Wireless, Inc.

    Copper Valley Wireless--Cordova, AK, Microwave

    Middle Mile

    $1,747,796 Loan

    $1,747,795 Grant

    Copper Valley Wireless, Inc., will extend terrestrial connectivity 
from Naked Island to Cordova, a remote rural community with voice 
service provided by the local cooperative. The project will provide 
access to the interexchange carrier to provide high-speed broadband to 
residents. The network will make services available to 1,077 households 
and 10 anchor institutions. The project will create five jobs.

    Rivada Sea Lion, LLC

    Southwestern Alaska Broadband Rural Expansion (SABRE)

    Last Mile Remote

    $25,333,240 Grant

    Rivada Sea Lion, LLC will deliver low-cost, highspeed broadband and 
public safety interoperability to the inaccessible communities of 
southwestern Alaska. The project will dramatically enhance service to 
homes, businesses, community centers, schools, medical clinics, and 
public safety organizations. SABRE will use a unique combination of 
wireless technologies to deliver leading-edge connectivity to the 
proposed service area. The network will make services available to 
8,136 households, 809 businesses, and 128 anchor institutions. The 
project will create an estimated 60 jobs.

    Supervision, Inc.

    Farther and Faster

    Last Mile Remote

    $174,680 Grant

    Supervision, Inc.'s Farther and Faster project will provide last-
mile cable to deliver broadband capability to homes, businesses, and 
community facilities in Tanana, a predominantly Alaska Native community 
located on the Yukon River. The network will make services available to 
166 households, 14 businesses, and 5 anchor institutions.

    United Utilities, Inc.

    TERRA-SW: Terrestrial Broadband in Southwestern Alaska

    Middle Mile

    $44,158,522 Loan

    $43,982,240 Grant

    United Utilities, Inc., will provide middle-mile connectivity to 65 
communities in southwestern Alaska. These communities span the Bristol 
Bay and Yukon Kuskokwim regions, an area approximately the size of 
North Dakota. Connectivity is over a combination of undersea fiber, 
terrestrial fiber, and microwave links. United Utilities will leverage 
its DeltaNet network to reduce the total cost of deployment. The 
network will make services available to 9,100 households, 748 
businesses, and 89 anchor institutions. The project will create or save 
105 jobs.
American Samoa

    American Samoa Telecommunications Authority

    Broadband Linking the American Samoa Territory (BLAST) Project

    Last Mile Remote

    $10,000,000 Loan

    $81,034,763 Grant

    American Samoa Telecommunications Authority will replace its old, 
deteriorating legacy copper infrastructure with a more robust and 
weather-durable fiber-optic network that will link the main islands of 
American Samoa, making it possible to provide broadband services to 
every household, business, and anchor institution in the territory. The 
network will make services available to 9,735 households, 315 
businesses, and 106 anchor institutions. The project will create an 
estimated 2,000 jobs.
Arizona

    Arizona Telephone Company

    Arizona Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $4,014,808 Grant

    Arizona Telephone Company (Arizona Tel) will bring high-speed 
broadband service to unserved premises in its rural franchise service 
territory. Arizona Tel, a subsidiary of TDS Telecom, is the State-
certified ILEC in Arizona. The project is designed to serve nine PFSAs 
in its franchised service territory, which is 100 percent rural and 
includes six communities. In these PFSAs, 608 premises (552 households, 
54 businesses, and 2 anchor institutions) currently have no access to 
broadband service. Arizona Tel has built a broadband network that is 
capable of serving the majority of these premises in several of the 
core communities, but the surrounding area, much of which is sparsely 
populated, lacks broadband access due to the high cost of building such 
a network. In addition, facilities-based terrestrial broadband service 
is unavailable to the premises in the PFSAs. This project will provide 
access to high-speed broadband service (20 Mbps upstream and downstream 
combined). The network is also engineered so that it can be easily 
upgraded at a reasonable cost to meet future needs. The project will 
create or save 106 jobs.

    Hopi Telecommunications, Inc.

    HTI Jeddito Middle-Mile/Last-Mile Project

    Middle Mile

    $1,090,471 Loan

    $2,544,432 Grant

    Hopi Telecommunications, Inc. (HTI) will deploy 61 miles of fiber-
optic cable between the community of Jeddito in its service area and 
the Frontier Communications POP in Holbrook. In addition to this fiber 
build-out, a last-mile component will provide broadband service to 
currently unserved subscribers around the communities of Jeddito and 
Spider Mound. HTI will serve these subscribers using wireless P2MP 
WiMAX access equipment. As the middle-mile component is the predominant 
part of the proposed system, this project is classified as a middle-
mile project. The network will make services available to 2,734 
households, 26 businesses, and 22 anchor institutions. The project will 
create 18 jobs.

    J.C. Cullen, Inc.

    Northern Arizona Data/Internet Network Extension (NADINE)

    Middle Mile

    $2,204,230 Grant

    J.C. Cullen, Inc., will implement the NADINE project to provide 
broadband service speeds of up to 300 Mbps in rural areas of the 
Havasupai Reservation and two scientific research facilities. The 
project will use licensed microwave radios with hot standby units. The 
project also includes a monitoring system located at an existing 
operation center and the utilization of five existing mountaintop 
communications sites for backhaul repeater locations. The network will 
make services available to 2,330 households, 8 businesses, and 20 
anchor institutions. The project will create or save 22 jobs.

    Midvale Telephone Exchange, Inc.

    MTE Last Mile Broadband Connections Initiative Henderson Service 
Area

    Last Mile

    $334,924 Loan

    $781,488 Grant

    Midvale Telephone Exchange, Inc., will offer last-mile broadband 
service speeds of at least 20 Mbps in the Prescott Prairie, Mingus 
Meadows, and Mingus Mountain areas of Henderson Valley using FTTH 
technology. The network will make services available to 117 households 
and 981 businesses. The project will create or save 10 jobs.

    Midvale Telephone Exchange, Inc.

    MTE Last Mile Broadband Connections Initiative Young Service Area

    Last Mile

    $644,045 Loan

    $1,502,769 Grant

    Midvale Telephone Exchange, Inc., will implement the Last Mile 
Broadband Connections Initiative Young Service Area project to provide 
service with a minimum of 20 Mbps in rural areas of the Young exchange. 
The project will use FTTH technology, and will facilitate public safety 
training, improved access to urban medical care centers, educational 
access, and expanded access to urban library services. The network will 
make services available to 236 households, 14 businesses, and 1 anchor 
institution. The project will create or save 10 jobs.

    San Carlos Apache Telecommunications Utility, Inc.

    San Carlos Apache Telecommunications, Inc. Broadband Offering

    Last Mile

    $5,244,585 Loan

    $5,244,585 Grant

    San Carlos Apache Telecommunications Utility, Inc. (SCATUI) will 
provide FTTP services to two areas within its serving areas on the San 
Carlos Apache Reservation. In the Bylas PFSA, residents currently are 
being compelled to relocate their homes to a different area due to 
uncontrollable circumstances. This grant is crucial to providing these 
customers with broadband Internet and phone service. Within the San 
Carlos service area, FTTP services will be provided to five new 
communities, a hospital, and multiple doctor facilities that are 
currently unserved. In addition, SCATUI will build five new tower sites 
to provide broadband Internet service for residents and emergency 
services personnel in very remote areas of the reservation that are 
also unserved. The network will make services available to 2,377 
households, 21 businesses, and 51 anchor institutions. The project will 
create 63 jobs.

    Tohono O'odham Utility Authority

    Tohono O'odham Fiber Route--Middle Mile

    Middle Mile

    $3,565,900 Loan

    $3,565,900 Grant

    Tohono O'odham Utility Authority (TOUA) will enable high-speed DSL 
service throughout the entire Tohono O'odham Reservation, with FTTP and 
fixed wireless broadband in certain areas. This area includes the three 
telephone exchanges currently owned and operated by TOUA. The network 
will offer a range of plans, with the most common average broadband 
service speed supporting 2 Mbps downstream and 512 Kbps upstream. TOUA 
also plans to offer 1,000 free computers and 6 months of free high-
speed Internet service to those in need who can demonstrate an economic 
development or educational benefit. The network will make services 
available to 2,307 households and 480 businesses.

    Tohono O'odham Utility Authority

    Tohono O'odham Last-Mile FTTH and Broadband Wireless Network

    Last Mile

    $2,576,750 Loan

    $7,730,250 Grant

    Tohono O'odham Utility Authority (TOUA) will further develop its 
communications network to improve current conditions in the Tohono 
O'odham Nation. TOUA was awarded a middle-mile BIP loan and grant 
(Easygrants ID 1767) in round one. This last-mile project is 
synergistic with the recently awarded project. Both the middle-mile and 
lastmile elements are integral to the total broadband solution for the 
TOUA service area. The middle-mile project allows TOUA to build a 
strong high-speed transport network that will interconnect all the 
last-mile nodes in this project. TOUA will leverage its current 
investment in broadband access BLC equipment to build an extensive FTTH 
network. In conjunction with the project defined in the middlemile 
award, this project will extend broadband service to nearly all the 
unserved and underserved lastmile sections in the entire PFSA Tohono 
O'odham Reservation. The system will use a combination of fiber-optic 
technology along with DSL and broadband wireless and will enable 
service speeds beyond 20 Mbps. TOUA will also offer wireless services 
from each of its BLC locations. These WiFi areas can be deployed 
quickly and economically. The project will make services available to 
2,711 households, 1,329 businesses, and 60 anchor institutions. The 
project will create more than 100 jobs.
Arkansas

    Crystal Broadband Networks

    Crystal Broadband Networks Southeast Arkansas WiMAX System

    Last Mile

    $1,808,881 Loan

    $1,737,945 Grant

    Crystal Broadband Networks will provide last-mile broadband service 
to more than 600 square miles of rural Arkansas. The project will 
deploy a fixed wireless network utilizing WiMAX technology to offer 
broadband service speeds of at least 5 Mbps. The network will make 
services available to 2,399 households, 1,318 businesses, and 13 anchor 
institutions. The project will create or save 24 jobs.

    Northern Arkansas Telephone Company

    Northern Arkansas Broadband

    Last Mile

    $2,569,636 Grant

    Northern Arkansas Telephone Company will substantially expand the 
provision of advanced FTTH and ADSL2+ services via a fiber-optic 
network with combined speeds exceeding 20 Mbps in Marion and Boone 
counties in rural north central Arkansas. The network will make 
services available to 725 households, 70 businesses, and 10 anchor 
institutions. The project will create 95 jobs.

    Utopian Wireless Corporation

    Utopian Searcy WiMAX Project

    Last Mile

    $744,165 Loan

    $2,232,496 Grant

    Utopian Wireless Corporation will provide wireless broadband 
service to two rural underserved communities near Searcy. These rural 
PFSAs cover approximately 19,391 households, 2,050 businesses, and 111 
anchor institutions. Using its licensed 2.5G Hz spectrum, Utopian will 
deploy a broadband wireless system that features Motorola Mobile WiMAX 
technology that will support 5.0 and 10 MHz channels. The system 
includes WiMAX access points, wireless and wired backhaul, ASN-GW, CSN, 
and an IP core that supports authentication and the routing of traffic 
to application servers and the Internet. Utopian will offer tiered 
services with an average minimum wireless downlink speed of at least 
1.8 Mbps. The project will create 15 jobs.

    Windstream Corporation

    Windstream Arkansas, LLC

    Last Mile

    $7,285,202 Grant

    Windstream Corporation will expand broadband service to unserved 
customers in rural areas of Arkansas. With this project, Windstream 
will extend the reach of its broadband network to make services 
available to 6,111 households, 339 businesses, and 33 anchor 
institutions. It will provide broadband to last-mile wireline telephone 
subscribers. Windstream will provide broadband service to community and 
public service facilities in the PFSAs at discounted rate packages for 
at least 3 years. Windstream will deploy industry standard DSLAM 
protocols to provide a minimum of 6.0 Mbps downstream and 786 Kbps 
upstream data services. The DSLAM will be strategically deployed to 
reach the greatest number of unserved customers over its existing 
wireline copper plant. The project will create or save 122 jobs.
California

    Audeamus

    Westside Broadband Project for Rural Central California--San 
Joaquin, Tranquillity, and West Fresno

    Last Mile Non-remote

    $2,741,505 Loan

    $2,741,505 Grant

    Audeamus will build a fiber-based broadband infrastructure for the 
unserved and underserved communities of San Joaquin and Tranquillity 
and for a portion of rural west Fresno County. This last-mile project 
will provide broadband access to approximately 1,352 households, 125 
local businesses, and 24 anchor institutions. The project will create 
or save 93 jobs.

    Calaveras Telephone Company

    Calaveras Fiber-to-the-Home Broadband Deployment Project

    Last Mile

    $1,226,093 Loan

    $2,860,883 Grant

    Calaveras Telephone Company will deploy FTTH technology to increase 
the availability of broadband service in Poker Flat, an area south of 
Copperopolis in Calaveras County. The company will bring a robust FTTH 
infrastructure to its existing customer footprint in Calaveras County. 
Deployment is based upon an overbuild and expansion of existing 
exchange areas as well as an increased transport route to the local 
Internet POP. The project's PFSA, which lies in the Sierra Nevada 
foothills, has a unique mixture of broadband users that includes remote 
workers from nearby economic centers like Stockton, Sacramento, and San 
Francisco. The project will make services available to 409 households 
and 4 businesses. It includes upgraded transport infrastructure to 
handle backhaul for existing and new construction areas and effectively 
expands the company's broadband footprint. To accommodate the varied 
demographics and subscriber profiles in the served areas, Calaveras 
will use several service offerings, ranging from 1.5 Mbps to 50 Mbps. 
The network will incorporate GPON and active fiber infrastructure with 
existing landline telephone switching. The project will create or save 
eight jobs.

    Cal-Ore Communications, Inc.

    North Siskiyou Wireless Broadband

    Last Mile

    $446,600 Loan

    $1,339,800 Grant

    Cal-Ore Communications, Inc., and Cal-Ore Telephone Company will 
cooperate to build and manage a last-mile wireless broadband project to 
serve north central Siskiyou County. The general mountainous terrain 
combined with dense stands of juniper trees makes wireless coverage 
difficult and requires additional radio sites to achieve coverage 
across the area. The project will also provide IP voice services over a 
wireless network. The PFSA includes 2,022 households and 365 businesses 
that are predominantly farms, ranches, and other agricultural entities, 
and 27 anchor institutions. The project will provide wireless broadband 
to unserved and underserved communities and enhanced backhaul capacity 
to neighboring blocks served by Cal-Ore Communications and Cal-Ore 
Telephone Company. The project will create five jobs.

    Ponderosa Cablevision

    Millerton Project

    Last Mile Non-remote

    $1,926,431 Loan

    $1,926,431 Grant

    Ponderosa Cablevision will deploy FTTP in a 31-square-mile area 
adjacent to Ponderosa's current service territory. The project will 
make telemedicine and online education applications accessible, a true 
benefit in an area where reaching the closest medical and school 
facilities requires a 45-minute drive. The network will make services 
available to 693 households. The project will create or save 34 jobs.

    Smarter Broadband

    Smarter Broadband Project

    Last Mile

    $624,681 Loan

    $1,874,043 Grant

    Smarter Broadband will provide high-speed broadband access to 
western Nevada County over 435 square miles of rural, mountainous, and 
wooded territory. Smarter Broadband operates a network of wireless 
access points spanning multiple towers throughout the PFSA. The company 
will deliver speeds up to 6 Mbps and more to this largely underserved 
area. The project will make services available to 14,075 households, 
3,581 businesses, and 298 anchor institutions. The project will create 
10 jobs.

    Softcom Internet Communications, Inc.

    Softcom Rural Broadband Expansion Project

    Last Mile

    $1,689,710 Loan

    $5,069,125 Grant

    Softcom Internet Communications, Inc., will provide broadband 
service speeds of 3 Mbps downstream and 1 Mbps upstream to an 
underserved rural area in Sacramento and San Joaquin counties in north 
central California. The project will cover 378 square miles and will 
make services available to 6,001 households, 4,266 businesses, and 5 
anchor institutions. The project network is based on Softcom's second-
generation wireless platform, a proven platform that has been in 
operation more than 3 years. The project consists of augmenting and 
expanding the coverage of this network to provide 100 percent broadband 
availability throughout the entire service area. The project will 
create 38 jobs.
Colorado

    Delta County Tele-Com, Inc.

    Delta County Tele-Com, Inc., Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $1,826,979 Grant

    Delta County Tele-Com, Inc. (Delta County Tel), a subsidiary of TDS 
Telecom, will provide highspeed broadband service to three 100 percent 
rural PFSAs with four communities in its service territory. These PFSAs 
have 540 premises (495 households and 45 businesses) with no access to 
broadband service. Delta County Tel is the State-certified ILEC in 
Colorado. As engineered, the network will deploy Ethernet-over-copper 
technology to its fullest potential, provide VDSL2 access devices 
packaged in an FTTN configuration, upgrade access in the central office 
to support the extension of the broadband networks to these remote 
areas, use PON FTTH where economically feasible, and allow future PON 
upgrades without needing to rebuild the transport routes. The target 
speed is 20 Mbps (upstream and downstream combined) or more DSL 
service. This project will create or save 48 jobs.

    Nunn Telephone Company

    Nunn Rural Broadband Project

    Last Mile

    $1,293,125 Loan

    $3,879,375 Grant

    Nunn Telephone Company will provide highspeed broadband service to 
rural residents and businesses in north central Colorado, utilizing 
FTTH technologies. The network will make services available to 373 
households, 191 businesses, and 3 anchor institutions. The project will 
create 20 jobs.

    Peetz Cooperative Telephone Co.

    Peetz Last Mile

    Last Mile Remote

    $756,925 Grant

    Peetz Cooperative Telephone Co., will deploy broadband 
infrastructure in and around the Peetz community using a combination of 
technologies. This deployment within the remote unserved ranching and 
agricultural community will create jobs and stimulate economic growth. 
Anchor institutions within the community will have connectivity to 
necessary distance learning and public safety applications. A portion 
of this project will also be implemented in Nebraska. The network will 
make services available to 254 households, 15 businesses, and 6 anchor 
institutions. The project will create five jobs.

    Plains Cooperative Telephone Association, Inc.

    Fiber on the Colorado Plains

    Last Mile

    $9,475,120 Loan

    $1,672,080 Grant

    Plains Cooperative Telephone Association, Inc., will offer FTTH 
broadband service on the eastern plains of Colorado. The project will 
add 1,000 miles of fiber-optic cable over a 1,974 square-mile area. The 
network will make services available to 1,096 households, 272 
businesses, and 42 anchor institutions. The project will create or save 
24 jobs.

    Stoneham Cooperative Telephone Corporation

    Stoneham FTTH

    Last Mile

    $234,541 Loan

    $1,407,244 Grant

    Stoneham Cooperative Telephone Corporation will offer FTTH 
broadband service in Weld, Logan, and Morgan counties, which consist of 
rural farming and ranching territory. The network will make services 
available to 62 households, 9 businesses, and 4 anchor institutions. 
The project will create or save two jobs.

    Wiggins Telephone Association

    Weldona-Orchard FTTP

    Last Mile Non-remote

    $2,168,544 Loan

    $2,159,887 Grant

    Wiggins Telephone Association will deploy FTTP infrastructure in 
the Weldona-Orchard area of northeastern Colorado. The network will 
make services available to 446 households, 40 businesses, and 7 anchor 
institutions. The project will create nine jobs.

    Willard Telephone Company

    Willard Telephone Company FTTH

    Last Mile

    $245,505 Loan

    $546,442 Grant

    Willard Telephone Company will upgrade its exchange facilities 
located in western Logan County to offer FTTH to the Willard Community, 
a non-designated community in northeastern Colorado. The PFSA, mainly 
farm and ranch land, is so remote that residents do not receive daily 
newspapers and some residents receive mail service only 3 days a week. 
The network will make services available to 76 households, 8 
businesses, and 3 anchor institutions. The project is expected to 
create or save 11 jobs.
Florida

    Litestream Holdings, LLC

    Western St. Lucie County Broadband Expansion

    Last Mile

    $5,053,427 Grant

    Litestream Holdings will extend its existing fiber trunk to serve 
more than 940 unserved locations in a rural portion of unincorporated 
St. Lucie County. The PFSA will have access to high-speed Internet, 
digital voice service, and analog and digital high-definition video 
services. The project will implement FTTH using RFoG technology that 
allows seamless end-to-end conversion of traditional coax RF signals 
over fiberoptic cable. RFoG technology will allow Litestream to 
leverage its existing 860 MHz RF head-end and DOCSIS-based Internet 
distribution framework, thus reducing cost. The project will be 
constructed in four phases across approximately 54 miles of trunk fiber 
to connect with the existing network infrastructure, 111 miles of 
lateral fiber, and 72 miles of community fiber. Maximum combined 
download and upload speeds will exceed 20 Mbps on the maximum tiered 
level of service offered. The project will create 52 jobs.

    Myakka Communications, Inc.

    Myakka Communications

    Last Mile

    $1,963,930 Loan

    $5,891,796 Grant

    Myakka Communications will deploy a fiber overbuild and expansion 
of the wireless network of its sister company, Myakka Technologies. The 
project will serve a rural portion of Florida that has no cable, DSL, 
or fiber infrastructure. It will serve rural eastern portions of 
Manatee and Sarasota counties with speeds of up to 20 Mbps. The project 
will deploy approximately 150 miles of fiber-optic cable and will make 
services available to 4,150 premises. This overbuild will provide a 
hybrid, efficient, and economical system of fiber and wireless. The 
project will create 49 jobs.

    Quincy Telephone Company

    Quincy Telephone Company: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $1,145,379 Grant

    Quincy Telephone Company will offer broadband service speeds of up 
to 20 Mbps in Gadsden County, Florida and Decatur County, Georgia. As 
engineered, the network will deploy Ethernet-over-copper technology and 
will provide VDSL2 access via FTTN. The network will make services 
available to 346 households, 12 businesses, and 2 anchor institutions. 
The project will create or save 30 jobs.

    Windstream Corporation

    Windstream Florida, Inc.

    Last Mile

    $38,288,349 Grant

    Windstream Corporation will expand broadband service to unserved 
customers in rural areas of Florida. The project will allow Windstream 
to extend the reach of its broadband network to make services available 
to 50,026 households, 4,765 businesses, and 149 anchor institutions. It 
will provide broadband to last-mile wireline telephone subscribers. 
Windstream will provide broadband service to community and public 
service facilities in the PFSAs at discounted rate packages for at 
least 3 years. Windstream will deploy industry-standard DSLAM protocols 
to provide a minimum of 6.0 Mbps downstream and 786 Kbps upstream data 
services. The DSLAM will be strategically deployed to reach the 
greatest number of unserved customers over its existing wireline copper 
plant. The project is expected to create an estimated 226 jobs.
Georgia

    Blue Ridge Telephone Company

    Blue Ridge Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $853,768 Grant

    Blue Ridge Telephone Company (Blue Ridge Tel), a subsidiary of TDS 
Telecom, will build a highspeed broadband network in Georgia in two 100 
percent rural PFSAs with three communities. These PFSAs have 368 
premises (352 households and 16 businesses) with no access to broadband 
service. Blue Ridge Tel is the State-certified ILEC in Georgia. As 
engineered, the network will deploy Ethernet-over-copper technology, 
provide VDSL2 access devices packaged in an FTTN configuration, upgrade 
access in the central office to support the extension of the broadband 
networks to these remote areas, use PON FTTH where economically 
feasible, and allow future PON upgrades without needing to rebuild the 
transport routes. The network's target speed is 20 Mbps (upstream and 
downstream combined) or more DSL service. The project will create or 
save 22 jobs.

    Bulldog Cable Georgia, Inc.

    Bulldog Cable--Lake Sinclair System

    Last Mile

    $2,843,713 Loan

    $8,531,138 Grant

    Bulldog Cable Georgia, Inc., will offer advanced broadband service 
speeds of up to 5 Mbps in the area of Lake Sinclair. The project will 
upgrade 42 miles of cable with new 1 GHz cable and expand an additional 
163 miles of new construction for a total of 205 miles of HFC cable. 
The network will make services available to 5,025 households and 1,369 
businesses. The project will create or save 59 jobs.

    Darien Telephone Company, Inc.

    Broadband Bridge to Sapelo Island

    Last Mile

    $223,996 Loan

    $223,997 Grant

    Darien Telephone Company, Inc., will expand high-speed broadband 
service to Sapelo Island, a barrier island off the coast of Georgia 
currently without access to high-speed broadband, using FTTH GPON 
technology. The network will make services available to 240 households, 
10 businesses, and 10 anchor institutions and will help drive economic 
development in the community. The project will create 23 jobs.

    Flint Cable TV, Inc.

    Flint Digital Wave

    Last Mile Non-remote

    $4,095,913 Loan

    $4,095,913 Grant

    Flint Cable TV, Inc., will provide an HFC network to homes in the 
underserved areas of Culloden, Friendship, and Yatesville in rural 
central Georgia. This HFC network will use the latest DOCSIS 3.0 cable 
standard, enabling channel bonding and speeds up to 100 Mbps. The 
network will make services available to 2,786 households, 22 
businesses, and 19 anchor institutions. The project will create 20 
jobs.

    Quincy Telephone Company

    Quincy Telephone Company: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $218,168 Grant

    Quincy Telephone Company will offer broadband service speeds of up 
to 20 Mbps in Gadsden County, Florida and Decatur County, Georgia. As 
engineered, the network will deploy Ethernet-over-copper technology and 
will provide VDSL2 access via FTTN. The network will make services 
available to 66 households and 2 businesses. The project will create or 
save six jobs.

    South Georgia Regional Information Technology Authority

    SGRITA Rural Last Mile Infrastructure Project

    Last Mile

    $6,663,515 Loan

    $6,663,515 Grant

    South Georgia Regional Information Technology Authority will offer 
700 MHz and 2.5 GHz 4G mobile and fixed wireless broadband service in 
the rural southwest counties of Baker, Calhoun, Early, Miller, and 
Mitchell. The network will make services available to 21,033 
households, 2,272 businesses, and 246 anchor institutions. The project 
will create or save eight jobs.

    Wilkes Telephone & Electric Company

    Wilkes Telephone Company FTTH Build-Out

    Last Mile

    $14,433,762 Loan

    $33,678,779 Grant

    Wilkes Telephone & Electric Company will provide state-of-the-art 
communication services while enhancing broadband communication options 
to the citizens of Lincoln, Taliaferro, and Wilkes counties. The 
network will make services available to 7,832 households, 802 
businesses, and 58 anchor institutions, providing infrastructure for 
affordable bandwidth and services, and will integrate economic 
development, employment, education, public safety, public health, and 
other government services. The technology will be an FTTH wireline 
fiber-optic cable network, configured in PON architecture, able to 
support speeds in excess of 20 Gbps. The project will create 74 jobs.

    Windstream Corporation

    Georgia Windstream, LLC

    Last Mile

    $4,665,116 Grant

    Windstream Corporation will offer broadband service speeds of up to 
12 Mbps in the counties of Appling, Charlton, Dodge, Early, Miller, 
Rabun, Seminole, Tattnall, Telfair, Upson, Walker, and Wayne by 
deploying DSLAMs using ADSL2+. The network will make services available 
to 4,033 households, 284 businesses, and 35 anchor institutions. The 
project will create or save 54 jobs.

    Windstream Corporation

    Windstream Georgia Communications, LLC

    Last Mile

    $5,129,575 Grant

    Windstream Corporation will provide last-mile broadband service to 
numerous unserved rural areas of Georgia. Windstream will deploy 
industry-standard DSLAMs using ADSL2+ protocols to provide a minimum of 
6 Mbps downstream and 786 Kbps upstream data services. DSLAMs will be 
strategically deployed to reach the greatest number of unserved 
customers over the existing wireline copper plant. The project will 
make services available to 18,503 households, 2,037 businesses, and 119 
anchor institutions. The project will create an estimated 55 jobs.

    Windstream Corporation

    Windstream Standard, LLC

    Last Mile

    $6,940,375 Grant

    Windstream Corporation will expand broadband service to unserved 
customers in rural areas of Georgia. The PFSA comprises the 21 
communities of Baldwin, Blairsville, Clarkesville, Cleveland, Cornelia, 
Dahlonega, Dawsonville, Helen, Hiawassee, Ivylog, Juno, Macedonia, 
Mineral Bluff, Morganton, Notla, Suches, Three Sisters Mountains, 
Tiger, Toccoa, Turnerville, and Young Harris. The project will allow 
Windstream to extend the reach of its broadband network to make 
services available to 12,177 households, 743 businesses, and 58 anchor 
institutions and provide broadband to last-mile wireline telephone 
subscribers. The project also will allow Windstream to provide 
broadband service to 61 community and public safety facilities in the 
PFSA. The project will use industry standard ADSL2+ protocols that will 
allow customers to enjoy broadband at speeds of up to 12 Mbps. The 
project will create an estimated 73 jobs.
Hawaii

    Big Island Broadband/Aloha Broadband, Inc.

    Aloha Broadband Kohala

    Last Mile Remote

    $106,503 Loan

    Aloha Broadband will provide affordable terrestrial fixed wireless 
broadband service to the community of North Kohala on the Big Island of 
Hawaii. The area is not currently served by any broadband service 
provider. The network will make services available to 553 households, 
35 businesses, and 9 anchor institutions. The project will create five 
jobs.
Idaho

    Coeur d'Alene Tribe

    Coeur d'Alene Reservation FTTH Project

    Last Mile Non-remote

    $6,142,879 Loan

    $6,142,879 Grant

    The Coeur d'Alene Tribe will deploy an FTTH broadband system to 
provide improved broadband service to anchor institutions, critical 
community facilities, and approximately 3,770 unserved and underserved 
households in the communities of DeSmet, Plummer, Tensed, and Worley. 
The project will include service to isolated farms and rural home sites 
on the Coeur d'Alene Indian Reservation in northern Idaho. The network 
will make services available to 429 businesses and 21 anchor 
institutions and will create 30 jobs.

    Midvale Telephone Exchange, Inc.

    MTE Last Mile Broadband Connections Initiative Stanley Service Area

    Last Mile

    $380,751 Loan

    $888,420 Grant

    Midvale Telephone Exchange, Inc., will offer last-mile broadband 
service speeds of at least 20 Mbps in the rural town of Stanley using 
FTTH technology. The network will make services available to 205 
households, 31 businesses, and 6 anchor institutions. The project will 
create or save 10 jobs.

    Potlatch Telephone Company

    Potlatch Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $2,013,722 Grant

    Potlatch Telephone Company (Potlatch Tel), a subsidiary of TDS 
Telecom, will provide high-speed broadband service to unserved premises 
in 100 percent rural Idaho. The project will serve five PFSAs with four 
communities. These PFSAs have 306 premises (296 households and 10 
businesses) with no access to broadband service. Potlatch Tel is the 
State-certified ILEC in Idaho. As engineered, the network will deploy 
Ethernet-over-copper technology, provide VDSL2 access devices packaged 
in an FTTN configuration, upgrade access in the central office to 
support the extension of the broadband networks to these remote areas, 
use PON FTTH where economically feasible, and allow future PON upgrades 
without needing to rebuild the transport routes. The target speed is 20 
Mbps (upstream and downstream combined) or more DSL service. This 
project will create or save 53 jobs.
Illinois

    Cellular Properties, Inc.

    Eastern Illinois Broadband Deployment

    Last Mile

    $6,132,260 Loan

    $6,132,260 Grant

    Cellular Properties, Inc. (CPI) will upgrade an existing wireless 
network to 3G wireless to provide mobile and fixed wireless broadband 
to extremely rural and predominantly underserved areas of east central 
Illinois. The project will deploy FTTT where economically feasible to 
provide an eventual migration path to 4G/LTE. Initially, the 3G network 
will offer speeds of 7.2 Mbps downstream and 3.6 Mbps upstream. The 
three PFSAs are 99 percent rural and cover 11 counties and 36 
communities. The communities include 26,605 households, 7,123 
businesses, and 704 anchor institutions. CPI will upgrade to a 3G 
network through an overlay on existing cell sites, coupled with a build 
of new cell sites. The PFSAs constitute 48 of the 100 towers CPI plans 
to construct or upgrade to a 3G universal mobile telecommunications 
system. The project will create 267 jobs.

    Convergence Technologies, Inc.

    CTI Rural Open Access WiMAX Network

    Last Mile

    $1,434,375 Loan

    $4,303,125 Grant

    Convergence Technologies, Inc., will offer last-mile wireless 
broadband and VoIP in Cook, Kankakee, and Will counties in Illinois and 
Lake, Newton, and Porter counties in Indiana. The project will utilize 
WiMAX technology as a platform to deliver broadband service speeds of 
up to 11 Mbps. The network will make services available to 43,755 
households, 9,497 businesses, and 3 anchor institutions. The project 
will create or save 26 jobs.

    Norlight, Inc.

    Illinois VDB Network Expansion

    Last Mile

    $3,311,324 Loan

    $7,726,423 Grant

    Norlight, Inc., will implement the Illinois VDB Network Expansion 
project to provide a wireless network to 13 unserved and underserved 
areas in central Illinois. This fixed wireless deployment will consist 
of a network of 72 towers providing highspeed broadband of greater than 
5 Mbps. Counties covered include all or parts of Bond, Calhoun, Cass, 
Christian, Fayette, Greene, Jersey, Macoupin, Montgomery, Morgan, Pike, 
Scott, and Shelby. The network will make services available to 75,253 
households, 9,737 businesses, and 804 anchor institutions. The project 
will create or save 36 jobs.

    Shawnee Telephone Company

    Shawnee's FTTH Project: Focused Economic Revitalization and 
Sustainable Transformation of Southern Illinois

    Last Mile

    $6,249,989 Loan

    $1,102,940 Grant

    Shawnee Telephone Company will deploy an FTTH network capable of 1 
Gbps broadband service speeds in PFSAs that rank among the lowest in 
per household income and the highest in unemployment in southern 
Illinois. The network will make services available to 1,209 households, 
438 businesses, and 35 anchor institutions. The project will create 91 
jobs.

    Utopian Wireless Corporation

    Utopian Bushnell WiMAX Project

    Last Mile

    $66,091 Loan

    $198,271 Grant

    Utopian Wireless Corporation will provide 4G wireless broadband 
service to underserved communities near Bushnell. The PFSA is rural and 
covers approximately 1,481 households, 102 businesses, and 32 anchor 
institutions. Utopian will deploy a broadband wireless system that 
features Motorola Mobile WiMAX technology for efficient air interface 
optimized for IP, built-in support for advanced antenna technologies 
like MIMO, and quality-of-service controls that enable differentiated 
services and open access. The system includes WiMAX access points, 
wireless and wired backhaul, ASN-GW, CSN, and an IP core that supports 
authentication and traffic routing to application servers and the 
Internet. Utopian will offer tiered services with average minimum 
downlink speeds of at least 1.8 Mbps. The project will create 10 jobs.

    Utopian Wireless Corporation

    Utopian Cairo WiMAX Project

    Last Mile

    $68,686 Loan

    $206,055 Grant

    The Utopian Cairo WiMAX project will make available advanced 4G 
wireless broadband service to underserved communities in and around 
Cairo. The PFSA includes the 62914 ZIP code area in Alexander County, 
where Cairo is the county seat. The PFSA is rural and covers 
approximately 1,746 households, 87 businesses, and 43 anchor 
institutions. Using licensed 2.5 GHz spectrum, Utopian will deploy a 
broadband wireless system that features Motorola Mobile WiMAX 
technology, which offers several advantages over other wireless 
technologies, including a highly efficient air interface optimized for 
IP, built-in support for advanced antenna technologies like MIMO, and 
quality-of-service controls that enable differentiated services and 
open access. The project will create 10 jobs.

    Utopian Wireless Corporation

    Utopian Flora WiMAX Project

    Last Mile

    $129,714 Loan

    $389,141 Grant

    Utopian Wireless Corporation will provide 4G wireless broadband 
service to underserved communities near Flora. The rural PFSA covers 
approximately 2,791 households, 276 businesses, and 86 anchor 
institutions. Utopian will deploy a broadband wireless system that 
features Motorola Mobile WiMAX technology for efficient air interface 
optimized for IP, built-in support for advanced antenna technologies 
like MIMO, and quality-of-service controls that enable differentiated 
services and open access. The system includes WiMAX access points, 
wireless and wired backhaul, ASN-GW, CSN, and an IP core that supports 
traffic authentication and routing to application servers and the 
Internet. Utopian will offer tiered services with average minimum 
downlink speeds of at least 1.8 Mbps. Utopian will hire full-time local 
staff in the PFSA, including up to three sales people to prepare for 
launch. The project will create 10 jobs.

    Utopian Wireless Corporation

    Utopian Monmouth WiMAX Project

    Last Mile

    $150,063 Loan

    $450,189 Grant

    The Utopian Monmouth WiMAX project will make available advanced 4G 
wireless broadband service to underserved communities in the Monmouth 
area. The PFSA includes the 61462 ZIP code area in Warren County, where 
Monmouth is the county seat. The PFSA covers 4,419 households, 290 
businesses, and 95 anchor institutions. Using licensed 2.5 GHz 
spectrum, Utopian Wireless Corporation will deploy a broadband wireless 
system that features Motorola Mobile WiMAX technology. The average 
minimum downlink speeds for Utopian Wireless subscribers will be at 
least 1.8 Mbps. The project will create 10 jobs.

    Utopian Wireless Corporation

    Utopian White Hall WiMAX Project

    Last Mile

    $63,594 Loan

    $190,780 Grant

    The Utopian White Hall WiMAX project will make available advanced 
4G wireless broadband service to underserved communities in and around 
White Hall. The PFSA includes the 62092 ZIP code area in Greene County. 
The PFSA is rural and covers 1,224 households, 147 businesses, and 36 
anchor institutions. Utilizing licensed 2.5 GHz spectrum, Utopian will 
deploy a broadband wireless system that features Motorola Mobile WiMAX 
technology. WiMAX offers a number of advantages over other wireless 
technologies, including a highly efficient air interface optimized for 
IP, built-in support for advanced antenna technologies like MIMO, and 
quality-of-service controls that enable differentiated services and 
open access. The project will create 10 jobs.
Indiana

    Camden Telephone Company, Inc.

    Camden Telephone Company, Inc.: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $1,089,955 Grant

    Camden Telephone Company, Inc. (Camden Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises 
in its rural franchise service territory. Camden Tel is the State-
certified ILEC in Indiana. The project will serve five PFSAs, located 
within its franchise service territory, which are 100 percent rural and 
include three communities. This project will build a broadband network 
that will make services available to 326 rural unserved premises (309 
households and 17 businesses) to provide them with access to high-speed 
broadband service (20 Mbps upstream and downstream combined). The 
project will provide DSL broadband capability to unserved premises and 
deliver broadband high-speed capabilities of 20 Mbps (upstream and 
downstream combined). The project will deploy Ethernet-over-copper 
technology, provide VDSL2 access devices that are packaged in an FTTN 
configuration, and upgrade access in the central office to support the 
extension of the broadband networks to these remote areas. The project 
will use PON FTTH where economically feasible and allow for future PON 
upgrades without needing to rebuild the transport routes. The project 
will create or save 29 jobs.

    Convergence Technologies, Inc.

    CTI Rural Open Access WiMAX Network

    Last Mile

    $1,378,125 Loan

    $4,134,375 Grant

    Convergence Technologies, Inc., will offer last-mile wireless 
broadband and VoIP in Cook, Kankakee, and Will counties in Illinois and 
Lake, Newton, and Porter counties in Indiana. The project will utilize 
WiMAX technology as a platform to deliver broadband service speeds of 
up to 11 Mbps. The network will make services available to 42,039 
households, 9,124 businesses, and 3 anchor institutions. The project 
will create or save more than 25 jobs.

    DigitalBridge Communications Corp.

    Round 2: IN-Franklin Last Mile

    Last Mile

    $397,224 Loan

    $397,224 Grant

    DigitalBridge Communications Corp., will provide 4G broadband 
service to unserved and underserved portions of Franklin County. The 
project will utilize last-mile broadband access via fixed and mobile 
WiMAX technology. Service will include Internet access and VoIP service 
speeds of up to 4 Mbps. The network will make services available to 
2,673 households, 266 businesses, and 41 anchor institutions. The 
project will create or save six jobs.

    Home Telephone Company, Inc.

    Home Telephone Company, Inc.: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $416,743 Grant

    Home Telephone Company, Inc. (Home Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises 
in its rural franchise service territory. Home Tel is the 
Statecertified ILEC in Indiana. The project will serve two 100 percent 
rural PFSAs, which have 178 premises (176 households and 2 businesses) 
with no access to broadband service. The project will build a network 
to provide access to high-speed broadband service (20 Mbps upstream and 
downstream combined). The network will deploy Ethernet-over-copper 
technology, provide VDSL2 access devices that are packaged in an FTTN 
configuration, upgrade access in the central office to support the 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
needing to rebuild the transport routes. The project will create or 
save 11 jobs.

    Sunman Telecommunications, Inc.

    Sunman 700-MHz WiMAX Wireless Broadband Plan

    Last Mile Non-remote

    $5,694,611 Loan

    $5,694,611 Grant

    Sunman Telecommunications will create a 700 MHz WiMAX build-out 
plan to serve rural communities within Indiana. This project will 
provide needed broadband service to households, businesses, and key 
community organizations in underserved rural communities. About 1 
percent of this network will also serve a small area in Kentucky. The 
network will make services available to 52,657 households, 11,025 
businesses, and 135 anchor institutions. The project will create 25 
jobs.

    Tipton Telephone Company, Inc.

    Tipton Telephone Company, Inc.: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $1,011,971 Grant

    Tipton Telephone Company, Inc. (Tipton Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises 
in its rural franchise service territory. Tipton Tel is the State-
certified ILEC in Indiana. The project will serve three 100 percent 
rural PFSAs, which include two communities with 382 premises (332 
households and 50 businesses) with no access to any broadband service. 
As engineered, the network will deploy Ethernet-over-copper technology, 
provide VDSL2 access devices that are packaged in an FTTN 
configuration, upgrade access in the central office to support the 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
needing to rebuild the transport routes. Target speed to unserved 
customers is at 20 Mbps (upstream and downstream combined). The project 
will create or save 27 jobs.

    Tri-County Telephone Company, Inc.

    Tri-County Telephone Company, Inc.: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $593,273 Grant

    Tri-County Telephone Company, Inc. (Tri-County Tel), a subsidiary 
of TDS Telecom, will bring high-speed broadband service to unserved 
premises in its rural franchise service territory. Tri-County Tel is 
the State-certified ILEC in Indiana. The project will serve three 100 
percent rural PFSAs in its franchise service territory, which includes 
five communities. Within the PFSAs, there are 245 premises (234 
households, 10 businesses, and 1 anchor institution) with no access to 
broadband service. The project will deploy Ethernet-over-copper 
technology, provide VDSL2 access devices that are packaged in an FTTN 
configuration, upgrade access in the central office to support the 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
needing to rebuild the transport routes. The target speed to unserved 
customers is 20 Mbps (upstream and downstream combined). The project 
will create or save 16 jobs.
Iowa

    Breda Telephone Corporation

    Breda and Lidderdale Town and Rural Fiber-to-the-Premises Overbuild

    Last Mile

    $783,572 Loan

    $1,828,337 Grant

    Breda Telephone Corporation will overbuild with FTTP two of its 
seven rural ILEC exchanges, which are adjacent to each other in west 
central Iowa. The overbuild would allow high-speed Internet and video 
services to reach all of the customers in the Breda and Lidderdale 
exchanges, supplementing their present landline phone services. The 
network will make services available to 609 households, 77 businesses, 
and 3 anchor institutions. The project will create 56 jobs.

    Clear Lake Independent Telephone Company, Inc.

    Clear Lake Independent Telephone Company: Fiber-to-the-Home 
Broadband Deployment Project

    Last Mile

    $2,373,138 Loan

    $5,537,324 Grant

    Clear Lake Independent Telephone Company, Inc., will deploy FTTH 
broadband as a key part of the infrastructure development needed to 
drive and sustain economic growth and community vitality. The project 
will serve 3,991 households, 342 businesses, and 22 anchor 
institutions, with 893 households, 20 businesses, and 1 anchor 
institution in the PFSA. Service tiers will run from 3 to 20 Mbps. The 
network design uses PON infrastructure over existing Calix Networks 
systems. Existing systems for POTS, data, and video services will be 
integrated with the new fiberoptic network. The project will create two 
jobs.

    C-M-L Telephone Cooperative Association

    Meriden and Archer Fiber-to-the-Home Project

    Last Mile Non-remote

    $1,519,225 Grant

    C-M-L Telephone Cooperative Association will deploy FTTH technology 
to provide broadband service via fiber-optic network to rural Iowa 
communities, including Archer and Meriden. The C-M-L Telephone 
Cooperative Association will offer services that include high-speed 
Internet exceeding 20 Mbps, digital television, and telephone service. 
The network will make services available to 285 households, 14 
businesses, and 2 anchor institutions.

    Eastlight, LLC

    Southeast Iowa Rural Wireless Broadband

    Last Mile Non-remote

    $3,836,926 Loan

    Eastlight, LLC will serve more than 80 small rural communities with 
high-speed, affordable Internet using wireless technology. The 
Southeast Iowa Rural Wireless Broadband project will extend highspeed 
broadband coverage into villages, towns, and unincorporated areas of 12 
Iowa counties across 6,226 square miles with 144,000 residents in 
unserved and underserved areas. The network will make services 
available to 61,236 households, 31,014 businesses, and 370 anchor 
institutions. The project will create an estimated 40 jobs.

    Ellsworth Cooperative Telephone Association

    Ellsworth Fiber-to-the-Home Broadband Deployment Project

    Last Mile

    $1,580,609 Loan

    $3,688,087 Grant

    Ellsworth Cooperative Telephone Association will provide high-speed 
Internet service in the communities of Ellsworth and Garden City and 
their surrounding rural areas via an FTTH network. The network will 
make services available to 502 households, 305 businesses, and 8 anchor 
institutions. The project will create one job.

    F&B Communications, Inc.

    F&B Communications FTTH Stimulus Project

    Last Mile Non-remote

    $1,628,588 Loan

    $1,609,162 Grant

    F&B Communications will deploy FTTH technology to provide advanced 
broadband service via a high-speed fiber-optic network, with speeds 
exceeding 20 Mbps, to the rural areas surrounding the Iowa communities 
of Bennett, Delmar, and Lowden. The system will also allow for 
expansion at a future date. The network will make services available to 
444 households. The project will create an estimated 25 jobs.

    Farmers' Telephone Company

    Farmers' Telephone Company Fiber-to-the-Premises Overbuild

    Last Mile

    $9,367,926 Loan

    $9,367,927 Grant

    Farmers' Telephone Company will construct an FTTP network to 
provide greater than 20 Mbps broadband access to households and 
businesses in the exchange areas of Greene, Little Cedar, Marble Rock, 
New Haven, Plymouth, Riceville, St. Ansgar, and Stacyville. The network 
will make services available to 3,284 households, 148 businesses, and 
22 anchor institutions. The project will create 255 jobs.

    Grand River Mutual Telephone Corporation

    Grand River Mutual Fiber-to-the-Home Broadband Deployment Project--
Service Area 4

    Last Mile

    $2,788,293 Loan

    $6,506,016 Grant

    Grand River Mutual Telephone Corporation will provide broadband 
service to the towns of Lorimor, Murray, and Thayer and their 
surrounding rural areas via an FTTH network. The network will make 
services available to 1,074 homes, 498 businesses, and 10 anchor 
institutions. The project will create 22 jobs.

    Grand River Mutual Telephone Corporation

    Grand River Mutual Fiber-to-the-Home Broadband Deployment Project--
Service Area 5

    Last Mile

    $5,108,257 Loan

    $11,919,267 Grant

    Grand River Mutual Telephone Corporation will provide broadband 
service to the towns of Allerton, Corydon, Lineville, and Millerton, 
Iowa and Powersville, Missouri and their surrounding rural areas. The 
network will make services available to 1,677 households, 285 
businesses, and 30 anchor institutions along the Iowa-Missouri border. 
The project will create 34 jobs.

    Hospers Telephone Exchange, Inc.

    HTC Fiber-to-the-Home Broadband Deployment Project

    Last Mile

    $2,497,621 Loan

    $5,827,781 Grant

    Hospers Telephone Exchange, Inc., will serve one PFSA in the town 
of Hospers and its surrounding rural areas in Lyon, O'Brien, Osceola, 
and Sioux counties. The network in this PFSA will make services 
available to 859 households, 168 businesses, and 9 anchor institutions. 
Hospers will provide voice or POTS, Internet access, and video services 
over a GPON FTTH. Hospers will use connections to FiberNet to provide 
high-bandwidth Internet connectivity. Customers will have an 
uninterruptible power supply and an optical network terminal installed 
on premises to convert the fiber-based access network to the copper-
based systems used in the home. The Hospers Area Development 
Corporation currently finds it difficult to serve the needs of local 
businesses and attract new business development to the area, in part 
because it lacks an adequate broadband infrastructure. The project will 
aid economic development in the communities it serves by providing 
faster connections to businesses. The project will create or save an 
estimated eight jobs.

    Iowa Telecommunications Services, Inc.

    Connecting Rural Iowa: High-Speed Broadband Expansion 1

    Last Mile

    $5,163,935 Grant

    Iowa Telecommunications Services, Inc. (Iowa Telecom), an ILEC, 
will provide an FTTN network to deliver broadband service using DSL 
technology. In the 42 PFSAs that comprise this last-mile network, Iowa 
Telecom will establish new DLC/DSL nodes to expand high-speed broadband 
capability to deliver broadband speeds of 3 Mbps up to 15 Mbps for 
residential and business customers. The project will make services 
available to approximately 2,908 households and 7,367 businesses. 
During the initial 5-year period, some of the FTTN fiber will be used 
for backhaul facilities for multiple wireless carriers as they expand 
more deeply into rural markets. The project will create 21 jobs.

    Iowa Telecommunications Services, Inc.

    Connecting Rural Iowa: High-Speed Broadband Expansion 2

    Last Mile

    $12,236,836 Grant

    Iowa Telecommunications Services, Inc. (Iowa Telecom), an ILEC, 
will provide an FTTN network to deliver broadband service using DSL 
technology. Iowa Telecom will establish new DLC/DSL nodes to expand 
high-speed broadband capability to 80 PFSAs that comprise this last-
mile network to deliver broadband speeds of 3 Mbps up to 15 Mbps for 
residential and business customers. This project will make services 
available to approximately 3,717 households and 14,291 businesses. 
During the initial 5-year period, some of the FTTN fiber will be used 
to provide backhaul facilities for multiple wireless carriers as they 
expand more deeply into rural markets. The project will create 21 jobs.

    La Motte Telephone Company

    Springbrook Wireless Internet Project

    Last Mile Non-remote

    $187,815 Loan

    $187,815 Grant

    La Motte Telephone Company will provide wireless broadband service 
from a 300-foot tower and WiMAX installation. This project is expected 
to primarily serve homes in an underserved rural area. The network will 
make services available to 264 households, 6 businesses, and 2 anchor 
institutions. The project will create four jobs.

    Municipal Communications Utility of the City of

    Cedar Falls (Cedar Falls Utilities) CFU Broadband Expansion

    Last Mile

    $873,433 Grant

    Cedar Falls Utilities will offer broadband service speeds of up to 
50 Mbps in rural Black Hawk, Butler, and Grundy counties. The new 
broadband system will employ a combination of state-of-the-art 
broadband wireless and FTTP technologies in an area that is 90 percent 
unserved. The network will make services available to 701 households 
and 259 businesses. The project will create 11 jobs.

    Southwest Telephone Exchange, Inc.

    Southwest Iowa Fiber-to-the-Home Broadband Deployment Project

    Last Mile

    $1,796,199 Loan

    $4,191,131 Grant

    Southwest Telephone Exchange, Inc., will provide broadband service 
to the towns of Emerson, Henderson, Imogene, and their surrounding 
rural areas. The network will make services available to 587 
households, 55 businesses, and 9 anchor institutions in Fremont, Mills, 
Montgomery, Page, and Pottawattamie counties. The project will create 
six jobs.

    Winnebago Cooperative Telecom Association

    WCTA 2010 Broadband Initiative

    Last Mile

    $8,245,610 Loan

    $8,245,610 Grant

    Winnebago Cooperative Telecom Association (WCTA) will provide last-
mile high-speed wireline broadband FTTP to rural areas in north-central 
Iowa and south-central Minnesota. The infrastructure will support 
existing rural wireless tower facilities for future growth and 
bandwidth expansion to 3G and 4G networks and beyond. The project will 
build on a previously deployed FTTN system. The PFSA serves portions of 
21 communities in 5 counties in Iowa and 2 counties in Minnesota. This 
project will make services available to 2,839 premises, including 138 
mainly home businesses, and will offer broadband service at combined 
speeds ranging from 5 Mbps to 25 Mbps. WCTA will also offer digital 
video and unlimited local voice services. The project will create or 
save 40 jobs.
Kansas

    H&B Communications, Inc.

    FTTH--Rural Ellinwood and Claflin, Kansas

    Last Mile

    $1,965,455 Loan

    $4,586,064 Grant

    H&B Communications, Inc., will provide high-speed broadband to the 
rural communities surrounding Claflin and Ellinwood. The network will 
serve 751 households, 91 businesses, and 23 anchor institutions. The 
project will create five jobs.

    Home Communications, Inc.

    Rural Canton FTTP

    Last Mile

    $601,464 Loan

    $1,403,415 Grant

    Home Communications, Inc. (HCI) will upgrade its network, 
installing FTTP facilities to eliminate a last-mile bottleneck in rural 
areas of Canton. HCI provides broadband service to more than 1,200 
customers in Kansas. This upgrade will provide access to higher 
bandwidth for its customers. HCI already offers FTTP service in the 
town portion of this exchange; therefore, the town of Canton is 
excluded from this PFSA. None of the premises in this PFSA has access 
to 5 Mbps service (upstream and downstream combined). The project will 
make services available to 253 premises (219 households, 24 businesses, 
and 10 anchor institutions). HCI will implement FTTP using GPON, 
International Telecommunication Union, and Full Service Access Networks 
G.984 standards. This project will create or save an estimated three 
jobs.

    Iowa Tribe of Kansas and Nebraska

    Iowa Tribe of Kansas and Nebraska Fiber-to-the-Premise

    Last Mile

    $764,833 Grant

    The Iowa Tribe of Kansas and Nebraska will build an FTTP network on 
its federally recognized reservation. The network will be the first of 
its type in the area. The FTTP network will cover 100 percent of the 
PFSA and make services available to 68 households, 12 businesses, and 
10 anchor institutions. Although the public service entities are under 
the jurisdiction of the Iowa Tribe of Kansas and Nebraska, they often 
provide services to the surrounding communities. The project will 
provide Internet access using a buried FTTP network for high 
reliability and exceptional capacity and speed. Broadband service 
speeds will be up to 20 Mbps (15 Mbps downstream and 5 Mbps upstream). 
The project will use a technological agnostic distribution system to 
increase the economic efficiency of its network. The project will 
create three jobs, and an advanced network will generate economic 
development and job opportunities in the area.

    JBN Telephone Company, Inc.

    JBN East Towns

    Last Mile

    $1,000,568 Loan

    $2,323,576 Grant

    JBN Telephone Company, Inc., will deploy FTTP broadband throughout 
the towns of Corning, Goff, Havensville, Netawaka, Soldier, and 
Wetmore. The network will serve 427 households, 29 businesses, and 21 
anchor institutions. The project will create three jobs.

    Madison Telephone, LLC

    Madison-Lamont FTTP

    Last Mile Non-remote

    $3,519,750 Loan

    $3,519,750 Grant

    Madison Telephone, LLC will deploy FTTP technology throughout its 
certified service area, including the telephone exchanges of Madison 
and Lamont. The network will make services available to 601 households, 
81 businesses, and 40 anchor institutions. The project will create nine 
jobs.

    Peoples Telecommunications, LLC

    Peoples Telecommunications Rural FTTP

    Last Mile

    $3,891,062 Loan

    $3,891,061 Grant

    Peoples Telecommunications, LLC (PTL) will upgrade the LaCygne 
telephone exchange to eliminate the last-mile bottleneck in the rural 
area and provide access to high-speed broadband for premises with no 
broadband service. The project will make services available to 760 
households, 50 businesses, and 7 anchor institutions in this rural 
area. PTL will offer high-speed data and voice services over FTTP 
facilities at speeds of 15 Mbps downstream and 5 Mbps upstream. PTL 
provides broadband service to more than 500 customers in the LaCygne 
exchange and extending coverage with this project will promote rural 
economic development. The project will create or save 10 jobs.

    Rural Telephone Service Co., Inc.

    Rural Opportunities Delivered

    Last Mile Non-remote

    $51,612,842 Loan

    $49,588,807 Grant

    Rural Telephone Service Co., will provide service in a 4,600-
square-mile area of western Kansas that is 99.5 percent unserved and 
underserved. The roject will provide a rural infrastructure required 
for economic stability, education, and healthcare. Rural Telephone 
leads a team of seven companies with this shovel-ready project. A 
portion of this project will also be implemented in Nebraska. The 
network will make services available to 18,342 households, 4,372 
businesses, and 335 anchor institutions. The project will create an 
estimated 179 jobs.

    South Central Telephone Association, Inc.

    Lake City & Sun City Rural FTTH

    Last Mile Remote

    $871,200 Grant

    South Central Telephone Association, Inc., will bring FTTH 
broadband service to all unserved establishments in the exchanges of 
Lake City and Sun City. The network will make services available to 79 
households, 8 businesses, and 1 anchor institution. The project will 
create seven jobs.

    South Central Wireless, Inc.

    South Central Wireless--Attica, Kansas Fiber-to-the-Premise

    Last Mile

    $560,000 Loan

    $557,621 Grant

    South Central Wireless, Inc., will construct an FTTP infrastructure 
for Attica to offer voice and high-speed service ranging from 1.5 Mbps 
to 20 Mbps. The network will serve 314 households, 41 businesses, and 
10 anchor institutions. The project will create nine jobs.

    Totah Communications, Inc.

    Totah Broadband Expansion Project

    Last Mile Non-remote

    $2,426,053 Loan

    $1,830,180 Grant

    Totah Communications, Inc., will upgrade existing copper-fed DSL 
nodes to fiber-fed DSL nodes. This project will also install additional 
fiber-fed DSL nodes throughout the service area. The total route will 
cover approximately 152 miles and will serve approximately 800 new 
customers. A portion of this project will also be implemented in 
Oklahoma. The network will make services available to 422 households, 9 
businesses, and 8 anchor institutions. The project will create an 
estimated 25 jobs.

    Wave Wireless, LLC

    Wave Wireless Southeast Kansas Broadband Expansion Project

    Last Mile

    $619,147 Loan

    $1,857,441 Grant

    Wave Wireless will expand its high-speed broadband access to the 
rural unserved and underserved southeast Kansas PFSA. The project, 
covering 849 square miles, has an overall household density of 3.6 per 
square mile. The project will make services available to 2,890 
households, 2,106 businesses, and 72 anchor institutions using a 
combination of WiMAX and 900 MHz systems. Wave Wireless will deliver 
significant upgrades using WiMAX technology and will build an 
additional 6 towers on its existing network of 19 towers and will lease 
1 tower location. The upgraded equipment will provide higher service 
tiers at 2.5 Mbps and 768 Kbps. The project will create 12 jobs.
Kentucky

    Foothills Rural Telephone Cooperative Corporation, Inc.

    Foothills Broadband Initiatives Project

    Last Mile

    $6,291,744 Loan

    $14,680,738 Grant

    Foothills Rural Telephone Cooperative Corporation, Inc., will 
provide FTTH to portions of Lawrence and Magoffin counties in the 
Foothills service area. The PFSAs lack access to high-speed broadband 
data and quality video feeds that include local content. The PFSAs in 
this project will make services available to 2,247 households, 780 
businesses, and 8 anchor institutions. The access network will use FTTH 
technology to deliver broadband and will use GPON standards with 2.48 
Gigabit rates downstream and 1.2 Gigabit rates upstream. The project 
will create 326 jobs.

    Highland Telephone Cooperative, Inc.

    Highland Telephone Cooperative FTTH Build-Out

    Last Mile

    $4,820,464 Loan

    $14,461,393 Grant

    Highland Telephone Cooperative, Inc. (HTC) will provide state-of-
the-art communication services while enhancing broadband communication 
options to the citizens of McCreary, Morgan, and Scott counties in 
rural Tennessee and Kentucky. HTC will construct an FTTH wireline 
fiber-optic cable network, configured in PON architecture, able to 
support speeds in excess of 20 Gbps for all subscribers in its exchange 
boundaries. The network will make services available to 6,278 
households, 532 businesses, and 31 anchor institutions, providing 
infrastructure for affordable bandwidth. The project will ensure HTC's 
ability to continue to operate as a major employer, provide highspeed 
broadband services critical to the economic growth of the region, and 
ensure the communications services for this rural community are as 
reliable and competitive as those in large cities in Tennessee and 
Kentucky. The project will create 21 jobs.

    Leslie County Telephone Company

    Leslie County Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $6,169,295 Grant

    Leslie County Telephone Company (Leslie County Tel) will bring 
high-speed broadband service to unserved premises in its rural 
franchise service territory. Leslie County Tel, a subsidiary of TDS 
Telecom, is the State-certified ILEC in Kentucky. The project is 
designed to serve nine PFSAs in its franchised service territory, which 
is rural and includes eight communities. These PFSAs have 1,591 
premises (1,517 households, 38 businesses, and 36 anchor institutions) 
that currently have no access to broadband service. Leslie County Tel 
has built a broadband network that currently is capable of serving the 
majority of these premises in several of the core communities, but the 
surrounding area, much of which is sparsely populated, lacks broadband 
access due to the high cost of building such a network. In addition, 
facilities-based terrestrial broadband service is unavailable to the 
premises in the PFSAs. This project will bring access to high-speed 
broadband service (20 Mbps upstream and downstream combined). The 
network is also engineered so that it can be easily upgraded at a 
reasonable cost to meet future needs. The project will create or save 
162 jobs.

    Mikrotec CATV, LLC

    Connect Eolia, Oven Fork, and Partridge

    Last Mile

    $829,813 Grant

    Mikrotec CATV, LLC will provide broadband Internet service to the 
small rural communities of Eolia, Oven Fork, and Partridge in Letcher 
County, tucked in a valley amidst rugged mountain terrain deep in the 
heart of the Appalachian coalfields. The project area covers 18 square 
miles and will serve 800 households, 15 businesses, and 5 anchor 
institutions. The system design uses wireline technology, both fiber-
optic cable and coaxial cable. The hybrid system includes HFC, at least 
750 MHz node + 6 actives to allow speeds of up to 6 Mbps downstream and 
1 Mbps upstream. The project will create or save 14 jobs.

    Mountain RTCC

    Mountain RTCC ILEC Broadband

    Last Mile Non-remote

    $39,843,535 Loan

    $38,281,044 Grant

    Mountain RTCC will deploy a fiber cable-based broadband network in 
Elliott, Menifee, Morgan, and Wolfe counties. This network will provide 
broadband service speeds above 20 Mbps. Affordable broadband access in 
these counties will enhance economic development and workforce 
training. The network will make services available to 13,013 
households, 2,335 businesses, and 65 anchor institutions. The project 
will create an estimated 49 jobs.

    Peoples Rural Telephone Cooperative Corp, Inc.

    Broadband Infrastructure Investment in Persistent Poverty Counties: 
Jackson and Owsley Counties, KY

    Last Mile

    $7,654,254 Loan

    $17,859,928 Grant

    The Peoples Rural Telephone Cooperative, Inc., will build FTTP 
facilities in Cow Creek, Jackson, and Owsley counties to provide 
residents, businesses, and critical community facilities with high-
speed broadband service. The project will make services available to 
4,747 households, 111 businesses, and 33 anchor institutions and will 
offer broadband service speeds ranging from 1.5 Mbps to 18 Mbps. The 
project design is an FTTP overlay, based on the use of Occam Network's 
GPON equipment and uses existing equipment cabinets and buildings to 
house the OLT and OSN equipment. The project will create 46 jobs.

    Salem Telephone Company

    Salem Telephone Company: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $1,934,474 Grant

    Salem Telephone Company (Salem Tel), a subsidiary of TDS Telecom, 
will bring high-speed broadband service to unserved premises in its 
rural franchise service territory. Salem Tel is the State-certified 
ILEC in Kentucky. The project will serve three PFSAs that include five 
communities. This project will build a broadband network that will make 
services available to 551 rural unserved premises (529 households, 15 
businesses, and 7 anchor institutions) that have no access to broadband 
service. Salem Tel has built a broadband network that is capable of 
serving the majority of these premises in several of the core 
communities, but the surrounding area, much of which is sparsely 
populated, lacks broadband access due to the high cost of building such 
a network. In addition, facilities-based terrestrial broadband service 
is unavailable to the premises in the PFSAs. This project will provide 
access to high-speed broadband service (20 Mbps upstream and downstream 
combined). The network is also engineered so that it can be easily 
upgraded at a reasonable cost to meet future needs. The project will 
create or save 51 jobs.

    Thacker-Grigsby Telephone Company, Inc.

    Breathitt County Broadband

    Last Mile

    $2,222,542 Loan

    $5,185,932 Grant

    Thacker-Grigsby Telephone Company, Inc., will deploy a fiber-optic 
network in portions of Breathitt County. The network will serve 1,214 
households, 60 businesses, and 34 anchor institutions. The project will 
create 61 jobs.

    West Kentucky Rural Telephone Cooperative Corporation, Inc.

    West Kentucky and West Tennessee Broadband FTTH Initiative

    Last Mile

    $42,711,001 Loan

    $42,710,999 Grant

    West Kentucky Rural Telephone Cooperative Corporation, Inc. (WK&T) 
will build a fiber-optic network to provide broadband infrastructure 
for rural southwest Kentucky in the counties of Calloway, Carlisle, 
Fulton, Graves, Hickman, and Marshall, and in the northwest Tennessee 
counties of Henry, Obion, and Weakley. The project will make services 
available to 11,980 households, 2,492 businesses, and 68 anchor 
institutions. By installing fiber throughout the service areas, 
broadband with speeds up to 20 Mbps will become more affordable. At the 
conclusion of the project, WK&T expects to double its data subscribers 
and have almost 90 percent of its customer base, more than 14,000 
customers, on broadband, with data speeds averaging 1.5 Mbps or higher. 
The project will create 110 jobs.

    Windstream Corporation

    Windstream Kentucky East, LLC 219

    Last Mile

    $27,644,292 Grant

    Windstream Corporation will offer broadband service speeds at a 
minimum of 6 Mbps in more than 80 rural communities by deploying DSLAMs 
using standard ADSL2+. The network will make services available to 
117,740 households, 10,329 businesses, and 574 anchor institutions. The 
project will create or save 397 jobs.

    Windstream Corporation

    Windstream Kentucky East, LLC 220

    Last Mile

    $31,118,534 Grant

    Windstream Corporation will offer broadband service speeds of up to 
12 Mbps in more than 80 rural communities. The network will make 
services available to 101,009 households, 8,156 businesses, and 682 
anchor institutions. The project will create or save 513 jobs.

    Windstream Corporation

    Windstream Kentucky West, LLC

    Last Mile

    $951,445 Grant

    Windstream Corporation will expand broadband service to unserved 
customers in the rural Kentucky communities of Coxs Creek, Fort Knox, 
Lebanon, Shepherdsville Northwest, and Shepherdsville Southeast. The 
project will allow Windstream to extend the reach of its broadband 
network to make services available to 3,490 households, 50 businesses, 
and 4 anchor institutions. It will provide broadband to last-mile 
wireline telephone subscribers. Windstream will provide broadband 
service to community public service facilities in the PFSAs at 
discounted rate packages for at least 3 years. Windstream will deploy 
industry-standard DSLAM protocols to provide a minimum of 6.0 Mbps 
downstream and 786 Kbps upstream data services. The DSLAMs will be 
strategically deployed to reach the greatest number of unserved 
customers over its existing wireline copper plant. The project will 
create an estimated 53 jobs.
Louisiana

    LBH, LLC

    Rural Broadband Powered by Fiber

    Last Mile Non-remote

    $16,693,439 Loan

    $16,691,939 Grant

    LBH, LLC, a subsidiary of Cameron Communications, LLC, will expand 
the existing FTTH system in Moss Bluff in the communities and 
surrounding rural areas of Oakdale and Vinton. The project will provide 
broadband, voice, and video services to unserved and underserved areas. 
The network will make services available to 8,232 households, 444 
businesses, and 22 anchor institutions. The project will create or save 
an estimated 136 jobs.

    Nexus Systems, Inc.

    West Carroll Parish Infrastructure Project

    Last Mile

    $724,256 Grant

    Nexus Systems, Inc., as part of a private-public partnership, will 
implement the West Carroll Parish Infrastructure project to provide 
fiber broadband service to unserved and underserved areas in 
northeastern Louisiana. The technology will be a combination of 
microwave and fiber connectivity. The network will tie into the middle-
mile LA Broadband Alliance-Infrastructure project by the LA Board of 
Regents. The network will make services available to 4,427 households, 
240 businesses, and 47 anchor institutions. The project will create or 
save 11 jobs.

    Northeast Louisiana Telephone Company, Inc.

    Northeast Louisiana Telephone Co. FTTH & Broadband Project

    Last Mile Non-remote

    $8,124,600 Loan

    $4,359,000 Grant

    The Northeast Louisiana Telephone Company project will provide an 
active Ethernet system with symmetrical broadband service speeds of 20 
Mbps. The system will use buried FTTH to serve the communities of 
Bonita and Collinston in Morehouse Parish. The network will make 
services available to 1,627 households, 74 businesses, and 15 anchor 
institutions. The project will create or save 22 jobs.

    PRIDE Network, Inc.

    North Shore Project

    Last Mile

    $18,461,417 Loan

    $17,737,440 Grant

    PRIDE Network, Inc., will deploy FTTP infrastructure, with a 
wireless service-extension overlay, that will bring advanced broadband 
service to rural communities in St. Helena, Tangipahoa, and Washington 
parishes. The network will offer broadband service speeds between 20 
and 100 Mbps. The network will make services available to 10,097 
households, 2,978 businesses, and 172 anchor institutions. The project 
will create or save an estimated 1,316 jobs.
Maine

    Hartland and St. Albans Telephone Company

    Hartland and St. Albans Telephone Company: Broadband Project to 
Serve Rural Unserved Establishments

    Last Mile

    $2,009,522 Grant

    The Hartland and St. Albans Telephone Company (Hartland and St. 
Albans Tel), a subsidiary of TDS Telecom, will provide high-speed 
broadband service to unserved premises in its rural Maine service 
territory. The project will serve six 100 percent rural PFSAs that 
include five communities. These PFSAs have 599 premises (568 
households, 28 businesses, and 3 anchor institutions) with no access to 
broadband service. Hartland and St. Albans Tel is the State-certified 
ILEC in Maine. The network will deploy Ethernet-over-copper technology, 
provide VDSL2 access devices packaged in an FTTN configuration, upgrade 
access in the central office to support the extension of the broadband 
networks to these remote areas, use PON FTTH where economically 
feasible, and allow for future PON upgrades without needing to rebuild 
the transport routes. The target speed is 20 Mbps (upstream and 
downstream combined) or more DSL service. The project will create or 
save 53 jobs.

    Somerset Telephone Company, Inc.

    Somerset Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $5,840,363 Grant

    Somerset Telephone Company (Somerset Tel), a subsidiary of TDS 
Telecom, will provide access to high-speed broadband service to 
unserved premises in its 100 percent rural service territory in Maine. 
The project will serve 20 PFSAs with 8 communities. These PFSAs have 
1,468 premises (1,375 households, 73 businesses, and 20 anchor 
institutions) with no access to broadband service. Somerset Tel is the 
State-certified ILEC in Maine. The network will deploy Ethernet-over-
copper technology, provide VDSL2 access devices packaged in an FTTN 
configuration, upgrade access in the central office to support the 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
needing to rebuild the transport routes. The target speed is 20 Mbps 
(upstream and downstream combined) or more DSL service. The project 
will create or save 153 jobs.

    West Penobscot Telephone and Telegraph Company

    West Penobscot Telephone and Telegraph Company: Broadband Project 
to Serve Rural Unserved Establishments

    Last Mile

    $1,554,981 Grant

    West Penobscot Telephone and Telegraph Company (West Penobscot 
Tel), a subsidiary of TDS Telecom, will build a project to bring high-
speed broadband service to unserved premises in West Penobscot Tel's 
rural franchise service territory. West Penobscot Tel is the State-
certified ILEC in Maine. The project will bring high-speed broadband 
service to four PFSAs in its franchised service territory, which are 
100 percent rural and include three communities. These PFSAs have 440 
premises (428 households and 12 businesses) that have no access to 
broadband service. West Penobscot Tel has built a broadband network 
that is capable of serving the majority of these premises in several of 
the core communities, but the surrounding area, much of which is 
sparsely populated, lacks broadband access due to the high cost of 
building such a network. In addition, facilities-based terrestrial 
broadband service is unavailable to the premises in the PFSAs. This 
project will provide access to high-speed broadband service (20 Mbps 
upstream and downstream combined). The network is also engineered so 
that it can be easily upgraded to meet future needs. The project will 
create or save 41 jobs.
Maryland

    Bloosurf, LLC

    Delmarva Wireless Broadband

    Last Mile

    $1,600,000 Loan

    $1,600,000 Grant

    Bloosurf, LLC, in partnership with the University of Maryland 
Eastern Shore, a historically black college, will build a wireless 
last-mile network for the rural areas of Somerset, Wicomico, and 
Worcester counties, as well as Smith Island. This network will connect 
to the Maryland Broadband Cooperative optic fiber at four 
interconnection points. The network will make services available to 
50,545 households, 6,292 businesses, and 351 anchor institutions. The 
project will create or save 22 jobs.

    West Virginia PCS Alliance, LC

    Rural Mobile Broadband Initiative--Maryland

    Last Mile

    $1,209,352 Grant

    West Virginia PCS Alliance, LC and NTELOS Licenses Inc., both 
subsidiaries of NTELOS Holdings Corporation, will expand West Virginia 
PCS Alliance's existing wireless services to provide 3G mobile 
broadband service in unserved rural portions of western Maryland and 
south-central Pennsylvania, north of Hagerstown. The PFSAs comprise 
eight communities, with more than 50 percent of the premises lacking 
high-speed broadband service. The network will make services available 
to 28,521 households, 3,306 businesses, and 704 anchor institutions. 
The project will create or save nine jobs.
Massachusetts

    Mid-Hudson Cablevision, Inc.

    Last-Mile High Speed Broadband in Greene and Columbia Counties

    Last Mile

    $486,349 Grant

    Mid-Hudson Cablevision, Inc., will provide high-speed broadband 
access to unserved and underserved PFSAs in the Hudson Valley and 
Catskill Mountain region between New York City and Albany. The network 
will make services available to 1,170 households, 421 businesses, and 
16 anchor institutions and will complete part of the region's 911 
public safety system. The last-mile extensions will require 
construction of 135 linear miles of FTTH on existing utility poles and 
connection for a network of five fire towers. Another 341-square-mile 
area will be reached by deploying 16 transmitting sites for wireless. 
The PFSAs also cover four underserved communities. The company will 
deploy 16 or more transmitting sites using Motorola Canopy equipment to 
provide access speeds of 10 Mbps in line-of-sight areas and 4 Mbps in 
dense foliage. The project will create or save 10 jobs.
Michigan

    Air Advantage, LLC

    Michigan Thumb Area Broadband Expansion Project II

    Last Mile

    $32,300,000 Loan

    $31,950,000 Grant

    Air Advantage, LLC will offer broadband service to last-mile 
consumers in 13 counties that make up an area known as the Great Lakes 
Bay Region and Thumb Area. The project will use a hybrid system of 
fiber and wireless technologies to offer broadband service speeds in 
excess of 3 Mbps. The network will make services available to 279,306 
households, 21,302 businesses, and 4,011 anchor institutions. The 
project will create or save an estimated 142 jobs.

    Allband Communications Cooperative

    Allband F.I.B.E.R. I: Federal Investment in Broadband for Economic 
Recovery I

    Last Mile

    $8,622,754 Grant

    Allband Communications Cooperative serves the Robbs Creek exchange, 
an irregularly shaped 177-square-mile area southeast of Hillman and 
north of Curran in Michigan. The project will bring high-speed 
broadband and VoIP service to its members and customers in these 
unserved rural areas. The project covers Alpena County and the 
unincorporated communities of Lachine, Long Rapids, and Spratt, along 
with the surrounding townships of Green, Long Rapids, Ossineke, 
Wellington, and Wilson; a service area covering Alcona and Oscoda 
counties and the unincorporated community of Curran, along with the 
surrounding townships of Millen and Mitchell; and a service area 
covering Montmorency County in the east-central part of Rust Township. 
The network will make services available to 1,622 households, 95 
businesses, and 9 anchor institutions and will offer broadband service 
speeds of up to 2.5 Gbps downstream and 1.25 Gbps upstream. Allband 
will deploy FTTH technology for its broadband system. The fiber-optic 
cable infrastructure is designed to accomodate a GPON and Active 
Ethernet network solutions. The project will create or save an 
estimated 100 jobs.

    Allband Communications Cooperative

    Allband F.I.B.E.R. II: Federal Investment in Broadband for Economic 
Recovery II

    Last Mile

    $1,107,903 Grant

    Allband Communications Cooperative serves the Robbs Creek exchange, 
an irregularly shaped 177-square-mile area southeast of Hillman and 
north of Curran in Michigan. The project will bring high-speed 
broadband and VoIP services to its members and customers in these 
unserved rural areas. The project covers a service area that includes a 
rural area in Alcona County and takes in the unincorporated communities 
of Gustin and Mikado townships. The network will make services 
available to 206 households, 20 businesses, and 2 anchor institutions 
and will offer broadband service speeds of up to 2.5 Gbps downstream 
and 1.25 Gbps upstream. Allband will deploy FTTH technology for its 
broadband system. The fiber-optic cable infrastructure is designed to 
accommodate a GPON and Active Ethernet network solutions. The project 
will create or save 17 jobs.

    Chatham Telephone Company

    Last Mile Remote

    $8,605,935 Grant

    Chatham Telephone Company, a subsidiary of TDS Telecom, will bring 
high-speed DSL service to remote, unserved households within its rural 
service territory. The network is engineered to be easily upgraded to 
meet future needs. The network will make services available to 878 
households, 38 businesses, and 2 anchor institutions. The project will 
create or save 170 jobs.

    Climax Telephone Company

    FTTx Broadband Service to Rural Climax, MI

    Last Mile

    $1,072,501 Loan

    $2,144,998 Grant

    Climax Telephone Company (CTC) ILEC will build facilities to offer 
state-of-the-art triple-play services to the communities of Climax and 
Scotts. CTC will overbuild the rural and underserved ILEC service 
territory with FTTx and will build a new FTTP plant based on the GPON 
standard of 2.5 Mbps downstream and 1.25 Mbps upstream. The network 
will make services available to 781 households, 51 businesses, and 9 
anchor institutions. This project will connect small underserved 
communities with the municipal government, public safety, education, 
and medical institutions. The project will create or save 47 jobs.

    Communication Corporation of Michigan

    Communication Corporation of Michigan: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $1,221,811 Grant

    Communication Corporation of Michigan (CCM), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises 
in CCM's rural franchise service territory. CCM is the State-certified 
ILEC in Michigan. The project is designed to serve three rural PFSAs 
with two communities. These PFSAs have 288 premises (278 households and 
10 businesses) that lack access to broadband service. This project will 
build a broadband network to deliver access to high-speed broadband 
service (20 Mbps upstream and downstream combined). The project will 
deploy Ethernet-over-copper technology, provide VDSL2 access devices 
that are packaged in an FTTN configuration, and upgrade access in the 
central office to support the extension of the broadband networks to 
these remote areas. It will use PON FTTH where economically feasible 
and allow for future PON upgrades without needing to rebuild the 
transport routes. The project will create or save 32 jobs.

    Crystal Automation Systems, Inc.

    Mid-Michigan Broadband ARRA Project

    Last Mile

    $7,949,227 Loan

    $18,548,197 Grant

    Crystal Automation Systems, Inc. (Casair) will provide broadband 
access in a large area of mid-Michigan. Casair will build this project 
by using 30 of its existing towers and backhauls and will install WiMAX 
wireless gear to provide access to rural households. Casair will lease 
18 additional towers, build 14 towers where none are available, and add 
fiber-optic lines between towers to handle the extra bandwidth 
required. The network will make services available to 58,848 
households, 4,970 businesses, and 706 anchor institutions in Casair's 
service areas 1 and 2. The project will create or save 144 jobs.

    Island Telephone Company

    Island Telephone Company: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $2,001,528 Grant

    Island Telephone Company (Island Tel), a subsidiary of TDS Telecom, 
will bring high-speed broadband service to unserved premises in Island 
Tel's rural franchise service territory. Island Tel is the State-
certified incumbent ILEC in Michigan. The project is designed to serve 
one PFSA, which has two communities that have no access to broadband 
service. The network will make services available to 283 rural unserved 
premises (245 households, 35 businesses, and 3 anchor institutions). 
Island Tel has built a broadband network that is capable of serving the 
majority of these premises in several of the core communities, but the 
surrounding area, much of which is sparsely populated, lacks broadband 
access due to the high cost of building such a network. In addition, 
facilities-based terrestrial broadband service is unavailable to the 
premises in the PFSAs. This project will provide access to high-speed 
broadband service (20 Mbps upstream and downstream combined). The 
network is also engineered so that it can be easily upgraded to meet 
future needs. The project will create or save 53 jobs.

    Southwest Michigan Communications

    Southwest Michigan Communications--Paw Paw and Antwerp, MI FTTP

    Last Mile Non-remote

    $4,165,513 Loan

    $4,165,512 Grant

    Southwest Michigan Communications will construct an FTTP network 
that will cover the rural areas of its competitive LEC and provide 
advanced broadband service to the residents of the rural Paw Paw area. 
The network will make services available to 1,452 households. The 
project will create or save 14 jobs.
Minnesota

    Arrowhead Electric Cooperative, Inc.

    Arrowhead Electric Cooperative Fiber-to-the-Home Project

    Last Mile

    $4,841,245 Loan

    $11,296,239 Grant

    Arrowhead Electric Cooperative, Inc., will build a last-mile, open-
access, FTTH network to serve northeastern Cook County. Because of the 
topography of the land and dense forestation, fixed wireless is not an 
option. The wireline passive fiberoptic network that the company will 
build will offer up to 100 Mbps symmetrical service. The network will 
make services available to 4,545 households, 138 businesses, and 63 
anchor institutions. The project will create or save an estimated 87 
jobs.

    Arvig Telephone Company

    Arvig Telephone Company: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $5,048,168 Grant

    Arvig Telephone Company, a subsidiary of TDS Telecom, will bring 
high-speed broadband service to unserved premises in its rural 
franchise service territory. The project will serve 12 rural PFSAs that 
include 7 communities with 836 premises (768 households, 67 businesses, 
and 1 anchor institution) with no access to broadband service. The 
project will deliver broadband high-speed capabilities of 20 Mbps 
(upstream and downstream combined). The network will deploy Ethernet-
over-copper technology, provide VDSL2 access devices that are packaged 
in an FTTN configuration, upgrade access in the central office to 
support the extension of the broadband networks to these remote areas, 
use PON FTTH where economically feasible, and allow for future PON 
upgrades without needing to rebuild the transport routes. The project 
will create or save an estimated 133 jobs.

    City of Windom

    Southwest Minnesota Broadband Group

    Last Mile Non-remote

    $6,350,000 Loan

    $6,350,250 Grant

    The Southwest Minnesota Broadband Group project will deploy FTTP 
infrastructure to eight rural communities throughout southwestern 
Minnesota. The network will consist of a 125-mile fiber ring that will 
connect the 8 communities and an FTTP infrastructure within the 
communities that will support 3,649 households. The fiber network will 
also be open to other providers for provision of wireless services, 
dark fiber services, and competitive services. The network will make 
services available to 292 businesses and 50 anchor institutions. The 
project will create or save 52 jobs.

    Farmers Mutual Telephone Company

    Farmers Telephone-Lac qui Parle County FTTP Project

    Last Mile

    $4,826,478 Loan

    $4,826,478 Grant

    Farmers Mutual Telephone Company and Lac qui Parle County will 
provide FTTP services to towns and townships in Lac qui Parle County. 
The two entities are working in partnership to give many residents 
their first opportunity to obtain high-speed Internet service and put 
in place the infrastructure to support economic development. The 
service area has two cities, Boyd and Dawson, and 15 townships over 339 
square miles of unserved and underserved territory. The project will 
construct an FTTP network that will make services available to every 
home and business in the PFSA and utilize Calix GPON technology. The 
network will make services available to 1,561 households, 165 
businesses, and 12 anchor institutions. The project will create or save 
110 jobs.

    Federated Telephone Cooperative

    Rural Appleton, MN

    Last Mile

    $630,289 Loan

    $630,289 Grant

    Federated Telephone Cooperative will build an FTTP system to deploy 
voice, video, and data services to the Rural Appleton exchange. The 
PFSA is primarily located in Swift County, with small portions in Big 
Stone and Chippewa counties. The PFSA includes 152 households, 7 
businesses, and 1 anchor institution. The project will create or save 
one job.

    Federated Telephone Cooperative

    Rural Morris, MN

    Last Mile

    $1,493,637 Loan

    $1,493,637 Grant

    Federated Telephone Cooperative (FTC) will provide services to the 
Rural Morris exchange, adjacent to its existing ILEC and CLEC service 
areas. The PFSA is primarily located in Stevens County, with a small 
portion in Grant County. The service area has 408 households, 20 
businesses, and 2 anchor institutions. FTC will deploy voice service, 
data service over FTTP, and RF video service over its existing FTTP 
system. FTC will use Calix DSLAMs, which are standards based, to deploy 
GPON FTTP service capable of 1 Gig. The project will create or save two 
jobs.

    Halstad Telephone Company

    HTC Minnesota Exchanges FTTP

    Last Mile Non-remote

    $3,277,500 Loan

    $3,277,500 Grant

    Halstad Telephone Company will deploy FTTP broadband in five towns 
and surrounding rural and farm areas in Norman and Polk counties. The 
project will use 320 miles of fiber-optic cable and provide those 
locations with broadband capability of up to 100 Mbps. Less than 5 
percent of this network will also serve an area in North Dakota. The 
network will make services available to 1,015 households, 41 
businesses, and 15 anchor institutions. The project will create or save 
42 jobs.

    Lake County

    Lake County Fiber Network

    Last Mile

    $56,413,705 Loan

    $9,955,359 Grant

    Lake County, in partnership with National Public Broadband, Inc., 
will implement the Lake County Fiber Network project to offer FTTP 
advanced voice, video, and data services to every home and business in 
Lake and eastern St. Louis counties. The network will make services 
available to 14,941 households, approximately 1,060 businesses, and 98 
anchor institutions. The project will create or save 510 jobs.

    Minnesota Valley Television Improvement Corporation

    Minnesota Wireless Expansion

    Last Mile Non-remote

    $562,776 Loan

    $562,776 Grant

    Minnesota Valley Television Improvement Corporation will continue 
building out its two-way broadband Internet network to unserved and 
underserved areas of west-central and south-central Minnesota. The 
project will add 34 additional WiMAX access points in 34 unserved and 
underserved communities adjacent to its current service area. The 
network will make services available to 23,121 households, 479 
businesses, and 200 anchor institutions. The project will create or 
save three jobs.

    Northeast Service Cooperative

    Northeast Minnesota Middle Mile Project

    Middle Mile

    $21,749,110 Loan

    $21,749,110 Grant

    The Northeast Service Cooperative will implement a middle-mile 
project to make dark fiber, wavelength services available to private-
sector providers in rural areas of northeast Minnesota. The network 
will make services available to 105,904 households, 7,618 businesses, 
and 100 anchor institutions.

    Red River Rural Telephone Association, Inc.

    RRT FTTP Broadband Upgrade Rural MN, ND, and SD Exchanges

    Last Mile

    $181,769 Loan

    $181,769 Grant

    Red River Rural Telephone Association, Inc., will offer FTTP 
broadband service speeds of up to 100 Mbps. The project will install 
690 miles of fiberoptic cable to serve rural exchanges in Ransom, 
Richland, and Sargent counties in North Dakota, as well as Wilkin 
County in Minnesota, and Marshall and Roberts counties in South Dakota. 
The network will make services available to 42 households and 9 
businesses. The project will create or save four jobs.

    Sjoberg's, Inc.

    Northwest Minnesota Fiber Project

    Last Mile

    $216,516 Loan

    $649,544 Grant

    Sjoberg's, Inc., will offer FTTH broadband service in Roseau, Thief 
River Falls, and the hamlet of Fox. This project will benefit many 
small farms located in the ``grain belt.'' Additional video, Internet, 
and telephone services will be delivered via RFoG technology, while 
current broadband service will be upgraded to deliver download speeds 
of 40 Mbps using DOCSIS 3.0. The network will make services available 
to 227 households, 15 businesses, and 3 anchor institutions. The 
project will create or save 11 jobs.

    Wikstrom Telephone Company, Inc.

    Wikstrom NW MN Broadband

    Last Mile

    $2,219,581 Loan

    $5,179,019 Grant

    Wikstrom Telephone Company, Inc., will implement two distinct types 
of projects in rural, unserved, and underserved areas in northwest 
Minnesota. The first project will upgrade the backbone and distribution 
fiber-optic data networks for broadband in 16 of the rural telephone 
exchanges that Wikstrom serves. The network will make services 
available to an unserved area of 182 square miles with 150 households 
and 573 businesses. The FTTN ADSL2+ network, provisioned for 2,755 
customers, will provide speeds of up to 48 Mbps. Key components of the 
upgrade include installation of 74 miles of fiber-optic cables with 
GigE service to remote DSLAM cabinets; installation of an upgraded 6 
GHz, 150 megabits radio to serve Angle Inlet; and upgrade of microwave 
service to the northwest Angle/Angle Inlet community and the fiberoptic 
network to serve the islands in the northernmost part of the contiguous 
United States, of which most of the land mass is Red Lake Nation 
Reservation. Also included is an extension of fiber-optic cable to 
serve the Agassiz National Wildlife Refuge, in cooperation with 
American Recovery and Reinvestment Act funding for upgrades to its 
facilities. The second project is to install a GPON 2.4 Gbps FTTH 
system, with the installation of 414 miles of fiber-optic cable with 
GigE to 1,163 homes and businesses, in the exchanges of Greenbush and 
Karlstad, and the small cities of Kennedy, Lake Bronson, Lancaster, and 
Stephen. The network will make services available to 5,115 households, 
1,499 businesses, and 83 anchor institutions. The project will create 
or save 26 jobs.

    Winnebago Cooperative Telecom Association

    WCTA 2010 Broadband Initiative

    Last Mile

    $1,570,592 Loan

    $1,570,592 Grant

    Winnebago Cooperative Telecom Association (WCTA) will provide last-
mile, high-speed wireline broadband FTTP to rural areas in north-
central Iowa and south-central Minnesota. The infrastructure will 
support existing rural wireless tower facilities for future growth and 
bandwidth expansion to 3G and 4G networks and beyond. The project will 
build on a previously deployed FTTN system. The PFSA serves portions of 
21 communities in 5 counties in Iowa and 2 counties in Minnesota. The 
network will make services available to 541 premises, which include 
households plus 138 home businesses, and will offer broadband service 
at combined speeds ranging from 5 Mbps to 25 Mbps. WCTA will also offer 
digital video and unlimited local voice service. The project will 
create or save eight jobs.

    Woodstock Telephone Company, Inc.

    WTC 2010 Broadband Initiative

    Last Mile

    $4,555,328 Loan

    $10,629,096 Grant

    Woodstock Telephone Company, Inc. (WTC) will provide high-speed 
broadband service to rural areas in southwest Minnesota. WTC has the 
opportunity to incorporate and share some existing facilities to help 
provide feasible service in adjoining underserved areas. WTC will also 
serve farming areas near small towns. The PFSA covers parts of Lyon, 
Pipestone, and Rock counties. The PFSA has 15 communities with 3,677 
establishments consisting of 3,447 households, 183 businesses, and 47 
anchor institutions. WTC will offer a reduced service rate to anchor 
institutions and small disadvantaged businesses. The project will 
provide service speeds of 10 Mbps upstream and downstream as basic 
service and higher speed service at 30 Mbps and 80 Mbps. WTC will 
deploy a GPON-based FTTP system using a combination of nodes to cost-
effectively build the system. An initial deployment of 16-way optical 
splitters will support an average bandwidth per subscriber of 150 Mbps. 
Each establishment will be served by a dedicated fiber from the central 
office or the remote huts housing local active electronic nodes. The 
project will create or save 41 jobs.
Mississippi

    Calhoun City Telephone Company, Inc.

    Calhoun City Telephone Company, Inc.: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $2,962,169 Grant

    Calhoun City Telephone Company, Inc. (Calhoun City Tel), a 
subsidiary of TDS Telecom, will provide high-speed broadband service to 
unserved premises in Calhoun City Tel's rural Mississippi service 
territory. The project will serve five rural PFSAs with six 
communities. These PFSAs have 586 premises (553 households, 25 
businesses, and 8 anchor institutions) with no access to broadband 
service. Calhoun City Tel is the State-certified ILEC in Mississippi. 
As engineered, the network will deploy Ethernet-over-copper technology 
to its fullest potential, provide VDSL2 access devices packaged in an 
FTTN configuration, upgrade access in the central office to support 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
needing to rebuild the transport routes. The target speed on the 
network is 20 Mbps (upstream and downstream combined) or more DSL 
service. The project will create or save 78 jobs.

    DigitalBridge Communications Corporation

    Round 2: MS-Panola Last Mile

    Last Mile

    $657,833 Loan

    $1,973,499 Grant

    DigitalBridge Communications Corporation will offer 4G broadband 
service to Panola County. This project will deploy fixed and mobile 
WiMAX technologies to offer broadband service speeds of up to 5 Mbps. 
The network will make services available to 7,311 households, 1,379 
businesses, and 87 anchor institutions. The project will create or save 
six jobs.

    Smithville Telephone Company, Inc.

    Smithville Telephone Broadband Program

    Last Mile

    $7,110,886 Grant

    Smithville Telephone Company, Inc., the certified ILEC serving 
rural portions of Itawamba and Monroe counties in northeastern 
Mississippi, will bring high-speed fiber-optic broadband service to the 
area. The company's licensed telephone service area includes the town 
of Smithville, with a population of about 900, and almost 1,300 
premises. The PFSA has 298 unserved households in the more remote parts 
of the rural area. As engineered, the project will build a combination 
of FTTH and advanced xDSL service. The project will provide GPON 
technology FTTP broadband service to all 298 unserved rural households 
and upgrade the existing network in the remaining part of the PFSA to 
the same capabilities available to all 738 premises in the PFSA. The 
project will replace the existing voice switch with a softswitch and 
build a network capable of 100 Mbps broadband speeds that later can be 
reconfigured to active Ethernet for much higher speeds. The project 
will create or save 30 jobs.

    Southeast Mississippi Telephone Company, Inc.

    Southeast Mississippi Telephone Company, Inc.: Broadband Project to 
Serve Rural Unserved Establishments

    Last Mile

    $1,875,204 Grant

    Southeast Mississippi Telephone Company, Inc. (Southeast MS Tel), a 
subsidiary of TDS Telecom, will bring high-speed broadband service to 
unserved premises in its rural franchise service territory. Southeast 
MS Tel is the State-certified ILEC in Mississippi. The project is 
designed to serve 10 PFSAs in its franchised service territory, which 
is 100 percent rural and includes 4 communities. These PFSAs have 612 
premises (595 households, 12 businesses, and 5 anchor institutions) 
that have no access to broadband service. Southeast MS Tel has built a 
broadband network that is capable of serving the majority of these 
premises in several of the core communities, but the surrounding area, 
much of which is sparsely populated, lacks broadband access due to the 
high cost of building such a network. In addition, facilities-based 
terrestrial broadband service is unavailable to the premises in the 
PFSAs. This project will provide access to high-speed broadband service 
(20 Mbps upstream and downstream combined). The network is also 
engineered so that it can be easily upgraded at a reasonable cost to 
meet future needs. The project will create or save 49 jobs.

    Windstream Corporation

    Windstream Mississippi, LLC

    Last Mile

    $1,005,566 Grant

    Windstream Corporation will provide last-mile broadband service to 
unserved premises in the Prentiss and Rankin rural communities. 
Windstream will deploy industry-standard DSLAMs using ADSL2+ protocols 
to provide a minimum of 6 Mbps downstream and 786 Kbps upstream data 
services. DSLAMs will be strategically deployed to reach the greatest 
number of unserved customers over the existing wireline copper plant. 
The network will make services available to 1,153 households, 24 
businesses, and 5 anchor institutions. The project will create or save 
an estimated 28 jobs.
Missouri

    Big River Broadband, LLC

    Big River Broadband Project

    Last Mile

    $12,191,271 Loan

    $12,190,784 Grant

    Big River Broadband, LLC will provide high-speed Internet access to 
an unserved area in southeast Missouri. The network, which covers 3,409 
square miles in 7 counties, will make services available to 44,967 
households, 7,511 businesses, and 311 anchor institutions. The project 
will provide high-speed Internet access (both fixed and mobile) at 
download speeds of up to 14.4 Mbps and upload speeds of 5.8 Mbps and 
will deploy a wireless broadband network using Advanced Wireless 
Services licensed spectrum and high-speed packet access technology. The 
project will create or save 1,370 jobs.

    Cass County

    Cass County, MO, Broadband Initiatives Fiber-to-the-Home Project

    Last Mile

    $7,802,391 Loan

    $18,205,578 Grant

    Cass County will construct a last-mile FTTH network that will 
extend approximately 1,286 miles to enable broadband service speeds of 
up to 100 Mbps. The network will make services available to 10,360 
households, 710 businesses, and 118 anchor institutions. The project 
will create or save an estimated 138 jobs.

    Finally Broadband, LLC

    Southwest Missouri Rural Broadband Initiative

    Last Mile

    $499,000 Loan

    $499,000 Grant

    Finally Broadband, LLC will provide terrestrial fixed wireless 
technology to four rural counties in southwest Missouri, two of which 
are designated as persistent poverty counties. The network will make 
services available to 45,782 households, 7,484 businesses, and 404 
anchor institutions in a 4,563-square-mile area. The project will 
deploy a Motorola Canopy platform to provide Internet bandwidth over 
three interconnection points for redundancy. The project will create or 
save seven jobs.

    Grand River Mutual Telephone Corporation

    Grand River Mutual Fiber-to-the-Home Broadband Deployment Project--
Service Area 1

    Last Mile

    $3,418,682 Loan

    $7,976,924 Grant

    The Grand River Mutual Telephone Corporation Service Area 1 project 
will provide broadband service to the town of Lathrop and the 
surrounding rural areas via an FTTH network. The network will make 
services available to 1,221 households, 47 businesses, and 12 anchor 
institutions in the Lathrop area. The project will create or save 21 
jobs.

    Grand River Mutual Telephone Corporation

    Grand River Mutual Fiber-to-the-Home Broadband Deployment Project--
Service Area 2

    Last Mile

    $12,363,759 Grant

    The Grand River Mutual Telephone Corporation Service Area 2 project 
will provide broadband service to customers in the towns of Browning, 
Linneus, Meadville, and Purdin and the surrounding rural areas. The 
network will make services available to 1,185 households, 773 
businesses, and 22 anchor institutions. The project will provide high-
speed Internet access over an FTTH system to customers in the PFSAs 
that include Linn and Sullivan counties. The expanded network will 
upgrade 459 residential customers and 80 business customers to higher 
speed service. The project will create or save an estimated 28 jobs.

    Grand River Mutual Telephone Corporation

    Grand River Mutual Fiber-to-the-Home Broadband Deployment Project--
Service Area 3

    Last Mile

    $8,970,781 Grant

    The Grand River Mutual Telephone Corporation Service Area 3 project 
will provide high-speed Internet access over an FTTH system to 
customers in the PFSAs that include the towns of Denver, Gentry, and 
New Hampton, and their surrounding rural areas. The network will make 
services available to 641 households, 371 businesses, and 8 anchor 
institutions. Active Ethernet or GPON are planned as the access 
delivery technology and are deployed in other locations in Grand River 
Mutual's ILEC service area. The company will use connections to the 
Missouri Network Alliance to provide high-bandwidth Internet 
connectivity. The project will create or save an estimated 20 jobs.

    Grand River Mutual Telephone Corporation

    Grand River Mutual Fiber-to-the-Home Broadband Deployment Project--
Service Area 5

    Last Mile

    $973,001 Loan

    $2,270,336 Grant

    The Grand River Mutual Telephone Corporation Service Area 5 project 
will provide broadband service to the towns of Allerton, Corydon, 
Lineville, and Millerton, Iowa, and Powersville, Missouri, and their 
surrounding rural areas. The network will make services available to 
320 households, 54 businesses, and 6 anchor institutions along the 
Iowa-Missouri border. The project will create or save six jobs.

    Northeast Missouri Rural Telephone Company

    Green City, MO, Fiber-to-the-Premises

    Last Mile

    $3,595,810 Loan

    $3,595,810 Grant

    Northeast Missouri Rural Telephone Company will construct an FTTP 
network. This FTTP overbuild will provide greater than 20 Mbps 
broadband access to households, businesses, and anchor institutions in 
the Green City telephone exchange. The network will make services 
available to 972 households, 49 businesses, and 20 anchor institutions. 
The project will create or save 78 jobs.

    Northeast Missouri Rural Telephone Company

    Unionville, MO, FTTP Project

    Last Mile Non-remote

    $5,140,458 Loan

    $5,140,458 Grant

    Northeast Missouri Rural Telephone Company will deploy FTTP 
infrastructure to provide needed broadband service to households, 
businesses, and anchor institutions that are underserved in the 
Unionville Exchange. The network will make services available to 1,437 
households, 157 businesses, and 8 anchor institutions. The project will 
create or save 37 jobs.

    Orchard Farm Telephone Company

    Orchard Farm Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $604,794 Grant

    Orchard Farm Telephone Company (Orchard Farm Tel), a subsidiary of 
TDS Telecom, will bring high-speed broadband service to unserved 
premises in its rural franchise service territory. Orchard Farm Tel is 
the State-certified ILEC in Missouri. The project will serve one PFSA 
in its franchised service territory, which is rural and includes three 
communities. This PFSA has 142 premises (92 households, 47 businesses, 
and 3 anchor institutions) that have no access to broadband service. 
Orchard Farm Tel has already built a broadband network that is capable 
of serving the majority of the premises in several of the core 
communities, but the surrounding area, much of which is sparsely 
populated, lacks broadband access. In addition, facilities-based 
terrestrial broadband service is unavailable to the premises in the 
PFSAs. The project will deliver high-speed broadband capabilities of 20 
Mbps (upstream and downstream combined). The project will create or 
save 16 jobs.

    Ralls County Electric Cooperative

    Ralls County Electric Fiber-to-the-Home Project

    Last Mile Non-remote

    $9,548,909 Loan

    $9,548,908 Grant

    Ralls County Electric Cooperative will provide a fiber-optic 
network to residential and commercial members and the underserved 
anchor institutions in the service area. This is a State of Missouri 
demonstration project. The network will make services available to 
4,594 households, 311 businesses, and 58 anchor institutions. The 
project will create or save 35 jobs.

    Socket Telecom, LLC

    Rural Mid-Missouri Fiber-to-the-Premise Project

    Last Mile

    $7,120,345 Loan

    $16,614,137 Grant

    Socket Telecom, LLC will provide high-speed broadband access to 
rural mid-Missouri over a fiber-optic network. The PFSA consists of 117 
square miles in parts of Fulton City and Callaway County. The network 
will make services available to 2,728 households, 269 businesses, and 
36 anchor institutions. The project is designed as an FTTH broadband 
infrastructure to provide subscribers with access to telephone, video, 
and broadband Internet. Broadband service speeds will include 6.0 Mbps 
and 20 Mbps options. The broadband-over-fiber network will deploy a 
GPON-based system that will use passive splitters to deliver concurrent 
signals to multiple users within 20 kilometers of cable footage. The 
project will create or save 525 jobs.

    United Electric Cooperative, Inc.

    United Electric Fiber Initiative

    Last Mile

    $6,363,933 Loan

    $14,849,173 Grant

    United Electric Cooperative will build an advanced last-mile FTTH 
network capable of delivering high-speed broadband at 100 Mbps to 21 
rural communities in northwest Missouri. The cooperative will also add 
fiber strands to create a dedicated 1G education network to provide 
rural schools and libraries with increased broadband access. This 
education intranet, the Cooperative Network for Rural Education 
Advancement, will open the door to advanced education options through 
the use of video and shared resources. The network will be an open 
network model with competing Internet, video, and voice providers 
offering advanced broadband applications to 4,224 households, 58 
businesses, and 150 anchor institutions. The network spans 1,370 miles. 
Through its partner, Pulse Broadband, United Electric Cooperative will 
build a passive optical FTTH network on the existing electric 
distribution right-of-way. Service providers will enter the United 
Electric Cooperative fiber network through a central SIP controlled by 
the cooperative. The project will create or save an estimated 113 jobs.

    Utopian Wireless Corporation

    Utopian Benton WiMAX Project

    Last Mile

    $62,433 Loan

    $187,298 Grant

    The Utopian Benton WiMAX project will make available advanced 4G 
wireless broadband service to underserved communities around the Benton 
area. The PFSA covers approximately 1,105 households, 56 businesses, 
and 30 anchor institutions. Using licensed 2.5 GHz spectrum, Utopian 
Wireless Corporation will deploy a broadband wireless system that 
features Motorola Mobile WiMAX technology. The average minimum downlink 
speeds for wireless Utopian subscribers will be at least 1.8 Mbps. The 
project will create or save 11 jobs.

    Windstream Corporation

    Windstream Missouri, Inc.

    Last Mile

    $10,328,319 Grant

    Windstream Corporation will provide last-mile broadband service to 
numerous unserved rural areas of Missouri. Windstream will deploy 
industry-standard DSLAMs using ADSL2+ protocols to provide a minimum of 
6 Mbps downstream and 786 Kbps upstream data services. DSLAMs will be 
strategically deployed to reach the greatest number of unserved 
customers over the existing wireline copper plant. The network will 
make services available to 4,350 households, 201 businesses, and 39 
anchor institutions. The project will create or save an estimated 229 
jobs.
Montana

    Montana Opticom, LLC

    Gallatin Gateway Broadband Project

    Last Mile

    $32,127,322 Loan

    $32,000,000 Grant

    Montana Opticom, LLC will build a gateway broadband project to 
expand high-speed broadband to the rural communities of Belgrade, 
Bozeman, Gallatin Gateway, Manhattan, and a portion of West 
Yellowstone. The project is an FTTP infrastructure overbuild that will 
deploy fiber to a rural area with a population of 18,844, where it has 
been cost prohibitive to deploy FTTP. The PFSA has 7,746 households, 
4,118 businesses, and 58 anchor institutions. The project will offer 
voice, video, and data services at speeds of up to 100 Mbps. The 
project will create or save 697 jobs.

    Nemont Telephone Cooperative, Inc.

    Ft. Peck Reservation FTTP

    Last Mile

    $2,599,390 Loan

    $23,394,510 Grant

    Nemont Telephone Cooperative, Inc., will deploy an FTTP network to 
the exchanges of Brockton, Frazer, Froid Rural, North Poplar, North 
Wolf Point, and Poplar in northeast Montana. The PFSA, entirely in the 
Ft. Peck Indian Reservation, includes the communities of Brockton, 
Frazer, Fort Kipp, Homestead, Lustre, Oswego, Poplar, and Volt. This 
service area is a remote, rural, underserved, and severely economically 
challenged area. The network will make services available to 3,279 
premises. It will also connect 42 anchor institutions, of which 19 are 
tribal entities, 6 medical and healthcare centers, 7 educational 
institutions, 4 emergency services, 2 libraries, 11 government 
facilities, and 12 community support organizations. The project will 
provide up to 100 Mbps service to all locations and the future 
capability of up to 1 Gbps service at cost-effective pricing. The 
project will provide a 100 percent fiber-optic network using Calix GPON 
equipment. The project will create or save an estimated 283 jobs.

    Project Telephone Company

    Crow Agency/Lodge Grass FTTP

    Last Mile

    $3,887,370 Loan

    $11,662,109 Grant

    Project Telephone Company will provide FTTP to all locations within 
the Crow Reservation exchanges of Crow Agency and Lodge Grass, where 
more than 50 percent of the locations do not have access to 5 Mbps 
(upstream and downstream combined). This project will also bring FTTP 
to all anchor institutions, including the headquarters of the Crow 
Tribe in Crow Agency. The service will be accessible by each location 
and delivered by GPON and/or active Ethernet topologies. The network 
will make services available to 1,495 households, 191 businesses, and 
26 anchor institutions. The project will create or save an estimated 
169 jobs.

    Project Telephone Company

    Scott St. Pryor Middle Mile

    Middle Mile

    $962,672 Loan

    $2,888,015 Grant

    Project Telephone Company will create a fiber-optic transport 
network that connects the Crow Indian Reservation communities of Fort 
Smith, Pryor, and Saint Xavier to existing fiber-transport networks in 
Lockwood, near Billings. This project will also bring FTTP-type 
services to 26 anchor institutions, ncluding tribal, State, and Federal 
entities. The infrastructure will allow Project Telephone to link to 
other backbone providers. This project will promote rural economic 
development and provide interconnection points to underserved areas. It 
will also stimulate broadband growth by providing interoffice 
transport, backhaul, Internet connectivity, and/or special access using 
fiber. This redundant network is vital in the event of a network 
outage, such as a fiber cut, in order to keep critical services like 
public safety operational. The network will make services available to 
1,765 households and 493 businesses. The project will create or save 42 
jobs.

    Reservation Telephone Cooperative

    Last Mile Broadband to Rural ND and MT

    Last Mile Non-remote

    $2,190,000 Loan

    $2,190,000 Grant

    Reservation Telephone Cooperative will deploy FTTH technology to 
bring affordable and reliable broadband access and video service to 
underserved rural areas in western North Dakota and eastern Montana 
communities in and around the Fort Berthold Indian Reservation. These 
areas include the remote Squaw Gap service area and the partially 
remote Mandaree, New Town, Parshall, and Roseglen service areas. The 
network will make services available to 281 households, 8 businesses, 
and 4 anchor institutions. The project will create or save eight jobs.
Nebraska

    Peetz Cooperative Telephone Co.

    Peetz Last Mile

    Last Mile Remote

    $756,925 Grant

    Peetz Cooperative Telephone Co., will deploy broadband 
infrastructure in and around the Peetz community using a combination of 
technologies. Anchor institutions within the community will have the 
connectivity necessary for distance learning and public safety 
applications. The network will make services available to 254 
households, 15 businesses, and 6 anchor institutions. The project will 
create or save five jobs.

    Southeast Nebraska Communications, Inc.

    Southeast Nebraska Communications Rural FTTH

    Last Mile

    $3,396,895 Loan

    $7,888,472 Grant

    Southeast Nebraska Communications, Inc. (SNC) will upgrade its 
network to alleviate a last-mile bottleneck in its service area in 
Nebraska and Kansas. The current technology limits average customer 
throughput and is distance sensitive, which results in the most rural 
subscribers having less bandwidth access than those closer to town. The 
PFSA for this project is SNC's entire certificated telephone company 
service territory. The network will make services available to 1,215 
households, 51 businesses, and 22 anchor institutions. The project will 
upgrade these areas from copper-based facilities and technologies to 
FTTH and will offer broadband service speeds of a minimum of 3 Mbps 
downstream and a minimum of 1 Mbps upstream. The FTTH equipment will be 
standards-based active Ethernet. The project will create or save nine 
jobs.
Nevada

    Arizona Nevada Tower Corporation

    Central Nevada Community Anchor Wireless Backhaul Solution

    Middle Mile

    $2,276,650 Loan

    $5,312,182 Grant

    Arizona Nevada Tower Corporation will provide middle-mile broadband 
to enhance existing but limited fiber-optic cable and provide transport 
where fiber-optic cable is unavailable by using LTE/WiMAX-ready 
technology. This project will provide microwave radio backbone and a 
middle-mile system to provide significant bandwidth in 15 areas of 
Nevada and California. The network will make services available to 
12,933 households, 3,422 businesses, and 186 anchor institutions. The 
project will create or save eight jobs.

    KeyOn Communications, Inc.

    KeyOn WiMAX Nevada

    Last Mile

    $3,054,989 Loan

    $7,106,233 Grant

    KeyOn Communications, Inc., will offer 4G last-mile wireless 
broadband and VoIP in 39 of the most rural communities in Nevada. Using 
KeyOn's nationwide 3.65 GHz license and the standards-based WiMAX 
protocol, the network will offer broadband service speeds of up to 8 
Mbps. The network will make services available to 37,569 households, 
5,522 businesses, and 849 anchor institutions. The project will create 
or save 30 jobs.

    Reno-Sparks Indian Colony, Inc.

    Hungry Valley Broadband Initiative

    Last Mile

    $400,000 Grant

    Reno-Sparks Indian Colony, Inc., will offer wireless broadband 
service speeds at a minimum of 5 Mbps to communities in a rural 
reservation in Hungry Valley. The network will make services available 
to 162 households, 1 business, and 4 anchor institutions. The project 
will create or save one job.

    Rural Telephone Company

    North Fork, Tuscarora, and Jarbidge Service Area Broadband Service 
Implementation

    Last Mile

    $728,700 Loan

    $1,700,300 Grant

    Rural Telephone Company will extend ADSL2+ high-speed broadband 
service to existing and new customers in the Jarbidge, North Fork, and 
Tuscarora service areas. The network will make services available to 
272 households, 104 businesses, and 10 anchor institutions. The project 
will create or save two jobs.
New Hampshire

    Bretton Woods Telephone Company, Inc.

    Last Mile Remote Area--Bretton Woods, NH

    Last Mile Remote

    $985,000 Grant

    The Bretton Woods area lacks broadband service sufficient for the 
community's needs and commercial applications. Bretton Woods FTTP will 
provide nearly 40 times faster service than is currently available. 
Tourism is the primary industry supporting jobs and economic 
development in the region and broadband access will help keep this 
industry strong. The network will make services available to 386 
households, 19 businesses, and 6 anchor institutions. The project will 
create or save 11 jobs.

    Kearsarge Telephone Company

    Kearsarge Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $372,532 Grant

    Kearsarge Telephone Company (Kearsarge Tel), a subsidiary of TDS 
Telecom, will provide high-speed broadband service to unserved premises 
in its rural New Hampshire service territory. The project will serve 
three rural PFSAs. These PFSAs have 116 premises (107 households and 9 
businesses) with no access to broadband service. Kearsarge Tel is the 
State-certified ILEC in New Hampshire. The network will deploy 
Ethernet-over-copper technology, provide VDSL2 access devices packaged 
in an FTTN configuration, upgrade access in the central office to 
support the extension of the broadband networks to these remote areas, 
use PON FTTH where economically feasible, and allow for future PON 
upgrades without needing to rebuild the transport routes. The target 
speed is 20 Mbps (upstream and downstream combined) or more DSL 
service. The project will create or save 10 jobs.

    Merrimack County Telephone Company

    Merrimack County Telephone Company: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $2,021,197 Grant

    Merrimack County Telephone Company (Merrimack County Tel), a 
subsidiary of TDS Telecom, will provide high-speed broadband service to 
unserved premises in its rural New Hampshire service territory. The 
project will serve eight rural PFSAs with five communities. These PFSAs 
have 832 premises (770 households and 62 businesses) with no access to 
broadband service. Merrimack County Tel is the State-certified ILEC in 
New Hampshire. The network will deploy Ethernet-over-copper technology, 
provide VDSL2 access devices packaged in an FTTN configuration, upgrade 
access in the central office to support the extension of the broadband 
networks to these remote areas, use PON FTTH where economically 
feasible, and allow for future PON upgrades without needing to rebuild 
the transport routes. The target speed is 20 Mbps (upstream and 
downstream combined) or more DSL service. The project will create or 
save 53 jobs.
New Mexico

    Baca Valley Telephone Company, Inc.

    Baca Valley Telephone Last Mile DSL Project

    Last Mile Non-remote

    $1,651,000 Loan

    $1,586,000 Grant

    Baca Valley Telephone Company, Inc., will deploy a fiber-optic 
last-mile access system to provide ADSL2+ broadband service to 
households and businesses in two separate PFSAs located in northeast 
New Mexico. This project will serve subscribers located in Union and 
Colfax counties, and consists of two service areas: Des Moines and 
Maxwell. The network will make services available to 373 households, 71 
businesses and rural establishments (including farms and ranches), and 
20 anchor institutions. The project will create or save 10 jobs.

    Dell Telephone Cooperative, Inc.

    Dell Telephone Last-Mile DSL project

    Last Mile

    $435,500 Grant

    Dell Telephone Cooperative, Inc., will provide high-speed broadband 
access to subscribers in Bug Scuffle. This rural PFSA is a residential 
community in southeast New Mexico. The network expansion will use 
copper-based ADSL2+ technology to provide broadband data and voice 
service to the 44 households in the PFSA. The project will replace 
existing legacy Tellabs DLC equipment with next-generation, fiber-fed 
Occam BLC equipment that is capable of providing service speeds of 4.5 
Mbps downstream and 768 Kbps upstream. The project will create or save 
18 jobs.

    Kit Carson Electric Education Foundation, Inc.

    Kit Carson Electric Cooperative Fiber-to-the-Home Project

    Last Mile

    $19,130,601 Loan

    $44,638,070 Grant

    Kit Carson Electric Cooperative (KCEC) will build an open-access 
FTTH fiber-optic network in the unserved and underserved counties of 
Colfax, Rio Arriba, and Taos in northern New Mexico. Two of the 
counties are among New Mexico's 12 designated persistent poverty 
counties. The PFSAs include 29 communities comprising an estimated 
20,458 households, 3,647 businesses, 183 anchor institutions, and 2 
Native American pueblos in a 2,951-square-mile rural underserved area. 
The network spans 2,400 miles. KCEC will build and operate an FTTH 
network capable of at least 100 Mbps for residential service and 1 Gbps 
broadband service for anchor institutions. KCEC will use this project 
to build an FTTH network along the existing electric distribution 
right-of-way to enable smart grid/green grid technologies. The smart-
grid functionality can handle intermittent power from renewable energy 
sources and help customers track and manage their real-time energy 
consumption. The fiber network will provide the backbone for deploying 
smart meters at residential and commercial sites so consumers can use 
broadband to set up home area networks capable of supporting smart 
appliances and time-shifting peak-demand strategies. The investment in 
the fiber network will be leveraged to tie together regional power 
substations and the operations center. KCEC is also working with the 
Taos Pueblo tribal government to build fiber into that community to 
provide affordable broadband access for tribal anchors and members. The 
project will create or save an estimated 333 jobs.

    La Jicarita Rural Telephone Cooperative

    Broadband Services to Mora County, NM

    Last Mile

    $3,557,050 Loan

    $8,299,782 Grant

    La Jicarita Rural Telephone Cooperative will offer full fiber 
capabilities to rural establishments with broadband service speeds of 
up to 18 Mbps. This lastmile project, along with a middle-mile 
component, will allow the company to provide affordable higher speed 
last-mile service to a majority of its subscriber base who otherwise 
would go underserved. The network will make services available to 1,384 
households, 41 businesses, and 8 anchor institutions. The project will 
create or save 48 jobs.

    Penasco Valley Telephone Cooperative, Inc.

    PVT ILEC

    Last Mile Non-remote

    $4,818,607 Loan

    $4,770,660 Grant

    Penasco Valley Telephone Cooperative, Inc., will deliver high-speed 
broadband service to unserved areas in its ILEC territory. The project 
will deploy fiber and electronics to allow for broadband service 
offerings to customers who are unable to access DSL, include wireless 
capabilities for difficult-to-reach areas, and provide for additional 
fiber capacity. The network will make services available to 1,871 
households and 6 businesses.

    Pueblo de San Ildefonso

    TewaCom Broadband Initiative (TBI), Phase 1--Upper Rio Grande 
Valley

    Last Mile Non-remote

    $632,225 Loan

    $632,225 Grant

    San Ildefonso Pueblo is a partner in the Northern New Mexico 
Regional Economic Development Initiative, which will deploy a regional 
open network. The network will support the multiple purposes of 
economic development, education, healthcare, and sustainable energy 
development, and will make services available to 2,405 households, 35 
businesses, and 23 anchor institutions. The project will create or save 
10 jobs.

    Windstream Corporation

    Valor Telecommunications of Texas 310

    Last Mile

    $2,273,847 Grant

    Windstream Corporation will extend its broadband network to provide 
service to unserved homes and businesses in the areas of Chimayo, 
Dixon, Penasco, Rio Chama, Ruidoso, South Rio Arriba, Tierra Amarilla, 
Truth or Consequences, and Vallecitas. The project will use industry-
standard ADSL2+ protocols that will offer broadband service speeds of 
up to 12 Mbps. The network will make services available to 3,999 
households, 56 businesses, and 2 anchor institutions. The project will 
create or save an estimated 29 jobs.
New York

    Castle Cable TV, Inc.

    Castle Cable TV Broadband Project

    Last Mile

    $3,584,280 Loan

    $3,584,279 Grant

    Castle Cable TV, Inc., will extend broadband and other advanced 
telecommunications services through several communities in Jefferson 
and St. Lawrence counties, making services available to 2,321 
households, 217 businesses, and 12 anchor institutions. The project 
will deploy FTTH wireline technology, update access in the head-end 
necessary to support the extension of the broadband network to these 
areas, and utilize a configuration that will allow for future PON 
upgrades without having to rebuild the transport routes. In addition, 
through its subsidiary Citizens Cablevision, Castle Cable TV will 
provide the same service to Morristown and the community of Brier Hill 
in rural Morristown Township along the St. Lawrence River. The project 
will create or save 11 jobs.

    Deposit Telephone Company, Inc.

    Deposit Telephone Company, Inc.: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $3,018,085 Grant

    Deposit Telephone Company, Inc. (Deposit Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises 
in Deposit Tel's rural franchise service territory. Deposit Tel is the 
State-certified ILEC in New York. The project will serve six PFSAs in 
its franchised service territory, which is 100 percent rural and 
includes six communities. These PFSAs have 1,140 premises (1,069 
households and 71 businesses) that have no access to broadband service. 
Deposit Tel has built a broadband network that is capable of serving 
the majority of these premises in several of the core communities, but 
the surrounding area, much of which is sparsely populated, lacks 
broadband access due to the high cost of building such a network. In 
addition, facilities-based terrestrial broadband service is unavailable 
to the premises in the PFSAs. This project will bring access to high-
speed broadband service (20 Mbps upstream and downstream combined). The 
network is also engineered so that it can be easily upgraded at a 
reasonable cost to meet future needs. The project will create or save 
80 jobs.

    Mid-Hudson Cablevision, Inc.

    Last-Mile High Speed Broadband in Greene and Columbia Counties

    Last Mile

    $2,987,570 Grant

    Mid-Hudson Cablevision, Inc., will provide high-speed broadband 
access to seven unserved and underserved PFSAs in the Hudson Valley and 
Catskill Mountain region between New York City and Albany. The network 
will make services available to 7,186 households, 2,586 businesses, and 
97 anchor institutions and will complete part of the region's 911 
public safety infrastructure. The last-mile extensions will require 
construction of 135 linear miles of FTTH on existing utility poles and 
connection for a network of five fire towers. Another 341-square-mile 
area will be reached by deploying 16 transmitting sites for wireless. 
The PFSAs also cover four underserved communities, including Greene 
County. Mid-Hudson will deploy more than 16 transmitting sites using 
Motorola Canopy equipment to provide access speeds of 10 Mbps in line-
of-sight areas and 4 Mbps in dense foliage. The project will create or 
save 59 jobs.

    Port Byron Telephone Company, Inc.

    Port Byron Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $639,218 Grant

    Port Byron Telephone Company, Inc. (Port Byron Tel), a subsidiary 
of TDS Telecom, will bring highspeed broadband service to unserved 
premises in Port Byron Tel's rural franchise service territory. Port 
Byron Tel is the State-certified ILEC in New York. The project is 
designed to serve three PFSAs in its franchised service territory, 
which is 100 percent rural and includes two communities. These PFSAs 
have 166 premises (160 households and 6 businesses) that have no access 
to broadband service. Port Byron Tel has built a broadband network that 
is capable of serving the majority of these premises in several of the 
core communities, but the surrounding area, which is sparsely 
populated, lacks broadband access due to the high cost of building such 
a network. In addition, facilities-based terrestrial broadband service 
is unavailable to the premises in the PFSAs. This project will provide 
access to high-speed broadband service (20 Mbps upstream and downstream 
combined). The network is also engineered so that it can be easily 
upgraded at a reasonable cost to meet future needs. The project will 
create or save 17 jobs.

    St. Regis Mohawk Tribe

    St. Regis Mohawk Tribe Connect (Economic Development for the 21st 
Century)

    Last Mile

    $528,125 Loan

    $10,034,392 Grant

    The St. Regis Mohawk Tribe will bring a last-mile fiber-optic 
network to its tribal lands in north-central New York. This project 
will link 68 miles of fiber network to the Open Access 
Telecommunications Network of the Development Authority of North 
Country, to ION Incorporated Network, and to Nicholville's network. The 
network will make services available to 1,500 households, 200 
businesses, and 42 anchor institutions. The project will create or save 
an estimated 784 jobs.

    Slic Network Solutions, Inc.

    Franklin County, NY, Broadband Initiative

    Last Mile Remote

    $1,066,000 Loan

    $4,262,642 Grant

    Slic Network Solutions, Inc., will construct 136 miles of fiber-
optic cable to deliver advanced broadband service in western Franklin 
County. The network will provide voice and IPTV services over the same 
facilities. The network will make services available to 6,508 
households, 29 businesses, and 10 anchor institutions. The project will 
create or save 10 jobs.

    Slic Network Solutions, Inc.

    St. Lawrence Broadband Initiative

    Last Mile

    $6,958,193 Loan

    $20,874,574 Grant

    Slic Network Solutions, Inc., will construct 660 miles of fiber-
optic cable in 10 PFSAs to make services available to 5,856 households, 
112 businesses, and 30 anchor institutions in St. Lawrence County. The 
PFSAs can be separated into two groups: the northern and southern 
serving areas. The northern group consists of Flackville, Knapps 
Station, Pierrepont, Slab City-Crary Mills, Southville, and St. 
Lawrence North. These service areas in the northern part of the county 
cover 414 square miles of primarily agricultural areas. The southern 
group includes communities along the New York State Route 3 corridor, 
including Star Lake, Wanakena, Cranberry Lake, and Piercefield, which 
are in the towns of Fine, Clifton, and Piercefield. All have been 
chronically unserved because of their isolated location in the 
foothills of the Adirondacks. Broadband service is currently 
unavailable to the residents of these communities. Slic Network 
Solutions will deploy a 100 percent fiber-optic network using Occam 
GPON equipment. The company will use infrastructure obtained through 
its round one BIP award. The project will create or save 67 jobs.

    Windstream Corporation

    Windstream New York, Inc. 26

    Last Mile

    $855,901 Grant

    Windstream Corporation will offer broadband service speeds of up to 
12 Mbps in Clymer, Columbus, Ellery, French Creek, Mina, and Sherman by 
deploying industry-standard DSLAMs with ADSL2+. The network will make 
services available to 571 households, 8 businesses, and 8 anchor 
institutions. The project will create or save 53 jobs.
North Carolina

    Atlantic Telephone Membership Corporation

    Columbus County ACCESS (Advanced Connectivity for Communities, 
Education, Safety and Support)

    Last Mile

    $4,801,025 Loan

    $11,202,393 Grant

    Atlantic Telephone Membership Corporation (ATMC) will implement the 
Columbus County ACCESS project to deploy FTTH to all premises in the 
PFSA. The project will serve a rural, 185-square-mile area near the 
eastern boundary of Columbus and Brunswick counties in the southeastern 
part of the State. The network will make services available to 3,641 
households, 274 small businesses, and 35 anchor institutions to provide 
them with access to high-speed broadband service with speeds from 1.5 
Mbps to 5.0 Mbps. The project will leverage ATMC's existing 10 GigE 
core backbone, backhaul, and IP connections through interconnection to 
a GigE fiber ring to be deployed in the PFSA. The FTTP network will use 
GPON network gear. The project will create or save 87 jobs.

    Country Cablevision, Inc.

    Yancey Mitchell Rural Broadband

    Last Mile

    $6,324,250 Loan

    $18,972,750 Grant

    Country Cablevision, Inc., will deliver digital TV, data, and VoIP 
to all customers in Mitchell and Yancey counties. The PFSAs lie in the 
Appalachian Mountains of western North Carolina, bordering the 
Tennessee line. The project will install an FTTN broadband system 
delivering RFoG. The project will update and expand the company's 
operating system to enable high-speed broadband access at speeds of up 
to 20 Mbps to make services available to 14,029 households, 1,963 
businesses, and 123 anchor institutions. The project will create or 
save 22 jobs.

    French Broad Electric Membership Corporation

    French Broad Electric BPL Project

    Last Mile

    $621,492 Loan

    $1,154,200 Grant

    French Broad Electric Membership Corporation (FBEMC) will provide 
broadband Internet access to Beech Glenn, Laurel, and Spring Creek, and 
the areas of Marshall and Mars Hill. The technology used in this 
project includes fiber-optic communications as the middle-mile backhaul 
link and BPL as the last-mile medium to provide service to subscribers. 
FBEMC chose this technological combination because it can use existing 
infrastructure to deploy the system and minimize project cost. The 
network will make services available to 1,016 households, 699 
businesses, and 6 anchor institutions. The project will create or save 
33 jobs.

    Lumbee River Electric Membership Corporation

    Lumbee River EMC Broadband Economic Development Initiative

    Last Mile

    $4,986,935 Loan

    $14,960,804 Grant

    Lumbee River Electric Membership Corporation will provide high-
speed broadband access in southern North Carolina. The project will 
offer voice, video, and data services on an active GPON network using 
fiber-optic cable and passive and active components. The FTTH last-mile 
project will provide broadband service speeds of 100 Mbps or higher and 
will make services available to 11,384 households, 1,634 businesses, 
and 95 anchor institutions. The company will own and operate the fiber 
network while partnering with Innovative Communications, Inc., to 
provide all customer service functions. The project will create or save 
51 jobs.

    Skyline Telephone Membership Corporation

    High Country Fiber

    Last Mile

    $7,739,073 Loan

    $18,057,838 Grant

    Skyline Telephone Membership Corporation will substantially expand 
the provision of advanced FTTH services via a fiber-optic network with 
combined speeds exceeding 20 Mbps to 6,019 households, 521 businesses, 
and 84 anchor institutions in Alleghany and Ashe counties in rural 
northwestern North Carolina. The project will create or save 85 jobs.

    Tri-County Telephone Membership Corporation

    TriCounty Telecom FTTP Project

    Last Mile

    $3,536,805 Loan

    $10,610,410 Grant

    Tri-County Telephone Membership Corporation will offer broadband 
service using FTTP technology in northeast Beaufort County and parts of 
Hyde and Washington counties. This project will deploy a GPON network 
with the inherent capability to deliver broadband service speeds of 80 
Mbps. The network will make services available to 4,312 households, 889 
businesses, and 32 anchor institutions. The project will create or save 
77 jobs.

    Utopian Wireless Corporation

    Utopian Riegelwood WiMAX Project

    Last Mile

    $115,249 Loan

    $345,744 Grant

    The Utopian Riegelwood WiMAX project will make available advanced 
4G wireless broadband service to underserved communities in and around 
Riegelwood. The rural PFSA includes part of Columbus County, and covers 
an estimated 1,255 households, 452 businesses, and 32 anchor 
institutions. Using 2.5 GHz spectrum, Utopian will deploy a broadband 
wireless system that features Motorola Mobile WiMAX technology. The 
project will create or save 10 jobs.

    Wilkes Telecommunications, Inc.

    Wilkes Stimulus Project

    Last Mile

    $6,483,300 Loan

    $15,127,700 Grant

    Wilkes Telephone Membership Corporation, Inc., will provide last-
mile, high-speed broadband to rural portions of Wilkes County in 10 
underserved PFSAs. The PFSAs comprise 630 square miles. The fiber-optic 
upgrade will provide higher speed broadband service to many households, 
businesses, and anchor institutions, plus voice and video services. The 
network will make services available to 3,680 households, 3,358 
businesses, and 45 anchor institutions. The project will create or save 
160 jobs.

    Yadkin Valley Telephone Membership Corporation

    Yadkin Valley Rural FTTH

    Last Mile

    $10,834,116 Loan

    $10,834,116 Grant

    Yadkin Valley Telephone Membership Corporation will deploy 496 
miles of high-capacity, last-mile FTTH service in rural North Carolina. 
The seven PFSAs comprise small, sparsely populated communities with no 
high-speed access that are in critical need of sustained economic 
development and support for anchor institutions. The network will make 
services available to 5,121 households, 606 businesses, and 56 anchor 
institutions. The project will deploy GPON FTTH to provide 65 Mbps of 
bandwidth per premise, with up to 1 Gbps of Ethernet service. The area 
has the potential to become a medical records processing hub. The 
project will create or save 57 jobs.
North Dakota

    BEK Communications Cooperative

    Rural Burleigh County, ND, FTTP

    Last Mile Non-remote

    $2,016,571 Loan

    $1,986,473 Grant

    BEK Communications Cooperative will deploy lastmile technology to 
provide FTTP broadband service to underserved homes and anchor 
institutions in rural Burleigh County. This will aid business growth 
and support public safety facilities in rural areas. The network will 
make services available to 542 households and 2 anchor institutions. 
The project will create or save nine jobs.

    Consolidated Enterprises, Inc.

    CEI Broadband Infrastructure Project

    Last Mile

    $5,782,361 Loan

    $5,782,361 Grant

    Consolidated Enterprises, Inc. (CEI) will serve two PFSAs in rural 
Belfield and Dickinson, western North Dakota. The project is an FTTH 
expansion to CEI's existing fixed-wireless data system in those areas. 
CEI will build fiber to the least populated areas of those communities 
where it has been cost-prohibitive to deploy FTTH and DSL. CEI will 
build out its facilities to make services available to 1,421 households 
in the PFSAs and 231 businesses and will provide voice and video, as 
well as data services at speeds of up to 100 Mbps. The project will 
create or save 25 jobs.

    Dakota Central Telecom l--Streeter and Gackle

    Dakota Central Telecom l--Streeter and Gackle

    Last Mile Remote

    $2,252,250 Grant

    Dakota Central Telecom I will provide FTTP broadband service to 
households, businesses, and anchor institutions in portions of the 
Streeter and Gackle exchanges that are remote, rural, and unserved. The 
network will make services available to 221 households, 5 businesses, 
and 4 anchor institutions. The project will create or save nine jobs.

    Griggs County Telephone Co.

    Griggs County/Moore & Liberty Broadband Development

    Last Mile

    $5,524,010 Loan

    $16,572,031 Grant

    Griggs County Telephone Co. will provide last-mile FTTH technology 
for broadband access and voice, video, and data services to underserved 
rural areas in eastern North Dakota. The area is a designated Griggs-
Steele Empowerment Zone because of the out-migration, poverty, and 
unemployment rates. This project will build facilities to extend video 
and data services at speeds of up to 100 Mbps. The two Griggs County 
PFSAs encompass four communities and portions of five rural counties. 
Griggs County will also provide service to the rural portions of two 
exchanges in other counties. The Moore & Liberty PFSA includes two 
communities and portions of three counties. The network will make 
services available to 1,787 households, 406 businesses, and 17 anchor 
institutions. The project will create or save 248 jobs.

    Halstad Telephone Company

    HTC Hillsboro ND Rural FTTP

    Last Mile Non-remote

    $2,027,600 Loan

    $2,027,600 Grant

    The Halstad Telephone Company will deploy FTTP broadband Internet 
and video service to 410 locations in rural Hillsboro, North Dakota, 
utilizing 283 miles of fiber-optic cable and providing those locations 
with a broadband capability of 100 Mbps. The network will make services 
available to 399 households, 10 businesses, and 1 anchor institution. 
The project will create or save one job.

    Halstad Telephone Company

    HTC Hillsboro ND Town Broadband

    Last Mile Non-remote

    $246,500 Loan

    $246,500 Grant

    The Halstad Telephone Company project will install electronic 
enhancements to existing DSL service to increase broadband capability 
to 100 Mbps for Internet and video service in the town of Hillsboro, 
North Dakota. The network will make services available to 736 
households, 75 businesses, and 25 anchor institutions. The project will 
create or save three jobs.

    Inter-Community Telephone Company, Inc.

    ICTC FTTH Upgrade

    Last Mile

    $713,289 Loan

    $1,625,362 Grant

    Inter-Community Telephone Company, a local exchange carrier based 
in Nome, will implement a last-mile fiber project to make broadband 
available in three small, underserved rural communities--Hope, Sanborn, 
and Tower City--in the counties of Barnes, Cass, and Steele, 
respectively, in east-central North Dakota. The network will make 
services available to an estimated 412 premises. This project includes 
improvement and connectivity for businesses and anchor institutions. 
The project will implement broadband through FTTH with speeds of up to 
100 Mbps. The project will create or save 32 jobs.

    Red River Rural Telephone Association, Inc.

    RRT FTTP Broadband Upgrade Rural MN, ND, and SD Exchanges

    Last Mile

    $4,362,450 Loan

    $4,362,450 Grant

    Red River Rural Telephone Association, Inc., will offer FTTP 
broadband service speeds of up to 100 Mbps. The project will install 
690 miles of fiber-optic cable to serve six rural exchanges in Ransom, 
Richland, and Sargent counties in North Dakota, as well as Wilkin 
County in Minnesota, and Marshall and Roberts counties in South Dakota. 
The network will make services available to 996 households, 219 
businesses, and 6 anchor institutions. The project will create or save 
106 jobs.

    Reservation Telephone Cooperative

    Last Mile Broadband to Rural ND and MT

    Last Mile Non-remote

    $8,760,000 Loan

    $8,760,000 Grant

    Reservation Telephone Cooperative will deploy FTTH technology to 
bring affordable and reliable broadband access and video service to 
underserved rural areas in western North Dakota and eastern Montana, 
including the Fort Berthold Indian Reservation. These areas include the 
Squaw Gap service area and the Mandaree, New Town, Parshall, and 
Roseglen service areas. The network will make services available to 
1,124 households, 31 businesses, and 18 anchor institutions. The 
project will create or save 33 jobs.

    SRT Communications, Inc.

    FTTP for the Rural North Dakota Community of Metigoshe

    Last Mile

    $2,214,758 Loan

    $2,214,758 Grant

    SRT Communications, Inc., will provide broadband to subscribers 
served by the Metigoshe exchange. The project will provide broadband 
service to towns and rural subscribers within the PFSA. Utilizing 
fiber-optic cable, the project will allow SRT to provide more than 20 
Mbps broadband access to 445 households, 2 businesses, and 218 anchor 
institutions. The project will create or save 72 jobs.
Ohio

    Benton Ridge Telephone Company

    Benton Ridge Telephone Company Broadband Expansion Project--Benton 
Ridge

    Last Mile Non-remote

    $1,611,124 Loan

    $1,547,942 Grant

    The Benton Ridge Telephone Company will deploy an FTTH system in 
the Benton Ridge exchange of south central Ohio. The system will 
provide a dedicated fiber-optic connection for each customer. The 
network will make services available to 510 households, 19 businesses, 
and 1 anchor institution. The project is expected to create or save 34 
jobs.

    Consolidated Electric Cooperative, Inc.

    North Central Ohio Rural Fiber Optic Network

    Middle Mile

    $1,399,499 Loan

    $1,034,413 Grant

    Consolidated Electric Cooperative, Inc., will construct an open-
connectivity fiber-optic backbone network. This middle-mile project is 
integral to a smart grid initiative and broadband service that will 
bring urban connectivity to rural Ohio. The network will make services 
available to 35,708 households, 2,002 businesses, and 49 anchor 
institutions.

    Hometown Cable Company, LLC

    Unincorporated Areas of Darke/Preble County Network

    Last Mile

    $2,359,926 Loan

    $2,267,380 Grant

    Hometown Cable Company, LLC will deploy a wireless wide area 
network with fixed and mobile broadband service throughout Darke and 
Preble counties. The network will make services available to 19,664 
households, 522 businesses, and 206 anchor institutions. The project 
will create or save 31 jobs.

    Intelliwave, LLC

    The Athens, Fairfield, and Pickaway County, Ohio, Rural Broadband 
Initiative

    Last Mile Non-remote

    $1,162,599 Loan

    $1,116,997 Grant

    Intelliwave, LLC will leverage Recovery Act funds to deliver 
wireless broadband and VoIP phone service to underserved rural 
communities in Athens, Fairfield, and Pickaway counties. The network 
will make services available to 11,428 households, 431 businesses, and 
73 anchor institutions. The project will create or save seven jobs.

    Nelsonville TV Cable, Inc.

    Nelsonville TV Cable HFC Broadband Addition

    Last Mile

    $1,391,452 Loan

    $3,246,721 Grant

    Nelsonville TV Cable, Inc., will expand its HFC broadband to reach 
approximately 1,500 unserved rural homes in a persistent poverty area 
of southeastern Ohio. The project will expand the company's network 
into 14 unserved, noncontiguous, and isolated communities. The PFSAs 
range from less than 1 square mile up to 12 square miles each. The 
PFSAs include parts of 10 communities in 3 counties. The network will 
pass 1,461 households, 3,295 businesses, and 44 anchor institutions. 
The project will add a digital HFC network that provides high-speed 
Internet access speeds of 5.5 Mbps downstream and 650 Kbps upstream. 
The project will expand the network from its headend to area nodes, 
requiring new equipment in addition to 120 new miles of fiber and 80 
miles of coax cable. The new cable will be 100 percent aerial, using 
existing rights-of-way and utility poles. The project will create or 
save 20 jobs.

    New Era Broadband, LLC

    Meigs County Broadband Infrastructure Project for

    Advancement of Rural Economic Development

    Last Mile

    $738,733 Loan

    $2,216,196 Grant

    New Era Broadband, LLC will provide last-mile infrastructure to 
provide fixed P2MP wireless broadband service in Meigs County in 
Appalachia. Forty-four percent of the households in the State that are 
unserved by broadband are in Appalachian Ohio, which is a contributing 
factor in the ranking of Meigs County as one of the five poorest 
counties in the State. The project will provide broadband Internet 
service to a PFSA of approximately 266 square miles, comprising 3,386 
unserved households, 165 unserved businesses, and 6 unserved anchor 
institutions. New Era will offer wireless broadband and VoIP, with 
minimum network speeds of 768 Kbps downstream and 200 Kbps upstream, as 
well as 3 Mbps combined speeds in qualified areas. The project will 
create or save 200 jobs.

    Southern Ohio Communication Services, Inc.

    Southern Ohio Underserved Rural Broadband Build

    Last Mile

    $738,705 Loan

    $709,736 Grant

    Southern Ohio Communication Services, Inc., will build a project in 
Appalachia. It will make broadband Internet and VoIP services available 
to 6,126 premises, the majority of which have no broadband service 
available. Adams and Pike counties will be served. In addition, the 
project will offer 3 Mbps upstream and 2 Mbps downstream service to the 
entire population in the company's service areas. The company will 
offer voice services through a wireless signal along with broadband 
data service to residential, business, and anchor institution 
customers. The company will add tower locations to the current network 
and upgrade some backhaul links to higher capacity service. The project 
will create or save 400 jobs.

    Sycamore Telephone Company, Inc.

    Sycamore FTTH

    Last Mile

    $1,452,310 Loan

    $2,697,145 Grant

    Sycamore Telephone Company, Inc., will build a fiber network in a 
rural PFSA to provide high-speed Internet service in the community of 
Sycamore Village and the villages of McCutchenville and Melmore. The 
technology will be over dark fiber to households and splitters will be 
in the central and two remote offices to implement GPON technology. The 
remaining remote locations will be upgraded with fiber feeds to allow 
bandwidth upgrade to GigE. This will provide DSL speeds from 8 to 20 
Mbps. The project will serve 1,769 households, 450 businesses, and 14 
anchor institutions. In the areas outside the villages, fiber will be 
placed to the existing DSL terminals, allowing the company to provide 
broadband speeds of over 5 Mbps to the subscribers throughout its 
exchange. The project will create or save 24 jobs.

    Utopian Wireless Corporation

    Utopian Kinsman WiMAX Project

    Last Mile

    $348,926 Loan

    $1,046,778 Grant

    The Utopian Kinsman WiMAX project will make available advanced 4G 
wireless broadband service to underserved communities in and around the 
Kinsman area. The rural PFSA covers approximately 2,909 households, 543 
businesses, and 27 anchor institutions. Using licensed 2.5 GHz 
spectrum, Utopian will deploy a broadband wireless system that features 
Motorola Mobile WiMAX technology. The system solution includes WiMAX 
access points, wireless and wired backhaul, ASN-GW, CSN, and an IP core 
that supports authentication and routing of traffic to application 
servers and the Internet. The project will create or save 12 jobs.

    Wabash Mutual Telephone Company

    Wabash Mutual Telephone Company, Fort Recovery Area FTTH Project

    Last Mile Non-remote

    $2,201,042 Loan

    $2,174,787 Grant

    The Wabash Mutual Telephone Company will install an optical fiber 
network in its service area and will provide an advanced technology, 
allowing digital television, high-speed Internet at speeds in excess of 
3 Mbps, and telephone services. The network will make services 
available to 938 households, 103 businesses, and 7 anchor institutions. 
The project will create or save six jobs.
Oklahoma

    Atlink

    Last Mile Broadband Infrastructure for Unserved, Rural Oklahoma 
Communities

    Last Mile

    $2,649,681 Loan

    $5,897,676 Grant

    Atlink will connect 14 Oklahoma towns that are chronically unserved 
and suffering from persistent poverty and unemployment. The project 
will deliver advanced tornado warnings and provide options for Federal 
and State assistance. The project includes infrastructure for high-
speed access up to 10 Mbps to 1,660 households, 1,404 businesses, and 6 
anchor institutions. The project will deploy a wireless architecture 
using equipment in multiple frequencies to reach the maximum number of 
unserved households. The project is expected to create or save 53 jobs.

    Cimarron Telephone Company

    Operation Slingshot Cimarron Telephone Company

    Last Mile

    $21,189,659 Loan

    $21,189,658 Grant

    Cimarron Telephone Company will implement an FTTH project to bring 
wireless broadband service to underserved rural portions of Creek, 
Osage, and Pawnee counties to serve 15 Oklahoma communities and 
surrounding rural areas. Portions of the project will serve Native 
American tribal lands, including the Creek, Osage, and Seminole 
Nations, and Pawnee Tribe of Oklahoma. The project will make services 
available to 8,966 households, 933 businesses, and 35 anchor 
institutions. The broadband system will include a portion of the 
network for FTTH based on the ITU-T G.984 Gigabit PON standard. The 
project will create or save 65 jobs.

    Cross Telephone Co.

    OBI-2 (Oklahoma Broadband Initiative--Area 2)

    Last Mile

    $8,796,980 Loan

    $8,796,980 Grant

    Cross Telephone Co., will offer FTTH and wireless broadband service 
speeds of up to 11 Mbps to underserved areas of 6 counties in Oklahoma. 
The network will serve portions of 3 Native American tribal lands, as 
well as 20,771 households, 4,183 businesses, and 111 anchor 
institutions. The project will create or save an estimated 63 jobs.

    Medicine Park Telephone Company

    Fiber-to-the-Home Project in the Rural Area of Meers in Comanche 
County, Oklahoma

    Last Mile

    $101,218 Loan

    $303,488 Grant

    Medicine Park Telephone Company will offer broadband service using 
a GPON FTTH network in the Meers community in rural and remote areas of 
Comanche County. This project will provide broadband service speeds of 
2.4 Gbps downstream and 1.2 Gbps upstream. The network will make 
services available to 114 households, 3 businesses, and 6 anchor 
institutions. The project will create or save seven jobs.

    Medicine Park Telephone Company

    Sterling Oklahoma to Scotland Texas Rural Fiber Optic Route

    Middle Mile

    $1,198,587 Loan

    $1,193,802 Grant

    Medicine Park Telephone Company will offer broadband service using 
an FTTP network between Sterling, Oklahoma, and Scotland, Texas, with 
service speeds between 155 Mbps and 10 Gbps. The network will make 
services available to 1,524 households and 22 anchor institutions. The 
project will create or save 30 jobs.

    Mid-America Telephone, Inc.

    Mid-America Telephone, Inc.: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $1,143,784 Grant

    Mid-America Telephone Company, Inc. (Mid-America Tel), a subsidiary 
of TDS Telecom, will deliver high-speed broadband service to unserved 
premises in its rural Oklahoma service territory. Mid-America Tel is 
the State-certified ILEC in Oklahoma. The project will reach 4 PFSAs 
that include 2 communities with 310 premises (286 households and 24 
businesses) with no access to broadband service. The network will 
deploy Ethernet-over-copper technology, provide VDSL2 access devices 
packaged in an FTTN configuration, upgrade access in the central office 
to support the extension of the broadband networks to these remote 
areas, use PON FTTH where economically feasible, and allow future PON 
upgrades without needing to rebuild the transport routes. The network 
will provide 20 Mbps (upstream and downstream combined) or more DSL 
service. This project will create or save 30 jobs.

    Oklahoma Communication Systems, Inc.

    Oklahoma Communication Systems, Inc.: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $3,570,745 Grant

    Oklahoma Communication Systems, Inc. (OCSI), a subsidiary of TDS 
Telecom, will provide high-speed broadband service to 11 PFSAs that 
include 8 communities. These PFSAs have 912 premises (877 households, 
34 businesses, and 1 anchor institution) with no access to broadband 
service. OCSI is the State-certified ILEC in Oklahoma. The project will 
provide DSL broadband capability to unserved rural premises and deliver 
broadband high-speed capabilities of 20 Mbps (upstream and downstream 
combined). The network will deploy Ethernet-over-copper technology, 
provide VDSL2 access devices that are packaged in an FTTN 
configuration, upgrade access in the central office to support the 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
having to rebuild the transport routes. The project will create or save 
94 jobs.

    Panhandle Telephone Cooperative, Inc.

    Western OK BB Infrastructure Development

    Last Mile Non-remote

    $3,366,188 Loan

    $10,098,562 Grant

    Panhandle Telephone Cooperative, Inc., will build out broadband 
infrastructure for rural areas within the western Oklahoma panhandle. A 
portion of this project will also be implemented in Texas. The network 
will make services available to 1,289 households, 76 businesses, and 16 
anchor institutions. The project is expected to create or save 55 jobs.

    Pine Telephone Company, Inc.

    Broadband Grant for Isolated Southeastern Oklahoma/Choctaw Nation--
Rural/Remote Areas

    Last Mile Remote

    $9,482,316 Grant

    Pine Telephone Company, Inc., will use innovative wireless 
technology to deliver broadband service to rural, remote, and 
economically disadvantaged areas of southeastern Oklahoma--within the 
Choctaw Nation--to create economic growth and jobs, enhance education 
and healthcare, and improve public safety. The network will make 
broadband services available to 4,996 households, 84 businesses, and 31 
anchor institutions. The project will create or save 159 jobs.

    Pine Telephone Company, Inc.

    Last Mile Broadband for Isolated Rural Southeastern Oklahoma/
Choctaw Nation--Area 2

    Last Mile

    $2,926,329 Loan

    $6,828,101 Grant

    Pine Telephone Company, Inc., will offer 3G universal mobile 
broadband service in Coal, Latimer, Le Flore, and Pittsburg counties, 
within the Choctaw Nation, in southeast Oklahoma. The network will make 
broadband services available to 2,968 households, 107 businesses, and 
26 anchor institutions. The project will create or save 20 jobs.

    Pine Telephone Company, Inc.

    Last-Mile ILEC Fiber-to-the-Home for Isolated Rural Southeastern 
Oklahoma/Choctaw Nation

    Last Mile

    $15,081,959 Loan

    $15,081,958 Grant

    Pine Telephone Company, Inc., will provide rural Oklahoma 
subscribers with services typically available in only the most urban 
areas of the country. In addition to enabling data rates of up to 40 
Mbps, the network will enable video delivery via affiliate head-end 
facilities. Wireless microwave backhaul will be used in some extremely 
rugged portions of the network. A soft switch will enable the company 
to convert subscribers to VoIP, further enhancing network utilization. 
In addition, the network will provide backhaul for the wireless network 
of Easygrants 1257 awarded in round one. The network will make services 
available to 5,414 households, 544 businesses, and 80 anchor 
institutions. The project will create or save 83 jobs.

    Pioneer Long Distance, Inc.

    WOW Western Oklahoma Wireless

    Last Mile Non-remote

    $1,819,349 Loan

    $1,783,322 Grant

    Pioneer Long Distance, Inc., will provide wireless broadband 
service to unserved and underserved rural areas of western Oklahoma. 
The network will make services available to 21,472 households, 2,063 
businesses, and 291 anchor institutions. The project will create or 
save 14 jobs.

    Pioneer Telephone Cooperative, Inc.

    Pioneer Tel FTTH Rural Broadband Initiative

    Last Mile

    $10,958,906 Loan

    $24,971,934 Grant

    Pioneer Telephone Cooperative, Inc., will offer FTTH broadband 
service speeds of up to 20 Mbps to remote areas within 76 western 
Oklahoma telephone exchange boundaries. The network will make services 
available to 3,952 households, 160 businesses, and 5 anchor 
institutions. The project will create or save 204 jobs.

    Totah Communications, Inc.

    Totah Broadband Expansion Project

    Last Mile Non-remote

    $2,426,053 Loan

    $1,830,180 Grant

    Totah Communications, Inc., will upgrade existing copper-fed DSL 
nodes to fiber-fed DSL nodes. This project will also install additional 
fiber-fed DSL nodes throughout the service area. The route will cover 
152 miles and will serve approximately 800 new customers. The network 
will make services available to 422 households, 9 businesses, and 8 
anchor institutions. The project is expected to create or save 25 jobs.

    Utopian Wireless Corporation

    Utopian Prague WiMAX Project

    Last Mile

    $66,139 Loan

    $198,418 Grant

    Utopian Wireless Corporation will provide wireless broadband 
service to the rural, underserved communities near Prague, Oklahoma. 
The rural PFSA includes an area in Lincoln County and covers 
approximately 1,547 households, 106 businesses, and 33 anchor 
institutions. Utopian will deploy a broadband wireless system that 
features Motorola Mobile WiMAX technology. The system includes WiMAX 
access points, wireless and wired backhaul, ASN-GW, CSN, and an IP core 
that supports authentication and routing of traffic to application 
servers and the Internet. The project will create or save 10 jobs.

    Windstream Corporation

    Oklahoma Windstream, LLC

    Last Mile

    $2,279,598 Grant

    Windstream Corporation will expand broadband service to unserved 
customers in the PFSA comprising the communities of East Cherokee, 
Stilwell East, and Stilwell West. The project will allow Windstream 
Corporation to extend the reach of its broadband network to make 
services available to 1,667 households and 7 businesses, and provide 
broadband to last-mile wireline telephone subscribers. The project also 
will provide broadband service to 14 anchor institutions. Windstream 
Corporation will deploy industry standard DSLAMs using industry 
standard ADSL2+ protocols to provide a minimum of 6 Mbps downstream and 
786 Kbps upstream data service. The project will create or save an 
estimated 41 jobs.

    Wyandotte Telephone Company

    Wyandotte Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $702,933 Grant

    Wyandotte Telephone Company (Wyandotte Tel), a subsidiary of TDS 
Telecom, will provide high-speed broadband service to unserved premises 
in two rural Oklahoma PFSAs that include three communities. The project 
will make services available to 226 premises (192 households and 34 
businesses) that have no access to broadband service. Wyandotte Tel is 
the State-certified ILEC in Oklahoma. The network will deploy Ethernet-
over-copper technology to its fullest potential, provide VDSL2 access 
devices in an FTTN configuration, upgrade access in the central office 
to support the extension of the broadband networks to these remote 
areas, use PON FTTH where economically feasible, and allow for future 
upgrades without needing to rebuild the transport routes. Target speed 
of the expanded network will be at 20 Mbps (upstream and downstream 
combined) or more DSL service. This project will create or save 18 
jobs.
Oregon

    Cascade Networks, Inc.

    Rural Clatskanie Broadband Initiative

    Last Mile

    $578,316 Loan

    $578,316 Grant

    Cascade Networks, Inc., in cooperation with Clatskanie People's 
Utility District in Columbia County, will build a last-mile project in 
rural Clatskanie to provide broadband service to 410 households, 72 
businesses, and 2 anchor institutions. The key business area to be 
served is the Port Westward light industrial development, an industrial 
park on the Columbia River. The infrastructure buildout includes 
extending fiber to the Clatskanie People's Utility District substations 
to allow more efficient management of the power grid. The project will 
provide broadband to support data, voice, and IPTV services over a 
hybrid system of fiber-optic and wireless equipment. The system will be 
primarily FTTH, with wireless micronodes at points on the edge of the 
service area where fiber is not a practical option. The project will 
create or save two jobs.

    Cascade Utilities, Inc.

    Cascade Utilities Broadband Project

    Last Mile

    $1,299,433 Loan

    $3,898,299 Grant

    Cascade Utilities, Inc., will lay 127 miles of fiber-optic cable 
and install or replace 21 DSLAMs in rural areas in Oregon that do not 
have high-speed broadband access. The network will make services 
available to 5,814 households, 1,104 businesses, and 19 anchor 
institutions. The project will create or save 12 jobs.

    City of Sandy

    Sandy Broadband Infrastructure Project

    Last Mile Non-remote

    $374,548 Loan

    $374,537 Grant

    The Sandy Broadband Infrastructure Project will improve and expand 
wireless Internet service provided by SandyNet, a municipal Internet 
service provider operated by the City of Sandy, Oregon. The project 
will add new antenna towers to upgrade equipment to 8 Mbps capacity and 
provide fiber backhaul. The network will make services available to 
3,908 households, 150 businesses, and 20 anchor institutions. The 
project will create or save 10 jobs.

    Gervais Telephone Company

    Marion County Broadband Buildout

    Last Mile Non-remote

    $314,430 Loan

    $314,430 Grant

    Gervais Telephone Company will expand an existing fiber network. 
The project will provide broadband connectivity to 121 households, 24 
businesses, and 4 anchor institutions in rural Marion County. The 
project will create or save nine jobs.

    Monroe Telephone Company

    Monroe Telephone Cheshire & Greenberry Buildout Project

    Last Mile

    $1,413,684 Loan

    $4,241,050 Grant

    Monroe Telephone Company will extend broadband services using FTTP 
to three remote, sparsely populated, mostly agricultural areas. The 
PFSAs are unserved. The project will construct a small middle-mile 
fiber-optic connection to an interconnection point in Junction City. 
The network will make services available to 959 households, 29 
businesses, and 7 anchor institutions. The project's backhaul will also 
make fiber connectivity available to six anchor institutions in the 
Junction City area. The broadband system is GPON standard FTTP 
architecture with fiber-fed remote cabinets in the field to 
interconnect the end users with the Internet. This last-mile network 
will provide the residents, businesses, and anchor institutions with 
access to broadband service at minimum speeds up to 20 Mbps at 
affordable rates, with broadband speeds up to 100 Mbps. Discounts will 
be offered for service to critical community institutions and socially 
and economically disadvantaged small business concerns. The project 
will create or save four jobs.

    Trans-Cascades Telephone Company

    Trans-Cascades Broadband Project

    Last Mile

    $590,099 Loan

    $1,770,294 Grant

    Trans-Cascades Telephone Company will offer broadband service at a 
minimum speed of 10 Mbps in remote eastern Oregon, in Jefferson, Wasco, 
and Wheeler counties. The network will make services available to 136 
households, 46 businesses, and 3 anchor institutions. The project will 
create or save 10 jobs.

    Warm Springs Telecommunications Company

    The Confederated Tribes of Warm Springs Reservation Broadband 
Network

    Last Mile

    $2,722,960 Loan

    $2,722,960 Grant

    Warm Springs Telecommunications Company, representing the Tribal 
Council of the Confederated Tribes of Warm Springs in central Oregon, 
will implement phase I of a long-range plan to provide advanced 
telecommunications service to all homes, businesses, and critical 
facilities on this 1,000-square-mile reservation. The PFSA has three 
main communities. The project will make services available to 755 
households, 22 businesses, and 233 anchor institutions. The company 
will construct a hybrid broadband network with fiber backbone and a mix 
of fiber and wireless links. The network will connect all government 
agencies, businesses, critical and emergency facilities, and most homes 
on the reservation with either fiber or wireless to provide broadband 
Internet access with speeds of up to 5 Mbps and basic telephone 
service. The project will create or save 33 jobs.
Pennsylvania

    Deposit Telephone Company, Inc.

    Deposit Telephone Company, Inc.: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $125,754 Grant

    Deposit Telephone Company, Inc. (Deposit Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises. 
Deposit Tel is the State-certified ILEC in New York. The project will 
serve six PFSAs that include six communities. These PFSAs have 48 
premises that have no access to broadband service. This project will 
bring access to high-speed broadband service (20 Mbps upstream and 
downstream combined). The network is engineered so that it can be 
easily upgraded to meet future needs. The project will create or save 
three jobs.

    Keystone Wireless, LLC

    Keystone Wireless Broadband Initiative

    Last Mile

    $11,096,780 Loan

    $25,286,105 Grant

    Keystone Wireless, LLC will offer 3G broadband service in Berks, 
Centre, Clinton, Lycoming, Mountour, Northumberland, Schuylkill, 
Snyder, and Union counties in central Pennsylvania. Keystone will 
upgrade its core network infrastructure and 162 base stations with 3G 
wireless broadband technology to bring high-speed Internet service 
throughout the PFSAs. The network will make services available to 
368,028 households, 26,882 businesses, and 9,035 anchor institutions. 
The project will create or save 56 jobs.

    West Virginia PCS Alliance, LC

    Rural Mobile Broadband Initiative--Maryland

    Last Mile

    $1,503,518 Grant

    West Virginia PCS Alliance LC and NTELOS Licenses Inc., both 
subsidiaries of NTELOS Holdings Corp., will expand West Virginia PCS 
Alliance's wireless services to provide 3G mobile broadband service in 
unserved rural portions of western Maryland and south-central 
Pennsylvania north of Hagerstown. The PFSAs comprise 8 communities with 
more than 50 percent of the premises lacking high-speed broadband 
service. The project will make services available to 35,459 households, 
4,110 businesses, and 876 anchor institutions. The project will create 
or save 11 jobs.

    Windstream Corporation

    Windstream Pennsylvania, LLC

    Last Mile

    $20,497,604 Grant

    Windstream Corporation will offer broadband service to a large 
number of communities in Pennsylvania. The project will use industry 
standard ADSL2+ protocols that will offer broadband speeds of up to 12 
Mbps. The network will make services available to 31,684 households, 
1,793 businesses, and 105 anchor institutions. The project will create 
or save more than 345 jobs.
South Carolina

    Home Telephone Company, Inc.

    Low Country Broadband Last-Mile Project

    Last Mile

    $1,000,000 Loan

    $2,979,868 Grant

    Home Telephone Company, Inc., will provide broadband service to 
unserved or underserved rural areas in portions of Berkeley, 
Dorchester, and Orangeburg counties and the Cross and Harleyville 
areas. The project will deliver voice services, high-speed Internet 
access (up to 20 Mbps), and RF video service to customers through an 
ITU GPON standards-based Calix C7 GPON system. The company will install 
single-mode fiber-optic cable for voice and data. The network will make 
services available to 1,143 households, 1 business, and 7 anchor 
institutions. The project will create or save 14 jobs.

    Orangeburg County

    Southeastern Orangeburg County FTTP

    Last Mile

    $4,662,501 Loan

    $13,987,499 Grant

    Orangeburg County will offer FTTP technology to residents in the 
communities of Bethel Forest, Canaan, Cattle Creek, Homestead, 
Lambrick, McAlhany, Pea Ridge, Rowesville, and Sixty Six. The network 
will cover 278 square miles and will make services available to 3,631 
households, 90 businesses, and 12 anchor institutions. The project will 
create or save an estimated 70 jobs.

    Windstream Corporation

    Windstream South Carolina, LLC

    Last Mile

    $3,050,160 Grant

    Windstream Corporation will offer broadband service to the 
communities of Cameron, Fort Motte-Lone Star, Highland, Kershaw, 
Landrun, Lexington, Mount Pisgah, North, Orangeburg, Sandy Run-Staley, 
St. Matthews, and Westville. The project will use industry standard 
ADSL2+ protocols that will offer broadband service speeds of up to 12 
Mbps. The network will make services available to 3,543 households, 286 
businesses, and 40 anchor institutions. The project will create or save 
40 jobs.
South Dakota

    Midstate Communications, Inc.

    Chamberlain/Oacoma Fiber-to-the-Home

    Last Mile

    $2,728,118 Loan

    $6,365,610 Grant

    Midstate Communications, Inc., will offer FTTH access in the 
Chamberlain/Oacoma exchange with broadband service speeds of up to 1 
Gbps. The network will make services available to 1,486 households, 176 
businesses, and 28 anchor institutions. The project will create or save 
99 jobs.

    TrioTel Communications, Inc.

    TrioTel Fiber-to-the-Home Broadband Deployment Project

    Last Mile

    $3,704,212 Loan

    $8,643,163 Grant

    TrioTel Communications, Inc., will provide high-speed Internet 
service in the communities of Alexandria, Canova, Emery, Farmer, Salem, 
and Spencer and the surrounding rural areas via an FTTH network. The 
network will provide service to 1,654 households, 986 businesses, and 
127 anchor institutions. The project will create or save 15 jobs.

    Venture Communications Cooperative

    Cresbard, Orient, and Faulkton Exchanges

    Last Mile

    $2,614,957 Loan

    $2,614,956 Grant

    Venture Communications Cooperative will provide broadband service 
to households, businesses, and key community organizations that are 
underserved in the Cresbard, Faulkton, and Orient exchanges. The 
network will make services available to 749 households, 108 businesses, 
and 15 anchor institutions. The project will create or save 76 jobs.
Tennessee

    Bledsoe Telephone Cooperative Corporation

    Nine Mile and College Station Broadband Upgrade

    Last Mile

    $1,527,352 Loan

    $3,563,821 Grant

    Bledsoe Telephone Cooperative Corporation (BTC) will extend high-
speed broadband service to two PFSAs in eastern middle Tennessee. The 
project will upgrade facilities in two telephone exchanges, College 
Station and Nine Mile. BTC will establish 36 new aggregation points 
connected to the main exchange offices by fiber-optic cable. Existing 
copper cable facilities will be reconfigured between the new 
aggregation points and subscriber locations. BTC will provide ADSL 
service speeds of up to 10 Mbps downstream and 1 Mbps upstream. The 
premises remaining beyond the reconfiguration will be designed 
customer-by-customer to provide them with a minimum of 19 Mbps 
downstream and 1 Mbps upstream. The network will make services 
available to 2,675 households, 148 businesses, and 9 anchor 
institutions. The project will create or save 40 jobs.

    Highland Telephone Cooperative, Inc.

    Highland Telephone Cooperative FTTH Build-Out

    Last Mile

    $11,801,827 Loan

    $35,405,478 Grant

    Highland Telephone Cooperative (HTC) will enhance broadband 
communication options for the residents of McCreary, Morgan, and Scott 
counties in rural Tennessee and Kentucky. HTC will construct an FTTH 
wireline fiber-optic cable network, configured in PON architecture, 
able to support speeds in excess of 20 Gbps for all subscribers in its 
exchange boundaries. The network will make services available to 15,371 
households, 1,301 businesses, and 75 anchor institutions. The project 
will create or save 52 jobs.

    Millington Telephone Company, Inc.

    Mason/Stanton Broadband Expansion

    Last Mile

    $1,141,987 Loan

    $2,664,635 Grant

    Millington Telephone Company, Inc., will expand access to high-
speed broadband service to customers, businesses, and anchor 
institutions in areas where 75 percent of the premises lack high-speed 
access and 20 percent of the households are unserved by basic 
broadband. The PFSA comprises 166 square miles in rural western 
Tennessee in portions of Fayette, Haywood, and Tipton counties. 
Communities in the PFSA are Asbury, Braden, Danceyville, Fredonia, 
Keeling, Longtown, and Stanton. The project will make services 
available to 1,603 households, 53 businesses, and 16 anchor 
institutions. The company will offer community and public safety 
facilities a discount on broadband services. The project will use an 
FTTN system and broadband loop carrier equipment as the standard for 
the ADSL2+ aggregation design. The fiber-optic cable design is laid out 
using three 1 GigE rings to backhaul the broadband data from the major 
aggregation points to the main data collection and switching center. 
The major aggregation points are the existing central offices in the 
five current telephone exchanges in Millington's network. Broadband 
speeds of up to 10 Mbps downstream and 2.0 Mbps upstream for 
residential subscribers and up to 15 Mbps downstream and 2.0 Mbps 
upstream for businesses will be provided. The project will create or 
save 84 jobs.

    North Central Telephone Cooperative, Inc.

    Broadband Infrastructure Investment Program

    Last Mile Non-remote

    $24,964,000 Loan

    $24,715,709 Grant

    North Central Telephone Cooperative will provide the infrastructure 
to offer advanced voice, video, and data services exceeding 20 Mbps to 
remote and rural communities in the service area of northern Tennessee. 
The network will make services available to 14,824 households, 951 
businesses, and 48 anchor institutions. The project is expected to 
create or save 150 jobs.

    Scott County Telephone Cooperative

    FTTP South Scott County

    Last Mile

    $447,300 Loan

    $1,043,700 Grant

    Scott County Telephone Cooperative will deploy FTTP technology in 
south Scott County and a small portion of Russell County. The network 
will be an active Ethernet system and will provide broadband service 
speeds of up to 10 Gbps. The network will make services available to 
292 households, 5 businesses, and 1 anchor institution. The project 
will create or save nine jobs.

    Skyline Telephone Membership Corporation

    High Country Fiber

    Last Mile

    $956,515 Loan

    $2,231,868 Grant

    Skyline Telephone Membership Corporation will substantially expand 
advanced FTTH service via a fiber-optic network with combined speeds 
exceeding 20 Mbps to 744 households, 64 businesses, and 10 anchor 
institutions in Alleghany and Ashe counties in rural, northwestern 
North Carolina. The project will create or save 10 jobs.

    Sunset Digital Communications, Inc.

    TRANSFORM Tennessee

    Last Mile

    $2,452,939 Loan

    $22,076,454 Grant

    Sunset Digital Communications, Inc., will offer broadband service 
speeds of up to 1 Gbps. The network will use DWDM to also provide 
bandwidths up to 1.6 Tbps. The PFSA is located in the Appalachians of 
northeast Tennessee and includes two persistent poverty counties. 
Sunset Digital Communications plans to partner with three funded 
middle-mile projects and has synergistic operations planned with two 
other last-mile applications. The network will make services available 
to 11,021 households, 471 businesses, and 65 anchor institutions. The 
project will create or save 73 jobs.

    Tennessee Telephone Company, Inc.

    Tennessee Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $5,150,691 Grant

    Tennessee Telephone Company (Tennessee Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises 
in its rural franchise service territory. Tennessee Tel is the State-
certified ILEC in Tennessee. The project will serve 11 rural PFSAs that 
include 9 communities. Within the PFSAs, there are 1,576 premises 
(1,499 households, 46 businesses, and 31 anchor institutions) with no 
access to broadband service. The network will deploy Ethernet-over-
copper technology, provide VDSL2 access devices that are packaged in an 
FTTN configuration, upgrade access in the central office to support the 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
needing to rebuild the transport routes. The target speed to unserved 
customers is at 20 Mbps (upstream and downstream combined). The project 
will create or save 135 jobs.

    Twin Lakes Telephone Cooperative Corporation

    Twin Lakes Telephone Cooperative Corp.: Fiber-to-the-Home Broadband 
Project

    Last Mile

    $16,076,833 Loan

    $16,076,834 Grant

    Twin Lakes Telephone Cooperative Corporation will provide broadband 
service to the rural exchanges of Byrdstown, Celina, Clarkrange, and 
Moss. The network will make services available to 3,956 households, 
1,328 businesses, and 84 anchor institutions. The project will promote 
economic development in rural areas that have consistently higher than 
average unemployment rates and areas that are in persistent poverty 
counties. The project will create or save an estimated 349 jobs.

    West Kentucky Rural Telephone Cooperative Corporation, Inc.

    West Kentucky and West Tennessee Broadband FTTH Initiative

    Last Mile

    $19,189,000 Loan

    $19,189,000 Grant

    West Kentucky Rural Telephone Cooperative Corporation, Inc. (WK&T) 
will build a fiber-optic construction project to provide broadband 
infrastructure to rural southwest Kentucky in the counties of Calloway, 
Carlisle, Fulton, Graves, Hickman, and Marshall, and in the northwest 
Tennessee counties of Henry, Obion, and Weakley. The network will make 
services available to 5,382 households, 1,119 businesses, and 31 anchor 
institutions. At the conclusion of the project, WK&T expects to double 
its data subscribers and have almost 90 percent of its customer base, 
more than 14,000 customers, on broadband, with data speeds averaging 
1.5 Mbps or higher. In addition, fiber broadband will be available to 
99 public facilities. The project will create or save 50 jobs.
Texas

    ATSI Communications, Inc.

    South Texas Broadband Technology Progreso TX

    Last Mile

    $416,588 Loan

    $416,588 Grant

    ATSI Communications, Inc., will build a wireline broadband network 
infrastructure to provide last-mile service speeds of up to 6 Mbps in 
Progreso. The company will install a point-to-point microwave 
transponder solution with a capacity of 250 Mbps connecting its 
Internet POP to its cable network head-end in Progreso. The network 
will make services available to 1,010 households, 852 businesses, and 
14 anchor institutions. The project will create or save 24 jobs.

    Blossom Telephone Company

    Red River Broadband Expansion Project

    Middle Mile

    $833,303 Loan

    $1,944,373 Grant

    Blossom Telephone Company (BTC) will provide middle-mile fiber and 
transmission facilities that will make available broadband service to 
unserved and underserved customers in rural areas in northeast Texas. 
The project will provide FTTH in the Blossom exchange. The 26.5-mile 
route of middle-mile fiber facilities will enable the FTTH facilities 
to deliver significantly greater bandwidth. By leveraging the middle-
mile fiber with wireless last-mile facilities, the project will enable 
BTC to provide broadband service to customers. Broadband service speeds 
will exceed 5 Mbps to all Blossom wireline customers upon completion. 
Wireless customers will be offered packages up to 3 Mbps along the 
middle-mile route that is unserved. The network will make services 
available to 1,887 households, 91 businesses, and 11 anchor 
institutions. The project will create or save 72 jobs.

    Electronic Corporate Pages, Inc.

    Central Texas Rural Wireless Expansion Project

    Last Mile

    $586,922 Loan

    $1,306,376 Grant

    Electronic Corporate Pages, Inc. (ECPI) will provide wireless 
broadband coverage to a 1,226-square-mile area of rural central Texas. 
This wireless expansion project will offer over 3 Mbps combined 
broadband service speeds (upstream and downstream) using Motorola's 
Canopy technology. Over the four counties covered in this project, the 
network will make services available to 12,677 households, 6,083 
businesses, and 11 anchor institutions. ECPI serves 1,850 customers on 
18 towers, which will be expanded to 24 towers under this project. 
Using backhaul technology and proven network management systems, ECPI 
will upgrade its core equipment and deploy a WiMAX system. The network 
is supported by ECPI's two network operations centers, each of which 
can be upgraded to full gigabit capacity. The project will create or 
save nine jobs.

    Five Area Telephone Cooperative, Inc.

    West Texas Broadband Infrastructure Development to Support Internet 
Adoption

    Last Mile

    $2,454,223 Grant

    Five Area Telephone Cooperative will implement the West Texas 
Broadband Infrastructure Development to Support Internet Adoption 
project. The company will offer high-speed broadband service to the 
towns of Bledsoe, Bula, Clays Corner, Lazbuddie, Maple, and Needmore in 
rural west Texas via an FTTP network. The network will make services 
available to 199 households, 235 businesses, and 1 anchor institution. 
The project will create or save 16 jobs.

    Hill Country Telephone Cooperative, Inc.

    Project Rural Connect

    Last Mile

    $3,670,265 Loan

    $8,563,952 Grant

    Hill Country Telephone Cooperative, Inc., will offer broadband 
service speeds of up to 20 Mbps (copper) and up to 100 Mbps (fiber). 
The project will deploy 560 miles of fiber-optic cable, 280 digital 
loop carriers, and soft switches throughout a substantial portion of 
its service area. The network will make services available to 1,685 
households. The project will create or save 448 jobs.

    Medicine Park Telephone Company

    Sterling Oklahoma to Scotland Texas Rural Fiber Optic Route

    Middle Mile

    $133,176 Loan

    $132,645 Grant

    Medicine Park Telephone Company will offer broadband service using 
an FTTP network between Sterling, Oklahoma, and Scotland, Texas, with 
service speeds between 155 Mbps and 10 Gbps. The network will make 
services available to 169 households and 2 anchor institutions. The 
project will create or save three jobs.

    Mid-Plains Rural Telephone Cooperative, Inc.

    Rural Texas Panhandle Mid-Plains

    Last Mile

    $1,421,000 Loan

    $1,388,000 Grant

    Mid-Plains Rural Telephone Cooperative will extend a current 
project in the rural Texas Panhandle to provide high-speed broadband 
service to six underserved PFSAs. Through a USDA Telecommunications 
Loan, Mid-Plains is installing fiber-optic cable to electronic 
equipment, FTTH, and fiber between central offices. This project will 
extend FTTH facilities to additional areas. Equipment is being updated 
in congested areas to improve service and reliability. The 6 newly 
served PFSAs cover 227 square miles and the project will make services 
available to 295 premises, of which 145 are without high-speed access. 
This project will serve 281 rural establishments, including farms and 
ranches, and an additional 14 businesses. This project will create or 
save 39 jobs.

    PRIDE Network

    Burkburnett & Iowa Park, TX

    Last Mile Non-remote

    $12,811,071 Loan

    $6,309,931 Grant

    PRIDE Network will construct an FTTP telecommunications 
infrastructure with a WiMAX service-extension overlay that will bring 
advanced broadband service to the rural communities of Burkburnett and 
Iowa Park. In addition, less than 5 percent of this network will serve 
an area in Oklahoma. The network will make services available to 7,804 
households, 501 businesses, and 31 anchor institutions. This project 
will create or save 400 jobs.

    PRIDE Network, Inc.

    PRIDE Network

    Last Mile Non-remote

    $22,720,551 Loan

    $21,829,549 Grant

    PRIDE Network will construct an FTTP telecommunications 
infrastructure with a WiMAX service-extension overlay that will bring 
advanced broadband service to rural communities in the Texas South 
Plains region. The network will make services available to 19,777 
households, 2,201 businesses, and 139 anchor institutions. This project 
will create or save 890 jobs.

    Telecom Cable, LLC

    Last Mile Remote/Rural Telecom Cable

    Last Mile

    $634,050 Grant

    Telecom Cable, LLC will offer high-speed broadband access via two-
way HFC wireline transmission in the rural areas of Corrigan, Fulshear, 
and Weston Lakes. This project will provide broadband service speeds of 
at least 5 Mbps. The network will make services available to 1,854 
households, 59 businesses, and 22 anchor institutions. The project will 
create or save 20 jobs.

    Valley Telephone Cooperative, Inc.

    Southern Texas Broadband Infrastructure Development and Adoption 
Project

    Last Mile Non-remote

    $40,093,153 Loan

    $38,520,868 Grant

    Valley Telephone Cooperative, Inc., will develop broadband 
infrastructure in 11 unserved and underserved rural areas of the South 
Texas Plains. The network will make services available to 19,494 
households, 778 businesses, and 196 anchor institutions. The project 
will create or save 160 jobs.

    Wes-Tex Telephone Cooperative, Inc.

    Western Texas Broadband Infrastructure Development

    Last Mile Non-remote

    $16,891,875 Loan

    $16,891,875 Grant

    Wes-Tex Telephone Cooperative, Inc., will develop broadband 
infrastructure to increase Internet availability and access speeds in 
rural areas of western Texas. The network will make services available 
to 3,298 households, 132 businesses, and 35 anchor institutions.

    Windstream Corporation

    Windstream Sugar Land, Inc.

    Last Mile

    $1,613,509 Grant

    Windstream Corporation will provide last-mile broadband service to 
unserved premises in four communities in rural Texas. Windstream will 
deploy industry standard DSLAMs using ADSL2+ protocols to provide a 
minimum of 6 Mbps downstream and 786 Kbps upstream data service. DSLAMs 
will be strategically deployed to reach the greatest number of unserved 
customers over the existing wireline copper plant. The project will 
make services available to 1,255 households, 139 businesses, and 4 
anchor institutions. This project will create or save an estimated 31 
jobs.

    XIT Rural Telephone Cooperative, Inc.

    XIT Rural Telephone Cooperative--wFTTP & VDSL2 Combination 
Application

    Last Mile Non-remote

    $3,065,440 Grant

    XIT Rural Telephone Cooperative, Inc., will deploy a combination of 
FTTP and FTTN VDSL2 technology within two separate service areas in and 
around the communities of Dalhart and Stratford. The network will make 
services available to 4,195 households, 396 businesses, and 36 anchor 
institutions. The project will create or save 10 jobs.

    XIT Rural Telephone Cooperative, Inc.

    XIT Rural Telephone Cooperative, Inc.--Round 2 Rural FTTP 
Application

    Last Mile

    $2,112,950 Grant

    XIT Rural Telephone Cooperative will replace a copper telephone 
plant with fiber to serve three rural PFSAs. Using standards-based GPON 
technology, XIT will provide 100 Mbps to subscribers in the three PFSAs 
of Coldwater, Kerrick, and Middlewater. The project will make services 
available to 227 households and 56 businesses. The project will create 
or save 82 jobs.
Utah

    Central Utah Telephone, Inc.

    Basin Broadband Project

    Last Mile

    $620,724 Loan

    $1,862,070 Grant

    Central Utah Telephone, Inc., will install 71.1 miles of middle-
mile underground fiber-optic cable in Juab and Millard Counties and 60 
miles of HFC last-mile cable and electronics and operating systems in 
the communities of Delta, Fillmore, Hinckley, Holden, and Lynndyl. The 
network will make services available to 2,107 households, 217 
businesses, and 137 anchor institutions. The project will create or 
save seven jobs.

    South Central Utah Telephone Association, Inc.

    Grand Staircase High-Speed Access Broadband Initiative

    Last Mile

    $9,187,244 Grant

    South Central Utah Telephone Association, Inc. (SCUTA) will bring 
high-speed broadband service to State parks, national parks, and 
national monuments in the PFSA. The PFSA is a 1,416-square-mile area in 
south central Utah that includes Bryce Canyon National Park, Capital 
Reef National Park, Kodachrome State Park, Anasazi State Park, and 
Grand Staircase-Escalante National Monument, plus their attendant 
operation centers or headquarters. The area includes 18 communities in 
Garfield, Kane, and Wayne counties. The Grand Staircase PFSA includes 
3,020 households, 212 businesses, and 47 anchor institutions. SCUTA 
will offer broadband data service at speeds ranging from 1.0 Mbps to 15 
Mbps. The project will include both FTTH and highspeed copper networks 
connected through a fiber backbone to deliver service to residences, 
businesses, community organizations, and government facilities. The 
project will create or save an estimated 25 jobs.
Vermont

    VTel Wireless, Inc.

    Wireless Open World (WOW) by VTel Wireless, Inc.

    Last Mile

    $35,166,081 Loan

    $81,664,754 Grant

    VTel Wireless, Inc., will provide Tri-Band 4G LTE wireless 
broadband to virtually every unserved anchor institution, unserved 
home, and unserved business throughout Vermont and parts of New York 
State and New Hampshire. VTel Wireless will reach 57,008 households, 
3,775 businesses, and 714 anchor institutions. These include all the 
33,165 unserved households and anchor institutions in Vermont. The area 
to be served includes 14 towns and villages in the most rural region of 
Vermont. Part of the project will upgrade every home served by Vermont 
Telephone Company to include GigE over active fiber. In another part of 
the project, VTel will work with Central Vermont Public Service, Green 
Mountain Power, and the affiliate of Vermont's electric companies, 
VELCO, on a smart grid initiative. The companies will use VTel's WiMAX 
wireless licenses for one of the Nation's first two tests of GE's WiMAX 
Smart Meters. The project will create or save 1,870 jobs.

    Waitsfield-Fayston Telephone Co., Inc.

    Rural Vermont Broadband Advancement Project

    Last Mile

    $1,667,993 Loan

    $3,891,982 Grant

    Waitsfield-Fayston Telephone Co., will offer FTTH broadband service 
in the counties of Addison, Chittenden, and Washington. The network 
will make services available to 682 households, 56 businesses, and 2 
anchor institutions. The project will create or save 16 jobs.
Virginia

    Lenowisco Planning District Commission

    ADVANCE Virginia

    Last Mile

    $6,067,863 Loan

    $14,158,344 Grant

    Lenowisco Planning District Commission will offer high-speed fiber-
optic broadband service in the Appalachians of southwest Virginia, a 
PFSA that is underserved and includes one persistent poverty county. 
The project will provide broadband service speeds of 1 Gbps. The 
network will make services available to 26,768 households, 1,553 
businesses, and 109 anchor institutions The project will create or save 
73 jobs.

    New Castle Telephone Company

    New Castle Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $1,066,321 Grant

    New Castle Telephone Company (New Castle Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises 
in its service territory. New Castle Tel is the State-certified ILEC in 
Virginia. The project is designed to serve two PFSAs. These PFSAs have 
300 premises (295 households, 4 businesses, and 1 anchor institution) 
that have no access to broadband service. New Castle Tel has built a 
broadband network that is capable of serving the majority of these 
premises in several of the core communities, but the surrounding area 
lacks broadband access. This project will provide access to high-speed 
broadband service (20 Mbps upstream and downstream combined). The 
network is engineered so that it can be easily upgraded. The project 
will create or save 28 jobs.

    NTELOS Telephone, Inc.

    Alleghany Broadband Now Initiative

    Last Mile Non-remote

    $8,062,088 Grant

    NTELOS Telephone, Inc., will provide broadband infrastructure to 
unserved and underserved homes, businesses, and anchor institutions in 
rural Alleghany County. The network will make services available to 
4,216 households, 233 businesses, and 36 anchor institutions. The 
project will create or save an estimated 40 jobs.

    Scott County Telephone Cooperative

    FTTP South Scott County

    Last Mile

    $7,007,700 Loan

    $16,351,300 Grant

    Scott County Telephone Cooperative will deploy FTTP technology in 
south Scott County and a small portion of Russell County. The network 
will be an active Ethernet system and will provide broadband service 
speeds of up to 10 Gbps. The network will make services available to 
4,581 households, 79 businesses, and 15 anchor institutions. The 
project will create or save 141 jobs.

    Utopian Wireless Corporation

    Utopian Mineral WiMAX Project

    Last Mile

    $117,034 Loan

    $351,099 Grant

    Utopian Wireless Corporation will make available advanced 4G 
wireless broadband service to underserved communities in and around the 
Mineral area. The service area includes an estimated 1,864 households, 
411 businesses, and 50 anchor institutions. Using licensed 2.5 GHz 
spectrum, Utopian will deploy a broadband wireless system. The project 
will create or save 11 jobs.
Washington

    Cascade Networks, Inc.

    Rural Clatskanie Broadband Initiative

    Last Mile

    $1,287,219 Loan

    $1,287,218 Grant

    Cascade Networks, Inc., in cooperation with Clatskanie People's 
Utility District in Columbia County, will undertake a last-mile project 
in rural Clatskanie, Oregon, to provide broadband service to 912 
households, 159 businesses, and 4 anchor institutions. The project will 
provide broadband to support data, voice, and IPTV services over a 
hybrid system of fiber-optic and wireless equipment. The system will be 
primarily FTTH, with wireless micronodes at points on the edges of the 
service area where fiber is not a practical option. The project will 
create or save four jobs.

    EcliptixNet Broadband, Inc.

    Northeast Washington Rural Broadband Access Network (NWRBAN)

    Last Mile

    $6,137,496 Loan

    $14,320,824 Grant

    EcliptixNet Broadband, Inc., will offer 4G highspeed broadband 
service through fixed and mobile wireless connections to more than 90 
percent of the rural premises across the counties of Ferry, Spokane, 
and Stevens. The network will make services available to 27,363 
households, 3,627 businesses, and 303 anchor institutions. The project 
will create or save an estimated 236 jobs.

    Hood Canal Telephone Co., Inc.

    Mason County Connect

    Last Mile

    $904,000 Loan

    $2,712,000 Grant

    Hood Canal Telephone Co., Inc., will expand broadband service 
throughout rural Mason County in western Washington. The area includes 
two tribal reservations, the Skokomish and Squaxin tribes. The company 
has partnered with the Squaxin Reservation to extend service to 
residents living on tribal lands. In addition, the Catfish Lake, Dayton 
Trails, and Pioneer areas of Mason County will receive funding for 
broadband services. The project will establish a redundant 
telecommunications route for Mason County's Emergency Management 
headquarters and extend broadband, phone, and cable TV service to an 
additional 51.8 miles in the county. The project will deliver broadband 
through cable modems over an HFC system. This project will make 
services available to 700 permanent residents and 37 businesses, 132 
seasonal residents, and 6 anchor institutions. The project will create 
or save 26 jobs.

    McDaniel Telephone Company

    McDaniel Telephone Company: Broadband Project to Serve Rural 
Unserved Establishments

    Last Mile

    $1,192,951 Grant

    McDaniel Telephone Company (McDaniel Tel), a subsidiary of TDS 
Telecom, will build a project to bring high-speed broadband service to 
unserved premises in its rural franchise service territory. McDaniel 
Tel is the State-certified ILEC in Washington. The project will serve 
six PFSAs that include two communities. These PFSAs have 596 premises 
(574 households and 22 businesses) that have no access to broadband 
service. The project will build a broadband network to provide access 
to high-speed broadband service (20 Mbps upstream and downstream 
combined). The network is engineered so that it can be easily upgraded. 
The project will create or save 31 jobs.

    Public Utility District No. 1 of Chelan County

    Public Utility District No. 1 of Chelan County FTTX Rural Expansion

    Last Mile

    $24,963,089 Grant

    Public Utility District No. 1 of Chelan County will complete the 
fiber-based, high-speed broadband system it operates in Washington 
State. The expanded network will make services available to 6,811 
predominantly rural residential customers in 13 PFSAs. Operating in a 
public-private partnership, Public Utility District provides open-
access wholesale telecommunication service to 12 local retail service 
providers over an FTTH standards-based fiber-optic PON. The network 
will offer speeds up to 100 Mbps to homes and small businesses, and up 
to 10 Gbps to education, healthcare, large businesses, and government 
institutions. This project will create or save 79 construction and 7 
network jobs.

    Public Utility District No. 1 of Okanogan County

    Okanogan County PUD Last-Mile Project

    Last Mile

    $3,667,855 Loan

    $5,501,782 Grant

    Public Utility District No. 1 of Okanogan County will expand its 
high-speed broadband service to an additional 6,543 premises in 
Okanogan County. The county is home to the largest Indian reservation 
in Washington, the Confederated Tribes of the Colville Reservation, 
which is concurrently undertaking a broadband infrastructure project. 
The Public Utility District's network focuses on the premises along the 
existing fiber route where high-speed broadband service is unavailable. 
The project will make services available to 5,401 households, 1,107 
businesses, and 35 anchor institutions. The project will support high-
speed broadband service to 35 anchor institutions. The core backbone 
will initially provide a single-threaded connection to the Internet and 
function as an aggregation and transport medium throughout the county. 
The optical system will be upgraded to account for the expected 
increase in consumption using Ethernet transport and core IP switching 
technologies. The network design calls for placement of 170 access 
nodes along the existing fiber backbone route and extending the fiber 
backbone 179 miles to provide necessary redundancy to the last-mile 
network. The project will create or save 28 jobs.
West Virginia

    Gateway Telecom, LLC

    Gateway Telecom LLC West Virginia Last Mile Project

    Last Mile Non-remote

    $1,475,459 Loan

    $1,417,597 Grant

    Gateway Telecom, LLC will deploy wireless last-mile broadband 
infrastructure to serve residences and anchor institutions in unserved 
rural areas of West Virginia. The network will make services available 
to 1,095 households. The project will create or save four jobs.

    Hardy Telecommunications, Inc.

    Hardy OneNet Fiber to the Home Project

    Last Mile

    $9,494,483 Loan

    $22,153,791 Grant

    Hardy Telecommunications, Inc., will serve residents in 
underserved, rural, mountain communities in Hardy County. The company 
will deploy an FTTH network to provide reliable ultra-high-speed 
Internet access, VoIP, and video service to underserved areas. The 
network will make services available to 5,595 households, 200 
businesses, and 106 anchor institutions. The project will create or 
save 120 jobs.

    Spruce Knob Seneca Rocks Telephone, Inc.

    SKSRT Rural Broadband Project

    Last Mile

    $8,529,310 Grant

    Spruce Knob Seneca Rocks Telephone, Inc., will offer FTTP fiber-
optic capacity, with associated wireless capability, to provide last-
mile broadband service in Pendleton and Pocahontas counties. Fiber-
optic cables will be placed on existing power and telephone pole 
structures along the main arteries and on existing laterals to reach 
customers with broadband service speeds of up to 1 Gbps. The network 
will make services available to 2,551 households, 207 businesses, and 
23 anchor institutions. The project will create or save 125 jobs.

    West Virginia PCS Alliance, LC

    Rural Mobile Broadband Initiative--Maryland

    Last Mile

    $555,648 Grant

    West Virginia PCS Alliance LC and NTELOS Licenses Inc., both 
subsidiaries of NTELOS Holdings Corp., will expand West Virginia PCS 
Alliance's existing wireless service to provide 3G mobile broadband 
service in unserved rural portions of western Maryland and south-
central Pennsylvania north of Hagerstown. The PFSAs comprise 8 
communities with more than 50 percent of the premises lacking high-
speed broadband service. The project will make services available to 
13,104 households, 1,519 businesses, and 324 anchor institutions. The 
project will create or save four jobs.
Wisconsin

    Badger Telecom, LLC

    Badger Telecom, LLC: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $4,080,773 Grant

    Badger Telecom, LLC (Badger Tel), a subsidiary of TDS Telecom, will 
provide high-speed broadband service to unserved premises in its 
service territory. Badger Tel is the State-certified ILEC in Wisconsin. 
The project will serve five rural PFSAs that include six communities. 
These PFSAs have 867 premises (816 households, 35 businesses, and 16 
anchor institutions) with no access to broadband service. The network 
will deploy Ethernet-over-copper technology, provide VDSL2 access 
devices that are packaged in an FTTN configuration, upgrade access in 
the central office to support extension of the broadband networks to 
these remote areas, use PON FTTH where economically feasible, and allow 
for future PON upgrades without the need to rebuild the transport 
routes. The project will create or save 107 jobs.

    Baldwin Telecom, Inc.

    Town of Troy FTTP Network--BTI

    Last Mile

    $4,533,949 Loan

    $4,533,949 Grant

    Baldwin Telecom, Inc. (BTI) will provide FTTP service to the Town 
of Troy, on the Wisconsin-Minnesota border. BTI is working in 
partnership with the town to bring high-speed data, voice, and video 
service to this underserved and unserved market in western Wisconsin. 
The project will make services available to 1,538 households, 30 
businesses, and 2 anchor institutions. The network will provide many 
residents with their first opportunity to obtain high-speed Internet 
service and put in place the infrastructure to support planned business 
development along the Highway 35 corridor. The project will deploy an 
FTTP network to make services available to every home and business in 
the PFSA and will utilize Calix GPON technology. The project will 
create or save 99 jobs.

    Central State Telephone Company, LLC

    Central State Telephone Company, LLC: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $3,855,976 Grant

    Central State Telephone Company, Inc. (Central State Tel), a 
subsidiary of TDS Telecom, will deliver high-speed broadband service to 
9 rural PFSAs that include 10 communities in Wisconsin. These PFSAs 
have 1,384 premises (1,295 households, 76 businesses, and 13 anchor 
institutions) with no access to broadband service. Central State Tel is 
the State-certified ILEC in Wisconsin. The network will deploy 
Ethernet-over-copper technology, provide VDSL2 access devices packaged 
in an FTTN configuration, upgrade access in the central office to 
support the extension of the broadband networks to these remote areas, 
use PON FTTH where economically feasible, and allow for future PON 
upgrades without needing to rebuild the transport routes. The network 
target speed is 20 Mbps (upstream and downstream combined) or more DSL 
service. The project will create or save 101 jobs.

    Chequamegon Communications Cooperative, Inc.

    Chequamegon Fiber-to-the-Home

    Last Mile

    $15,549,091 Loan

    $15,549,093 Grant

    Chequamegon Communications Cooperative, Inc. (CCC) will update its 
facilities to offer FTTH in 3 PFSAs with 31 rural communities in 
northern Wisconsin. CCC's network will make services available to 5,332 
premises, providing high-speed Internet access to 3,226 new customers, 
including several anchor institutions. As part of CCC's effort to bring 
high-speed broadband service to this area, the company partnered with 
the State of Wisconsin Office of Administration on a funded round one 
project to bring high-speed Internet to schools and libraries in its 
area. The project will create or save 66 jobs.

    EastCoast Telecom of Wisconsin, LLC

    EastCoast Telecom of Wisconsin, LLC: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $1,669,255 Grant

    EastCoast Telecom of Wisconsin, LLC (EastCoast Tel), a subsidiary 
of TDS Telecom, will bring high-speed broadband service to unserved 
premises. EastCoast Tel is the State-certified ILEC in Wisconsin. The 
project will serve four rural PFSAs in its franchise service territory. 
These PFSAs have 511 premises (478 households, 27 businesses, and 6 
anchor institutions) in 5 communities with no access to broadband 
service. The network will deploy Ethernet-over-copper technology, 
provide VDSL2 access devices that are packaged in an FTTN 
configuration, upgrade access in the central office to support 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
the need to rebuild the transport routes. This project will build a 
broadband network that will allow access to high-speed broadband 
service (20 Mbps upstream and downstream combined). The project will 
create or save 44 jobs.

    Farmers Telephone Company, LLC

    The Farmers Telephone Company, LLC: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $1,440,570 Grant

    Farmers Telephone Company, LLC (Farmers Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises. 
Farmers Tel is the State-certified ILEC in Wisconsin. The project will 
serve four rural PFSAs. These PFSAs include 6 communities and have 489 
premises (456 households, 30 businesses, and 3 anchor institutions) 
that have no access to broadband service. This project will provide 
access to high-speed broadband service (20 Mbps upstream and downstream 
combined). The network is also engineered so that it can be easily 
upgraded at a reasonable cost to meet future needs. The project will 
create or save 38 jobs.

    Grantland Telecom, LLC

    Grantland Telecom, LLC: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $1,655,504 Grant

    Grantland Telecom, LLC (Grantland Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises. 
Grantland Tel is the State-certified ILEC in Wisconsin. The project 
will serve six rural PFSAs that include seven communities in the 
franchise service territory. These PFSAs have 346 premises (332 
households, 12 businesses, and 2 anchor institutions) with no access to 
broadband service. The project will deploy Ethernet-over-copper 
technology, provide VDSL2 access devices that are packaged in an FTTN 
configuration, upgrade access in the central office to support the 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
the need to rebuild the transport routes. The project will provide 
access to high-speed broadband service (20 Mbps upstream and downstream 
combined). The project will create or save 44 jobs.

    Marquette-Adams Telephone Cooperative, Inc.

    Broadband Edge Out Marquette-Adams Telephone Cooperative

    Last Mile

    $6,202,326 Loan

    $13,805,175 Grant

    Marquette-Adams Telephone Cooperative, Inc., will extend fiber-
optic service from the existing telephone cooperative service area to 
surrounding unserved rural areas in central Wisconsin. The network will 
make services available to 4,488 households, 144 businesses, and 12 
anchor institutions. The project will create or save three jobs.

    Midway Telephone Company

    Midway Telephone Company: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $4,680,738 Grant

    Midway Telephone Company (Midway Tel), a subsidiary of TDS Telecom, 
will bring high-speed broadband service to unserved premises. Midway 
Tel is the State-certified ILEC in Wisconsin. The project will serve 
seven PFSAs that include seven communities. These PFSAs have 1,201 
premises (1,129 households, 52 businesses, and 20 anchor institutions) 
that have no access to broadband service. This project will provide 
access to high-speed broadband service (20 Mbps upstream and downstream 
combined). The network is engineered so that it can be easily upgraded. 
The project will create or save 123 jobs.

    Reedsburg Utility Commission, Inc.

    Reedsburg Utility Commission Fiber Network Expansion

    Last Mile

    $5,239,168 Grant

    Reedsburg Utility Commission, Inc., will extend an existing 
municipal FTTP network, operated by the City of Reedsburg acting 
through the Reedsburg Utility Commission, to the surrounding rural area 
to provide affordable advanced broadband service to residents and 
businesses that receive dial-up service, wireless, and satellite 
services. This rural area of southwestern Wisconsin has been well 
documented as deficient in broadband service due to the hilly terrain 
and numerous valleys that severely limit wireless and satellite service 
coverage. The network will make services available to 2,438 households, 
145 businesses, and 12 anchor institutions. The project will create or 
save 45 jobs.

    Riverside Telecom, LLC

    Riverside Telecom, LLC: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $818,687 Grant

    Riverside Telecom, LLC (Riverside Tel), a subsidiary of TDS 
Telecom, will bring high-speed broadband service to unserved premises. 
Riverside Tel is the State-certified ILEC in Wisconsin. The project 
will serve three rural PFSAs. These PFSAs have 2 communities with 219 
premises (208 households, 6 businesses, and 5 anchor institutions) with 
no access to broadband service. The project will build a broadband 
network to offer speeds of up to 20 Mbps upstream and downstream 
combined or DSL service. The project will deploy Ethernet-over-copper 
technology, provide VDSL2 access devices that are packaged in an FTTN 
configuration, upgrade access in the central office to support the 
extension of broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
needing to rebuild the transport routes. The project will create or 
save 22 jobs.

    Scandinavia Telephone Company, LLC

    Scandinavia Telephone Company, LLC: Broadband Project to Serve 
Rural Unserved Establishments

    Last Mile

    $1,238,809 Grant

    Scandinavia Telephone Company, LLC (Scandinavia Tel), a subsidiary 
of TDS Telecom, will bring highspeed broadband service to unserved 
premises in its rural franchise territory. Scandinavia Tel is the 
State-certified ILEC in Wisconsin. The project will serve two rural 
PFSAs that include four communities. Within the PFSAs, there are 462 
premises (446 households, 11 businesses, and 5 anchor institutions) 
that have no broadband service. The project will deploy Ethernet-over-
copper technology, provide VDSL2 access devices that are packaged in an 
FTTN configuration, upgrade access in the central office to support the 
extension of the broadband networks to these remote areas, use PON FTTH 
where economically feasible, and allow for future PON upgrades without 
having to rebuild the transport routes. The target speed is 20 Mbps 
(upstream and downstream combined). The project will create or save 33 
jobs.

    Southeast Telephone Co. of Wisconsin, LLC

    Southeast Telephone Co. of Wisconsin, LLC: Broadband Project to 
Serve Rural Unserved Establishments

    Last Mile

    $947,555 Grant

    Southeast Telephone Co., of Wisconsin, LLC (Southeast Tel), a 
subsidiary of TDS Telecom, will provide high-speed broadband service to 
unserved premises. Southeast Tel is the State-certified ILEC in 
Wisconsin. The project will serve three PFSAs with three communities in 
Southeast Tel's service territory. These PFSAs have 554 premises (534 
households, 19 businesses, and 1 anchor institution) with no access to 
broadband service. The network will deploy Ethernet-over-copper 
technology to its fullest potential, provide VDSL2 access devices 
packaged in an FTTN configuration, upgrade access in the central office 
to support the extension of the broadband networks to these remote 
areas, use PON FTTH where economically feasible, and allow for future 
PON upgrades without needing to rebuild the transport routes. The 
target speed is 20 Mbps (upstream and downstream combined) or more DSL 
service. The project will create or save 25 jobs.

    Stockbridge & Sherwood Telephone Company, LLC

    Stockbridge & Sherwood Telephone Company: Broadband Project to 
Serve Rural Unserved Establishments

    Last Mile

    $1,837,421 Grant

    Stockbridge & Sherwood Telephone Company, LLC (Stockbridge & 
Sherwood Tel), a subsidiary of TDS Telecom, will provide high-speed 
broadband service to unserved premises. Stockbridge & Sherwood Tel is 
the State-certified ILEC in Wisconsin. The project will serve four 
PFSAs that include six communities. These PFSAs have 629 premises (592 
households, 32 businesses, and 5 anchor institutions) with no access to 
broadband service. The network will deploy Ethernet-over-copper 
technology to its fullest potential, provide VDSL2 access devices 
packaged in an FTTN configuration, upgrade access in the central office 
to support the extension of the broadband networks to these remote 
areas, use PON FTTH where economically feasible, and allow for future 
PON upgrades without needing to rebuild the transport routes. The 
target speed is 20 Mbps (upstream and downstream combined) or more DSL 
service. This project will create or save 48 jobs.

    UTELCO, LLC

    UTELCO, LLC: Broadband Project to Serve Rural Unserved 
Establishments

    Last Mile

    $2,823,526 Grant

    UTELCO, LLC, a subsidiary of TDS Telecom, will provide high-speed 
broadband service to unserved premises in its rural service territory. 
The project will serve eight PFSAs that include six communities. These 
PFSAs have 844 premises (786 households, 50 businesses, and 8 anchor 
institutions) with no access to broadband service. UTELCO is the State-
certified ILEC in Wisconsin. The network will deploy Ethernet-over-
copper technology to its fullest potential, provide VDSL2 access 
devices packaged in an FTTN configuration, upgrade access in the 
central office to support the extension of the broadband networks to 
these remote areas, use PON FTTH where economically feasible, and allow 
for future PON upgrades without needing to rebuild the transport 
routes. The target speed is 20 Mbps (upstream and downstream combined) 
or more DSL service. This project will create or save 74 jobs.

    The U.S. Department of Agriculture (USDA) prohibits discrimination 
in all of its programs and activities on the basis of race, color, 
national origin, age, disability, and where applicable, sex, marital 
status, familial status, parental status, religion, sexual orientation, 
political beliefs, genetic information, reprisal, or because all or 
part of an individual's income is derived from any public assistance 
program. (Not all prohibited bases apply to all programs.) Persons with 
disabilities who require alternative means for communication of program 
information (Braille, large print, audiotape, etc.) should contact 
USDA's TARGET Center at (202) 720-2600 (voice and TDD).
    To file a complaint of discrimination, write to USDA, Assistant 
Secretary for Civil Rights, Office of the Assistant Secretary for Civil 
Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 
20250-9410, or call toll-free at (866) 632-9992 (English) or (800) 877-
8339 (TDD) or (866) 377-8642 (English Federal-relay) or (800) 845-6136 
(Spanish Federal-relay). USDA is an equal opportunity provider and 
employer.
                              Attachment 2

           Status of 255 Active BIP Awards as of July 27, 2014
------------------------------------------------------------------------
                                                  Total
     Project      Awardee Name   Total Award     Project       Project
   Designation                                   Budget        Status
------------------------------------------------------------------------
IA1112-A40        LaMotte           $375,630      $375,630  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Inc.
IA1114-A40        Farmers'       $18,735,853   $18,735,853  Partially
                   Telephone                                 Operational
                   Company of                                Stage
                   Riceville,
                   Iowa, The
IA1115-A40        Ellsworth       $5,268,696    $5,268,696  Operational
                   Cooperative                               Stage
                   Telephone
                   Association
IA1116-A40        Breda           $2,611,909    $2,611,909  Partially
                   Telephone                                 Operational
                   Corp.                                     Stage
IA1117-A40        Clear Lake      $7,910,462    $7,910,462  Operational
                   Independent                               Stage
                   Telephone
                   Co. Inc.
IA1119-A40        Hospers         $8,325,402    $8,325,402  Operational
                   Telephone                                 Stage
                   Exchange,
                   Inc.
IA1120-A40        Winnebago      $19,632,404   $19,632,404  Partially
                   Cooperative                               Operational
                   Telecom                                   Stage
                   Association
IA1121-B39        Windstream      $5,163,935    $7,604,746  Partially
                   Corporation                               Operational
                                                             Stage
IA1121-C39        Windstream     $12,236,836   $17,227,795  Partially
                   Corporation                               Operational
                                                             Stage
IA1122-A40        Southwest       $5,987,330    $5,987,330  Partially
                   Telephone                                 Operational
                   Exchange,                                 Stage
                   Inc.
IA1123-A39        Municipal         $873,433    $1,746,866  Partially
                   Electric                                  Operational
                   Utility of                                Stage
                   the City of
                   Cedar
                   Falls, Iowa
ID1103-A40        Coeur          $12,285,758   $12,285,758  Partially
                   d'Alene                                   Operational
                   Tribe                                     Stage
ID1104-A40        Rural           $2,429,000    $2,429,000  Partially
                   Telephone                                 Operational
                   Company                                   Stage
ID1107-A40        Midvale         $1,116,412    $1,116,412  Partially
                   Telephone                                 Operational
                   Company                                   Stage
ID1107-B40        Midvale         $1,269,171    $1,269,171  Partially
                   Telephone                                 Operational
                   Company                                   Stage
ID1107-C40        Midvale         $2,146,814    $2,146,814  Partially
                   Telephone                                 Operational
                   Company                                   Stage
IL1103-A40        Shawnee         $7,352,929    $8,442,933  Operational
                   Telephone                                 Stage
                   Company
IL1104-A40        Convergence    $11,250,000   $11,265,250  Partially
                   Technologie                               Operational
                   s, Inc.                                   Stage
IN1104-A40        Sunman         $11,389,222   $11,389,222  Partially
                   Telecommuni                               Operational
                   cations                                   Stage
                   Corporation
KS1103-A40        Rural         $101,201,649  $101,229,742  Partially
                   Telephone                                 Operational
                   Service                                   Stage
                   Company,
                   Inc.
KS1104-B40        J.B.N.          $3,324,144    $3,324,144  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Inc.
KS1105-A40        Madison         $7,039,500    $7,039,500  Partially
                   Telephone,                                Operational
                   LLC                                       Stage
KS1106-A39        South             $871,200      $903,789  Partially
                   Central                                   Operational
                   Telephone                                 Stage
                   Association
                   , Inc.
KS1107-A40        H&B             $6,551,519    $6,558,616  Partially
                   Communicati                               Operational
                   ons,                                      Stage
                   Incorporate
                   d
KS1108-A40        South           $1,117,621    $1,209,418  Partially
                   Central                                   Operational
                   Wireless,                                 Stage
                   Inc.
KS1109-A39        Iowa Tribe        $764,833      $764,833  Partially
                   of Kansas                                 Operational
                   and                                       Stage
                   Nebraska
KS1110-A40        Peoples         $7,782,123    $8,033,003  Partially
                   Telecommuni                               Operational
                   cations LLC                               Stage
KS1111-A40        Home            $2,004,879    $2,004,879  Partially
                   Communicati                               Operational
                   ons, Inc.                                 Stage
KS1112-A40        Wave            $2,476,588    $2,599,955  Partially
                   Wireless,                                 Operational
                   L.L.C.                                    Stage
KY1104-A40        Mountain       $78,124,579   $78,124,579  Partially
                   Rural                                     Operational
                   Telephone                                 Stage
                   Cooperative
                   Corporation
                   , Inc.
KY1105-B40        Thacker-        $7,408,474    $7,408,474  Partially
                   Grigsby                                   Operational
                   Telephone                                 Stage
                   Company,
                   Incorporate
                   d
KY1106-B39        Leslie          $6,169,295    $8,225,727  Partially
                   County                                    Operational
                   Telephone                                 Stage
                   Company
KY1107-B40        West          $123,800,000  $123,800,000  Partially
                   Kentucky                                  Operational
                   Rural                                     Stage
                   Telephone
                   Cooperative
                   Corporation
                   , Inc.
KY1108-A40        Foothills      $20,972,482   $20,972,482  Partially
                   Rural                                     Operational
                   Telephone                                 Stage
                   Cooperative
                   Corporation
                   , Inc.
KY1109-A39        Mikrotec          $829,813    $1,115,400  Partially
                   CATV, LLC                                 Operational
                                                             Stage
KY1110-A40        Peoples        $25,514,182   $25,514,182  Partially
                   Rural                                     Operational
                   Telephone                                 Stage
                   Cooperative
                   Corporation
                   , Inc.
LA1101-E40        LBH, LLC       $33,385,378   $33,385,378  Partially
                                                             Operational
                                                             Stage
LA1104-A40        Northeast      $12,483,600   $12,483,600  Partially
                   Louisiana                                 Operational
                   Telephone                                 Stage
                   Company,
                   Inc.
LA1106-A39        Nexus             $724,256      $865,675  Partially
                   Systems,                                  Operational
                   Inc.                                      Stage
ME1102-B39        West            $1,554,981    $2,073,308  Partially
                   Penobscot                                 Operational
                   Telephone                                 Stage
                   And
                   Telegraph
                   Company,
                   The
ME1103-B39        Somerset        $5,840,363    $7,787,151  Partially
                   Telephone                                 Operational
                   Company                                   Stage
                   Inc.
MI1102-E40        Air            $64,250,000   $74,515,368  Partially
                   Advantage,                                Operational
                   LLC                                       Stage
MI1105-B40        Southwest       $8,331,025    $8,501,305  Operational
                   Michigan                                  Stage
                   Communicati
                   ons, Inc.
MI1106-A39        Chatham         $8,605,935    $9,826,434  Partially
                   Telephone                                 Operational
                   Company                                   Stage
MI1107-B39        Island          $2,001,528    $2,668,704  Construction
                   Telephone                                 Stage
                   Company
MI1108-A40        Climax          $3,217,499    $4,290,000  Operational
                   Telephone                                 Stage
                   Company
MI1109-B40        Crystal        $26,497,424   $26,497,424  Partially
                   Automation                                Operational
                   Systems,                                  Stage
                   Inc.
MI1110-A39        Allband         $8,622,754    $9,037,754  Partially
                   Communicati                               Operational
                   ons                                       Stage
                   Cooperative
MI1110-B39        Allband         $1,107,903    $1,255,403  Partially
                   Communicati                               Operational
                   ons                                       Stage
                   Cooperative
MN1108-A40        Halstad         $4,055,200    $4,141,831  Operational
                   Telephone                                 Stage
                   Company
MN1108-B40        Halstad           $493,000      $501,911  Operational
                   Telephone                                 Stage
                   Company
MN1108-D40        Halstad         $6,555,000    $7,257,864  Operational
                   Telephone                                 Stage
                   Company
MN1109-A40        Southwest      $12,700,250   $13,067,297  Operational
                   Minnesota                                 Stage
                   Broadband
                   Services
MN1110-A40        Minnesota       $1,125,552    $1,125,552  Operational
                   Valley                                    Stage
                   Television
                   Improvement
                   Corporation
MN1111-A40        Northeast      $43,498,220   $43,532,647  Partially
                   Service                                   Operational
                   Cooperative                               Stage
MN1112-A40        Federated       $1,260,578    $1,260,578  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
MN1112-B40        Federated       $2,987,274    $2,987,274  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
MN1113-A40        Wikstrom        $7,398,600    $7,398,600  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Incorporate
                   d
MN1115-A40        Farmers         $9,652,956    $9,652,956  Partially
                   Mutual                                    Operational
                   Telephone                                 Stage
                   Company
MN1116-B39        Arvig           $5,048,168    $6,730,890  Partially
                   Telephone                                 Operational
                   Company                                   Stage
MN1117-A40        Sjoberg's         $866,060      $866,060  Partially
                   Inc.                                      Operational
                                                             Stage
MN1118-B40        Lake, County   $66,369,064   $71,727,729  Partially
                   of                                        Operational
                                                             Stage
MN1119-A40        Arrowhead      $16,137,484   $20,737,484  Partially
                   Electric                                  Operational
                   Cooperative                               Stage
                   Inc.
MO1104-A40        Ralls County   $19,097,817   $19,097,817  Partially
                   Electric                                  Operational
                   Cooperative                               Stage
MO1105-A40        Northeast      $10,280,916   $11,496,386  Operational
                   Missouri                                  Stage
                   Rural
                   Telephone
                   Company
MO1105-B40        Northeast       $7,191,620    $7,191,620  Operational
                   Missouri                                  Stage
                   Rural
                   Telephone
                   Company
MO1106-A40        Grand River    $11,395,606   $11,395,606  Partially
                   Mutual                                    Operational
                   Telephone                                 Stage
                   Corporation
MO1106-B39        Grand River    $12,363,759   $13,304,759  Partially
                   Mutual                                    Operational
                   Telephone                                 Stage
                   Corporation
MO1106-C39        Grand River     $8,970,781    $9,365,281  Partially
                   Mutual                                    Operational
                   Telephone                                 Stage
                   Corporation
MO1106-D40        Grand River     $9,294,309   $12,637,309  Partially
                   Mutual                                    Operational
                   Telephone                                 Stage
                   Corporation
MO1106-E40        Grand River    $20,270,861   $20,270,861  Partially
                   Mutual                                    Operational
                   Telephone                                 Stage
                   Corporation
MO1107-B40        Socket         $23,734,482   $23,984,482  Partially
                   Telecom,                                  Operational
                   LLC                                       Stage
MO1108-A40        Big River      $24,382,055   $28,707,655  Partially
                   Broadband,                                Operational
                   LLC                                       Stage
MO1110-A40        United         $21,213,106   $23,457,849  Operational
                   Electric                                  Stage
                   Cooperative
                   , Inc.
MS1104-A40        National        $1,588,417    $1,588,417  Operational
                   Telephone                                 Stage
                   of Alabama,
                   Inc.
MS1105-A39        Smithville      $7,110,886    $7,247,796  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Incorporate
                   d
MT1102-A40        Project        $15,549,479   $15,549,479  Partially
                   Telephone                                 Operational
                   Company                                   Stage
MT1102-B40        Project         $3,850,687    $3,850,687  Partially
                   Telephone                                 Operational
                   Company                                   Stage
MT1104-B40        Montana        $64,127,322   $64,127,322  Construction
                   Opticom,                                  Stage
                   LLC
NC1103-A40        French Broad    $1,775,692    $2,008,307  Partially
                   Electric                                  Operational
                   Membership                                Stage
                   Corporation
NC1104-A40        Skyline        $28,985,294   $28,985,294  Operational
                   Telephone                                 Stage
                   Membership
                   Corporation
NC1105-A40        Atlantic       $16,003,418   $16,003,418  Operational
                   Telephone                                 Stage
                   Membership
                   Corporation
NC1106-A40        Country        $25,297,000   $25,308,745  Partially
                   Cablevision                               Operational
                   Inc.                                      Stage
NC1107-B40        Lumbee River   $19,947,739   $19,947,739  Construction
                   Electric                                  Stage
                   Membership
                   Corp.
NC1108-A40        Wilkes         $21,611,000   $21,611,000  Partially
                   Telephone                                 Operational
                   Membership                                Stage
                   Corporation
NC1109-A40        The Yadkin     $21,668,232   $21,668,232  Partially
                   Valley                                    Operational
                   Telephone                                 Stage
                   Membership
                   Corporation
NC1110-A40        Tri-County     $14,147,215   $16,215,440  Partially
                   Telephone                                 Operational
                   Membership                                Stage
                   Corporation
ND1103-A40        BEK             $4,003,044    $8,249,967  Operational
                   Communicati                               Stage
                   ons
                   Cooperative
ND1104-A39        Dakota          $2,252,250    $3,079,172  Operational
                   Central                                   Stage
                   Telecom I,
                   Inc.
ND1105-A40        Reservation    $21,900,000   $23,400,000  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
ND1106-B40        Consolidated   $11,564,722   $20,968,040  Partially
                   Enterprises                               Operational
                   , Inc.                                    Stage
ND1107-A40        SRT             $4,429,516    $6,629,516  Operational
                   Communicati                               Stage
                   ons Inc.
ND1108-A40        Inter-          $2,338,651    $2,731,836  Construction
                   Community                                 Stage
                   Telephone
                   Company
                   Inc.
ND1109-A40        Griggs         $22,096,041   $22,814,197  Partially
                   County                                    Operational
                   Telephone                                 Stage
                   Co.
ND1110-A40        Red River       $9,088,438    $9,737,041  Partially
                   Rural                                     Operational
                   Telephone                                 Stage
                   Assn.
                   (Inc.)
NE1103-A40        Southeast      $11,285,367   $14,209,941  Operational
                   Nebraska                                  Stage
                   Communicati
                   ons, Inc.
NH1101-A39        Bretton           $985,000      $985,000  Partially
                   Woods                                     Operational
                   Telephone                                 Stage
                   Company,
                   Inc.
NM1104-A40        Baca Valley     $3,237,000    $3,237,000  Operational
                   Telephone                                 Stage
                   Company,
                   Inc.
NM1105-A40        Penasco         $9,589,267    $9,589,267  Partially
                   Valley                                    Operational
                   Telephone                                 Stage
                   Cooperative
                   , Inc.
NM1107-A40        Kit Carson     $63,768,671   $63,779,376  Partially
                   Electric                                  Operational
                   Cooperative                               Stage
                   , Inc.
NM1108-B40        La Jicarita    $11,856,832   $11,856,832  Partially
                   Rural                                     Operational
                   Telephone                                 Stage
                   Cooperative
NV1103-A39        Reno-Sparks       $400,000      $400,000  Contracting
                   Indian                                    Stage
                   Colony
NV1105-A40        Arizona         $7,588,832    $7,736,832  Partially
                   Nevada                                    Operational
                   Tower                                     Stage
                   Corporation
NY1103-A40        SLIC Network    $5,328,642    $5,328,642  Partially
                   Solutions,                                Operational
                   Inc.                                      Stage
NY1103-B40        SLIC Network   $27,832,767   $27,832,767  Partially
                   Solutions,                                Operational
                   Inc.                                      Stage
NY1104-A40        Castle Cable    $7,168,559    $7,168,559  Partially
                   TV                                        Operational
                                                             Stage
NY1105-A40        Saint Regis    $10,562,517   $10,562,517  Partially
                   Mohawk                                    Operational
                   Tribe                                     Stage
OH1104-C40        Hometown        $4,627,306    $4,627,306  Partially
                   Cable, LLC                                Operational
                                                             Stage
OH1106-A40        Consolidated    $2,433,912    $3,658,512  Operational
                   Electric                                  Stage
                   Cooperative
                   , Inc.
OH1107-A40        The Benton      $3,159,066    $3,159,066  Operational
                   Ridge                                     Stage
                   Telephone
                   Co.
OH1108-A40        INTELLIWAVE,    $2,279,596    $2,329,596  Partially
                   LLC                                       Operational
                                                             Stage
OH1109-A40        Wabash          $4,375,829    $5,913,283  Partially
                   Mutual                                    Operational
                   Telephone                                 Stage
                   Company
OH1110-B40        Southern        $1,448,441    $1,599,972  Partially
                   Ohio                                      Operational
                   Communicati                               Stage
                   on
                   Services,
                   Inc.
OH1111-A40        Sycamore        $4,149,455    $4,149,455  Partially
                   Telephone                                 Operational
                   Company                                   Stage
                   (Inc.)
OH1113-A40        New Era         $2,954,929    $2,954,929  Partially
                   Broadband                                 Operational
                                                             Stage
OK1110-A39        The Pine        $9,482,316    $9,482,316  Partially
                   Telephone                                 Operational
                   Company                                   Stage
OK1110-D40        The Pine       $30,163,917   $30,163,917  Partially
                   Telephone                                 Operational
                   Company                                   Stage
OK1110-F40        The Pine        $9,754,430    $9,754,430  Partially
                   Telephone                                 Operational
                   Company                                   Stage
OK1111-A40        Totah           $8,512,465    $8,512,465  Operational
                   Communicati                               Stage
                   ons, Inc.
OK1113-A40        Pioneer Long    $3,602,671    $3,602,671  Operational
                   Distance,                                 Stage
                   Inc.
OK1115-A40        @Link           $8,547,357    $8,547,357  Partially
                   Services,                                 Operational
                   LLC                                       Stage
OK1118-B40        Medicine          $404,706      $404,706  Operational
                   Park                                      Stage
                   Telephone
                   Company
OK1118-F40        Medicine        $2,658,210    $2,658,210  Construction
                   Park                                      Stage
                   Telephone
                   Company
OR1102-B40        Monroe          $5,654,734    $5,654,734  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Inc.
OR1104-A40        Gervais           $628,860      $628,860  Operational
                   Telephone                                 Stage
                   Company
OR1105-A40        City of           $749,085    $1,172,595  Operational
                   Sandy,                                    Stage
                   Oregon
OR1107-A40        Warm Springs    $5,445,920    $5,445,920  Partially
                   Telecommuni                               Operational
                   cations                                   Stage
                   Company
OR1108-A40        Cascade         $5,197,732    $5,197,732  Partially
                   Utilities,                                Operational
                   Inc.                                      Stage
OR1109-A40        Trans-          $2,360,393    $2,360,393  Partially
                   Cascades                                  Operational
                   Telephone                                 Stage
                   Company
SC1104-A40        Orangeburg     $13,987,499   $18,950,000  Partially
                   County                                    Operational
                                                             Stage
SD1101-B40        Midstate        $9,093,728    $9,093,728  Partially
                   Communicati                               Operational
                   ons, Inc.                                 Stage
SD1107-A40        Triotel        $12,347,375   $12,347,375  Partially
                   Communicati                               Operational
                   ons, Inc.                                 Stage
SD1108-A40        Venture         $5,229,913    $5,229,913  Operational
                   Communicati                               Stage
                   ons
                   Cooperative
TN1102-A40        North          $49,679,709   $50,886,489  Partially
                   Central                                   Operational
                   Telephone                                 Stage
                   Cooperative
                   Corporation
TN1103-A40        Twin Lakes     $32,153,667   $32,161,819  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
                   Corporation
TN1104-B40        Highland       $66,489,162   $66,539,268  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
                   , Inc.
TN1105-A40        Millington      $3,806,622    $4,029,521  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Inc.
TN1106-A40        Bledsoe         $5,091,173    $6,937,461  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
                   Corporation
TX1113-A40        Valley         $78,614,021   $78,614,021  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
                   , Inc.
TX1114-A40        PRIDE          $44,550,100   $44,550,100  Partially
                   Network,                                  Operational
                   Inc.                                      Stage
TX1114-B40        PRIDE          $19,121,002   $19,121,002  Partially
                   Network,                                  Operational
                   Inc.                                      Stage
TX1114-C40        PRIDE          $36,198,857   $36,198,857  Partially
                   Network,                                  Operational
                   Inc.                                      Stage
TX1115-B39        XIT Rural       $3,065,440    $6,256,000  Operational
                   Telephone                                 Stage
                   Cooperative
                   , Inc.
TX1115-C39        XIT Rural       $2,112,950    $6,037,000  Operational
                   Telephone                                 Stage
                   Cooperative
                   , Inc.
TX1116-A40        Wes-Tex        $33,783,750   $33,783,750  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
                   , Inc.
TX1117-A40        Blossom         $2,777,676    $2,777,676  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Inc.
TX1119-A40        Mid-Plains      $2,809,000    $2,809,000  Operational
                   Rural                                     Stage
                   Telephone
                   Cooperative
                   , Inc.
TX1120-A40        Electronic      $1,893,298    $1,893,298  Partially
                   Corporate                                 Operational
                   Pages, Inc.                               Stage
TX1122-A40        Hill Country   $12,234,217   $12,234,217  Partially
                   Telephone                                 Operational
                   Cooperative                               Stage
                   , Inc.
UT1103-A40        Central Utah    $1,862,070    $2,099,070  Partially
                   Telephone,                                Operational
                   Inc.                                      Stage
VA1108-A39        LUMOS           $8,062,088   $12,093,143  Partially
                   Telephone                                 Operational
                   Inc.                                      Stage
VA1109-A39        West            $3,104,486    $7,143,574  Operational
                   Virginia                                  Stage
                   PCS
                   Alliance,
                   L.C.
VA1110-A40        Sunset         $24,529,393   $24,529,393  Partially
                   Digital                                   Operational
                   Communicati                               Stage
                   ons, Inc.
VA1112-A40        Scott County   $24,850,000   $24,850,000  Partially
                   Telephone                                 Operational
                   Co-                                       Stage
                   operative
VT1103-A40        VTEL          $116,830,835  $116,830,835  Partially
                   Wireless,                                 Operational
                   Inc.                                      Stage
VT1104-A40        Waitsfield-     $5,559,975    $5,559,975  Partially
                   Fayston                                   Operational
                   Telephone                                 Stage
                   Co., Inc.
WA1102-B40        Hood Canal      $3,616,000    $3,616,000  Partially
                   Telephone                                 Operational
                   Co., Inc.                                 Stage
WA1106-A40        Public          $9,169,637    $9,169,637  Partially
                   Utility                                   Operational
                   District 1                                Stage
                   Of Okanogan
                   County
WA1108-A40        Cascade         $3,731,069    $4,979,272  Partially
                   Networks,                                 Operational
                   Inc.                                      Stage
WA1109-A40        Ecliptixnet    $20,458,320   $20,458,320  Partially
                   Broadband,                                Operational
                   Inc.                                      Stage
WI1102-B40        Baldwin         $9,067,898    $9,381,279  Operational
                   Telecom,                                  Stage
                   Inc.
WI1106-B40        Marquette-     $20,007,501   $20,099,590  Operational
                   Adams                                     Stage
                   Telephone
                   Cooperative
                   , Inc.
WI1107-A39        Reedsburg       $5,239,168    $9,414,941  Operational
                   Utility                                   Stage
                   Commission
WI1108-A39        Farmers         $1,440,570    $1,920,760  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   LLC, The
WI1109-A39        McDaniel        $1,192,951    $1,590,602  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1110-A39        Orchard Farm      $604,794      $806,392  Partially
                   Telephone                                 Operational
                   Co.                                       Stage
WI1111-A39        Salem           $1,934,474    $2,579,299  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1112-A39        Midway          $4,680,738    $6,240,984  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1113-A39        Deposit         $3,143,839    $4,191,786  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Inc.
WI1114-A39        Southeast       $1,875,204    $2,500,272  Partially
                   Mississippi                               Operational
                   Telephone                                 Stage
                   Company,
                   Inc.
WI1115-A39        Peoples         $4,163,589    $5,551,452  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Inc.
WI1116-A39        Port Byron        $639,218      $852,290  Partially
                   Telephone                                 Operational
                   Co. Inc.                                  Stage
WI1117-A39        New Castle      $1,066,321    $1,421,762  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1118-A39        Camden          $1,089,955    $1,453,273  Partially
                   Telephone                                 Operational
                   Company                                   Stage
                   Inc.
WI1119-A39        Communicatio    $1,221,811    $1,629,082  Partially
                   n                                         Operational
                   Corporation                               Stage
                   of Michigan
WI1120-A39        Eastcoast       $1,669,255    $2,225,673  Partially
                   Telecom of                                Operational
                   Wisconsin,                                Stage
                   LLC
WI1121-A39        Grantland       $1,655,504    $2,207,339  Partially
                   Telecom,                                  Operational
                   LLC                                       Stage
WI1122-A39        Riverside         $818,687    $1,091,583  Partially
                   Telecom,                                  Operational
                   LLC                                       Stage
WI1123-A39        Scandinavia     $1,238,809    $1,651,746  Partially
                   Telphone                                  Operational
                   Company,                                  Stage
                   LLC
WI1124-A39        Tri-County        $593,273      $791,030  Partially
                   Telephone                                 Operational
                   Company                                   Stage
                   Inc.
WI1125-A39        Home              $416,743      $555,658  Partially
                   Telephone                                 Operational
                   Company                                   Stage
                   Inc.
WI1126-A39        Tennessee       $5,150,691    $6,867,588  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1127-A40        Chequamegon    $31,098,184   $31,186,621  Partially
                   Communicati                               Operational
                   ons                                       Stage
                   Cooperative
                   Inc.
WI1128-A39        Tipton          $1,011,971    $1,349,295  Partially
                   Telephone                                 Operational
                   Company                                   Stage
                   Inc.
WI1129-A39        Mid-America     $1,143,784    $1,525,045  Partially
                   Telephone,                                Operational
                   Inc.                                      Stage
WI1130-A39        Wyandotte         $702,933      $937,244  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1131-A39        Hartland and    $2,009,522    $2,679,362  Partially
                   St. Albans                                Operational
                   Telephone                                 Stage
                   Company
WI1132-A39        Badger          $4,080,773    $5,441,031  Partially
                   Telecom,                                  Operational
                   LLC                                       Stage
WI1133-A39        Central         $3,855,976    $5,141,302  Partially
                   State                                     Operational
                   Telephone                                 Stage
                   Company,
                   LLC
WI1134-A39        Kearsarge         $372,532      $496,709  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1135-A39        Merrimack       $2,021,197    $2,694,930  Partially
                   County                                    Operational
                   Telephone                                 Stage
                   Company
WI1136-A39        UTELCO, LLC     $2,823,526    $3,764,702  Partially
                                                             Operational
                                                             Stage
WI1137-A39        Potlatch        $2,013,722    $2,684,963  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1138-A39        Stockbridge     $1,837,421    $2,449,895  Partially
                   & Sherwood                                Operational
                   Telephone                                 Stage
                   Company,
                   LLC
WI1139-A39        Blue Ridge        $853,768    $1,138,358  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WI1140-A39        Calhoun City    $2,962,169    $3,949,559  Partially
                   Telephone                                 Operational
                   Company,                                  Stage
                   Inc.
WI1141-A39        Southeast         $947,555    $1,263,407  Partially
                   Telephone                                 Operational
                   Co. of                                    Stage
                   Wisconsin,
                   LLC
WI1142-A39        Oklahoma        $3,570,745    $4,760,993  Partially
                   Communicati                               Operational
                   on Systems,                               Stage
                   Inc.
WI1143-A39        Quincy          $1,363,547    $1,818,062  Partially
                   Telephone                                 Operational
                   Company                                   Stage
WV1103-A40        Hardy          $31,648,274   $31,648,274  Partially
                   Telecommuni                               Operational
                   cations,                                  Stage
                   Inc.
WV1104-A39        Spruce Knob     $8,529,310    $8,529,310  Partially
                   Seneca                                    Operational
                   Rocks                                     Stage
                   Telephone,
                   Inc.
------------------------------------------------------------------------

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
